No.

In tije Supreme Court of tfje

States!

CDR John F. Sharpe, USN, Petitioner
V.

United States of America

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

APPENDIX TO THE
PETITION FOR WRIT OF CERTIORARI
VOLUME I

CDR John F. Sharpe, USN
Pro se
13680 Bold Venture Drive
Glenelg, Maryland 21737
(757) 645-1740
(703) 614-9165
j ohn. sharpe@charter. net
john.f.sharpe2.mil@mail.mil

'l

TABLE OF CONTENTS
APPENDIX A (Court of Appeals Opinion,
filed Aug. 27, 2019)......................................

la

APPENDIX B (Court of Federal Claims
Opinion, filed Nov. 8, 2017)........................

20a

APPENDIX C (Court of Federal Claims
Order, filed Dec. 15, 2017)..........................

51a

APPENDIX D (Court of Federal Claims
Order, filed May 5, 2017)............................

55a

APPENDIX E (LT Maryam Austin E-mail,
dated May 5, 2017).......................................

57a

APPENDIX F (BUPERS 00J letter [Bourne
Memorandum], dated May 11, 2017).......

59a

APPENDIX G (Defendant’s Status Report,
filed May 12, 2017)......................................

64a

APPENDIX H (Defendant’s Status Report
Addendum, filed May 15, 2017).................

70a

APPENDIX I (CDR Sharpe’s Status Report,
Second Amended Complaint, and Motion
for Summary Judgment, filed May 25,
2017)...............................................................

73a

APPENDIX J (CDR Sharpe’s Opposed
Motion to Amend and Supplement his
Motion for Summary Judgment, filed
Aug. 11, 2017)...............................................

197a

(I)

APPENDIX A

®ntteb States Court of Appeals: for tfje
Jfeberal Ctrcutt
John F. Sharpe, Plaintiff-Appellant
V.

United States, Defendant-Appellee

2018-1406

APPEAL FROM THE UNITED STATES COURT OF
FEDERAL CLAIMS IN NO. V15-CV-01087-TCW, JUDGE
THOMAS C. WHEELER.

Decided: August 27, 2019
RACHEL J. ELSBY, Akin, Gump, Strauss, Hauer
& Feld, LLP, Washington, DC, argued for plaintiffappellant. Also represented by DEVIN S. SIKES;
CAITLIN ELIZABETH OLWELL, New York, NY.
IGOR HELMAN, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, argued for defendant-appellee. Also
(la)

2a
represented by ROBERT EDWARD KIRSCHMAN,
JR., JOSEPH H. HUNT, DOUGLAS K. MICKLE;
STEPHEN ROBERT STEWART, Office of the Judge
Advocate General, General Litigation Division, Unit­
ed States Department of the Navy, Washington, DC.

Before TARANTO, SCHALL, and CHEN, Circuit Judges.
SCHALL, Circuit Judge.
John E. Sharpe is an officer in the U.S. Navy. In a
decision dated February 8, 2016, the Board for Cor­
rection of Naval Records (“BCNR” or “Board”) found
Mr. Sharpe’s 2009 separation from the service to
have been unlawful. Accordingly, the Board recom­
mended that Mr. Sharpe be returned to active duty,
and the Assistant Secretary of the Navy approved
the Board’s recommendation. Before us now is Mr.
Sharpe’s appeal of the November 8, 2017 decision of
the United States Court of Federal Claims that sus­
tained the Navy’s decision to deny Mr. Sharpe, upon
his return to active duty, certain categories of back
pay associated with his military record. See Sharpe
v. United States, 134 Fed. Cl. 805 (2017). For the
reasons set forth below, we affirm.

Background
I
The pertinent facts are not in dispute. Mr. Sharpe
checked in aboard the aircraft carrier USS Carl
Vinson (“Carl Vinson”) as a Public Affairs Officer
(“PAO”) on June 20, 2006. Id. at 809. At the time of

3a
his assignment to the Carl Vinson, the ship was un­
dergoing a refueling and complex overhaul and thus
was non-operational and uninhabitable. Id. The
overhaul was “set to last during the entire pendency
of Mr. Sharpe’s assignment to the Carl Vinson.” Id.
Thus, Mr. Sharpe was instructed to report to the
Media Department, which was located ashore on the
eighth floor of the “Bank Building” attached to the
Northrop Grumman Newport News complex in
downtown Newport News, Virginia. Id. Mr. Sharpe
regularly reported to this onshore location through­
out the entirety of his assignment to the Carl Vinson
and carried out the majority of his duties at this lo­
cation, except when he reported to a few other on­
shore locations in Hampton Roads, Virginia. Id. At
no time during his assignment did Mr. Sharpe per­
form any regular duties onboard the Carl Vinson or
“eat, work, live, stand watch or serve any punish­
ment aboard the Carl Vinson or any other ship.” Id.
(citing Administrative R. at 248, J.A. 1104).
In March of 2007, a reporter contacted a Media
Relations Officer from the office of the U.S. Fleet
Forces Public Affairs Office, inquiring about Mr.
Sharpe’s alleged involvement in “hate group activi­
ty.” Id. (quoting Administrative R. at 34, J.A. 890).
The next day, Mr. Sharpe was ordered to turn over
his duties and report to his home in Carrollton, Vir­
ginia, as his assigned place of duty until further no­
tice. Id. As a result, Mr. Sharpe began a temporary
assignment to the Commander, Naval Air Forces At­
lantic. Id. at 809-10. On March 9, 2007, the Naval
Criminal Investigations Service began a formal in­
vestigation into the reporter’s query, and approxi­
mately two months later, in May of 2007, Mr. Sharpe
was informed that the Commanding Officer (“CO”) of
the Carl Vinson intended to impose a non-judicial

4a
punishment on him. Id. at 810. On May 16, 2007, the
CO issued Mr. Sharpe a punitive letter of reprimand
for two alleged violations of UCMJ Article 88, 10
U.S.C. § 888.1 When Mr. Sharpe inquired about the
process for demanding a trial by court-martial, the
CO informed him that, due to the “vessel exception,”
he had no right to make such a demand. Id. The
“vessel exception” denies the right of a service mem­
ber “attached to or embarked in a vessel” to refuse a
non-judicial punishment and demand a trial by
court-martial. Id:, 10 U.S.C. § 815(a).
On July 9, 2009, the Assistant Secretary of the
Navy approved a recommendation by the Command­
er, Navy Personnel Command, to discharge Mr.
Sharpe from the Navy. Sharpe, 134 Fed. Cl. at 810.
Mr. Sharpe formally separated from the Navy on
September 30, 2009. Id.
II
Mr. Sharpe submitted an application for Correction
of Naval Record to the BCNR on September 28, 2012.
Id. In his application, he requested reinstatement.
He also requested that his naval record be corrected
by removing all documentation pertaining to his non­
judicial punishment. Id.', J.A. 2620—22. In addition to
seeking reinstatement and correction of his record,
Mr. Sharpe requested that he receive “back payment
of all regular or special pay, allowances, allotments,
1 Article 88, 10 U.S.C. § 888, states^
Any commissioned officer who uses contemptuous words
against the President, the Vice President, Congress, the Secre­
tary of Defense, the Secretary of a military department, the
Secretary of Homeland Security, or the Governor or legislature of
any State, Commonwealth, or possession in which he is on duty
or present shall be punished as a court-martial may direct.

5a
compensation, emoluments, or other pecuniary bene­
fits” due to him as a result of his alleged erroneous
separation from the Navy. J.A. 884. In his applica­
tion, Mr. Sharpe argued that the vessel exception
had been improperly invoked because the dry-docked
Carl Vinson was not a “vessel” and because, although
he was officially assigned to the ship, he was not “at­
tached to or embarked in a vessel,” as he did not
“live, eat, work, stand watch, or serve any punish­
ment aboard” the Carl Vinson. J.A. 912; J.A. 1104.
On February 8, 2016, the BCNR recommended to
the Secretary of the Navy that Mr. Sharpe’s non­
judicial punishment be set aside, along with its ad­
ministrative consequences. Sharpe, 134 Fed. Cl. at
811-12; J.A. 898. In addition, the Board recommend­
ed that Mr. Sharpe be treated as if he had not been
discharged but “ha[d] continued to serve on active
duty without interruption.” J.A. 901. The Board also
recommended that Mr. Sharpe be retroactively pro­
moted. Id. In arriving at its recommendations, the
BCNR noted, as Mr. Sharpe had, the significance of
the Carl Vinson’s non-operational status during the
entirety of Mr. Sharpe’s assignment. In addition, the
Board observed that “neither [Mr. Sharpe’s] regular
place of work, nor his [non-judicial punishment]
rights-advice session or . . . hearing, were aboard
ship.” J.A. 898. The Assistant Secretary of the Navy
approved the BCNR’s findings and recommendations
on April 25, 2016. Sharpe, 134 Fed. Cl. at 812; J.A.
902.
The Navy proceeded to implement the Board’s
recommendations. As a result, Mr. Sharpe was is­
sued orders to report to active duty by February 13,
2017, and to report to his new duty station in Wash­
ington, D.C. by May of 2017. Sharpe, 134 Fed. Cl. at
812. On May 5, 2017, Mr. Sharpe was retroactively

6a
promoted to the rank of Commander effective August
1, 2008. Id. Mr. Sharpe’s case was then forwarded to
the Defense Finance and Accounting Services
(“DFAS”) for calculation of the appropriate back pay
to which he was entitled. J.A. 857.
A memorandum by Brian D. Bourne (“Bourne
memorandum”), which was issued by the Naval Per­
sonnel Command on May 11, 2017, set forth the Per­
sonnel Command’s position regarding DFAS’s calcu­
lations. J.A. 858-60. First, the memorandum noted
that, before his separation, Mr. Sharpe was assigned
to the Carl Vinson for three years and three months,
a time period that exceeded the normal twenty-fourmonth sea duty tour for a PAO. Thus, the memoran­
dum stated that, “[clommensurate with PAO detail­
ing policy, [Mr. Sharpe] would not have continued to
serve aboard [the Carl Vinson] past 2009 and his
record (including pay) should be corrected to show
that his sea duty ended on 30 Sep 09.” J.A. 858-59.
The Bourne memorandum thus recommended that
Mr. Sharpe not receive career sea pay (“CSP”) or a
CSP premium, since he “did not serve aboard ship,
and for constructive service purposes would not have
been assigned to a ship” from October 1, 2009, to
February 12, 2017. J.A. 859.2Next, the Bourne mem­
orandum recommended that Mr. Sharpe receive
basic allowance housing (“BAH”) at the rate for Nor2 As stated by the Court of Federal Claims, “CSP is an al­
lowance for service members entitled to basic pay who are ‘as­
signed to’ and ‘serving on’ a ship.” Sharpe, 134 Fed. Cl. at 818
(quoting 37 U.S.C. § 305a(e)). Additionally, “[a] CSP premium
is paid to those members who serve on sea duty for over 36
consecutive months.” Id. (citing 37 U.S.C. § 305a(c)). During the
period between June 20, 2006, when he joined the Carl Vinson,
and September 30, 2009, when he was separated from the Navy,
Mr. Sharpe received CSP. See Sharpe, 134 Fed. Cl. at 819 n.8.
The record does not reflect that he received a CSP premium.

7a
folk, Virginia for the period of his separation, despite
a change in the home port of the Carl Vinson from
Norfolk to San Diego, California, in 2010. Id.3 In line
with the recommendation in the Bourne memoran­
dum, DFAS declined to pay Mr. Sharpe CSP or a
CSP premium for the period of his separation. Also
consistent with the Bourne memorandum, DFAS
awarded Mr. Sharpe BAH at the Norfolk rather than
San Diego rate for the period of his separation.

Ill
While his application was pending before the BCNR,
Mr. Sharpe filed suit in the Court of Federal Claims
“to preserve his right to judicial review.” Sharpe, 134
Fed. Cl. at 811 (quoting Compl. at 8). The case was
stayed while the BCNR reviewed Mr. Sharpe’s appli­
cation. Id.Following the Board’s decision and the Na­
vy’s implementation of it, proceedings resumed be­
fore the court. Id. at 812.
In due course, Mr. Sharpe filed a motion for
summary judgment. In it, he argued that he is enti­
tled to the BAH rate for San Diego, beginning April
1, 2010, when the Carl Vinson’s home port changed.
He also argued that he is entitled to CSP and a CSP
premium for the period of his separation from the
Navy. Id.4The government filed a cross-motion argu­
ing (l) that judgment on the administrative record,
3 As the Court of Federal Claims explained, “BAH is a var­
iable, basic housing allowance awarded to service members
ebgible for basic pay in order to address higher costs of bving
in certain geographic areas.” Sharpe, 134 Fed. Cl. at 817 (cit­
ing 37 U.S.C. § 403(a)(1)).
4 Before the Court of Federal Claims, Mr. Sharpe alleged his
thirty-seventh month of consecutive sea duty began on June 21,
2009. J.A. 631.

8a
not summary judgment, was the proper procedural
vehicle, (2) that Mr. Sharpe should be judicially es­
topped from making inconsistent arguments before
the BCNR and the Court of Federal Claims, and (3)
that Mr. Sharpe is entitled only to the amounts of
back pay that DFAS calculated. Id.
The Court of Federal Claims first determined
that judgment on the administrative record was ap­
propriate. Id. at 814. The court then held that, be­
cause of arguments he made before the BCNR, Mr.
Sharpe was judicially estopped from seeking BAH at
the rate for San Diego and from seeking CSP and a
CSP premium. The basis for the court’s ruling was
its determination that Mr. Sharpe presented incon­
sistent arguments before the Board and the court. Id.
at 814—16. The court stated^
[Mr. Sharpe] now argues that this Court can­
not ignore and must instead give full weight to
the technicality of his formal assignment to
the Carl Vinson, and that this “on-paper as­
signment” entitles him to the BAH rate for
San Diego, CSP, and the CSP premium. Simp­
ly put, Mr. Sharpe urged the BCNR to ignore
his technical “assignment” to the ship in order
to nullify his non-judicial punishment and cor­
rect his record but now urges this Court to
give full weight to that very same technical
“assignment” in determining his back pay.
These arguments are plainly inconsistent. It is
clear that Mr. Sharpe’s interests have
changed, so he has changed his position ac­
cordingly.
Id. at 815-16 (citation and footnote omitted).
The court concluded that all three requirements

9a
for the application of judicial estoppel were met: (i)
Mr. Sharpe made inconsistent arguments before the
BCNR and the court relating to his status vis-a-vis
the Carl Vinson; (2) Mr. Sharpe was successful in
persuading the Board to accept the position he ar­
gued before it (that the Board should ignore his
technical “assignment” to the Carl Vinson and recog­
nize that he really was assigned to shore duty); and
(3) absent the application of judicial estoppel, Mr.
Sharpe would gain an unfair advantage in the litiga­
tion. Id. at 814—17; see also New Hampshire v.
Maine, 532 U.S. 742, 750-51 (2001) (setting forth
factors that “typically inform” the decision of wheth­
er to apply judicial estoppel).
In the alternative, the Court of Federal Claims
determined that the Navy’s decision to award Mr.
Sharpe the BAH rate for Norfolk, Virginia, and to
deny him CSP and a CSP premium was not arbitrary
or capricious, or contrary to law. Id. at 817. Turning
first to BAH, the court rejected Mr. Sharpe’s argu­
ment that he should be paid the higher rate for San
Diego based on his “on-paper assignment” to the Carl
Vinson. The court did so on the grounds that Mr.
Sharpe never moved to San Diego and that, regard­
less of his separation, his assignment to the Carl
Vinson was set to expire in June of 2008 and he had
already exceeded the average tour length on the ship
for a PAO. Id. at 818.5 To award Mr. Sharpe the BAH
for San Diego, the court stated, would confer on him
5 On appeal the government contends that the reason Mr.
Sharpe was not issued orders to another duty station was be­
cause, after he received non-judicial punishment, on June 17,
2008, the Navy determined that he should be administrative­
ly separated, and he underwent out-processing prior to the
issuance of his separation orders on September 15, 2009. Ap­
pellee’s Br. 47.

10a
a substantial windfall and would “defeat the very
purpose behind the regulations governing BAH: to
aid service members in obtaining housing in the vi­
cinity of their permanent duty station and to help
with corresponding cost-of-living expenses.” Id. The
court concluded that “the Navy’s decision to place
Mr. Sharpe in the same position he was in before his
improper separation by paying him the BAH rate for
Norfolk—which he was receiving at the time of his
unlawful separation—was not arbitrary or capri­
cious, or contrary to law; rather, it was quite reason­
able.” Id. (citing Holley v. United States, 33 Fed. Cl.
454 (1995), rev’d on other grounds, 124 F.3d 1462
(Fed. Cir. 1997); Ulmet v. United States, 17 Cl. Ct.
679 (1989), affdSZb F.2d 280 (Fed. Cir. 1991)).
Turning next to CSP, the Court of Federal Claims
“[found] it illogical to award Mr. Sharpe CSP and [a]
CSP premium when he never actually went to sea or
performed any sea duties.” Id. at 818-19. The court
relied on Boruski v. United States, 155 F. Supp. 320
(Ct. Cl. 1957), where the court held that a service
member was not entitled to “flight pa/’ because the
member “did not participate in any aerial flight.”
Sharpe, 134 Fed. Cl. at 819 (quoting Boruski, 155 F.
Supp. at 324). The court held it was reasonable for
the Navy to deny Mr. Sharpe CSP, since he had not
experienced the rigors of sea duty.
Mr. Sharpe timely appealed to this court. We
have jurisdiction pursuant to 28 U.S.C. § 1295(a)(3).
Discussion
I
We review the grant or denial of a judgment on the
administrative record without deference. Cleveland

11a
Assets, LLC v. United States, 883 F.3d 1378, 1381
(Fed. Cir. 2018) (citing Croman Corp. v. United
States, 724 F.3d 1357, 1363 (Fed. Cir. 2013)). Thus,
we apply the same standard of review as the Court of
Federal Claims, namely, the standard set forth in
the Administrative Procedure Act (“APA”). 28 U.S.C.
§ 1491(b)(4); 5 U.S.C. § 706; Walls v. United States,
582 F.3d 1358, 1367 & n.ll (Fed. Cir. 2009) (observ­
ing “it has become well established that judicial re­
view of decisions of military correction boards is con­
ducted under the APA” and collecting cases). Under
the APA, a court must set aside agency action if the
plaintiff demonstrates that the action is “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2)(A). In per­
forming this review under § 706(2)(A):
Our scope of review is “narrow”: we determine
only whether [the agency] examined “the rele­
vant data” and articulated “a satisfactory ex­
planation” for [its] decision, “including a ra­
tional connection between the facts found and
the choice made.” We may not substitute our
judgment for that of [the agency], but instead
must confine ourselves to ensuring that [it]
remained “within the bounds of reasoned
decisionmaking.”
Dep’t of Commerce v. New York, 139 S. Ct. 2551,
2569 (2019) (first quoting Motor Vehicle Mfrs. Ass’n
of U.S., Inc. v. State Farm Mut. Auto. Ins., 463 U.S.
29, 43 (1983); then quoting Balt. Gas & Elec. Co. v.
Nat. Res. Def. Council' Inc., 462 U.S. 87, 105

12a
(1983)).6
Mr. Sharpe challenges both bases for the decision
of the Court of Federal Claims: (i) its application of
judicial estoppel; and (2) its ruling on the merits. We
turn first to Mr. Sharpe’s claims with respect to BAH
and CSP. Because we conclude that the Court of
Federal Claims did not err in its ruling on the mer­
its, we do not reach the issue of judicial estoppel.
II
“Under the constructive service doctrine, ‘military
personnel who have been illegally or improperly sep­
arated from service are deemed to have continued in
active service until their legal separation.’” Barnick
v. United States, 591 F.3d 1372, 1379 (Fed. Cir.
2010) (quoting Christian v. United States, 337 F.3d
1338, 1347 (Fed. Cir. 2003)). “The basic premise of
the constructive service doctrine is to ‘return success­
ful plaintiffs to the position that they would have oc­
cupied “but for” their illegal release from duty.’” Id.
(quoting Dilley v. Alexander, 627 F.2d 407, 413 (D.C.
Cir. 1980)). Accordingly, military pay claimants are
“entitled to be placed in the same position they would
have been in” but for the wrongful action they suf­
fered, “but not in a better position.” Christian, 337
F.3d at 1344. This approach is consistent with the
fundamental principle of corrective remedies in gen6 We note that a discretionary decision by the Secretary of
the Navy would be beyond our review. See Dysart v. United
States, 369 F.3d 1303, 1317-18 (Fed. Cir. 2004); Groves v.
United States, 47 F.3d 1140, 1144 (Fed. Cir. 1995); Voge v.
United States, 844 F.2d 776, 780 (Fed. Cir. 1988). Instead, we
“merely determine D whether the procedures were followed by
applying the facts to the statutory or regulatory standard.”
Murphy v. United States, 993F.2d 871, 873 (Fed. Cir. 1993).

13a
erab “The injured party is to be placed, as near as
may be, in the situation he would have occupied if
the wrong had not been committed.” Wicker v.
Hoppock, 73 U.S. 94, 99 (1867); see also Pirkl v.
Wilkie, 906 F.3d 1371, 1378 (Fed. Cir. 2018) (collect­
ing cases).
Mr. Sharpe argues that the Court of Federal
Claims erred when it upheld the Navy’s decision to
award him the BAH rate for Norfolk, Virginia. Ac­
cording to Mr. Sharpe, (l) his duty station at the
time of his separation was the Carl Vinson, (2) the
determination of BAH for a service member assigned
to a ship is a function of the ship’s home port, and (3)
the Carl Vinson undisputedly moved home ports
from Norfolk to San Diego on April 1, 2010. Thus,
Mr. Sharpe argues, he should receive the San Diego
BAH rate for the period from April 1, 2010, to Feb­
ruary 12, 2017. Mr. Sharpe relies on Holley, a case in
which an Army serviceman was held entitled to re­
ceive an overseas housing allowance for the entire
period of his constructive active duty service, alt­
hough it was “probable” that, but for his illegal dis­
charge, he would have remained abroad for only ten
more months. 33 Fed. Cl. at 457. In this vein, Mr.
Sharpe contends that it was improperly speculative
for the Navy and the Court of Federal Claims to infer
that he would not have continued to serve on the
Carl Vinson past 2009.
Next, Mr. Sharpe contends that because he was
receiving CSP at the time of his separation, he
should have received CSP and a CSP premium for
the period of his separation, regardless of whether he
was “serving on” the Carl Vinson. According to Mr.
Sharpe, returning him to his prior status takes prior­
ity over whether his CSP payments were originally
proper. Mr. Sharpe relies on Groves, arguing that it

14a
supports his contention that although the Secretary
has certain discretion to award or terminate special
pay, that discretion may not be exercised when a
service member is denied special pay by virtue of an
unlawful conviction.
The government responds that it was not arbi­
trary or capricious for the Navy to provide Mr.
Sharpe with the BAH he was receiving at the time of
his separation and that it would have created a
windfall for Mr. Sharpe to receive the higher BAH
rate for San Diego, where he never resided. To find
otherwise, the government argues, would do more
than make Mr. Sharpe “whole.” Instead, it would put
him in a better position than he would have been in
had he not been separated. The government also con­
tends that it is Mr. Sharpe’s burden to show that he
would have continued to serve on the Carl Vinson
during the time of his separation, and that the Na­
vy’s determination that Mr. Sharpe would not have
served on the ship for that time period is entitled to
deference, citing Voge. Appellee’s Br. 45- 47 (citing
844 F.2d at 779-80). The government contends that
to award Mr. Sharpe the San Diego BAH is contrary
to its purpose, which is to assist service members
with the cost-of-living expenses in the area within
the vicinity of their permanent duty station, not to
award a post-hoc windfall for servicemembers retro­
actively restored to duty.
Next, the government contends that the purpose
of CSP and the CSP premium are to compensate ser­
vice members for the arduous conditions of sea duty
and separation from home and family. The govern­
ment states that the fact that Mr. Sharpe was receiv­
ing CSP before his separation does not entitle him to

15a
receive it during his separation.7

Ill
As noted, the law requires that Mr. Sharpe be placed
in the same position he would have been in but for
his wrongful separation. At the time of his wrongful
separation, Mr. Sharpe was assigned to the Carl
Vinson, which was at home port in Norfolk, Virginia.
Accordingly, the Navy used the best approximation it
had for the position Mr. Sharpe would have been in
but for his illegal separation—that position he was in
before he was improperly separated—assigned to the
Carl Vinson and receiving the BAH rate for Norfolk,
Virginia.
As we have previously acknowledged, the con­
structive service doctrine is a “legal fiction,” and it is
improper for us to speculate exactly where Mr.
Sharpe’s career path would have led him but for his
separation. See Barnick, 591 F.3d at 1379; Boruski,
155 F. Supp. at 324. Mr. Sharpe relies on Holley to
support his argument that the Navy was not permit­
ted to speculate that he would have separated from
the Carl Vinson and not continued with the ship to
San Diego. However, that Mr. Sharpe was assigned
to a ship whose home port, and correspondingly, the
associated BAH rate, could change is of no moment
here, where the facts make clear that regardless of
where Mr. Sharpe would have been assigned next, he
would not have continued to be assigned to the Carl
Vinson. As explained by the Bourne memorandum,
during the relevant period, the normal length of a
7 Counsel for the government stated at oral argument
that the Navy believes it was error for Mr. Sharpe to have re­
ceived CSP before his separation. Oral Arg. at 26:18-27:06
(May 6, 2019).

16a
sea duty tour for PAOs was twenty-four months and
“commensurate with PAO detailing policy, [Mr.
Sharpe] would not have continued to serve aboard
[the Carl Vinson] past 2009.” J.A. 858-59. Moreover,
Mr. Sharpe’s original orders to the ship were set to
expire in June of 2008, and Mr. Sharpe’s replace­
ment had reported to the ship by June 20, 2008.
Sharpe, 134 Fed. Cl. at 818; J.A. 2606.
Given the facts of this case, the Navy’s decision to
place Mr. Sharpe in the same position he was in be­
fore his improper separation by paying him the BAH
rate for Norfolk was not arbitrary, capricious, or con­
trary to law. Rather, we agree with the Court of Fed­
eral Claims that it was “quite reasonable.” Sharpe,
134 Fed. Cl. at 818! see also Ulmet, 17 Cl. Ct. at 710
(concluding that a wrongfully discharged service
member was entitled to “basic allowance for quarters
[and] the variable housing allowance, ... all at the
appropriate rates applicable to the location where
the plaintiff was assigned to duty prior to his im­
proper release.”)
That Mr. Sharpe should be placed in the “same
position” does not mean that the BCNR erred when
it declined to pay him CSP or a CSP premium.8 Mr.
Sharpe’s reliance on Groves on this point is mis­
placed. In that case, until his trial by court-martial
on charges of larceny, an orthopedic surgeon who
was an officer in the Army Reserve was receiving “fi­
nancial bonuses designed to attract and retain cer­
tain professionals in military service.” 47 F.3d at
1142. These were in the form of Variable Special
Pay, Incentive Special Pay, and Additional Special
Pay. Id. His conviction was later set aside, and he
8 As noted, Mr. Sharpe was receiving CSP at the time
of his separation.

17a
sought back pay, allowances, and restoration to ac­
tive duty. Id. at 1143. The Court of Federal Claims
awarded him basic pay and allowances, but it denied
his request for special pay because he did not demon­
strate that he had satisfied the additional eligibility
requirements for it. Id. We reversed, noting that, un­
der 10 U.S.C. § 875(a) Groves was entitled to the res­
toration of “all rights, privileges, and property affect­
ed by an executed part of a court-martial sentence
which has been set aside or disproved.” Id. at 1144.
With respect to Variable Special Pay, we noted that
that pay “depends solely on an officer’s status on ac­
tive duty under orders to active duty for at least one
year,” and “there is no reason to believe that [Groves]
would not have continued to [receive Variable Spe­
cial Pay] but for the conviction and sentence.” Id.
(quoting 37 U.S.C. § 302(a)). With respect to Incen­
tive Special Pay and Additional Special Pay, the Sec­
retary of the Army had discretion not to renew those
forms of special pay, but in Groves’s case, no such
discretionary decision was ever made. Id. We stated^
Absent evidence that the Secretary would
have otherwise denied Groves the special pay
at issue, the statutory mandate to restore all
rights, privileges, and property includes any
special pay that Groves was receiving prior to
his court-martial, and for which he would have
continued to be eligible had the conviction
never occurred.
Id. (emphasis added). The facts here are noticeably
different. Here, unlike in Groves, there is reason to
believe that Mr. Sharpe would not have continued to
receive CSP or have received a CSP premium. Name­
ly, for the reasons discussed above, the facts make

18a
clear that Mr. Sharpe would not have continued to be
assigned to the Carl Vinson.
Whether Mr. Sharpe’s original award of CSP was
proper is not before us, although we note Mr.
Sharpe’s statements in his application to the BCNR
suggest otherwise. See, e.g., J.A. 912 (“I was at no
relevant time attached to or embarked in a vessel
within the meaning of Art. 15. At no time did I live,
eat, work, stand watch, or serve any punishment
aboard ship.”). In any event, what is determinative is
that Mr. Sharpe cannot claim to have been “assigned
to” or “serving on” a ship during the time of his con­
structive service. See Sharpe, 134 Fed. Cl. at 818
(quoting 37 U.S.C. § 305a(e)). On this basis, the Na­
vy’s decision to deny him CSP and a CSP premium
for that time period was not arbitrary, capricious, or
contrary to law. Finally, like the Court of Federal
Claims, we find Boruski, 155 F. Supp. at 324, to be
instructive. As noted above, in that case, an Army
officer was denied flight pay for the period of his con­
structive service since he did not participate in any
aerial flight during that period.
Conclusion
For the foregoing reasons, we hold that the Court of
Federal Claims properly sustained the Navy’s deci­
sions to (l) award Mr. Sharpe the BAH rate for Nor­
folk, Virginia, and (2) deny Mr. Sharpe CSP and a
CSP premium. We therefore affirm the decision of
the Court of Federal Claims.
AFFIRMED

Costs

20a
APPENDIX B

®ntteb States Court of jfeberal Clatmsi
No. 15-1087C
Filed.: November 8, 2017
'k'k'k'k'k'kie'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k

*
*
*
*
*
JOHN F. SHARPE,
*
*
Plaintiff *
*
v.
*
THE UNITED STATES,7 **
*
Defendant. **
*
*
iek'k'k’k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k

Military Pay Act, 37
U.S.C. §§ 204, 305a,
403; 10 U.S.C. § 1552;
Motion for Summary
Judgment; Judgment
on the Administrative
Record; Judicial Review of BCNR Decision
and Implementation;
Vessel Exception to
UCMJ Article 15; Ju­
dicial Estoppel; Basic
Allowance for Housing;
Entitlement to Career
Sea Pay and Career
Sea Pay Premium.

John F Sharpe, Glenelg, Maryland, pro se Plain­
tiff.
Igor Helman, with whom were Chad A. Reader,
Acting Assistant Attorney General, Robert E.
Kirschman, Jr., Director, Douglas K Mickle, Assis­
tant Director, Commercial Litigation Branch, Civil
Division, U.S. Department of Justice, Washington,
D.C., and Lt. Maryam Austin, Of Counsel, Office of
the Judge Advocate General, General Litigation Di­
vision (Code 14), U.S. Department of the Navy,
Washington, D.C., for Defendant.

21a
OPINION AND ORDER
WHEELER, Judge.
Pro se Plaintiff John F. Sharpe seeks review of
the U.S. Navy’s decision to deny him certain catego­
ries of back pay associated with corrections to his
military record. Mr. Sharpe was separated from the
Navy on September 30, 2009 after receiving a non­
judicial punishment. In September 2015, Mr. Sharpe
argued before the Board for Correction of Naval Rec­
ords (“BCNR” or “the Board”) that his non-judicial
punishment was unlawfully imposed and that he
should be treated as if he was never discharged from
the Navy and has continued to serve on active duty
without interruption. In February 2016, the BCNR
took favorable action on Mr. Sharpe’s application,
voiding his non-judicial punishment and correcting
his military record to reflect his continued service in
the Navy without interruption. In light of his cor­
rected record, Mr. Sharpe is entitled to appropriate
back pay and allowances covering the eight-year pe­
riod of his unlawful separation.
Mr. Sharpe now disputes certain aspects of the
Navy’s calculation of his back pay. In his motion for
summary judgment, Mr. Sharpe argues that he is
entitled to the basic allowance for housing (“BAH”)
rate for San Diego, California and to career sea pay
(“CSP”) and a CSP premium. In its cross-motion for
judgment on the administrative record, the Govern­
ment argues that Mr. Sharpe should be judicially es­
topped from making inconsistent arguments before
the BCNR and this Court, and, alternatively, that
the Navy properly awarded him the BAH rate for
Norfolk, Virginia and properly denied him CSP and

22a
the CSP premium.9 For the reasons explained below,
the Court GRANTS the Government’s cross-motion
for judgment on the administrative record and DE­
NIES Mr. Sharpe’s motion for summary judgment.
Background10
A. Mr. Sharpe’s Naval Service
Mr. Sharpe graduated from the U.S. Naval Academy
in 1993 and was certified as a Submarine Officer and
Nuclear Engineer Officer shortly thereafter. AR 29,
153. Mr. Sharpe transferred into the Public Affairs
Officer (“PAO”) community in November 1999 and
accepted a permanent appointment to Lieutenant
Commander on December 1, 1999. Id. at 29. In June
2004, Mr. Sharpe was assigned to the office of the
Navy Chief of Information (“CHINFO”) in the Penta­
gon, taking a role as the Director for Plans and Poli­
cy. Id.
During his assignment to CHINFO in 2004 and
2005, Mr. Sharpe co-edited a two- volume anthology
of articles critical of the Iraq War. Id. The anthology
was published in April 2005. Id. Mr. Sharpe did not
author any of the articles himself and his name ap­
peared only once on an interior page, where he was
listed as a co-editor under the name “J. Forrest
Sharpe.” Id. While Mr. Sharpe took no part in writ9 The parties also disagree over the proper procedural vehi­
cle for resolving this case. Mr. Sharpe argues that summary
judgment is proper, while the Goverrnnent contends that judg­
ment on the administrative record is proper.
10 As the Court explains below, judgment on the adminis­
trative record is the appropriate procedural vehicle for resolving
this case. Accordingly, the facts in this decision are taken from
the administrative record (“AR”).

23a
ing the articles, he and his co-editors did co-author
71 summaries describing the contents of the articles,
which appeared just prior to the article they intro­
duced. Id. at 30. One of these summaries was
charged as showing contempt toward then-President
George W. Bush. Id.
On October 31, 2005, the United States Fleet
Forces Inspector General received a “hotline com­
plaint” over Mr. Sharpe’s alleged “improper partici­
pation in the anti-war movement,” prompting the
Navy Inspector General to conduct a preliminary in­
quiry into the matter. Id. On November 21, 2005, the
Inspector General reported his results to CHINFO in
a memo stating, for the most part, that Mr. Sharpe
was “exercising his free speech rights under the Con­
stitution,” and that his personal writings and speak­
ing “pre-dated the war in Iraq.” Id. Regarding the
anti-war anthology, the memo stated that some of
the language contained in the second volume’s dedi­
cation could be problematic under Article 88 of the
Uniform Code of Military Justice (“UCMJ”), but that
the anthology was written “in a very academic and
reasoned way.” Id. The Inspector General chose not
to recommend or take any further action on the mat­
ter, other than to refer the memo to CHINFO. Id. at
31. In response to the memo, Mr. Sharpe’s Reporting
Senior at CHINFO issued a non-punitive letter of
caution urging Mr. Sharpe to “exercise greater care
in the performance of [his] duties in order to measure
up to the high standards of CHINFO and the Navy
Public Affairs community” in the future. Id.
On June 20, 2006, Mr. Sharpe checked in aboard
the USS Carl Vinson (“Carl Vinson”), a nuclearpowered aircraft carrier, as a PAO. Id. at 33, 170-71.
At the time of Mr. Sharpe’s assignment to the Carl
Vinson, the ship was non-operational and uninhabit-

24a
able because it was undergoing a refueling and com­
plex overhaul (“RCOH”). Id. at 33, 170. The RCOH
was set to last during the entire pendency of Mr.
Sharpe’s assignment to the Carl Vinson. Id. at 42. As
such, Mr. Sharpe was instructed to report to the Me­
dia Department, which was located ashore on the
eighth floor of the “Bank Building” attached to the
Northrop Grumman Newport News complex in
downtown Newport News, Virginia. Id. at 33-34. Mr.
Sharpe regularly reported to this onshore location
throughout the entirety of his assignment to the Carl
Vinson and carried out the majority of his duties at
this location, except for reporting to a few other on­
shore locations in Hampton Roads, Virginia. Id. at
168, 248. Mr. Sharpe’s duties while onshore at the
Bank Building included conducting “routine busi­
ness” and providing “personal and staffed publicaffairs coordination and photography support” for
various on-shore command events. Id. at 169. At no
time during his assignment did Mr. Sharpe perform
any regular duties on board the Carl Vinson; nor did
he eat, work, live, stand watch or serve any punish­
ment aboard the Carl Vinson or any other ship. Id. at
248. On April 1, 2010, the Carl Vinson’s home port
officially changed from Norfolk, Virginia to San Die­
go, California. Id. at 3.
B. Non-Judicial Punishment
On March 6, 2007, a Media Relations Officer
(“MRO”) from the office of the U.S. Fleet Forces PAO
received a query from a reporter affiliated with a
small publication in the Newport News area regard­
ing an allegation, in a nongovernmental report, that
Mr. Sharpe was involved in “hate group activity.” Id.
at 34. The MRO prepared an email to the immediate

25a
superior in command of the Carl Vinson summariz­
ing the query, and on March 7, 2007, the Executive
Officer of the Carl Vinson ordered Mr. Sharpe to turn
over his duties to his deputy and report to his home
in Carrollton, Virginia as his assigned place of duty
“until further notice.” Id. Mr. Sharpe was relieved of
all watch and command duties and began a tempo­
rary assignment to the Commander, Naval Air Forc­
es Atlantic (“CNAL”) in Norfolk, Virginia. Id. at 3435.
On March 9, 2007, the Naval Criminal Investiga­
tions Service (“NCIS”) began a formal investigation
into the reporter’s query. Id. at 35. Approximately
two months later, in May 2007, Mr. Sharpe was in­
formed that the Commanding Officer (“CO”) of the
Carl Vinson intended to impose a non-judicial pun­
ishment on him. Id. On May 16, 2007, the CO issued
Mr. Sharpe a punitive letter of reprimand for two al­
leged violations of UCMJ Article 88. Id. at 35. Article
88 states, in relevant part:
Any commissioned officer who uses contemp­
tuous words against the President, the Vice
President, Congress, the Secretary of Defense,
the Secretary of a military department, the
Secretary of Homeland Security, or the Gover­
nor or legislature of any State, Common­
wealth, or possession in which he is on duty or
present shall be punished as a court- martial
may direct.
10 U.S.C. § 8885 AE 35. These violations pertained to
the two-volume anthology of articles co-edited by Mr.
Sharpe critical of the Iraq War. AR 35. When Mr.
Sharpe inquired about the process for demanding a
trial by court-martial, the CO informed Mr. Sharpe

26a
that he had no right to make such a demand due to
his assignment to the Carl Vinson. Id. at 35. The CO
thereby invoked Article 15 of the UCMJ, the “vessel
exception,” which denies the right of a service mem­
ber “attached to or embarked on a vessel” to refuse a
non-judicial punishment and demand a trial by
court-martial. 10 U.S.C. § 815(a).11 On July 9, 2009,
after the Commander, Navy Personnel Command
(“CNPC”) made a series of reports and recommenda­
tions to the Assistant Secretary of the Navy (“ASN”)
related to Mr. Sharpe’s non-judicial punishment, the
ASN approved the CNPC’s recommendation that Mr.
Sharpe be discharged from the Navy. AR 39; see also
id. at 35-38. On September 30, 2009, Mr. Sharpe
formally separated from the Navy. Id. at 39.
C. Administrative and Judicial Proceedings
1. Applications to the Board for Correction of
Naval Records
On September 28, 2012, Mr. Sharpe submitted his
first application to the BCNR, challenging his non­
judicial punishment and subsequent separation from
the Navy. Id. at 122, 1704. This initial application
was misdirected by the Board to the Navy Personnel
Command (“the NPC”) instead of the Code 20 Crimi­
nal Law Division, prompting the Board to allow Mr.
Sharpe to submit a supplemented application on
September 28, 2015, which accounted for subse11 Article 15 of the UCMJ states, “except in the case of a
member attached to or embarked in a vessel, punishment may
not be imposed upon any member of the armed forces under
this article if the member has, before the imposition of such
punishment, demanded trial by court-martial in lieu of such
punishment.” 10 U.S.C. § 815(a).

27a
quently discovered information. Id. at 121-52.
In his supplemented application to the Board, Mr.
Sharpe primarily argued that the Article 15 “vessel
exception” did not apply to him because he was not
“attached to or embarked in a vessel within the
meaning of Article] 15” and thus, was unjustly de­
prived of his right to demand a trial by court-martial
before the imposition of his non-judicial punishment
ip 2007. Id. at 129, 187, 247-48. In making his case to
the Board, Mr. Sharpe put forth two main, overarch­
ing arguments^ first, that the Carl Vinson was not a
vessel within the meaning of UCMJ Article 15 be­
cause it had completed only nineteen months of a 43month drydock refueling overhaul, did not go out to
sea, and thus, was effectively inoperable at the time
he received his non-judicial punishment;12 and se­
cond, that despite his technical assignment to the
vessel, his actual permanent duty station (“PDS”)
was ashore in various locations away from the ship
and thus, his PDS also was not a vessel within the
meaning of Article 15. Id. at 187-88; 1708. Relying
heavily on the analysis performed by the Court of
Appeals for the Armed Forces in United States v.
Edwards, 46
M.J. 41 (C.A.A.F. 1997), Mr. Sharpe stressed that
the Board should give little weight to the “on-paper”
technicality of his “assignment” to the ship and in­
stead focus on the realities of his relationship to the
ship and the ship’s operational status. AR 132.
12 Mr. Sharpe also noted that the crew (1) did not begin re­
turning aboard the Carl Vinson until fifteen months after the
imposition of his non-judicial punishment; (2) did not complete
the process of moving aboard the ship until over 21 months lat­
er; and (3) did not actually go out to sea on the ship until 25
months after the imposition of the non-judicial punishment. See
AR 129.

28a
Mr. Sharpe further argued, among other things,
that he was likewise ashore in Norfolk, Virginia
while he was assigned to CNAL after being ordered
home, and did not engage in any activities on the sea
before the implementation of his nOn-judicial pun­
ishment and formal separation from the Navy in
September 2009. Id. at 188. Mr. Sharpe also con­
tended that the “nexus” between himself and the
Carl Vinson was not in line with the legislative in­
tent behind the phrase “attached to or embarked in a
vessel” in Article 15, because he did not live, perform
duties, or stand watch aboard the ship; his regular
place of duty was an on-shore office building in
downtown Newport News, Virginia! and he was not
required to check in with the ship after being ordered
back home and subsequently assigned to CNAL in
Norfolk, Virginia. Id.
Lastly, in addition to requesting his reinstate­
ment to active duty and correction of his naval rec­
ord, Mr. Sharpe requested that he be paid all “regu­
lar or special pay, allowances, allotments, compensa­
tion, emoluments or other pecuniary benefits” due to
him as a result of his alleged erroneous separation
from the Navy. Id. at 1759-61.
2. Initial Proceedings Before This Court
In conjunction with his revised application to the
BCNR, Mr. Sharpe filed suit in this Court on Sep­
tember 29, 2015 “to preserve his right to judicial re­
view” of the Board’s final action. Compl. at 8. In his
complaint, Mr. Sharpe asserts the same arguments
he submitted to the Board challenging his non­
judicial punishment and requests the same relief.
See id. at 51-97. On November 24, 2015, Mr. Sharpe
and the Government filed a joint motion to stay the

29a
case while the BCNR reviewed Mr. Sharpe’s applica­
tion for relief. Dkt. No. 6. This Court granted the
parties’ motion on December I , 2015 and stayed the
case pending a final determination by the Board with
respect to Mr. Sharpe’s application. Dkt. No. 7.
3. The BCNR’s Decision
On February 8, 2016, the BCNR took favorable ac­
tion on Mr. Sharpe’s application and recommended
to the Secretary of the Navy that Mr. Sharpe be
granted appropriate relief. AR 42-46. In its decision,
the Board agreed with Mr. Sharpe that he was not
attached to a vessel within the meaning of UCMJ Ar­
ticle 15 and was unfairly deprived of his right to de­
mand a trial by court-martial. Id. In so doing, the
Board pointed to the following considerations and
justifications^ (l) Mr. Sharpe was ordered away from
the ship before the imposition of his non-judicial
punishment; (2) Mr. Sharpe was assigned to on-shore
duties after being ordered home; (3) the Carl Vinson
was completely non* operational during the entirety
of Mr. Sharpe’s assignment to the ship; and (4) nei­
ther Mr. Sharpe’s regular place of work nor his non­
judicial punishment hearing took place aboard the
ship. Id. at 42. The Board also noted that in making
its decision, it looked beyond the technicality of Mr.
Sharpe’s “on-paper assignment” to the ship and in­
stead focused on the “totality of th[e] case’s factual
circumstances” in concluding that Mr. Sharpe fell
outside the vessel exception, as Mr. Sharpe had
urged the Board to do in his application. Id.
Based on this conclusion, the Board recommended
that Mr. Sharpe’s non-judicial punishment and its
resulting consequences be set aside and ordered that
his record be corrected to remove any references to

30a
the punishment and its consequences. Id. at 42-44.
The Board further recommended that Mr. Sharpe be
treated as if he “was not discharged from the Naval
Service, but has continued to serve on active duty
without interruption.” Id. at 45. The Board’s recom­
mendation did not specify how Mr. Sharpe’s back pay
and appropriate compensation should be calculated.
On April 25, 2016, the Assistant Secretary of the
Navy approved the Board’s recommendations. Id. at
46. Mr. Sharpe received orders to report to active du­
ty no later than February 13, 2017, and to report to
his ultimate duty station in Washington, D.C. by
May 2017. Id. at 18-23. Additionally, the Assistant
Secretary issued an amended order on December 21,
2016 putting into effect Mr. Sharpe’s appropriate
promotions, id. at 24, and Mr. Sharpe endorsed his
permanent appointment letter on May 5, 2017, pro­
moting him to the rank of “Commander” effective
August 1, 2008. Id. at 5.
4. Current Proceedings Before This Court
After the BCNR issued its recommendations to the
Assistant Secretary of the Navy, the parties provided
this Court with a series of joint status reports keep­
ing the Court appraised of the Navy’s final approval
and implementation of the Board’s recommenda­
tions, including the calculation of Mr. Sharpe’s back
pay. See Dkt. Nos. 8, 10, 14, 20, 26, 28, 32. On May 5,
2017, the Court ordered the Government to submit
its final position on the amount of back pay to which
Mr. Sharpe is entitled on or before May 12, 2017, and
to pay Mr. Sharpe the undisputed amount “as soon
as practicable.” Dkt. No. 33. The Court also ordered
Mr. Sharpe to file a status report responding to the
Government’s final calculations on or before May 19,

31a
2017. Dkt. No. 33.
On May 12, 2017, the Government filed its status
report detailing what it believed to be the proper
amount of back pay owed to Mr. Sharpe. Dkt. No. 34.
In its status report, the Government indicated that
the NPC issued a memorandum to Defense Finance
and Accounting Services (“DFAS”), the entity re­
sponsible for calculating military back pay, recom­
mending DFAS take certain actions with respect to
Mr. Sharpe’s back pay. Dkt. No. 34, at 1-3; see also
AR 2"4. While Mr. Sharpe and the Government
agree with most of the Navy’s recommendations re­
garding Mr. Sharpe’s back pay calculations - a sum
totaling $666,471.4913 the parties remain in disa­
greement over Mr. Sharpe’s proper BAH rate,
whether Mr. Sharpe is entitled to CSP, and, relatedly, whether Mr. Sharpe is entitled to the CSP premi­
um. The Government and Navy opine that Mr.
Sharpe is entitled to the BAH rate for Norfolk, Vir­
ginia covering the period from October 1, 2009 to
February 13, 2017, and that Mr. Sharpe is not enti­
tled to CPS or the CPS premium for that same peri­
od. See Dkt. No. 34, at 2. Mr. Sharpe takes a differ­
ent view, outlined below.
In response to the Government’s status report,
Mr. Sharpe submitted together as a single filing a
status report, motion for leave to file portions thereof
as plaintiff s second amended complaint, and motion
for summary judgment, which this Court filed by its
leave as a motion for summary judgment. See Dkt.
No. 36. In Mr. Sharpe’s motion for summary judg­
ment, he argues, among other things, that he is enti­
tled to the BAH rate for San Diego, California begin13 This amount has already been paid to Mr. Sharpe. See
Dkt. No. 39, at Ex. I.

32a
ning April 1, 2010, when the Carl Vinson’s home port
changed from Norfolk, Virginia to San Diego, Cali­
fornia. Pl.’s Mot. at 44-77. Mr. Sharpe also argues
that he is entitled to CSP and the CSP premium for
the period covering October 1, 2009 to February 12,
2017. Id. at 78-89. Finally, Mr. Sharpe argues that
summary judgment is the appropriate vehicle for re­
solving the issues in this case. Id. at 13-16.
On July 19, 2017, the Government filed a cross­
motion for judgment on the administrative record,
arguing (l) that judgment on the administrative rec­
ord is the proper procedural vehicle for resolving this
case; (2) that Mr. Sharpe should be judicially es­
topped from making inconsistent arguments before
the BCNR and this Court; and (3) that Mr. Sharpe is
entitled only to the amounts DFAS calculated pursu­
ant to the Navy’s recommendations, as reflected in
the Government’s status report. See Dkt. No. 43. The
parties finished briefing these issues on September
6, 2017, and the Court heard oral argument on the
parties’ motions on October 25, 2017.
Discussion
This case presents unique and novel factual circum­
stances that give rise to complex issues. While the
parties dispute procedural mechanisms and certain
aspects of Mr. Sharpe’s back pay, they do not chal­
lenge this Court’s jurisdiction to hear these issues or
to resolve this case. The Court agrees that it has ju­
risdiction to hear this case and derives its subject
matter jurisdiction from both the Tucker Act, 28
U.S.C. § 1491, and the Administrative Procedure Act
(“APA”), 5 U.S.C. § 703. The Tucker Act grants juris­
diction over claims “against the United States found­
ed either upon the Constitution, or any Act of Con-

33a
gress or any regulation of an executive department,
or upon any express or implied contract with the
United States, or for liquidated or unliquidated
damages in cases not sounding in tort.” 28 U.S.C. §
1491(a)(1). The APA in turn entitles a person legally
wronged by agency action to seek judicial review,
thus waiving sovereign immunity of the United
States. 5 U.S.C. § 703; Weaver v. United States, 46
Fed. Cl. 69, 76 (2000).
Additionally, a Plaintiff must establish an inde­
pendent right to money damages from a money­
mandating source within a contract, regulation,
statute or constitutional provision in order for the
case to proceed. Jan’s Helicopter Serv. Inc. v. FAA,
525 F.3d 1299, 1306 (Fed. Cir. 2008); Volk v. United
States, 111 Fed. Cl. 313, 323 (2013). Here, the sepa­
rate money-mandating sources are 37 U.S.C. §§ 204,
305a, and 403, which govern the portions of Mr.
Sharpe’s pay that are currently in dispute. Thus, in
conjunction with the APA, this Court has jurisdiction
pursuant to the Tucker Act to review the Navy’s de­
cision regarding the proper calculation of Mr.
Sharpe’s back pay.
As the Court notes above, in accordance with the
correction of Mr. Sharpe’s naval record, the parties
have agreed on most of the Navy’s calculations of Mr.
Sharpe’s back pay. The following three issues remain
in dispute^ (l) whether this case should be decided on
summary judgment or judgment on the administra­
tive record; (2) whether Mr. Sharpe is judicially es­
topped from making inconsistent arguments before
the BCNR and this Court; and (3) whether the Na­
vy’s decision to pay Mr. Sharpe the BAH rate for
Norfolk, Virginia and deny him CSP and the CSP
premium was arbitrary, capricious, or contrary to
law. The Court will resolve each of these issues in

34a
turn.
A. Judgment on the Administrative Record Is the
Proper Procedural Vehicle for Resolving This Case.
The parties first dispute whether summary judgment
or judgment on the administrative record is the ap­
propriate procedural vehicle for resolving this case.
In his motion for summary judgment, Mr. Sharpe ar­
gues that summary judgment is appropriate because
there is no genuine dispute as to any material fact
and that he is entitled to judgment as a matter of
law because he is merely seeking to enforce the
BCNR’s decision. Pl.’s Mot. at 13-16. In its cross­
motion for judgment on the administrative record
and reply to Mr. Sharpe’s subsequent response, the
Government contends that judgment on the adminis­
trative record is appropriate because ( l) this is a
military pay case, and such cases are reviewed on
the administrative record like all other agency ac­
tion; and (2) agency action here consists of both the
BCNR’s decision and the Navy’s implementation of
that decision, which includes the calculation of Mr.
Sharpe’s back pay. Def.’s Mot. at 13; Defs Rep. at 14. Mr. Sharpe disputes this latter point in his re­
sponse to the Government’s cross- motion, noting
that only the BCNR’s decision to correct his record
constitutes “agency action,” and that the Board’s de­
cision here is not in dispute. See Pl.’s Resp. at 7-9.14
14 In response to the Government’s cross-motion for judg­
ment on the administrative record, Dkt. No. 43, Mr. Sharpe
filed two appendices: “Appendix A” and “Appendix B.” See Dkt.
Nos. 46, 47. “Appendix A” is Mr. Sharpe’s response to the Gov­
ernment’s cross-motion for judgment on the administrative rec­
ord, while “Appendix B” is Mr. Sharpe’s reply to the Govern­
ment’s opposition of his motion for summary judgment. As

35a
Military pay cases involving decisions of a mili­
tary correction board and a service member’s subse­
quent entitlement to appropriate monetary compen­
sation under the U.S. Code are reviewed on the ad­
ministrative record under the same standard as any
other agency action. Metz v. United States, 466 F.3d
991, 998 (Fed. Cir. 2006); Martinez v. United States,
333 F.3d 1295, 1314-15 (Fed. Cir. 2003). “Agency ac­
tion” is not limited to a correction board’s decisions;
rather, agency action also includes the implementa­
tion of that decision and any recommended relief.
See Laningham v. United States, 30 Fed. Cl. 296,
304 (1994) (“[F]inal and binding decisions made by
the General Counsel and [Assistant Secretary], in
furtherance of processing plaintiffs claims based up­
on a resolution of the BCNR, are also given the same
weight as resolutions of the BCNR. Together, they
compromise the ‘administrative decision’ of the de­
fendant . . . .”).
Here, Mr. Sharpe defines the relevant agency as
solely the BCNR and the relevant agency action as
solely the BCNR’s favorable decision to void his non­
judicial punishment and correct his record. However,
Mr. Sharpe adopts far too narrow a definition of
“agency action.” The proper agency here is the Navy
as a whole, and the proper agency action includes
both the BCNR decision and the implementation of
that decision by DFAS, under the direction and rec­
ommendations of the NPC. The fact that the BCNR
did not have the Navy’s recommendations regarding
Mr. Sharpe’s back pay and DFAS’ final calculations
before it while contemplating its decision on Mr.
Sharpe’s application does not mean that those recsuch, the Court cites to “Appendix A” as “PL’s Resp. at
“Appendix B” as “PI. ‘s Rep. at

and to

V

36a
ommendations and calculations are not agency ac­
tion subject to this Court’s review on the administra­
tive record. To the contrary, the BCNR decision, the
NPC’s back pay recommendations, and DFAS’ calcu­
lations together constitute agency action currently
under review by this Court. See id. at 304. As such,
the Court finds that judgment on the administrative
record is the appropriate procedural vehicle for re­
solving this case and will review the Navy’s decision
under the same standard as any other agency action.
B. Mr. Sharpe Is Judicially Estopped from Making
Inconsistent Arguments Before the BCNR and This
Court.
Before addressing the reasonableness of the Navy’s
decision to deny Mr. Sharpe certain aspects of what
he believes to be his proper back pay, the Court first
finds that Mr. Sharpe is judicially estopped from
making inconsistent arguments before the BCNR
and this Court. In order for a court to invoke the doc­
trine of judicial estoppel, this Court has noted that
the following three elements must be satisfied:
First, a party’s later position must be ‘clearly
inconsistent’ with its earlier position. Second,
courts regularly inquire whether the party has
succeeded in persuading a court to accept that
party’s earlier position, so that judicial ac­
ceptance of an inconsistent position in a later
proceeding would create the perception that
either the first or the second court was misled.
Finally, [a] third consideration is whether the
party seeking to assert an inconsistent posi­
tion would derive an unfair advantage or im­
pose an unfair detriment on the opposing par-

37a
ty if not estopped.
Cuyahoga Metro. Rous. Auth. v. United States, 65
Fed. Cl. 534, 556 (2005) (citing New Hampshire v.
Maine, 532 U.S. 742, 750-51 (2001)); see also Mo­
reland Corp. v. United States, 76 Fed. Cl. 268, 294
(2007). Here, all three elements of the judicial estop­
pel doctrine are plainly satisfied.
1. Mr. Sharpe’s Arguments Before the BCNR and
This Court Are Inconsistent.
The parties here primarily disagree over whether
Mr. Sharpe made inconsistent arguments before the
BCNR and this Court. The disputed “inconsistency”
relates to how Mr. Sharpe argued that his case did
not fall within the Article 15 “vessel exception,”
which denies the right of a service member to de­
mand a trial by court-martial if they are “attached to
or embarked in a vessel within the meaning of
Art[icle] 15,” 10 U.S.C. § 815(a), and how Mr. Sharpe
argues before this Court that he is entitled to certain
categories of back pay based on his formal “assign­
ment” to the Carl Vinson.
The Government asserts that Mr. Sharpe argued
before the BCNR that the vessel exception did not
apply because he was not actually “attached to or
embarked in” the Carl Vinson, since he was sta­
tioned onshore in an office building and the Carl
Vinson itself was non-operational during his entire
assignment to the ship. Def.’s Mot. at 17. The Gov­
ernment also argues that Mr. Sharpe stressed to the
Board that it give little weight to his “on-paper as­
signment” to the ship and instead focus on where he
was physically located to determine whether he was
“attached to or embarked in” the Carl Vinson for

38a
purposes of the vessel exception. Def.’s Rep. at 5.
Now, the Government argues, Mr. Sharpe is contra­
dicting himself by urging this Court to focus on the
formality of his “on-paper assignment” to the Carl
Vinson, as reflected by his corrected record, in order
to grant him CSP, the CSP premium, and the BAH
rate for San Diego after the ship changed home
ports. Def.’s Mot. at 17! Def.’s Rep. at 5.
In his briefings and arguments before the Court,
Mr. Sharpe frames his argument before the BCNR in
a different way. Mr. Sharpe first asserts that his ar­
gument before the Board focused on the fact that
there was no “operational inconvenience” to giving
him a trial by court-martial since he was on land and
never at sea, and then argues that his current argu­
ment before this Court focuses on the fact that he is
entitled to the BAH rate for San Diego, CSP, and a
CSP premium by way of his corrected record stating
that he was continuously “assigned” to the Carl
Vinson from June 20, 2006 to February 12, 2017.
Pl.’s Resp. at 2, 16; see also AR 129. Mr. Sharpe fur­
ther argues that the Government falsely equates the
terms “assignment” and “attachment,” that each of
these terms mean separate and distinct things, and
that he has maintained the same position with re­
spect to whether he was “assigned” or “attached” to
the Carl Vinson before both the BCNR and this
Court. See Pl.’s Resp. at 16-18.
While at first glance these arguments, as framed
by Mr. Sharpe to the Court, appear to be distinct
enough to defeat any notion of inconsistency, the
administrative record - which this Court relies upon
in making its decision - tells a wholly different story.
Mr. Sharpe’s argument before the BCNR goes far be­
yond stating that there were no impediments to con­
ducting a trial by court-martial since he was not

39a
physically serving on the Carl Vinson. To the contra­
ry, the crux of Mr. Sharpe’s argument before the
BCNR lies in his explicit urging of the Board to ig­
nore the technicality of his “on-paper assignment” to
the ship and to instead focus on the realities of his
physical relationship to the ship and the ship’s oper­
ational status to determine that he did not fall with­
in the vessel exception. Mr. Sharpe’s application to
the BCNR states as much:
To be sure, no one disputes that the MCM says
that ‘a person is “attached to” or “embarked
in” a vessel if . . . [he] is assigned or attached
to the vessel.’ What is disputed-and what the
courts and the Board have clarified-is what
‘attached to or embarked in a vessel’ means,
and the relevant authorities, which Code 20
fails to cite, have made clear that, contrary to
the facial language of the MCM, the Article]
15 [vessel exception] is to be applied not on the
sole basis of an on-paper assignment to a ship,
but on the basis of facts that establish both the
nature of a member’s relationship to a ship,
and the operational-readiness status of the
ship itself.
AR 132 (emphasis in original) (footnote omitted); see
also id. at 129, 168. Now, before this Court, Mr.
Sharpe starkly changes his tune. He now argues that
this Court cannot ignore and must instead give full
weight to the technicality of his formal assignment to
the Carl Vinson, and that this “on-paper assignment”
entitles him to the BAH rate for San Diego, CSP, and
the CSP premium. Pl.’s Resp. at 1-2. Simply put, Mr.
Sharpe urged the BCNR to ignore his technical “as­
signment” to the ship in order to nullify his non-

40a
judicial punishment and correct his record but now
urges this Court to give full weight to that very same
technical “assignment” in determining his back pay.
These arguments are plainly inconsistent. It is clear
that Mr. Sharpe’s interests have changed,15 so he has
changed his position accordingly. Mr. Sharpe’s at­
tempt to draw distinctions between the meanings of
the terms “assignment” and “attachment” does noth­
ing to change this analysis. Mr. Sharpe simply can­
not urge the BCNR to ignore a technicality and then
ask this Court to give full weight to that same tech­
nicality after his interests have changed. See Data
Gen. Corp. v. Johnson, 78 F.3d 1556, 1565 (Fed. Cir.
1996). Thus, Mr. Sharpe’s arguments are incon­
sistent and the Court finds that the first element of
the judicial estoppel doctrine is satisfied.
2. Mr. Sharpe Persuaded the BCNR to Accept
His Earlier Position.
The second element of the judicial estoppel doctrine
looks to see if the party asserting inconsistent posi­
tions was successful in persuading a court or any
other tribunal of its first position, such that the ac­
ceptance of the second position by a subsequent court
or tribunal would “create the perception that either
the first or second court [or tribunal] was misled.”
New Hampshire, 532 U.S. at 750. This element is al­
so met. After hearing and reviewing Mr. Sharpe’s
application, the BCNR agreed with Mr. Sharpe’s po­
sition that he was not attached to or embarked in the
Carl Vinson for purposes of the vessel exception. AR
15 Mr. Sharpe’s interest before the BCNR was to nullify his
non-judicial punishment and correct his record, while his inter­
est before this Court is to obtain monetary relief related to his
back pay.

41a
42. In so doing, the Board specifically accepted Mr.
Sharpe’s argument that it ignore his literal “onpaper assignment” and instead look to the realities of
his relationship to the ship and the ship’s operational
status^
And in light if the DDC’s remark, in the case
referred to by Code 20 in enclosure (4), that
vessel-exception cases ‘have generally . . .
looked not to literal definitions but to multiple
factors that affect the propriety of allowing or
denying the right to refuse mast,’ the Board
feels that the totality of this case’s factual cir­
cumstances make it appropriate to apply the
Edwards factors as a matter of equity.
Id. It is clear that Mr. Sharpe persuaded the Board
to ignore his technical and literal “assignment” to the
ship! therefore, to persuade this Court that such a
literal “assignment” should now be given full weight
would certainly create the perception that either this
Court or the BCNR was misled. As such, the Court
finds that the second element of the judicial estoppel
doctrine is also satisfied.
3. Absent Judicial Estoppel, Mr. Sharpe Would
Derive an Unfair Advantage.
The last element of the judicial estoppel doctrine
considers whether the party asserting inconsistent
positions would stand to derive an unfair advantage
or impose an unfair detriment on the opposing party
if not estopped. See New Hampshire, 532 U.S. at
751. Here, Mr. Sharpe stands to derive an unfair ad­
vantage if he is not estopped: he will avoid non­
judicial punishment by arguing that his “on-paper

42a
assignment” to the Carl Vinson was practically
meaningless since he was sufficiently removed from
the ship to fall outside the vessel exception, while
gaining improper back pay allotments by arguing
that this “on-paper assignment” conclusively entitles
him to such pay. While Mr. Sharpe plays semantic
games in an attempt to undercut this conclusion, he
is, in reality, doing nothing more than “playing fast
and loose with the courts.” See U.S. Philips Corp. v.
Sears Roebuck & Co., 55 F.3d 592, 596 (Fed. Cir.
1995). As such, the Court finds that the third ele­
ment of the judicial estoppel doctrine is satisfied and
thus, Mr. Sharpe is judicially estopped from taking
inconsistent positions before the BCNR and this
Court.
C. Alternatively, the Navy’s Decision to Award Mr.
Sharpe the BAH Rate for Norfolk, Virginia and Deny
him CSP and the CSP Premium Was Not Arbitrary
or Capricious, or Contrary to Law.
In the alternative, having determined that judg­
ment on the administrative record is the proper pro­
cedural vehicle for resolving this case, the Court also
finds that the Navy’s decision to award Mr. Sharpe
the BAH rate for Norfolk, Virginia and to deny him
CSP and the CSP premium was not arbitrary or ca­
pricious, or contrary to law.
Rule 52.1 of this Court governs motions for judg­
ment on the administrative record. A review of this
kind is like a paper trial based upon the documents
assembled by the agency. The Court makes factual
findings based upon the evidence presented in this
record. See, e.g., Bannum, Inc. v. United States, 404
F.3d 1346, 1356 (Fed. Cir. 2005); Coastal Envtl. Grp.,
Inc. v. United States, 118 Fed. Cl. 1, 10 (2014). To

43a
review a motion under Rule 52.1, this Court must
decide whether a party has met its burden of proof
based on the evidence in the record given all disput­
ed and undisputed facts. Anderson v. United States,
111 Fed. Cl. 572, 578 (2013), affd (Fed. Cir. 13-5117,
July 11, 2014); Bannum, Inc., 404 F.3d at 1356.
In reviewing agency actions related to decisions of
military correction boards, this Court must apply the
standard of review set forth in the APA, 5 U.S.C. §
706. Under section 706(2)(A), this Court must “hold
unlawful and set aside agency action, findings, and
conclusions found to be arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law . . . .” Id. § 706(2)(A). The Court shall over­
turn an agency’s decision only if it determines that
the decision was “arbitrary and capricious, unsup­
ported by substantial evidence, or not in accordance
with the applicable laws or regulations.” Laningham,
30 Fed. CL at 310. Accordingly, as long as the agen­
cy’s decision was reasonable and based upon sub­
stantial evidence, this Court will not disturb the re­
sult. Wronke v. Marsh, 787 F.2d 1569 (Fed. Cir.
1986); Van Cleave v. United States, 70 Fed. Cl 674,
678-79 (2006).
Mr. Sharpe has the burden of proving that the
Navy’s decision regarding his proper BAH rate and
its denial of his CSP and CSP premium was arbi­
trary, capricious, unsupported by substantial evi­
dence, or contrary to law. See Lewis v. United States,
458 F.3d 1372, 1376 (Fed. Cir. 2006). In his motion
for summary judgment and subsequent filings before
the Court, Mr. Sharpe first argues that the APA
standard described above does not apply to this case,
and then argues that he is entitled to the BAH rate
for San Diego, CSP, and the CSP premium by way of
his corrected record only, and without any further

44a
exercise of discretion from the NPC. See PL ‘s Mot. at
13-16, 65-87; PL ‘s Resp. at 22-24. In its cross-motion
for judgment on the administrative record, the Gov­
ernment counters that the Navy properly awarded
Mr. Sharpe the BAH rate for Norfolk, Virginia- the
Carl Vinson’s home port at the time of Mr. Sharpe’s
unlawful separation-and also properly denied Mr.
Sharpe CSP and the CSP premium, because both re­
quire that Mr. Sharpe physically be “at sea,” which
he was not. See Def.’s Mot. at 19-24. For the reasons
discussed below, the Court finds that the Navy’s de­
cision was reasonable and that Mr. Sharpe has failed
to meet his burden in proving otherwise.
1. The Navy Properly Determined that Mr.
Sharpe Was Entitled to the BAH Rate for Nor­
folk, Virginia, Not San Diego, California.
BAH is a variable, basic housing allowance awarded
to service members eligible for basic pay in order to
address higher costs of living in certain geographic
areas. See 37 U.S.C. § 403(a)( 1); see also Pl.’s Mot. at
65-66. It is undisputed that Mr. Sharpe is entitled to
BAH, since he is also entitled to basic pay. Mr.
Sharpe argues that he is entitled to the BAH rate of
wherever the Carl Vinson’s home port was during
the length of his assignment to the ship, which lasted
from June 20, 2006 to February 12, 2017, as reflected
by his corrected record. See Pl.’s Mot. at 65-69, 72.
Following this logic, Mr. Sharpe claims that he is en­
titled to the BAH rate for San Diego from April 1,
2010 to February 12, 2017, after the Carl Vinson’s
home port changed from Norfolk to San Diego on
April 1, 2010. See id. at 65-77. Mr. Sharpe further
argues that the NPC had no discretion or authority
to recommend to DFAS that his BAH rate be kept at

45a
the lower Norfolk rate, even though Mr. Sharpe did
not physically relocate with the ship to San Diego
and instead remained at his home in Virginia
throughout his separation. Id. at 59-65.
As both parties note and the Court agrees, the
factual circumstances in this case are unlike any this
Court has dealt with in the past. However, the Court
sees no logical reason why Mr. Sharpe should be paid
the higher BAH rate for San Diego when he at no
time set foot in San Diego nor sought housing in San
Diego. While Mr. Sharpe urges the Court to give full
weight to his “on-paper assignment” to the Carl
Vinson and accept the fiction that he traveled with
the ship from Norfolk to San Diego-and remained in
San Diego for the past seven years-the Court will in­
stead take the tack Mr. Sharpe successfully ad­
vanced before the BCNR: to look to factors beyond
his literal “on-paper assignment” to the ship. Those
factors show that Mr. Sharpe never moved with the
ship to San Diego and never sought housing in San
Diego between April 1, 2010 and February 12, 2017.
Even if Mr. Sharpe had not been erroneously sep­
arated from the Navy to begin with, he still offers no
evidence to prove that he would have remained as­
signed to the Carl Vinson until February 12, 2017. In
fact, on his own admission, Mr. Sharpe’s rotation
with the Carl Vinson was set to expire in June 2008
and most PAO officer tour lengths only last between
24 to 36 months. Id. at 33, 43. Thus, to award him
the higher BAH rate for San Diego for seven years
would not only be illogical, but would also confer a
substantial windfall on Mr. Sharpe and defeat the
very purpose behind the regulations governing BAH:
to aid service members in obtaining housing in the
vicinity of their permanent duty station and to help
with corresponding cost-of-living expenses. See

46a
OPNAVINST 7220.12 CH- I if 3; see also Def.’s Rep.
at 9. The Court therefore finds that the Navy’s deci­
sion to place Mr. Sharpe in the same position he was
in before his improper separation by paying him the
BAH rate for Norfolk-which he was receiving at the
time of his unlawful separation- was not arbitrary or
capricious, or contrary to law! rather, it was quite
reasonable. See generally Holley v. United States, 33
Fed. Cl. 454 (1995); Ulmet v. United States, 17 Cl.
Ct. 679 (1989), aff d 935 F.2d 280 (Fed. Cir. 1991).
2. The Navy’s Decision to Deny Mr. Sharpe CSP
and the CSP Premium Was Likewise Reason­
able.
CSP is an allowance for service members entitled to
basic pay who are “assigned to” and “serving on” a
ship. See 37 U.S.C. § 305a! see also Pl.’s Mot. at 7980. A CSP premium is paid to those members who
serve on sea duty for over 36 consecutive months.
See 37 U.S.C. § 305a(c). Mr. Sharpe argues that he is
entitled to CSP and the CSP premium because his
corrected record reflects his continuous assignment
to the ship through February 2017, and whether he
actually served on the ship through this time does
not control whether he is entitled to such special pay.
See Pl.’s Mot. at 25-26.
Like before, Mr. Sharpe looks to derive a windfall
from a technicality he told the BCNR to ignore yet
implores this Court to give full weight. The heart of
Mr. Sharpe’s argument here is that because his cor­
rected record reflects his continuous assignment to
the Carl Vinson, the Court must determine that he
served on the ship from October 1, 2009 to February
12, 2017 and is therefore entitled to CSP and the
CSP premium. See id. at 79-89. Again, the Court

47a
finds it illogical to award Mr. Sharpe CSP and the
CSP premium when he never actually went to sea or
performed any sea duties. The Court finds the Gov­
ernment’s analogy to Boruski v. United States, 155
F. Supp. 320 (Ct. CL 1957), particularly persuasive.
See Def.’s Mot. at 21. In Boruski, a five-judge panel
of this Court’s predecessor held that a service mem­
ber was not entitled to “flight pay” because the mem­
ber “did not participate in any aerial flight,” which
was imperative for entitlement to that pay. See
Boruski, 155 F. Supp. at 324. The Court sees no rea­
son not to extend this principle to sea pay for pur­
poses of CSP and the CSP premium. Further, to
award Mr. Sharpe CSP and the CSP premium would
again defeat the purposes behind the regulations
governing such pay- to recognize “the greater than
normal rigors of sea duty, the arduous duty involved
in long deployments and the repetitive nature of as­
signment to such duty.” OPNAVINST 7220.14 Tf 3;
see also Def.’s Rep. at 9. Mr. Sharpe did not experi­
ence these rigors; thus, it was reasonable for the Na­
vy to deny him this specialized pay.16
Additionally, Mr. Sharpe’s reliance on Carlisle v.
United States, 66 Fed. CL 627 (2005), for the propo­
sition that entitlement to special duty pay is not con­
trolled by whether a service member actually per­
formed special duty is misplaced. See id. at 637! Pi’s
Resp. at 26. In Carlisle, this Court held that whether
a member of the Army was entitled to continue re­
ceiving “special duty assignment pa/’ was a decision
The Court recognizes that Mr. Sharpe was receiving CSP
before his unlawful separation, despite the fact that he was nei­
ther serving on the ship nor out to sea. While the Court ques­
tions whether this payment was proper to begin with, that issue
is not before the Court and thus, the Court will not disturb this
pre-separation payment.
16

48a
for either the Secretary of the Army or the Army
Board for the Correction of Military Records to make.
Carlisle, 66 Fed. CL at 639. In so holding, the Court
relied on the Federal Circuit’s decision in Groves v.
United States, 47 F.3d 1140 (Fed. Cir. 1995). In
Groves, the Federal Circuit determined that Mr.
Groves, a member of the Army, was erroneously de­
nied “special pay by virtue of [a later overturned]
court-martial conviction and sentence.” Id. at 1144.
In its decision, the Federal Circuit noted:
[i]t is inarguable that the special pay at issue
here is awarded at the discretion of the Secre­
tary of the Army, and that no court is qualified
to review the substantive merits of a decision
to deny it, so long as the decision comports
with any procedural standards mandated by
statute or regulation.
Id. (citations omitted). The Federal Circuit then not­
ed that the Secretary of the Army could have lawful­
ly exercised its discretion to discontinue Mr. Groves’
special pay,17 but that no such discretion was exer­
cised; rather, Mr. Groves was denied his special pay
by some other means. Id. The Court in Carlisle faced
the same factual scenario:
As in Groves . . . this court is not called upon
to review whether the Secretary of the Amy
correctly terminated plaintiffs [special duty
assignment pay]. Rather, the issue is whether
17 The Federal Circuit’s holding here also cuts against Mr.
Sharpe’s argument that the NPC, by way of the “Bourne Memo­
randum,” had no discretion to make recommendations to DFAS
concerning the calculation of Mr. Sharpe’s back pay and allow­
ances. See PL’s Mot. at 46-51.

49a
defendant has failed to comply with the first
Board’s recommendation . . . that plaintiff
should receive ‘restoration of all rights and
privileges, including all back pay and allow­
ances.’
Carlisle, 66 Fed. CL at 637. The factual scenarios de­
scribed above are not currently present in the case
before this Court; rather, this Court is being called
upon to review the decision of the Navy-through the
NPC and DFAS-to deny Mr. Sharpe CSP and the
CSP premium. As the Court explains above, the Na­
vy’s decision was reasonable and the Court will not
disturb the Navy’s lawful exercise of discretion deny­
ing Mr. Sharpe these categories of specialized sea
pay.
D. A Remand to the BCNR or Any Other Applicable
Subdivision of the Navy Is Not Necessary.
Finally, the Court notes that there are no gaps in the
administrative record that would preclude it from
reaching its conclusions or entering judgment in this
case. Accordingly, the Court finds that a remand to
the BCNR or any other applicable subdivision of the
Navy is not necessary.
Conclusion
In sum, for the foregoing reasons, the Court finds
that (l) judgment on the administrative record is the
proper procedural vehicle for resolving this case! (2)
Mr. Sharpe is judicially estopped from making incon­
sistent arguments before the BCNR and this Court;
and (3) the Navy’s decision to award Mr. Sharpe the
BAH rate for Norfolk, Virginia and to deny him CSP

50a
and the CSP premium was not arbitrary or capri­
cious, or contrary to law. Mr. Sharpe has received
the appropriate amount of back pay in light of his
corrected record and is entitled to nothing further.
The Court therefore GRANTS the Government’s
cross-motion for judgment on the administrative rec­
ord and DENIES Mr. Sharpe’s motion for summary
judgment. The Clerk shall enter judgment in favor of
the Government. No Costs.
IT IS SO ORDERED.

/s/
Thomas C. Wheeler
Judge

51a
APPENDIX C

Mmteb States; Court of jfeberal ClatmS
No. 15-1087C
Filed: December 15, 2017
*******************************^
*
*
JOHN F. SHARPE,
*
*
*
Plaintiff
*
*
v:
*
*
*
THE UNITED STATES
*
*
Defendant.
*
*
*******************************

John F. Sharpe, Glenelg, Maryland, pro se Plain­
tiff.
Igor Helman, with whom were Chad A. Reader,
Acting Assistant Attorney General, Robert E.
Kirschman, Jr., Director, Douglas K Mickle, Assis­
tant Director, Commercial Litigation Branch, Civil
Division, U.S. Department of Justice, Washington,
D.C., and Lt. Maryam Austin, Of Counsel, Office of
the Judge Advocate General, General Litigation Di­
vision (Code 14), U.S. Department of the Navy,
Washington, D.C., for Defendant.
ORDER ON PLAINTIFFS MOTION
FOR RECONSIDERATION OF THE COURT’S
NOVEMBER 8, 2017 OPINION AND ORDER

52a
WHEELER, Judge.
On December 7, 201 7, pro se Plaintiff John F.
Sharpe filed a motion for reconsideration of the
Court’s November 8, 2017 Opinion and Order, Dkt.
No. 63, denying Mr. Sharpe’s motion for summary
judgment and granting the Government’s cross­
motion for judgment on the administrative record.
The Court deems a response to Mr. Sharpe’s motion
and oral argument unnecessary. For the reasons
stated below, the Court DENIES Mr. Sharpe’s mo­
tion for reconsideration.
The decision of whether to grant a motion for re­
consideration is squarely within the discretion of the
trial court. Under Rule 54(b ), the Court may revise
“any order or other decision, however designated,
that adjudicates fewer than all the claims or the
rights and liabilities of fewer than all the parties
[that] does not end the action as to any of the claims
or parties” prior to entry of a judgment adjudicating
all claims. Reconsideration under Rule 54 is “availa­
ble ‘as justice requires.’” Martin v. United States, 101
Fed. Cl. 664, 671 (2011). Such a motion should only
be granted upon the showing of “exceptional circum­
stances justifying relief, based on manifest error of
” Webster v. United
law or mistake in fact
States, 93 Fed. Cl. 676, 679 (2010) (citing Henderson
Cty. Drainage Dist. No. 3 v. United States, 54 Fed.
Cl. 334, 337 (2003)). Exceptional circumstances include^ (I) an intervening change in the controlling
law! (2) availability of previously unavailable evi­
dence! or (3) preventing manifest injustice.
Shirlington Limousine & Transp., Inc. v. United
States, 78 Fed. Cl. 27, 29 (2007).
Mr. Sharpe’s motion for reconsideration does not
meet this standard. Regarding Mr. Sharpe’s life in­

53a
surance offset, LSL payment offset, and minor basic
pay discrepancy claims, the parties represented to
the Court during oral argument that there was no
“substantive disagreement” between them with re­
spect to these issues and that such issues could be
resolved outside of the Court. See Sharpe, Tr. 8-11.
Regarding his Basic Allowance for Housing, Career
Sea Pay, and Career Sea Pay Premium claims, Mr.
Sharpe simply disagrees with the Court’s conclusions
in its Opinion and Order and retreads the arguments
from his motion for summary judgment. A motion for
reconsideration is not an opportunity for an unhappy
litigant to have an “additional chance to sway the
court.” Martin, 101 Fed. Cl. at 671 (quoting Mat­
thews v. United States, 73 Fed. Cl. 524, 525 (2006))
(internal quotation marks omitted). Further, motions
for reconsideration should not be entertained upon
‘“the sole ground that one side or the other is dissat­
isfied with the conclusions reached by the court, oth­
erwise [, as here,] the losing party would generally, if
not always, try [its] case a second time .... “‘ Pinckney
v. United States, 90 Fed. Cl. 550, 554 (2009) (quoting
Fru-Con Const. Corp. v. United States, 44 Fed. Cl.
298, 300 (1999) (quoting another source)). The Court
will not grant Mr. Sharpe’s motion because it ‘“mere­
ly reasserts ... arguments previously made ... all of
which were carefully considered by the Court.’”
Ammex, Inc. v. United States, 52 Fed. Cl. 555, 557
(2002) (quoting Principal Mut. Life Ins. Co. v. United
States, 29 Fed. Cl. 157, 164 (1993) (omissions in orig­
inal)). Thus, Mr. Sharpe’s motion for reconsideration
is DENIED.
IT IS SO ORDERED.
Is/
Thomas C. Wheeler
Judge

54a

55a
APPENDIX D

®ntteb States Court of jfeberal Clatmsi
No. 15-1087C
Filed: May 5, 2017
•k'k'k'k'k'k'k'k'k'k'k'k'k'kie'k'k'k’kic'k'k’k’k’k'k’k’k'k'k'k ^

JOHN F. SHARPE
Plaintiff
V.

THE UNITED STATES,
Defendant.

*
*
*
*
*
*
*
*
*
*
*
*
*
*

'k'k'k'k'k'k'k'k'k'k'k'k-k-k'k'k'k'kic'k'k'kickic'kic'k'k'kie

ORDER
WHEELER, Judge.
On May 5, 2017, the Court held a status confer­
ence in this case. As noted in that conference, the
Court is dissatisfied with the pace at which the Gov­
ernment is calculating and organizing Mr. Sharpe's
promotion and back pay. The Court recognizes that
Mr. Sharpe's reinstatement and promotion raise
unique issues. " Unique," however, is not and should
not be synonymous with "never-ending." Therefore,
after considering the patties' positions, the Court has
determined that the following schedule is appropri­
ate:

56a
1. The Government shall submit a status re­
port on or before next Friday, May 12,
2017, that sets forth the Government's fi­
nal position on the amount of back pay to
which Mr. Sharpe is entitled. The Gov­
ernment shall then pay Mr. Sharpe this
undisputed amount as soon as practicable.
As to any disputed amounts, it is imper­
missible for the Government to report that
the amount is "still being examined," or is
" to be determined." The Government
must state the amount it believes is cor­
rect for all items.
2. On or before May 19, 2017, Mr. Sharpe
shall file a status report detailing his posi­
tion on the Government's back pay pro­
posal, as well as any requests he might
have for resolving disputes associated with
his back pay.
3. The parties shall use best efforts to expe­
dite Mr. Sharpe's promotion, and shall
file a status report on or before May 31,
2017 that sets forth their progress on the
promotion package.

IT IS SO ORDERED.
/si
Thomas C. Wheeler
Judge

57a

APPENDIX E
From:
Sent:
To:
Cc:

Austin, Maryam B LT OJAG, Code 14
Friday, May 05, 2017 10G4 AM
Cordts, Bradley J CAPT NAVPERSCOM,
PERS-00J
Holley, Mark C CAPT NAVPERSCOM,
PERS-00J; Bourne, Brian CIV NPC, Pers00J; Lattin, Grant E CIV OJAG, CODE 14;
Bishop, Laura E CDR OJAG, Code 14

Subject: Judge Order ICO Sharpe
Good morning Sir,
We have an ongoing case in the Federal Circuit
Court of appeals. LCDR Sharpe, pursuant to a grant
of relief issued by the ASN(M&RA), is on track to
promote to 0-5 and receive a large sum of back pay
(he was erroneously separated in September 2009).
The Judge in this case will be issuing an order later
today directing the Navy to state its position regard­
ing the disputed back pay award amounts NLT 12
May 17. Additionally, by 31 May 17, he is requesting
that the promotion piece be resolved.
I am in the process of drafting a letter from CNP di­
recting DFAS to take certain actions. Our office was
planning to send this letter to your office and CAPT
Peppetti’s office in order to get your sign off and de­
termine who the appropriate approval authority
should be. It seems that we are short on time. I am
planning on finalizing the letter and getting a copy to
you COB today. Our hope is that this letter can be

58a
signed NLT 11 May 17 so we make the filing dead­
line and so we can comply with the jugde’s order.
With regard to the promotion piece, Mr. Bourne
reached out to PERS-8 yesterday. They are planning
on releasing a NAVADMIN in July to promote him
(the Senate confirmed him 1 May 17). Given this
Judge’s vocalized frustration with the Government’s
pace, and record of ruling against us on other cases,
we are wondering if NPC would be inclined to give
him an individual appointment so that he can pro­
mote earlier. LCDR Sharpe will be reporting to his
duty station at the end of the month and would like
to report as a CDR .
I’d be happy to discuss this case with you Sir.
Thank you in advance for your time and considera­
tion.
Very Respectfully,
Lieutenant Maryam Austin, U.S. Navy
Office of the Judge Advocate General
General Litigation Division (Code 14)
1322 Patterson Ave., Suite 3000
Washington Navy Yard, DC 20374-5066
Off: 202-685-5442
Main: 202-685-5450
DSN: 325-5398
FAX: 202-685-5472

59a
APPENDIX F
11 May 17
From: BUPERS-OOJ
To:
Director, Navy Centralized Processing, De­
fense Finance and Accounting Services DFAS)
Cleveland
Via: Disbursing Officer, Navy Pay and Personnel
Support Center, Millington, TN
Subj: BACKPAY ICO CDR JOHN F. SHARPE,
USN, DFAS ACCOUNT NO. MSFSKT5RG
Ref:

(a) BCNR ltr JLB Docket No. 4284-14/1052112 of 8 Feb 16
(b) ASN(M&RA) ltr JLB Docket No. 428414/10521-12 of 20 Jun 16
(c) ASN(M&RA) ltr JLB Docket No. 428414/10521-12 of 21 Dec 16
(d) Navy Personnel Command ltr 1421 Ser
8/167 of 5 May 17
(e) LCDR John F. Sharpe ltr of 24 Feb 17
(f) M1LPERSMAN 5370-010
(g) Joint Ethics Regulations
(h) 37U.S.C. §403
(i) 37 U.S.C § 305a
(j) Decision of the Comptroller General of the
United States, file no. B-195558, of 6 Jan
81

1. References (a) through (c) are the Board for Cor­
rection of Naval Records (BCNR) findings and rec­
ommendations in CDR John F. Sharpe’s, USN, case
and two Assistant Secretary of the Navy (Manpower
and Reserve Affairs) (ASN(M&RA)) orders imple-

60a
meriting BCNR’s findings and recommendations. On
May 2, 2017, CDR Sharpe was confirmed by the Sen­
ate for promotion to the rank of commander with an
effective date of August 1, 2008. Reference (d) is CDR
Sharpe’s delivery of permanent appointment that
was endorsed by him on 8 May 17. Pursuant to refer­
ences (a) through (d), I request that DFAS take the
following actions pertaining to CDR Sharpe’s pay to
correct his record to show that he was not discharged
from the Naval Service, but has continued to serve
on active duty without interruption^
a. Moonlighting. In response to reference ( e ),
and consistent with the requirements of references
(f) and (g) pertaining to requests for outside employ­
ment, I find that, from 1 Oct 09 through 12 Feb 17,
CDR Sharpe was authorized to engage in outside
employment with BRN Associates, Inc. and maintain
this outside employment while on active duty, as it
was compatible and could have been performed con­
temporaneously with his active duty military respon­
sibilities. Accordingly, I request DFAS forgo the off­
set of monies earned by CDR Sharpe at BRN Associ­
ates, Inc. from 1 Oct 09 through 12 Feb 17 from his
award of back pay.
b. Constructive Service. CDR Sharpe was as­
signed to USS CARL VINSON (CVN 70) from 20 Jun
06 to 30 Sep 09, when he was separated from the
Navy. During this period, he was paid Basic Housing
Allowance (BAH) at the Norfolk, Virginia rate and
Career Sea Pay. CDR Sharpe was assigned to USS
CARL VINSON for three years and three months.
The normal sea duty tour length for Public Affairs
Officers (PAO) is 24 months. Commensurate with
PAO detailing policy, he would not have continued to

61a
serve aboard USS CARL VINSON past 2009 and his
record (including pay) should be corrected to show
that his sea duty ended on 30 Sep 09.
c. BAH. Per reference (h), “the amount of the
basic allowance for housing for a member will vary
according to the ... geographic location of the mem­
ber.” In 2010, the USS CARL VINSON changed its
homeport from Norfolk, Virginia, to San Diego, Cali­
fornia. This was after the date on which CDR Sharpe
was separated from the Navy and after the date on
which CDR Sharpe would have been transferred un­
der permanent change of station orders, had he not
been separated; Following his separation, CDR
Sharpe and his dependents continued to reside in
Carrollton, Virginia. Accordingly, CDR Sharpe’s geo­
graphic location during all relevant periods was Car­
rollton, Virginia. For the purposes of constructive
service, CDR Sharpe’s naval record should be cor­
rected to show BAH allowance at the Norfolk, Virgin­
ia rate from 1 Oct 09 until he returned to active duty
on 13 Feb 17.
d. Career Sea Pay and Career Sea Pay Premium.
Reference (i) provides, “a member of a uniformed
service who is entitled to basic pay is also entitled,
while on sea duty, to special pay ... Sea duty means
duty performed by a member while permanently or
temporarily assigned to a ship and while serving on
a ship.” In accordance with reference (i), CDR Sharpe
did not serve aboard ship, and for constructive ser­
vice purposes would not have been assigned to a
ship, from 1 Oct 09 to 12 Feb 17. Therefore, his naval
record should be corrected to reflect he is not entitled
to career sea pay for that period. Reference (i) also
provides, “a member of a uniformed service entitled

62a
to career sea pay under this section who has served
36 consecutive months of sea duty is also entitled to
a career sea pay premium.” As CDR Sharpe did not
serve over 36 consecutive months of sea duty in this
period, his naval record should be corrected to show
he is not entitled to career sea pay premium.
e. Life Insurance Premiums. If CDR Sharpe elects
to provide Navy Personnel Command with a
Servicemembers Group Life Insurance (SGLI) Elec­
tion and Certificate (SGLV 8286) indicating that, for
constructive service purposes, he declines SGLI for
the period 1 Oct 09 through 12 Feb 17, his naval rec­
ord should be corrected so that DFAS should forgo
the SGLI premium offset for that time period.
f. Lump Sum Leave Payment. In accordance with
reference (j), as a matter of equity, DFAS should
waive the offset of the lump-sum leave payment CDR
Sharpe received when he was separated from the
Navy in 2009, because those days of accumulated
leave cannot be restored to CDR Sharpe. CDR
Sharpe’s naval record should be corrected to show a
leave balance of 60 days to reflect the maximum
amount of leave CDR Sharpe is statutorily author­
ized to carry from his constructive service period.
g. Payments. DFAS should provide the aforemen­
tioned payments as expeditiously as possible, irre­
spective of multiple payment requirements. In par­
ticular, back-payments of base pay, basic allowance
for subsistence, and BAH should be made at the ear­
liest opportunity.
2. For questions regarding back pay, please contact
PERS-23 at (901) 874-4517.

64a
APPENDIX G

?Hntte& States Court of $eberal Claims
No. 15-1087C
Filed: May 12, 2017
k k k k k k k k k k k kick "ft kidc kick k
k

JOHN F. SHARPE,

*
k

v.

Plaintiff * No.: I:i5-cv01087
* Judge: Thomas C.
* Wheeler
k

THE UNITED STATES, *

*

Defendant. *

*
*

kkkkkkkkkkkkkkkkkkkkkk k

DEFENDANT’S STATUS REPORT
Pursuant to this Court’s May 5, 2017 Order (Or­
der), defendant, the United States, respectfully sub­
mits this Status Report setting forth the Govern­
ment’s final position on the amount of back pay to
which plaintiff, Mr. Sharpe, is entitled, and inform­
ing the Court of the progress on the status of Mr.
Sharpe’s promotion.
With respect to Mr. Sharpe’s promotion, the Navy
Personnel Command issued a Delivery of Permanent
Appointment Letter, dated May 5, 2017, which deliv­
ered Mr. Sharpe’s “permanent appointment with the

65a
date of rank [of Commander] and effective date of 1
August 2008.” Exh. 1. Mr. Sharpe endorsed this ap­
pointment on May 8, 2017. Id.
With respect to back pay calculations, the Navy
Personnel Command issued a memorandum to De­
fense Finance and Accounting Services (DFAS), re­
questing that DFAS take certain actions with respect
to Mr. Sharpe’s pay. Exh. 2. The directive instructed
DFAS to:
•

address Mr. Sharpe’s claim to keep his moon­
lighting earnings by “forgo [ing] the offset of
monies earned by [Mr.] Sharpe at BRN Asso­
ciates, Inc.,” see Exh. 2 11(a);

•

treat Mr. Sharpe as though his tour of duty
aboard the USS Carl Vinson ended on Sep­
tember 30, 2009, because as of that date, he
would have been assigned as a Public Affairs
Officer (PAO) on the USS Carl Vinson for
three years and three months (39 months)
whereas the normal sea duty tour length for
PAOs is 24 months, see Exh. 2 If 1(b);

•

treat Mr. Sharpe as receiving the Basic Hous­
ing Allowance (BAH) for Norfolk, Virginia, for
the time from October 1, 2009, until February
13, 2017, see Exh. 2 f l( c ). During his sepa­
ration, Mr. Sharpe resided in Carrollton, Vir­
ginia, which has a different BAH rate than
Norfolk. Nevertheless, as the best approxima­
tion of Mr. Sharpe’s constructive service rec­
ord during his separation, the Navy believes
that the BAH for Norfolk is appropriate given
the circumstances;

66a
•

deny Mr. Sharpe entitlement to Career Sea
Pay (CSP) and CSP Premium during the peri­
od from October 1, 2009, until February 12,
2017, because Mr. “Sharpe did not serve
aboard [a] ship [during that time], and for con­
structive service purposes would not have
been assigned to a ship,” see Exh. 2 f l( d);

•

“forgo the [Servicemembers Group Life Insur­
ance] SGLI premium offset for th[e] time peri­
od” of Mr. Sharpe’s separation, provided that
he gives Navy Personnel Command a backdat­
ed SGLI Election and Certificate form (SGL V
8286), see Exh. 2 Tf 1(e). Otherwise, DFAS will
offset the SGLI and Family SGLI premiums,
in the amounts of$2,376.00 and $616.00, re­
spectively!

•

“waive the offset of the lump-sum leave pay­
ment [Mr.] Sharpe received when he was sep­
arated from the Navy in 2009, because those
days of accumulated leave cannot be restored”
to him, see Exh. 2 f 1(f) (citing Comptroller
General Decision No. B- 195558 in reference
(j)). If DFAS is able to restore the leave to Mr.
Sharpe, then it will offset the lump-sum leave
payment, in the amount of $13,308.00!

•

“provide the aforementioned payments as ex­
peditiously as possible, irrespective of multiple
payment requirements” and, in particular, to
pay the “base pay, basic allowance for subsist­
ence [(BAS)), and BAH ... at the earliest op­
portunity,” see Exh. 2 H l(g).

Based on this directive (along with its earlier cal-

67a
culations reported to the Court), DFAS has calculat­
ed the following undisputed amounts that it believes
are due to Mr. Sharpe. See Exh. 3. DFAS notes sev­
eral caveats regarding these amounts. First, they do
not include taxes (including federal and state taxes)
that DFAS is required to withhold from Mr. Sharpe’s
back pay amounts. Given the Navy’s position on Mr.
Sharpe’s constructive service period, DFAS computed
Virginia state taxes. Compounding this issue, multi­
ple payments to Mr. Sharpe may complicate the
withholding of taxes.
Second, to the extent that the entitlements are
adjusted subsequently - by, for example, the Board
for Correction of Naval Records - such adjustment
may have an impact on the entitlement amounts, as
well as on taxes and other withholdings.
Third, due to the idiosyncrasies of the DFAS pay
system software, it is not possible to have the system
generate pay estimates without an actual payment;
accordingly, DFAS examiners calculated the
amounts by hand. Despite our best efforts, it is pos­
sible that unintentional calculation errors occurred
that, once rectified, could change the final amount.
With those caveats, the Navy and DFAS have de­
termined that Mr. Sharpe is entitled to the following
amounts.
1. For the period from August 1, 2008, to Septem­
ber 30, 2009, a retroactive increase for the
promotion to 0‘5 rank:
a. Base pay increase:
$5,720.50
b. BAH (for Norfolk, VA) increase: $2,857.00
c. CSP increase:
$700.00
2. For the period from October 1, 2009, to April

68a
24, 2016, calculated at the 05 rank:
a. Base pay:
b. BAS:
c. BAH (for Norfolk, VA):

$639,015.37
$18,781.63
$191,135.40

3. For the period from April 25, 2016, to February
12, 2017, calculated at the 05 rank:
a. Base pay:
b. BAS:
c. BAH (for Norfolk, VA):

$85,213.44
$2,434.85
$23,644.80

Finally, the Navy notes that it disputes Mr.
Sharpe’s entitlement to CSP and CSP Premium, but
intends to provide these disputed entitlements as per
the Court’s order. DFAS previously calculated and
provided the CSP and CSP Premium amounts at the
0-4 rate. Unfortunately, because the promotion to O
5 was effectuated only recently, DFAS informs the
Navy that the CSP and CSP Premium calculations
for that new rank are not yet available. DFAS in­
tends to provide them by Tuesday, May 16, 2017, and
we will file an amended status report with those cal­
culations on that date. We apologize to the Court for
any inconvenience that this may cause.

Respectfully submitted,
CHAD A. READER
Acting Assistant Attorney General
ROBERT E. KIRSCHMAN, JR.
Director

69a
/s/
DOUGLAS K. MICKLE
Assistant Director
/s/
IGOR HELMAN
Trial Attorney
Commercial Litigation Branch
Civil Division
Department of Justice
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044
Telephone^ (202) 305-7576
Fax: (202) 514-7965
Igor.Helman@usdoj.gov
Of Counsel'
LT. MARYAM AUSTIN
United States Navy
Office of the Judge Advocate General
General Litigation Division (Code 14)
May 12, 2017 Attorneys for Defendant

70a
APPENDIX H

®ntteb States? Court of Jfeberal Clatmsf
No. 15-1087C
Filed: May 15, 2017
•k-kieic'k-k'k’k'kieic'k'k'k'k'k'k'kic'k'k'k *

JOHN F. SHARPE,

v.

*
*
*

Plaintiff * No.: I:i5-cv01087
* Judge: Thomas C.
* Wheeler
*

THE UNITED STATES, *

*

Defendant. *

*
*

"k'k'k'k'k'k'k'k'k’k'k'k'k'k'k'k'k'k'kic'k'k "k

DEFENDANT’S ADDENDUM
TO ITS STATUS REPORT
Pursuant to this Court’s May 5, 2017 Order (Or­
der), defendant, the United States, respectfully sub­
mits this Addendum to its Status Report, filed on
May 12, 2017, setting forth the Government’s final
position on the amount of Career Sea Pay (CSP) and
CSP Premium to which plaintiff, Mr. Sharpe, is enti­
tled.
As explained in the May 12, 2017 Status Report,
the Navy’s position is that Mr. Sharpe is not entitled
to Career Sea Pay (CSP) and CSP Premium during
the period from October 1, 2009, until February 12,

71a
2017, because he “did not serve aboard [a] ship [dur­
ing that time], and for constructive service purposes
would not have been assigned to a ship.” Accordingly,
the Navy disputes Mr. Sharpe’s entitlement to CSP
and CSP Premium, but provides these disputed enti­
tlements as per the Court’s order:

1. For the period from October 1, 2009, to April
24, 2016, calculated at the 0-5 rank:
a. CSP:
b. CSP Premium:

$30,167.17
$15,986.67

2. For the period from April 25, 2016, to February
12, 2017, calculated at the 0_5 rank:
a. CSP:
b. CSP Premium:

$3,981.80
$1,960.00

Respectfully submitted,
CHAD A. READER
Acting Assistant Attorney General
ROBERT E. KIRSCHMAN, JR.
Director
/s/
DOUGLAS K. MICKLE
Assistant Director
/s/
IGOR HELMAN

72a
Trial Attorney
Commercial Litigation Branch
Civil Division
Department of Justice
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044
Telephone: (202) 305-7576
Fax: (202) 514-7965
Igor.Helman@usdoj .gov
Of Counsel-'
LT. MARYAM AUSTIN
United States Navy
Office of the Judge Advocate General
General Litigation Division (Code 14)
May 12, 2017 Attorneys for Defendant

73a
APPENDIX I
United States Court of Federal Claims
No. 15-1087C
Filed: May 25, 2017
it it it it it it it it it it it it it it it it it it it it it it it
it

JOHN F. SHARPE,

v.

*
★

Plaintiff * No.: I:i5'cv01087
* Judge: Thomas C.
* Wheeler
*

THE UNITED STATES, *

★

Defendant. *

*
*

it it it it it it it it it it it it it it it it it irk it it it it

PLAINTIFFS STATUS REPORT.
MOTION FOR LEAVE TO FILE PORTIONS
THEREOFAS PLAINTIFFS SECOND AMENDED
COMPLAINT. AND MOTION FOR SUMMARY
JUDGMENT
Pursuant to this Court’s order of May 5, 2017
(Order), Mr. Sharpe hereby submits his position with
respect to the Defendant’s view, see Def.’s Status Re­
port [hereinafter DSR], 1-4, ECF No. 34, of the
amounts due to him on the basis of Board for Correc­
tion of Naval Records (BCNR) action for the period of
his unlawful separation (October 1, 2009, to Febru­
ary 12, 2017), and for one period (August 1, 2008, to

74a
September 30, 2009) of the two for which Mr. Sharpe
is entitled to pay at the Commander (05) pay grade
and has been paid as a Lieutenant Commander (04).
Defendant’s determinations, which Mr. Sharpe re­
ceived by mail on May 17, 2017, did not include
amounts based upon the difference between the pay
Mr. Sharpe has received since February 13, 2017,
and the pay owed him as an 05, despite this Court’s
Order that the Defendant report amounts “for all
items,” Order, 1, ^ 1, on May 17, 2017 (emphasis
added). On May 19, 2017, Mr. Sharpe received notice
that Defense Finance and Accounting Services
(DFAS) will pay the 04-05 differential for this peri­
od as part of Mr. Sharpe’s end-of-month pay for May
2017. Ex. 1, at 1. Defendant provided Career Sea Pay
(CSP) and CSP Premium (collectively Sea Pay here­
inafter) amounts separately, in an addendum dock­
eted on May 23, 2017, see Def.’s Addendum to Its
Status Report [hereinafter Addendum], 1-2 (May 23,
2017), ECF No. 35, notwithstanding this Court’s Or­
der that Defendant’s first report was not to note any
amount as “to be determined.” Id.', see DSR, 4 (noting
CSP numbers as “not yet available”). (Mr. Sharpe
provided CSP calculations to the government as ear­
ly as September 30, 2015. See Joint Status Report
[hereinafter JSR], Ex. 6, at 1-5 (May 2, 2017), ECF
No. 32.) It is also not clear why Defendant reported
the Sea Pay but not San Diego Basic Allowance for
Housing (BAH), from April 1, 2010, and following,
since it denies his entitlement to each claimed
amount.
Summary and Introduction
To make matters as clear as possible, Mr. Sharpe
first submits this brief “big picture” summary show-

75a

i

ing that the pay and allowance amounts in question
between the parties fall into thirteen “lump” sums,
as shown by the Arabic numerals in the figure below.
See fig.l, infra. The periods of August 1, 2008, to
September 30, 2009, and that following February 12,
2017, address differences between what Mr. Sharpe
has already been (or will be) paid and what he is
owed.
Pay or Allowance
Period

Base
Pay

BAS

BAH

CSP/CSP-P

1 Aug 08 30 Sep 09

1

n/a

2

3*

1 Oct 09 24 Apr 16

4

5

8(n)

11 (m)

25 Apr 16 12 Feb 17

7(0

6

9(11)

12 (in)

n/a

10 (II)

n/a

n/a

n/a

n/a

13 Feb 17 PCS report date n/a
13 Feb 17 05 pay start
13 (iv)
date

Figure 1- Agreements (Green) and Disagreements
(Red) as to Pay Amounts
(*Defendant has slightly over-stated the amount due
in this instance.)
The amounts due from the other two periods - Octo­
ber 1, 2009, to April 24, 2016, and April 25, 2016, to
February 12, 2017 (the Constructive Service Period)
- are absolute amounts.
Of the thirteen amounts, Mr. Sharpe states infra
his agreement with six (green) amounts, see fig.l,

76a
amounts 1-6, though as regards amount 3 Defendant
has calculated more than Mr. Sharpe is due. His dis­
agreements with the remaining (red) amounts, id.,
amounts 7-13, fall into four categories, each repre­
sented by a Roman numeral in the figure. The sim­
plest matter is first: in the case of his base pay be­
tween April 25, 2016, and February 12, 2017, De­
fendant fails to account for the 2017 pay raise.18 See
fig.l, amount 7(l). The second and third issues, deal­
ing with Sea Pay for the Constructive Service Period,
and BAH for the part of that period following March
31, 2010, are points of contention, because Defendant
has attempted to direct DFAS “to correct [Mr.
Sharpe’s] record,”19 DSR, Ex. 2 [hereinafter Bourne
Memorandum] % 1, ECF No. 34 (letter of Mr. Brian
D. Bourne, Deputy Legal Counsel (00J), Bureau of
Naval Personnel (BUPERS), to DFAS, May 11,
2017), to reflect the speculation that Mr. Sharpe was
detached on September 30, 2009 — the day he was
discharged from the Navy - from the permanent du­
ty station (PDS) to which he was then and had been
assigned since June 20, 2006 - the USS CARL
VINSON (CVN 70) (CARL VINSON) - and remained
in Norfolk ever since, id. ^ l.c, even though, more
than a year ago, BCNR expunged both the evidence
of his discharge and the sole document in the record
effecting his detachment from the ship. JSR, Ex. 1
[hereinafter BCNR Decision], 17 (May 2, 2016), ECF
No. 10-1. As a result, and notwithstanding Mr.
Bourne’s arguably ultra vires act, Mr. Sharpe be18 Mr. Sharpe informed counsel for the Defendant on April
28, 2017, that the FY 2017 rates had not been incorporated into
the preliminary calculations the latter provided him.
19 As argued herein, this is ironic (to say the least), because
DFAS does not “correct” records; DFAS acts upon records that
have been corrected by the correction boards.

77a
lieves that the evidence of record, established with
finality by BCNR, in light of the constructive-service
doctrine and applicable regulations, all show that he
has been attached to CARL VINSON for the entirety
of the Constructive Service Period. He therefore
claims entitlement to BAH at the rate applicable to
CARL VINSON’s geographic location - Norfolk, Va.,
until March 31, 2010 (thus far the Defendant
agrees), and San Diego, Calif., thereafter (so Mr.
Sharpe claims the difference, for April 1, 2010, to
February 12, 2017, between the BAH he is entitled to
at the San Diego rate and what the Defendant wish­
es to pay him). Seeiig.l, amounts 8(ll) and 9(ll). Be­
cause regulations also provide that during a perma­
nent change of station (PCS), a member’s BAH rate
remains what it was at the PDS from which he de­
taches until the day before his arrival at the new
PDS, Mr. Sharpe also claims the difference, for the
period of February 13, 2017, to the day before he re­
ports to his prospective PDS in Washington, D.C.,
between whatever BAH he has received and will re­
ceive and the BAH for the San Diego PDS, all at the
05 pay grade.20 See fig. 1, amount 10(ll). On the same
20 The Defendant has complicated matters in two ways.
First: paying Mr. Sharpe BAH since his reinstatement at the
rate for his Carrollton, Va., residence, on that theory that he is
a “new accession” to active duty or a reservist being “recalled”
(regulations provide for BAH based on the home location in
those cases), even though Mr. Bourne appears to think that Mr.
Sharpe was notionally attached to an unidentified PDS in Nor­
folk, Va. through February 12, 2017. (How Mr. Sharpe trans­
ferred from his imaginary Norfolk PDS to his home is unex­
plained. Defendant even argues, Bourne Memorandum U l.c,
that the Norfolk BAH is correct because (?) Mr. Sharpe resided
in Carrollton.) This means that we are faced with the task of
calculating the difference, for the period following February 12,
2017, between Carrollton and San Diego BAH instead of being

78a
theory Mr. Sharpe claims entitlement to Sea Pay for
the Constructive Service Period, id., amounts 11 (ill)
and 12(lll). (The Defendant’s amounts, Addendum,
1-2, for these disputed items differ from Mr.
Sharpe’s calculations.) Finally, Mr. Sharpe claims,
for the period February 12 to May 31, 2017 (assum­
ing DFAS starts his 05 pay June l), the difference
between the BP of an 04 and that of an 05. See id.,
amount 13(iv).
The final matters for the parties’ resolution in­
volve potential offsets and withholdings from the
amounts due to Mr. Sharpe. He accepts, though with
important caveats, Defendant’s decision not to offset
his moonlighting earnings, life-insurance premiums,
and lump-sum leave (LSL) payment (with a technical
correction to the leave that should be credited to
him), but disputes the withholding of Virginia state
tax, as he has never been a legal resident of the
state.
Status Report Contents — Overview
This report is divided into two sections. The first
recites seriatim the amounts or others of Defendant’s
determinations that Mr. Sharpe believes are correct
and as to which he so stipulates, along the lines of
the summary already provided.

able to use the Norfolk rate as a baseline for the entire settle­
ment period. Second: Defendant’s delay has caused the moving
parts of Mr. Sharpe’s change in both pay grade (as of May 5,
2017) and PDS (he has to report in Washington, D.C., no later
than May 31) to impinge upon the determination of a “cutoff’
between back pay and current pay. Though not impossible to
manage, most if not all of this drill is, in hindsight, totally un­
necessary. Alas.

79a
The second section of the report addresses the
amounts and other of Defendant’s determinations
that Mr. Sharpe rejects, and responds to this Court’s
Order that he “detail [] .. . any requests he might
have for resolving disputes associated with his back
pay,” Order, 1, Tf 2. Mr. Sharpe hopes to receive the
Court’s leave to style the second portion of this re­
port a Second Amended Complaint (SAC) and Motion
for Summary Judgment (MSJ), since it is his view
that, insofar as the proposed pleading and motion
dovetail with his statement of “position on the gov­
ernment’s back pay proposal” and his “requests for
resolving disputes,” id. at 1, If 2, consolidation of the­
se matters will best serve the public interest in
“prompt disposition of cases by trial courts,” Bennett
v. United States, No. 77-005T, 2002 U.S. Claims
LEXIS 353, at *5 (Fed. Cl. Dec. 2, 2002), further the
Court’s purpose to obtain “the just, speedy, and inex­
pensive determination of every action and proceed­
ing,” U.S. Ct. Fed. Claims R. (RCFC) 1, and maximize efficiency, by queuing for mutual disposition the
issues upon which the parties agree, in the first part
of this report, and by identifying, in the second part,
the outstanding claims and the relevant legal issues,
as well as arguing for the propriety of the further
proceedings that he recommends and requests, all so
as to facilitate the Defendant’s prompt response, ob­
viate new rounds of status reports, remands, court
orders, and motions, and arrive at an expeditious fi­
nal adjudication.
Further Proceedings and Sole Disagreement on Mat­
ter of Law
Mr. Sharpe’s view of this case - as it has been
since early 2007 - rests upon the single, well-

80a
established and “axiomatic” principle “that an agency
of the government must scrupulously observe its own
rules, regulations, and procedures.” Blassingame v.
Sec’y of the Navy, 866 F.2d 556, 560 (2nd Cir. 1989)
(citations omitted). As the United States Court of
Appeals for the Federal Circuit (CAFC) has stated,
“The military no less than any other organ of the
government is bound by statute.” Lindsay v. United
States, 295 F.3d 1252, 1257 (Fed. Cir. 2002). This
applies as much to the government’s (and Mr.
Bourne’s) obligation to properly implement BCNR’s
decision, approved on April 25, 2016, for the Secre­
tary of the Navy (SECNAV), BCNR Decision, 19, as
to the actions Mr. Sharpe took to BCNR for review in
the first place.
Some years ago the CAFC felicitously noted that
“the disciplinary discharge of a senior officer after
years of faithful service is not an informal routine
matter, and in fact is governed by elaborate proce­
dures.” Doe v. United States, 132 F.3d 1430, 1435
(Fed. Cir. 1997). Equally so is the correction of such a
discharge once the Secretary decides it was improp­
er. But in this case Mr. Sharpe has, especially after
reviewing Defendant’s recent submissions, regretta­
bly come to the conclusion that aside from minor
mistakes the latter may be willing to remedy - e.g.,
the improper withholding of Virginia state tax and
the small error in calculating the 05 BP for the first
part of 2017 - the essential disagreement exists only
because of Defendant’s failure to comprehend such
procedures, e.g., as regards the statutory finality of
correction-board decisions, the consequent impropri­
ety of a mid-level civilian attorney directing DFAS
“to correct [his] record,” Bourne Memorandum If 1,
and the way in which statute and regulation operate
upon a corrected record in figuring the entitlements

81a
that result. Perhaps well-intentioned unfamiliarity
with relevant statues, regulations, and back-pay case
principles developed by this Court and its predeces­
sors, the CAFC, the Comptroller General of the
United States (CGUS), and, the Claims Appeals
Board (CAB) of the Defense Office of Hearings and
Appeals (DOHA).21 But this strains credulity, be­
cause all one need do is consult the Navy Personnel
Command (NPC) website to find a statement of the
sole, salutary principle that disposes of this entire
case:
The Comptroller General (CompGen) has
consistently held that except for corrections
made by BCNR, there is no authority to ret­
roactively correct a military record in order
to create a pay entitlement for a prior period.
If the change requested will create a retroac­
tive claim for pay and/or allowances, refer it
to BCNR. Even if the error is an obvious cler­
ical error, ifmoney or entitlement is in volved, refer it to BCNR.
NPC
Document
Correction
Home
Page,
http ■//www. public. navy.mil/bupers - npc/career/
rec­
ords
management/militarypersonnelrecords/Pages/
DocCorrect.aspx (last visited May 19, 2017) (empha­
sis added). In any event, even unintentional unfamil­
iarity with the law does nothing to alter the rule
obliging “[algencies [to follow] applicable statutes
and regulations . . . [This] also applies to the mili­
tary .... Like any other body of the government, [it]
is bound by statute and its own regulations.”
21 The CAB is the “successor” to the CGUS for the Defense
Department. See Claims Case No. 99051701 (July 28, 1999),
http://ogc.osd.mil/doha/claims/military/99051701.html.

82a
Wisotsky v. United States, 69 Fed. Cl. 299, 305
(2006) (citations omitted).
In light of what the above-recited sources of au­
thority (and even the website) stand for, Defendant
simply violated the law in the process of doing what
it said, on May 2, 2017, it would do — i.e., “recon­
struct [] Mr. Sharpe’s personnel record for [the] eight
years [sic]” of his separation so as to “reflect. . . the
entitlements the Navy believes should be accorded
[him],” id., 2—3 (emphasis added).22 Agency counsel
simply has no authority to “correct” Mr. Sharpe’s
record, subsequent to BCNR action, to reflect his
personal view of what “would” or “would not have”
happened “had [Mr. Sharpe] not been separated,”
Bourne Memorandum
l.b-.f. Moreover, what De­
fendant “believes.. . appropriate under the circum­
stances,” DSR, 2 (emphasis added), has utterly no
role to play in figuring Mr. Sharpe’s entitlements,
because it is not the former’s “approximation of Mr.
Sharpe’s . . . record,” id. (emphasis added), but rather
BCNR’s (long since completed) correction thereof,
“final and conclusive on all officers of the United
States,” 10 U.S.C. § 1552(a)(4) (2012) (even on offic­
ers of the Department of the Navy (DON)), that pro­
vides the sole predicate for a determination of what
Mr. Sharpe is owed. Even more objectionable is the
fact that a colleague of “BUPERS 00-J” vigorously
argued the contrary position before the BCNR, i.e.,
that because Mr. Sharpe “had orders to USS CARL
22 At the time and with a charitable spin, Defendant’s
statement of intent may have seemed only to mean that statute
books and a calculator would be used to figure what Mr. Sharpe
is owed. In hindsight, Defendant’s plan to “reconstruct” Mr.
Sharpe’s record obviously means an attempt to shape his enti­
tlements according to the former’s preferences rather than the
law.

83a
VINSON” he was “therefore assigned to the vessel”
and could not exercise his statutory right to a trial by
court-martial in lieu of accepting nonjudicial pun­
ishment, Ex. 2, at 2, 3 (Aug. 31, 2015, legal advice to
BCNR) (emphasis added),23 even though Mr. Sharpe
had been ordered off the ship on March 7, 2007, nev­
er to return, BCNR Decision, f 3.dd. It is, of course,
outrageous for Navy attorneys to argue that Mr.
Sharpe was amenable to punitive action because of
his “on-paper” attachment to CARL VINSON, not­
withstanding his actual removal from the ship, and
then argue, when BCNR reverses the action as ineq­
uitable, BCNR Decision, 15, that the “paper” is not
controlling after all. A more “disturbing” example of
the government “whipsaw[ing a] plaintiff with incon­
sistent positions that both prolong resolution and in­
crease expenses,” Mata v. United States, 107 Fed. Cl.
618, 624 (2012), would be hard to imagine.
Prompted by the Navy’s highly improper action,24
Mr. Sharpe now believes, in terms of his requests to
this Court for further proceedings, that the ques­
tions, as to the legality of agency counsel’s action and
as to the entitlements accruing as a matter of law by
application of statute and regulation to the facts in
his record as corrected by BCNR, are now ripe for ad­
judication by way of an amended complaint and mo­
tion for summary judgment. The following pertains.
The Department of Defense (DOD) Financial
Management Regulation (DODFMR), DoD 7000.14R, states that amounts due from a correction of mili­
tary records under 10 U.S.C. § 1552 are determined
“by applying pertinent laws and regulations to all
23 In any event BCNR was not persuaded. BCNR Decision,
15.
24 Though the “Bourne Memorandum” might make a great
sixth film in the famous series.

84a
the material facts shown in the corrected record” id.,
Volume 10B, para. 100301 (2015) (emphasis added).
This is consistent with all relevant case law. See,
e.g., Ray v. United States., 197 Ct. Cl. 1, 7 (1972)
(noting that “the grant of discretion” under § 1552
extends only to “the record correction” (quoting Act­
ing Comptroller General Weitzel to the Secretary of
the Army, 34 Comp. Gen. 7, 12 (1954) (explaining
that “specific amounts to be paid as a result of the
correction of military or naval records . . . depend
solely on a proper application of the statutes to the
facts or purported facts as shown by the corrected
record”))). Indeed, because an approved BCNR rec­
ord-correction is “final and conclusive,” id. §
1552(a)(4), the status of a member whose record is
corrected under § 1552 is “fixed by the records as
corrected and he becomes entitled to pay, allowances,
and other benefits pursuant to the provisions of the
law when applied to the facts in his case as they ap­
pear from the corrected records.” Lieutenant Stuart
M. Steen, USN, retired, B-148868, 1962 U.S. Comp.
Gen. LEXIS 2723, at *2-3 (June 26, 1962) (emphasis
added).
Because BCNR record-correction action is com­
plete and final, no further exercise of agency discre­
tion, as least as regards Mr. Sharpe’s entitlements, is
proper or required.25 Indeed, “once a discretionary
decision is made to correct a record, the grant of ap­
propriate money relief is not discretionary but auto­
matic.” Denton v. United States, 204 Ct. Cl. 188, 195
25 As Mr. Sharpe explains elsewhere, decisions to waive or
forgo offsets, though not proper matters for a “correction” of his
record or for any exercise of discretion relative to the conse­
quences of BCNR’s record correction, may certainly be made
pursuant to the authority provided by statues such as 10 U.S.C.
§ 2774 or 31 U.S.C. § 3702.

85a
(1974) (emphasis added) (citation omitted); see
Thomas v. United States, 47 Fed. Cl. 560, 580 (2000)
(explaining Denton as meaning that a plaintiff who
has “not received back pay” to which he is entitled
“should be so reimbursed,” and where there is a deci­
sion “to reinstate plaintiff,” he should be “reim­
bursed” with “all of the back pay driven by that addi­
tional relief’); Hankins v. United States, 183 Ct. Cl.
32, 34 (1968) (finding plaintiff entitled to “necessary
result[s] of the Correction Board’s determinations”).
This is because, as Acting Comptroller General
Weitzel noted, whether “acting through boards or in­
dependently of such boards,” the military depart­
ment Secretaries “are not vested. . . with any discre­
tionary power to make determinations of the specific
amounts to be paid as a result of the correction of. . .
records.” 34 Comp. Gen. at 9, 12.
What is more, agency counsel’s attempted (and il­
legal, as herein argued) exercise of discretion, so as
to fix Mr. Sharpe’s entitlements at amounts to his
own liking, is not rectified by virtue of being covered
with the fig leaf of an additional “correction” (by
memorandum) of Mr. Sharpe’s record. (Maybe Mr.
Bourne is aware that Mr. Sharpe’s entitlements arise
from an application of law and regulation to his rec­
ord “as corrected,” because his memorandum tries to
“correct” Mr. Sharpe’s record seven times, Bourne
Memorandum
l.b-.f.) But this “post hoc salvage
operationO of counsel,” Mengistu v. Ashcroft, 355
F.3d 1044, 1046-7 (7th Cir. 2004), designed to give
effect, rather transparently, only to what Mr. Bourne
personally believes Mr. Sharpe is “entitled to,”
Bourne Memorandum l.d, is, indeed, arguably void
and of no legal effect. As noted, the military depart­
ments have no discretion to exercise in determining
amounts due following a record correction. This is,

86a
again, firstly because BCNR’s decision is “final and
conclusive on all officers of the United States,” 10
U.S.C., supra., even on Mr. Bourne, and it is Mr.
Sharpe’s record as corrected by BCNR, not (a year
later) by Mr. Bourne, to which “pertinent laws and
regulations” are applied in determining the financial
consequences of the correction of that record.
DODFMR, supra, paras. 100101, 100202 (noting that
the “right to the payment of money” must originate
with a “proper correction” of a record by a military
correction board, not by Mr. Bourne). Indeed, BCNR
sent its final decision to DFAS a year ago, see JSR,
Ex. 2, at 1 (May 2, 2017), which DFAS acknowl­
edged, id., Ex. 4, at 1, and it was not “Via: Mr.
Bourne.” Moreover, there is no statutory authority—
as even NPC’s website informs us - for payment of
money (in this context) on any basis other than 10
U.S.C. § 1552, which permits payments “found to be
due” as a result of “correcting a record under this
section,” id. § 1552(c)(1) (emphasis added) - and not
“under Mr. Bourne’s pen.” Also, a correction “under
this section” must be made “by the Secretary acting
through boards of civilians,” id. § 1552(a)(1) (empha­
sis added), not through Mr. Bourne. The law here is
well established. See Weiss v. United States, 187 Ct.
Cl. 1, 12 (1966) (citing the “requirement [] that the
Secretary act through civilian boards (emphasis
added)); Hertzog v. United States, 167 Ct. Cl. 377,
385-6 (1964) (same); Proper v. United States, 139 Ct.
Cl. 511, 526 (1957) (rejecting an interpretation of the
statute that would render the words “acting through
boards” superfluous); H. C. McDaniel, Department of
the Army, 52 Comp. Gen. 952, 955 (1973) (noting
that no official even with secretarial authority may
“make any changes in an individual’s . . . record that
would result in a change of material fact or the crea-

87a
tion of a new record [absent] a proceeding” before a
correction board). Equally problematic are the facts
that record corrections “under this section” l) are on­
ly made “under procedures established by the Secre­
tary concerned,” 10 U.S.C. § 1552(a)(3)(A); cf. 32
C.F.R. §§ 723.1-723.11 (2016); 2) may not be made
without “a request for the correction” from the ser­
vice member, id.§ 1552(b); and 3) may only be made
“in favor of a serviceman and never against him.”
Doyle v. United States, 220 Ct. Cl. 285, 311 (1979).
Mr. Sharpe therefore submits that the key, and
singular, issue remaining for adjudication in this
case is the extent of the relief due him as a result of
the correction of his naval record by BCNR rather
than by Mr. Bourne. That correction removed the ev­
idence of Mr. Sharpe’s discharge from the Naval Ser­
vice just as it, necessarily, removed the evidence of
his detachment from CARL VINSON, because the
expunged orders that separated him from the service
were the orders that detached him from the ship. See
Ex. 3, at 1. So, following BCNR’s action, there is not
a shred of evidence to which Defendant can point ef­
fecting or memorializing Mr. Sharpe’s detachment
from CARL VINSON. Which means that, by applying
the relevant regulations to his record, as corrected by
BCNR, in light especially of the key opinions of this
Court, its predecessors, the CAFC, and the CGUS,
certain unavoidable conclusions result l) Mr. Sharpe
can not have detached from CARL VINSON prior to
executing his PCS orders on February 12, 2017, be­
cause a PCS requires a PCS order, and there is no
other prior order in his record; 2) calculation of Mr.
Sharpe’s entitlements are thus based on the predi­
cate fact of his attachment to CARL VINSON for the
entirety of the Constructive Service Period; 3) Mr.
Sharpe is entitled to the special pay he would have

88a
received in view of that attachment: and 4) Mr.
Sharpe is entitled to the BAH he would have re­
ceived based on the two geographic locations CARL
VINSON had during the Constructive Service Peri­
od, because regulations provide that a member’s lo­
cation for BAH purposes is the location of the home
port of the ship to which he is assigned, and that
when a ship shifts her home port, the assigned mem­
bers’ BAH rates change to the rate of the new home
port location as of the date of the shift. Indeed, Mr.
Bourne virtually gives away the game in “correcting”
Mr. Sharpe’s record to end his service aboard CARL
VINSON on September 30, 2009, Bourne Memoran­
dum Tf l.b, because the necessary implication is that,
absent Bourne’s illegal action, Mr. Sharpe’s record
would show his attachment to CARL VINSON as
continuing well beyond that date. Otherwise, what
need would there be for Bourne’s intervention? But
instead of engaging in the process which DOD regu­
lations mandate (and which have the “force and ef­
fect of law,” Jackson v. United States, 216 Ct. Cl. 25,
36 (1978)) - that payments due from “a correction of
military records” be determined “by applying perti­
nent laws and regulations to all the material facts
shown in the corrected record,” DODFMR, supra, pa­
ra. 100301, Bourne goes about it the other way: he
determines the amounts he thinks are due, and cor­
rects the record, sua sponte and ultra vires, so that
when the “pertinent laws and regulations,” id., are
applied to his facts, the outcome is to the Navy’s lik­
ing.
MSJ Correct Vehicle for Disposition of This Case
The propriety of the BCNR decision approved by
SECNAV is unquestioned; indeed, both parties agree

89a
that it constitutes the “final agency action.” See Joint
Mot. for Stay [hereinafter JMS], 2 (Nov. 24, 2015),
ECF 6; see also JSR, 1 (Dec. 12, 2016), ECF No. 20
(noting that the parties had informed the Court of
SECNAV’s “final determination” on BCNR’s recom­
mendations). Because BCNR’s action only modified
the facts in Mr. Sharpe’s record, see DODFMR, su­
pra, para. 100202 (“A proper correction and a right to
the payment of money must be a result of a change of
facts from those already in the original record, or an
addition or deletion of a fact.”) (emphasis added)
(discussing statutory record corrections); see also
Russell v. United States, 161 Ct. Cl. 183, 186 (1963)
(“[0]nly the facts found by the Correction Board are
final.”); Lieutenant Colonel H. W. Kasserman, 45
Comp. Gen. 538, 541 (Mar. 3, 1966) (“[A] a member’s
military record contains a history of the facts which
g[i]ve rise to certain legal rights under applicable
provisions of law.”), and because Mr. Sharpe takes no
issue with BCNR’s correction of those facts, there is
“no genuine dispute” in their regard, RCFC 56(a).
Mr. Sharpe therefore does not believe it appropri­
ate to return to BCNR, because it is BCNR’s unobjec­
tionable correction of his record which Mr. Sharpe
seeks to enforce. BCNR has already, quite properly,
found Mr. Sharpe’s separation “void due to plain le­
gal error” and corrected his record to reflect that he
“was not discharged . . . but has continued to serve
on active duty without interruption.” BCNR Deci­
sion, 16, 18. Consequently, the posture of this case
fits precisely within the four corners of the exception
that the CAFC in Martinez v. United States noted
makes 10 U.S.C. § 1552 a money-mandating statute-'
i.e., “when the correction board has granted relief
and the service member seeks to enforce or challenge
the implementation or scope of the remedial order”

90a
Martinez v. United States, 333 F.3d 1295, 1315 n.4
(Fed. Cir. 2003); see Sinclair v. United States, 66
Fed. Cl. 487, (2005) (noting that the Martinez excep­
tion to a cause of action accruing with the underlying
discharge applies when, as here, a board “found
Plaintiffs discharge to be unlawful, and . . . grant[ed]
relief that Plaintiff seeks to enforce”). In the context
of this exception, as here, BCNR’s work is done. It
has already “granted relief.” Martinez, id.
Nor is judgment upon the administrative record
(JAR) under RCFC 52.1 the correct proceeding. “Ju­
dicial review of [BCNR’s] decision” requires its ad­
ministrative record, Hwang v. United States, 94 Fed.
Cl. 259, 268 (2010); accord Greene v. United States,
65 Fed. Cl. 375, 382 (2005); see Walls v. United
States, 582 F.3d 1358, 1367 (Fed. Cir. 2009), but that
decision is not disputed here. So JAR proceedings,
i.e., “a paper trial based upon the [agency’s] docu­
ments,” where the “Court makes factual findings,”
Strand v. United States, 127 Fed. Cl. 44, 49 (2016)
(citations omitted), appeal docketed, No. 16*2450
(Fed. Cir. Aug. 10, 2016), are not apposite.
Mr. Sharpe’s claims as herein consolidated now
address solely whether Mr. Bourne’s attempt to cor­
rect his record is ultra vires and whether the facts of
his record as corrected by BCNR (and not Mr.
Bourne) “entitle [him] to the benefit [s] of [the rele­
vant] statute[s].” Russell, supra. Because, therefore,
these claims “require [] the interpretation of a stat­
ute, and, hence, [are] question^] of law,” id.', see also
Clary v. United States, 333 F.3d 1345, 1348 (Fed.
Cir. 2003) (citations omitted) (“Issues of statutory in­
terpretation are reviewed de novo.”)', because a re­
turn to BCNR will not produce a relevant remedy,
insofar as “Where is no place in [a military] record
for a formal statement of a conclusion of law relating

91a
to the rights which accrue as a result of’ correctionboard action, 45 Comp. Gen. at 541; and because a
correction-board applicant who disagrees with a prof­
fered amount due from its action “may look to the
Court of Claims . . . for consideration and settlement
of his claim against the United States,” 34 Comp.
Gen. at 10; accord Ray, 197 Ct. Cl. at 7, Mr. Sharpe
respectfully submits that this Court’s consideration
of his MSJ is the most appropriate and expeditious
path to disposition of his remaining claims. The MSJ
is in fact especially appropriate “when there is no
administrative record reflecting a prior [adverse]
agency or board decision on plaintiffs claims,” Lippmann v. United States, 127 Fed. Cl. 238, 252 (2016)
(citation omitted). Moreover, to the extent needed in
this case, the Court may take judicial notice of pub­
licly verifiable information such as statutes, regula­
tions, pay tables, and government documents sub­
mitted by the parties. Anchor Savings Bank v. Unit­
ed States, 121 Fed. Cl. 296, 317 n.23 (2015) (“This
court adheres to Rule 201 of the Federal Rules of Ev­
idence” and “may take judicial notice ... at any stage
of the proceeding” of “facts which can be accurately
determined by consulting reliable sources.”) (cita­
tions omitted) (quoting Fed. R. Evid. 201(b), (c)). Fi­
nally, Mr. Sharpe is firmly convinced that the “mate­
rials filed in [this] case [will] reveal that ‘there is no
genuine dispute as to any material fact and [that he]
is entitled to judgment as a matter of law,”’
Lippman, 127 Fed. Cl. at 244 (quoting RCFC 56(a)).
This Court has somewhat recently observed that,
“once a military personnel board has decided that
benefits are appropriate and the Secretary’s designee
has expressly adopted that determination, this court
would be hard pressed to explain convincingly why it
should not award those benefits as part of the relief

92a
appropriate to compensate a claimant.” Metz v.
United States, 65 Fed. Cl. 631, 636 (2005) (citation
omitted). In view of that observation, along with the
additional points herewith submitted, Mr. Sharpe
hereby moves this honorable Court for leave to file
the second part of this status report as his Second
Amended Complaint and Motion for Summary
Judgment, and likewise respectfully moves the Court
for leave to style his five statements of disagreement
with Defendant’s back-pay proposal as five Counts of
his SAC, regarding which he moves the Court, final­
ly, to find that there is no genuine dispute as to any
material fact and that Mr. Sharpe is therefore enti­
tled to judgment as a matter of law.
The Back-Pay Proposal: Summary of Response
1. As outlined supra and detailed infra, Mr.
Sharpe stipulates as to the rectitude of Defendant’s
decisions regarding the offsets of his interim civilian
moonlighting earnings, the LSL payment he received
in October 2009, and the life-insurance premiums,
with caveats as noted. And, regarding the amounts
indicated for which there is agreement between his
figures and Defendant’s, Mr. Sharpe stipulates that
those amounts are correct and undisputed.
2. On the other hand, in the Counts that follow,
Mr. Sharpe disputes some of Defendant’s determina­
tions. First, regarding the amounts for which his fig­
ures and Defendant’s figures do not agree, Mr.
Sharpe disputes the former’s amounts and claims en­
titlement to additional amounts as below detailed.
Additionally, as also noted already, Mr. Sharpe
claims entitlement to BAH at the San Diego rate be­
tween April 1, 2010, and February 12, 2017 (applica­
ble to CARL VINSON’s geographic location at the

93a
time), and to Sea Pay for the duration of his Con­
structive Service Period. He also claims entitlement
to the differences in BP and BAH between the 05pay-grade amounts, at the San Diego BAH rate, and
what he has received or will receive at the 04 pay
grade, for the period from February 13, 2017, when
his active-duty pay started following reinstatement,
until his base pay changes to the 05 pay grade (for
the pay-grade-dependent differential) and until he
reports to his Washington, D.C., PDS (in terms of the
BAH-entitlement differential). Finally, he disputes
the withholding of state tax from the amounts due.
3. In support of the Counts and stipulations to
which it is applicable, Mr. Sharpe’s offers the Court
and the Defendant a chart reflecting his calculations
of claimed entitlements and their sources. See Ex. 4,
at 1. For clarity, the 04 entitlements are lined out
wherever they are inapplicable. For comparison with
Defendant’s figures, the chart includes calculations
for BAH at the Norfolk, Va., as well as the San Die­
go, Calif., rate. The chart stops at May, 31, 2017, be­
cause that is when DFAS indicated it will begin Mr.
Sharpe’s regular 05 pay, Ex. 1, at 1, though the San
Diego BAH amount shown will only be good until Mr.
Sharpe reports to Washington, D.C..Finally, for ease
of reference, the Roman numerals in the summary
figure at the outset of this report match the number­
ing of the Counts infra that identify Mr. Sharpe’s
claims and disagreements with Defendant’s pro­
posals.
The Back-Pay Proposal Part B Stipulations

94a
A. Entitlements based upon the difference between
the 05 and 04 pay grades for the period August
1, 2008, to September 30, 2009
1. Base pay
4. Defendant has determined, DSR, 3, that Mr. Sharpe is
owed $5720.50 for this period and entitlement.
5. Mr. Sharpe agrees with and accepts the deter­
mination recited in paragraph 4 supra.
2. Basic allowance for housing
6. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $2857.00 for this period and entitle­
ment.
7. Mr. Sharpe agrees with and accepts the deter­
mination recited in paragraph 6 supra.
3. Career sea pay
8. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $700.00 for this period and entitle­
ment.
9. Mr. Sharpe accepts the determination recited
in paragraph 8 supra, subject to the following clarifi­
cation.
10. Mr. Sharpe’s calculations, see Ex. 4, at 1 (cells
N5 to N8), reflect that he was paid during this period
at the rate of $280.00 per month through June 8,
2009, because he had five years of cumulative sea
duty, and at the rate of $285.00 per month thereaf­
ter, because his sea duty counter, as of June 9, 2009,
reflected six years of cumulative sea duty. Defend­
ant’s calculations fail to use the monthly rates ap­
propriate for Mr. Sharpe’s years of sea duty, and in­
stead assume that he was previously paid only at the

95a
rate of $260.00 per month. Mr. Sharpe believes that
he is owed only $471.33 rather than $700.00 for this
period, but would accept the difference of $228.67
against other entitlements herein claimed, should
Defendant wish to agree thereto.
B. Entitlements at the 05 pay grade for the period
October 1, 2009, to April 24, 2016
1. Base pay
11. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $639,015.37 for this period and enti­
tlement.
12. Mr. Sharpe agrees with and accepts the de­
termination recited in paragraph 11 supra.
2. Basic allowance for subsistence
13. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $18,781.63 for this period and enti­
tlement.
14. Mr. Sharpe agrees with and accepts the de­
termination recited in paragraph 13 supra.
3. Basic allowance for housing
15. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $191,135.40 for this period and enti­
tlement.
16. Mr. Sharpe accepts the Defendant’s determi­
nation recited in paragraph 15 supra to the extent
that he does not dispute that he is entitled to receive
at least the amount indicated, but he disagrees with
and disputes the Defendant’s determination that he
is entitled only to that amount, and suggests that he
is also entitled to receive an additional $42,112.20 for

96a
this period on the basis of his view, detailed infra at
Count II, that the correct total amount is
$233,247.60, see Ex. 4, at 1 (cell U32), and he invites
the Defendant to so stipulate.
17. Incidentally Mr. Sharpe wishes to note that
his calculations, see Ex. 4, at 1 (cell S32), indicate
that his BAH entitlement at the Norfolk, Va., rate is
$185,490.60. He cannot identify the source of the di­
vergence between his calculations and Defendant’s
because the latter has not submitted information as
to how its calculations were performed or as to the
pay rates and periods that provided their bases.
DSR, Ex. 4, at 1 (noting “see attached calculation”
but providing no calculation). In the event Mr.
Sharpe does not prevail in establishing his entitle­
ment to BAH as alleged infra at Count II, he would
accept the difference of $5,644.80 between his and
Defendant’s calculations against other entitlements
herein claimed, should Defendant wish to agree
thereto.
C. Entitlements at the 05 pay grade for the period
April 25, 2016, to February 12, 2017
1. Base pay
18. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $85,213.44 for this period and enti­
tlement.
19. Mr. Sharpe accepts the Defendant’s determi­
nation recited in paragraph 18 supra to the extent
that he does not dispute that he is entitled to receive
at least the amount indicated, but he disagrees with
and disputes the Defendant’s determination that he
is entitled only to that amount, and suggests that he
is also entitled to receive an additional $260.82 for

97a
this period on the basis of his claim, infra at Count I,
that the correct total amount is $85,474.26, see Ex. 4,
at 1 (cell Q37), and he invites the Defendant to so
stipulate.
20. Mr. Sharpe notes that he is entitled to month­
ly 05 BP of $9,062.70 for 2017, see DFAS Military
Pay Charts, httpsV/www.dfas.mil/militarymembers/
payentitlements/military-pay-charts.html (last visit­
ed May 18, 2017). It appears that Defendant calcu­
lated the 2017 BP base pay entitlement at the 2016
rate of $8,876.40 per month, id., though Defendant
offers no details as to its calculations, DSR, Ex. 4, at
2 (noting “see attached calculation” but providing
none). See Ex. 4, at 1 (cells P36-Q37). The monthly
difference of $186.30 and the forty-two days’ (Janu­
ary 1 to February 12) worth of this error would ac­
count for the difference of $260.82.
2. Basic allowance for subsistence
21. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $2,434.85 for this period and enti­
tlement.
22. Mr. Sharpe agrees with and accepts the de­
termination recited in paragraph 21 supra.
3. Basic allowance for housing
23. Defendant has determined, DSR, 4, that Mr.
Sharpe is owed $23,644.80 for this period and enti­
tlement.
24. Mr. Sharpe accepts the Defendant’s determi­
nation recited in paragraph 23 supra to the extent
that he does not dispute that he is entitled to receive
at least the amount indicated, but he disagrees with
and disputes the Defendant’s determination that he

98a
is entitled only to that amount, and suggests that he
is also entitled to receive an additional $6,904.20 for
this period on the basis of his view, detailed infra at
Count II, that the correct total amount is $30,549.00,
see Ex. 4, at 1 (cell U37), and he invites the Defend­
ant to so stipulate.
25. Incidentally Mr. Sharpe wishes to note that
his calculations reflect (see Ex. 4, at 1, cell S37) that
his BAH entitlement at the Norfolk, Va., rate is
$21,718.20. He cannot identify the source of the di­
vergence between his calculations and Defendant’s
because the latter has not provided information as to
how its calculations were performed or as to the pay
rates and periods that provided their bases. DSR, Ex.
4, at 2 (noting “see attached calculations” for further
detail but providing none). In the event Mr. Sharpe
does not prevail in establishing his entitlement to
BAH as alleged infra at Count II, he would accept
the difference of $1,926.60 between his and Defend­
ant’s calculations against other entitlements herein
claimed, should Defendant wish to agree thereto.
D. Offsets against entitlements
1. Setoff of interim civilian earnings from moon­
lighting
26. Defendant has determined, DSR, 1, that Mr.
Sharpe’s civilian wages from the Constructive Ser­
vice Period should not be set off against the amounts
found due to him.
27. Mr. Sharpe agrees with and accepts the de­
termination recited in paragraph 26 supra, subject to
the following clarifications.
28. Mr. Sharpe wishes to note for the record his
disagreement with the purportedly discretionary

99a
finding that he “was authorized to engage in outside
employment,” Bourne Memorandum l.a, to the ex­
tent that the cited circular references (one simply
points to the other) do not require such a finding, but
rather establish the presumption that a DOD em­
ployee is free to engage in outside employment “ [i] f
action is not taken to prohibit the employment or ac­
tivity.” Joint Ethics Regulation, DoD 5500.7-R, para.
2-303.b (1993). Insofar as Mr. Sharpe’s record con­
tains no such prohibition, the purported “finding” is
arguably unnecessary.
29. Mr. Sharpe additionally wishes to note that,
as an exception to the facially non-discretionary lan­
guage of 32 C.F.R. § 723.10(c)(1) (2016) (“Earnings
received from civilian employment. . . during any
period for which active duty pay and allowances are
payable will be deducted from the settlement.”); ac<%>rc/DODFMR, Volume 16, para. 040602, the exemp­
tion of moonlighting wages from the general re­
quirement that civilian earnings be set off is solely a
creature of case law developed in this Court, its pre­
decessors, and the CAFC, see, e.g, Montiel v. United
States, 40 Fed. Cl. 67, 70 (1998). Presumably the De­
fendant can act under 31 U.S.C. § 3702 (2016) or
other authority, and its willingness to apply the ex­
emption is appreciated.
2. Servicemembers’ Group Life Insurance (SGLI)
premiums
30. The Defendant has determined, DSR, 2, that
the amounts due to Mr. Sharpe should not be re­
duced by $2992.00, which amount represents SGLI
premiums Defendant maintains would have been
paid but for his unlawful separation, as long as he
provides to NPC a “backdated” form, DSR, Ex. 2, at

100a
2, “indicating that, for constructive service purposes,
he declines SGLI” for the Constructive Service Peri­
od, Bourne Memorandum If l.e.
31. Mr. Sharpe agrees with and accepts the de­
termination recited in paragraph 30 supra, subject to
the following clarifications.
32. As detailed below, infra f^f 143—156, Mr.
Sharpe disputes the lawfulness of Defendant’s coun­
sel purporting to “correct” his naval record, and he
makes this observation here solely to avoid any ap­
pearance of acquiescing in Defendant’s arguably un­
lawful “record correction.”
33. Mr. Sharpe is, however, happy to accept De­
fendant’s determination as to the allegedly due lifeinsurance premiums because he believes that, not­
withstanding the absence of authority for the under­
lying record correction, Defendant’s forgoing of re­
coupment of said premiums is warranted, as noted in
the margin,26 or at least discretionary under 31
U.S.C. § 3702.
26 There is apparently no authority addressing whether ret­
rospective insurance coverage is part of the “legal fiction” of
constructive service, see, e.g., Barnick v. United States, 591
F.3d 1372, 1379 (Fed. Cir. 2010) (citations omitted). Still, feder­
al regulations permit the reduction of amounts found due inci­
dent to a record correction “by the amount of any existing in­
debtedness to the Government arising from military service,”
but only “to the extent authorized by law and regulation.”
DODFMR, Volume 16, para. 040602; accord 32 C.F.R. §
723.10(c)(1) (2016). Unpaid SGLI premiums are not debts,
which only arise only from erroneous payments received. See 32
C.F.R. § 283.3 (2016). Nor does any “law [or] regulation,”
DODFMR, supra, authorize the recoupment of unpaid SGLI
premiums via administrative setoff or any other recognized
debt-collection means. The non-payment of premiums due is
instead addressed in four ways. First, a service member who
fails to make direct premium payments when required to do so,
see 38 U.S.C. § 1969(a)(2)(A) (2012), has coverage terminated

101a
34. As invited, Mr. Sharpe has executed and
submitted to counsel a backdated form SGLI 8286
declining, for constructive-service purposes, SGLI for
the Constructive Service Period. See Ex. 5, at 1—2
(Servicemembers’ Group Life Insurance Election and
Certificate).
3. Lump-sum leave (LSL) payment
35. The Defendant has determined, DSR, 2, that
amounts due to Mr. Sharpe should not be reduced by
the amount of the LSL payment he received when he
was separated from the Navy.
36. Mr. Sharpe agrees with and accepts the de­
termination recited in paragraph 35 supra, subject to
the following clarifications, and provided Defendant
sixty days following the date he is notified of his failure, unless
before the termination he remits all amounts due and justifies
the delay: to the Secretary concerned. 38 U.S.C. § 1969(a)(2)(B)
(2012); DODFMR, Volume 7A, para. 470504. The premiums are
not collected as debts for the months during which a member is
insured without having made the required payments. Instead
(the second scenario), unpaid premiums are deducted from his
policy proceeds, 38 U.S.C. § 1969(a)(4); DODFMR, supra, para.
4708.A, in the event of a payout for a death during that twomonth (or longer) premium-nonpayment period. Third, SGLI
coverage is reinstated for a military member who is restored to
duty with pay following appellate leave incident to a courtmartial, DODFMR, Volume 7A, para. 4704, but no premiums
are recouped on the theory that the member had “retroactive”
coverage during his leave. Finally, SGLI is protected by statute
as “incontestable,” except in the case of “nonpayment of premium[s].” 38 U.S.C. § 1979 (2012). Since statute and regulation
articulate these express remedies for the non-payment of pre­
miums, expressio unius exclusio alterius arguably renders their
collection as indebtedness via offset in a record- correction case
not “authorized by law and regulation,” DODFMR, supra; 32
C.F.R, supra.

102a
properly credits Mr. Sharpe’s pay account with sev­
enty-one days’ leave accrued during the Constructive
Service Period.
37. By way of background, a member may be paid
for any unused leave to his credit upon discharge
from the service. 37 U.S.C. § 501(b)(1), (f) (2012)
(providing for the payment of up to sixty days of un­
used accrued leave to a member “at the time of his
discharge”); accord DODFMR Volume 7A, para.
350201.A.1, .2.a. When he was separated, Mr.
Sharpe was paid $13,380.00 for sixty days’ worth of
the 105 days of leave he had accrued. See Ex. 6, at 3,
5 (September 2009 Leave and Earnings Statement
(LES) showing 105 days of accumulated leave and
October 2009 LES reflecting the lump-sum leave
payment and no leave).
38. Defendant’s counsel suggests that “DFAS
should waive the offset of the lump-sum leave pay­
ment [Mr. Sharpe] received when he was separated
from the Navy in 2009, because those days of accu­
mulated leave cannot be restored to [him].” Bourne
Memorandum
l.f. Defendant appears to equivo­
cate, however, regarding counsel’s suggestion and
instead indicates that “if DFAS is able to restore the
leave to Mr. Sharpe, then it will offset the lump-sum
leave payment in the amount of $13,308.00.” DSR, 2.
39. Mr. Sharpe respectfully notes that Defend­
ant’s “either-position appears to run counter to the
express terms of this Court’s Order, which stated
that no items were to be reported as “‘still being ex­
amined,’ or .. . ‘to be determined.’” Order, 1, ^ 1. If
DFAS does intend to withhold the $13,308.00, it is
difficult to see what value to place in the agency’s
statement that it will “waive the offset” of that
amount. Bourne Memorandum Tf l.h. Mr. Sharpe’s
stipulation in this matter is therefore limited to the

103a

Defendant’s position as recited in paragraph 36 su­
pra.
40. Defendant’s counsel further incorrectly sug­
gests that Mr. Sharpe’s record “should be corrected
to show a leave balance of 60 days to reflect the max­
imum amount of leave [he] is statutorily authorized
to carry from his constructive service period.” Bourne
Memorandum ^ l.f.
41. Though Mr. Sharpe objects, as noted at para­
graph 32, supra, hereby incorporated by reference, to
any purported “correction” of his record by Defend­
ant’s counsel, he maintains in any event that coun­
sel’s so-called correction is itself incorrect, for the
reasons that follow.
42. Members of an armed force accrue leave at
the rate of thirty days per year. 10 U.S.C. § 701(a)
(2012), and they “may not accumulate more than 60
days’ leave.” Id. § 701(b).
43. Because Mr. Sharpe’s separation has been set
aside, he has accumulated leave during his Con­
structive Service Period and, based upon the statuto­
ry rate of accrual and the Constructive Service Peri­
od running for longer than two full fiscal years, Mr.
Sharpe’s constructive record should reflect the max­
imum of sixty days’ leave as of October 1, 2016.
44. Following October 1, 2016, Mr. Sharpe con­
structively accrued leave at the regular rate, such
that he should have earned an additional 17.5 days
for the current fiscal year between October 1, 2016,
and, e.g., the end of April 2017, for a total of 77.5
based upon the 17.5 from this year and the 60 earned
during two of the several fiscal years of the Con­
structive Service Period prior to October 1, 2016.27
27 Technically Mr. Sharpe had a zero leave balance on Octo­
ber 1, 2009, because the sixty he could carry forward were sold.
See Ex. 6, at 5 (October 2009 LES). He then earned his balance

104a
His most recent LES reflects the correct number of
leave days. See Ex. 5, at 7 (April 2017 LES reflecting
77.5 days of leave).
45. Defendant’s figures appear to acknowledge
this, though in a backhanded way, by making refer­
ence to “reverse leave sell [-] 71 days LSL added to
member’s record.” DSR, Ex. 4, at 1. The apparent
problem with this note is that Mr. Sharpe “sold” only
sixty days’ leave to the government upon his separa­
tion (and these were leave days that had accrued to
him prior to his September 30, 2009, separation),
and the only possible source of the figure of seventyone is the days of leave that Mr. Sharpe accrued fol­
lowing his separation, during the Constructive Ser­
vice Period — i.e., a sum of the maximum of sixtydays that could be carried through September 30 of
fiscal year (FY) 2016, plus the eleven days earned for
FY 2017 through February 12. (The eleven accrued
on top of the sixty-day maximum because they are
available for use until the end of the fiscal year. See
10 U.S.C. § 701(b) (2012) (“Leave taken during a fis­
cal year may be charged to leave accumulated during
that fiscal year without regard to [the sixty-day] lim­
itation.”). Again, it is likely that DFAS understands
this, because Mr. Sharpe’s April 2017 LES shows a
“before balance” of 71 days’ leave. See Ex. 6, at 7
(block “BF Bal”).
46. Mr. Sharpe’s case is arguably controlled by an
on-point decision of the DOHA CAB. Mutatis mutan­
dis, the decision stated that

of sixty by the end of FY 2011 so that his record would have re­
flected sixty days’ leave by September 30, 2011. Those are the
sixty days carried forward to October 1, 2016 — because all sub­
sequently earned leave is lost owing to the statutory limit.

105a
37 U.S.C. § 501(f) prevents the crediting of
more than 60 days to [a] member’s leave ac­
count in any fiscal year. That limitation gov­
erns correction settlements. See 56 Comp.
Gen. 587 (1977). While it is true that [Mr.
Sharpe] would have accrued 30 days per
year, or a total of [221] days of leave between
[October 1, 2009, and February 12, 2017], he
would not have been able to carry over more
than 60 days from one fiscal year to the next.
See 10 U.S.C. §70l(b).
DOHA CAB Decision, Claims Case No. 00060601
(Aug. 3, 2000), httpV/ogc.osd.mil/doha/ claims/ mili­
tary/0006060 l.html.
47. Wherefore Mr. Sharpe submits that his leave
account should show a total of seventy-one days’
leave to his credit from the Constructive Service Pe­
riod, exclusive of the leave he has earned since his
February 13, 2017, reinstatement, he invites the De­
fendant to so stipulate.
The Back-Pay Proposal Part IP
Disagreements, Second Amended Complaint,
and Motion for Summary Judgment
48. Insofar as leave of the Court is herein re­
quested to style this portion of the status report as a
Second Amended Complaint and Motion for Sum­
mary judgment, Mr. Sharpe states in what follows
his disagreements with defendants position equally
as Counts of his SAC and as claims in his MSJ, in
view of which he asks the Court to award him judg­
ment as a matter of law.
49. In order to ensure that the SAC is properly
perfected, Mr. Sharpe provides infra pursuant to

106a
RCFC 8(a)(1) a statement of the grounds for the
court’s jurisdiction, in additional support of the un­
disputed jurisdiction already held by the Court over
his claims. He also incorporates by reference to his
first Amended Complaint his identification of the
parties, Am. Compl.
1-2, (Oct. 14, 2015), ECF No.
4, his preliminary statement and statement of the
basis of his original claims (for background regarding
the claims favorably resolved by BCNR), Am. Compl.
4-5, 9—11, and his statement of the propriety of
venue, Am. Compl. f 7.
Timeliness
50. This SAC is timely because Mr. Sharpe’s orig­
inal Complaint was timely filed, Compl. 8 (Sep. 29,
2015), ECF No. V, see also JMS, 4 (noting Mr. Sharpe
filed his Complaint “while he was still within the sixyear statute of limitations”), and because it asserts
claims arising from the conduct, transactions, and
occurrences set out in the original Complaint, see
RCFC 15(c)(1)(B); see generally Compl. Tf^f 1-428,
and the first Amended Complaint, see generally Am.
Compl.
1-491, or because, in addition or in the
alternative, Mr. Sharpe’s current cause of action ac­
crued on April 25, 2016, well within the six-year
statute of limitations, see 28 U.S.C. § 2501 (2012),
upon the approval by SECNAV of BCNR’s decision
entitling him to the back and regular pay and allow­
ances that are herein claimed and which Defendant
has now indicated it will not in their entirety pay to
Mr. Sharpe. See Martinez, 333 F.3d at 1315 n.4 (not­
ing that for a successful correction-board applicant, a
cause of action does not accrue “at the time of [an]
allegedly improper discharge” but rather at the time
of a correction-board’s “remedial order” when it

107a
“grant[s SECNAV-approved] relief’; the original
cause of action is not the discharge, because “wheth­
er the original discharge was lawful is no longer in
issue”); BCNR Decision, 16, 18 (finding Mr. Sharpe’s
separation “void” and directing correction of his rec­
ord to reflect that he “was not discharged . . . but has
continued to serve on active duty”); Denton, 204 Ct.
Cl. at 195 (holding that if “a discretionary decision is
made to correct a record [and] appropriate payment
is not then made, a cause of action accrues in this
court at that time (emphasis added)); DeBow v.
United States, 193 Ct. Cl. 499, 504 (1970) (“A major
reason why we have extended the concept of a ‘new
cause of action’ or a ‘continuing claim’ to petitions
grounded upon a beneficial administrative determi­
nation which cuts off a claimant without the full re­
lief he seeks, and to which he is entitled, is that, once
the Board decides to give a remedy, it should not be
free to slice the relief illegally or arbitrarily.”).
Jurisdiction
51. The Court’s jurisdiction over this claim for
money owed by the United States to Mr. Sharpe as a
member of a uniformed service, 37 U.S.C. § 101(3)
(2012), pursuant to Acts of Congress - namely, 10
U.S.C. § 1552, which is money mandating where, as
here, “the Secretary makes a correction to a military
record and then fails to pay . . . the resulting relief,”
Pride v. United States, 40 Fed. Cl. 730, 734 (1998)
(citing cases), and 37 U.S.C. §§ 204(a)(1), 305a(a), (c),
403(a)(1) (2012) (providing for base pay, special pay
to a member on “sea duty,” a monthly “career sea pay
premium” when a member serves beyond thirty-six
consecutive months of sea duty, and “basic allowance
for housing”) - arises under the Tucker Act, see 28

108a
U.S.C. § 1491(a)(1) (2012), and its jurisdiction over
the claims for collateral relief, see id.§ 1491(a)(2),
arises from its jurisdiction over the claim for money.
52. Furthermore, the claims stated herein raise
justiciable controversies because the Court can eval­
uate the lawfulness of Defendant’s actions against
the “tests and standards” afforded by statute and
regulation, see Murphy v. United States, 993 F.2d
871, 873 (Fed. Cir. 1993); Voge v. U.S., 844 F.2d 776,
780 (Fed. Cir. 1988), and because “once a military
personnel board has decided that benefits are appro­
priate and the Secretary’s designee has expressly
adopted that determination,” their award is no long­
er discretionary, Polk v. United States, 73 Fed. Cl.
331, 332-33 (2006) (citation omitted); accord Dehne
v. United States, 23 Cl. Ct. 606, 616 (1991) (noting
that an agency “cannot refuse to grant monetary re­
lief which flows as a natural consequence of its [cor­
rection-board] action.” (citations omitted)), vacated
on other grounds, 970 F.2d 890 (Fed. Cir. 1992).
Procedural Posture
53. On September 29, 2015, Mr. Sharpe filed suit
in this Court seeking relief from various actions tak­
en by the Navy and claiming entitlements to pay and
allowances of which he was improperly deprived by
those actions, along with appropriate collateral re­
lief. See generally Compl., 1-97. The following day,
Mr. Sharpe applied for relief to the BCNR, a panel of
which voted, on October 7, 2015, to grant his petition
in full. BCNR Decision, 1-19.
54. The relief recommended by BCNR included
inter alia correction of his record: l) to reflect that he
“was not discharged from the Naval Service, but has
continued to serve on active duty without interrup-

109a
tion”; 2) to remove “all documentation pertaining to
the . . . administrative separation, including but not
limited to the . .. DD Form 214 (Certificate of Dis­
charge from Active Duty) of 30 September 2009
[and] . . . the CNPC messages pertaining to Petition­
er’s ADSEP dated 151230ZSEP09, 151231ZSEP09,
151632ZJUL09, and 151633ZJUL09”; 3) to “correct□,
remove [], or completely expunge 0 from [Mr.
Sharpe’s] record” any “material or entries incon­
sistent with the foregoing” directives; and 4) to as­
sure that “no such entries or material be added to
[his record] in the future.” Id., 18.
55. Before BCNR’s decision was approved, the
parties jointly moved for a stay on the claims before
this Court in order to allow the Navy to finalize its
action on BCNR’s recommendations. JMS, 1-4. The
Court subsequently granted the motion and directed
the first of a series of joint status reports. Order, 1
(Dec. 1, 2015), ECF No. 7.
56. On May 2, 2016, the parties notified the Court
that the delegate of the SECNAV approved BCNR’s
decision, as above recited, on April 25, 2016, and
provided the Court a copy thereof. BCNR Decision,
19; JSR, 1 (May 2, 2016).
57. On December 7, 2016, in implementation of
BCNR’s decision to show that Mr. Sharpe had never
left active duty, Defendant issued “recall” orders for
Mr. Sharpe to report to a new PDS in Washington
D.C., no later than the last day of May 2017, via
stops at two intermediate activities between, respec­
tively, February 13 and 22, and February 23 and
March 30, 2017. See Ex. 8, at 1—3 (BUPERS ORDER
3426); see also JSR, 1 (Dec. 12, 2016) (referring to
Mr. Sharpe returning to active duty no later than
February 13, 2017). The orders indicated that Mr.

110a
Sharpe was being recalled to active duty and was
“detaching from home.” See Ex. 8, at 1, 4.
58. On December 12, 2016, Defendant reported
that DFAS would calculate amounts due Mr. Sharpe
resulting from his promotion to 05 and his rein­
statement to active duty as directed by BCNR. JSR,
1-2 (Dec. 12, 2016).
59. In anticipation of his return to duty, and fore­
seeing the disagreement over Mr. Sharpe’s BAH en­
titlement, both as regards the Constructive Service
Period and as regards the period between the date he
returned to active duty and the date he reports to his
Washington, D.C., PDS, Mr. Sharpe attempted to
advise the Court that the Navy’s orders, showing
him as transferring from home rather than from his
prior PDS consistent with both the evidence of record
and BCNR’s direction to treat him as if he “was not
discharged . . . but has continued to serve on active
duty without interruption,” BCNR Decision, 18,
risked “prejudicing the record that will form the ba­
sis for calculation of [his] entitlements.” See Joint
Mot. to Suppl. the JSR, 8 (Jan. 6, 2017), ECF No. 22.
Though the Court subsequently, on February 13,
2017, found moot the parties’ motion to supplement,
the Defendant therein admitted that memorializing
the recall orders as part of Mr. Sharpe’s record
“would be contrary to the BCNR recommendations.”
See Joint Mot. to Suppl. the JSR, 22.
60. In a further effort to document a correct de­
termination of the BAH issue without the need for
this Court’s intervention, Mr. Sharpe alerted Navy
authorities of his claimed entitlement to BAH at the
rate currently applicable to members attached to
CARL VINSON home ported in San Diego. See Ex. 9,
1-6 (Feb. 7, 2017, letter to Head, Military Pay and
Compensation Policy (Chief of Naval Operations

111a
(OPNAV) N130), less enclosures, all of which are
hereto attached or otherwise already before the
Court). Mr. Sharpe’s letter requested
a determination . . . regarding his claim to
entitlement, according to applicable regula­
tions, to BAH at the rate for the San Diego
(CA038) military housing area (MHA), based
upon [his] assignment to the USS CARL
VINSION (CVN 70) as [his] previous PDS, up
to the day before the date [he] report [s] to
[his] new PDS in May 2017 under current
permanent change of station (PCS) orders.
Id., 1.
61. On February 13, 2017, OPNAV Nl30’s reply
summarily denied what he characterized as Mr.
Sharpe’s “request” and self-servingly noted a service
member’s entitlement to “a housing allowance based
on the member’s location,” see Ex. 10 f 1, citing to
Per Diem, Travel and Transportation Allowance
Committee, The Joint Travel Regulations [hereinaf­
ter JTR], para. 10002 (2016) (stating that “in gen­
eral, a member ... is authorized a housing allowance
based on the member’s grade, dependency status,
and location”), while ignoring the more specific regu­
lation providing that BAH is paid “based on the
member’s PDS, or the home port for a member as­
signed to a ship or afloat unit,” id., para. 10402.B.
OPNAV N130 also failed to address the regulations
that Mr. Sharpe cited standing for the proposition
that “‘[g]eography-based station allowances’ are de­
termined by the location of the ship’s home port” for
a member assigned to a ship, see Ex. 9, If 4.a (altera­
tion in original), and simply ignored Mr. Sharpe’s re-

112a
quest for “a written statement of findings of fact and
conclusions of law,” id. f 5.
62. On May 2, 2017, Defendant moved the Court
for a further stay of forty-five days and reported that,
in order to finalize the calculations of back-pay
amounts owed to Mr. Sharpe, DFAS required “a
memorandum from the Navy’s Chief of Naval Per­
sonnel [CNP], reflecting the personnel decisions” en­
abling the “reconstructing [of] Mr. Sharpe’s person­
nel record for [the] .. . years” of his separation. JSR,
2 (May 2, 2017). On May 5, the Court ordered De­
fendant to submit a status report stating the final
amounts it believes are due to Mr. Sharpe. Order, 1.
63. In response to the Court’s Order, Defendants
produced a memorandum to DFAS from Mr. Brian D.
Bourne, Bureau of Naval Personnel (BUPERS) Dep­
uty Legal Counsel (00-J), “requesting] that DFAS
take ... actions pertaining to [Mr.] Sharpe’s pay to
correct his record” to show inter alia l) “that his sea
duty ended on 30 Sep 09,” 2) “BAH allowance at the
Norfolk, Virginia rate from 1 Oct 09 until he re­
turned to active duty on 13 Feb 17,” 3) that “he is not
entitled to [CSP],” and 4) that “he is not entitled to
[CSP-P].” Bourne Memorandum
1, l.b-.d.
64. Because Mr. Sharpe believes that the Bourne
Memorandum is unlawful and ultra vires and is
therefore null, void, and of no effect upon his record
as corrected by BCNR, and because Mr. Sharpe
therefore claims title by law to the disputed back pay
and allowance amounts herein indicated on the basis
of that record, Mr. Sharpe now seeks leave of this
Court to revise his complaint and move for summary
judgment on each and all of his claims.
Facts That Cannot Be Genuinely Disputed

113a
65. Mr. Sharpe asserts the following facts either
derived from incontestable evidence previously sub­
mitted by the parties or submitted herewith, or of
universal notoriety, or notorious within this Court’s
jurisdiction, or susceptible of ready and accurate de­
termination from reliable sources whose accuracy
cannot reasonably be questioned, and of which Mr.
Sharpe requests this Court, to the extent necessary,
to take judicial notice.
66. Mr. Sharpe’s Home of Record (HOR) is and
has been Cerritos, Calif., since his 1989 accessioning
onto active duty. Ex. 11, at 1—2; Ex. 12, at 1, block
7.b.
67. Prior to the events that gave rise to his appli­
cation to BCNR, Mr. Sharpe’s
record in the [Nlaval [S] ervice was unblem­
ished. He graduated from the U.S. Naval
Academy in the top 4 percent of his class and
was accepted into the submarine community
where he was certified as a Submarine Of­
ficer and Nuclear Engineer Officer before
transferring into the Public Affairs Officer
(PAO) community in November 1999 ....
In June 2004 [he] was assigned to the
Pentagon as the Director for Plans and Policy
in the office of the Navy Chief of Information
(CHINFO). He was highly regarded for his
performance, as his fitness reports and re­
ceipt of additional awards reflect....
On 13 February 2007, based on his out­
standing performance and qualifications, the
FY-08 Active Duty CDR .... Selection Board
selected [him] for promotion to CDR.
BCNR Decision IHf 3.c, .d, .y.

114a
68. On March 28, 2006, Mr. Sharpe was assigned
to CARL VINSON as the ship’s Public Affairs Officer
(PAO) via BUPERS ORDER 0876, to report in June
2006 with a PRD of June 2008, and he reported
aboard on June 20, 2006. Ex. 7, at 1, % Ex. 13, at l;
Ex. 24, at l; BCNR Decision U 3.w.
69. A “PRD” is a “Projected Rotation Date.” Naval
[hereinafter
Military
Personnel
Manual
MILPERSMAN], Article 1301*104, para 2 (2003).
70. When Mr. Sharpe reported to CARL VINSON,
his regular place of work was an office building in
downtown Newport News, Va., and the ship was in
mid-life overhaul during the entirety of his assign­
ment thereto. BCNR Decision ^ 3.w! id., at 15.
Instruction
[hereinafter
71. OPNAV
OPNAVINST] 7220.14, Career Sea Pay and Career
Sea Pay Premium, enclosure (2) f 1 (2005), lists a
“CVN” as among “Category A” vessels.
72. The orders assigning Mr. Sharpe to CARL
VINSON referred to the ship also as “CVN 70” and
designated the assignment as one of “unusually ar­
duous sea duty.” Ex. 7, at 4.
73. CARL VINSON was, for the entirety of the
time of Mr. Sharpe’s assignment to the ship, located
at the commercial shipyard in Newport News, Va.,
BCNR Decision ^ 3.w, ii, which has a ZIP code of
23607, Newport News Shipbuilding Home Page,
httpV/nns.huntingtoningalls .com (last visited May
18, 2017).
74. The BAH Calculator maintained by the De­
fense Travel Management Office (DTMO) reflects
that ZIP code 23607 falls in Military Housing Area
(MHA) VA297 (Hampton/Newport News, Va.). BAH
Calculator,
http7/www.defensetravel.dod.mil/site/bahCalc.cfm
(last visited May 18, 2017).

115a
75. CARL VINSON’s on-paper home port, for the
entirety of the time of Mr. Sharpe’s assignment to
the ship, was Norfolk, Va., as reflected by each per­
sonnel order he received during that time. Ex. 3, at
l; Ex. 7, at 1, Ex. 14, at 1, Ex. 15, at 1, Ex. 16, at V,
Ex. 17, at 1.
76. The Naval Station in Norfolk, Va., has a ZIP
code of 23511, see Standard Navy Distribution List,
httpV/www. navy.mil/sndl/table.html (last visited
May 18, 2017), the ZIP code also reflected on Mr.
Sharpe’s LES’s for the period before his separation
from the Naval Service on September 30, 2009, see
Ex. 6, at 1, 3.
77. The DTMO BAH Calculator reflects that ZIP
code 23511 falls in MHA VA298 (Norfolk/ PortsCalculator,
BAH
mouth,
Va.).
http ://www. defensetravel. dod. mil/site/bahC ale. cfm
(last visited May 18, 2017).
78. Mr. Sharpe was ordered on November 2, 2006,
to transfer to USS ENTERPRISE (CVN 65) in Janu­
ary 2007, Ex. 14, at 1, but before transferring, on De­
cember 5, 2006, the order was cancelled and he was
ordered to “continue present duty” aboard CARL
VINSON, Ex. 16, at 1.
79. On March 7, 2007, Mr. Sharpe was ordered to
turn over his duties to another officer and to report
to his home in Carrollton, Va., as his assigned place
of duty. BCNR Decision
3.dd. Mr. Sharpe subse­
quently performed no duties aboard the ship. Id.
80. On November 28, 2007, NPC ordered an of­
ficer to CARL VINSON, to report no later than the
last day of June 2008, as Mr. Sharpe’s “numerical
relief.” Ex. 18, at 1, 5.
81. On January 2, 2008, Mr. Sharpe’s command­
ing officer aboard CARL VINSON received permis-

116a
sion from CNP to detach Mr. Sharpe from the ship
for cause. BCNR Decision, 3.nn.
82. On June 20, 2008, Mr. Sharpe’s “numerical re­
lief’ reported aboard CARL VINSON. Ex. 19, at 1,
block 9.
83. On June 20, 2009, the Chief of Naval Opera­
tions ordered CARL VINSON to change her home
port from Norfolk, Va., to San Diego, Calif. Ex. 20, at
1.
84. Between June 28 and July 3, 2009, CARL
VINSON went to sea for post-overhaul initial sea
trials. Ex. 21, at 1, 2; Ex. 22, at 1. Mr. Sharpe did not
go to sea with the ship. BCNR Decision J 3.dd.
85. On July 15, 2009, Mr. Sharpe was ordered to
detach from CARL VINSON and separate from the
Naval Service by Commander, NPC (CNPC), via
BUPERS ORDER 1969, when directed by his report­
ing senior and no later than the last day of August
2009. Ex. 15, at 1.
86. On August 28, 2009, BUPERS ORDER 1969
was cancelled and Mr. Sharpe was ordered to “con­
tinue present duty” aboard CARL VINSON. Ex. 17,
at 1.
87. On September 15, 2009, Mr. Sharpe was or­
dered by the Commander, NPC (CNPC), via
BUPERS ORDER 2589 (date-time group" 151230Z
SEP 09), to detach from CARL VINSON when di­
rected by his reporting senior, but no later than the
last day of September 2009, and to thereby separate
from the Naval Service. Ex. 3, at 1. The order provid­
ed that he was to, “when directed [,] detach” from
“duty” aboard CARL VINSON. Id. The order noted
that Mr. Sharpe’s separation would “take effect at
2400 on [the] date of detachment from [CARL
VINSON.]” Id.

117a
88. On September 30, 2009, Mr. Sharpe was sepa­
rated from the Naval Service aboard CARL VINSON.
Ex. 12, at 1, block 8.b.
89. OPNAVINST 7220.14 notes that a member’s
cumulative sea-duty time is reflected on the LES in
the “remarks” block. Id. ^ 12.a.(l).
90. As of Mr. Sharpe’s now voided detachment
from CARL VINSON, Mr. Sharpe had six years,
three months, and twenty-one days of cumulative
sea-duty time. Ex. 7, at 4.
91. For the entirety of the time of Mr. Sharpe’s
assignment to CARL VINSON, he resided in Carroll­
ton, Va., which has a ZIP code of 23314, United
States Postal Service Look Up a ZIP Code Page,
https-//tools.usps.com/go/ZipLookupAction!input.acti
on (last visited May 18, 2017).
92. The DTMO BAH Calculator reflects that the
ZIP code 23314 falls in MHA ZZ830 (County Cost
Group
830).
BAH
Calculator,
httpV/www. defensetravel.dod.mil/site/ bahCalc.cfm
(last visited May 18, 2017).
93. For the entirety of the time of Mr. Sharpe’s
assignment to CARL VINSON, Mr. Sharpe was paid
BAH at the rate for MHA VA298, the “on-paper” lo­
cation of CARL VINSON, and not at the rate for
MHA VA297, the ship’s actual location, or at the rate
for MHA ZZ830, his residential location. See Ex. 6, at
1, 3 (block “VHA Zip”).
94. For the entirety of the time of Mr. Sharpe’s
assignment to CARL VINSON, he was paid CSP.
Bourne Memorandum l.b; see Ex. 7, at 1,3.
95. On April 1, 2010, CARL VINSON’s change of
home port to San Diego, Calif., became effective. Ex.
20, at 1.
96. On August 31, 2015, the Deputy Assistant
Judge Advocate General for Criminal Law (Code 20)

118a
opined that because Mr. Sharpe at the time that Mr.
Sharpe “had orders to USS CARL VINSON” he was
“therefore assigned to the vessel.” Ex. 2, at 2, 3.
97. Effective April 25, 2016, by approval of Secre­
tary of the Navy, BCNR corrected Mr. Sharpe’s rec­
ord to show that he “was not discharged . .. but has
continued to serve on active duty without interrup­
tion,” BCNR Decision, 18, and to remove “all docu­
mentation pertaining to the . .. administrative sepa­
ration, including but not limited to the . . . DD Form
214 (Certificate of Discharge from Active Duty) of 30
September 2009 [and] . . . the CNPC messages per­
taining to Petitioner’s ADSEP dated [inter alia]
151230ZSEP09.” BCNR Decision, 17.
98. Mr. Sharpe’s record consequently reflects that
he is serving and has served without interruption on
active duty since May 23, 1993, the date he accepted
his original appointment in the Naval Service. Ex.
12, at 1, block 12.a; Ex. 13, at 2; Ex. 23, at 1.
99. Mr. Sharpe has therefore consequently been
since May 26, 1993, without interruption, a member
of a uniformed service, see 37 U.S.C. § 10l(3) (2012),
on active duty, see id. § 101(18), entitled to “the basic
pay of the pay grade to which .. . assigned in accord­
ance with [his] years of service,” see id. § 204(a)(1);
accord DODFMR, supra, para. 010301.A, .A.l, tbl.l3, r. 1.
100. As a further consequence of BCNR’s decision,
Mr. Sharpe’s appointment to 05, retroactive to Au­
gust 1, 2008, was memorialized by CNPC on May 5,
2017. ASteeDSR, Ex. 1, at l; JSR, Ex. A, at 1 (Mar. 31,
2017); BCNR Decision, 15, 16, 18.
101. On April 28, 2016, BCNR provided a copy of
its decision to DFAS for payment. JSR, Ex. 2, at 1
(May 2, 2017). DFAS acknowledged receipt on Feb­
ruary 10, 2017. Id., Ex. 3, at 1.

119a
102. Upon his reinstatement to active duty, pur­
suant to his current PCS orders, see Ex. 8, at 1-6,
Mr. Sharpe reported to his first temporary duty as­
signment on February 13, 2017, and completed his
second temporary duty assignment on April 6, 2017,
see Ex. 13, at 1, Ex. 24, at 1, and is en route his per­
manent duty assignment in Washington, D.C., where
he is required to report no later than the last day of
May 2017, see Ex. 8, at 3.
103. The ZIP code of Mr. Sharpe’s prospective
PDS is 20350, see Navy.mil Contact Us Page,
httpV/www. navy.mil/submit/contacts. asp
(showing
Chief of Information address).
104. The DTMO BAH Calculator reflects that the
ZIP code 20350 falls in MHA DC053 (Washington,
Calculator,
Metro
Area).
BAH
D.C.,
httpV/www.defensetravel.dod.mil/site/ bahCalc.cfm
(last visited May 18, 2017).
105. Since returning to active duty on February
13, 2017, Mr. Sharpe has been paid BAH on the basis
of the 23314 ZIP code. See Ex. 6, at 7 (block “VHA
Zip”); Ex 10, at 1.
106. The Navy Personnel Database (NPDB) “is an
integrated database of all Navy Personnel [that] con­
tains current and historical data on over 1.75 million
Navy members and annuitants includingU officers,
candidates, enlisted [,] active and inactive, as well as
those in a retired status.” NPC NPDB Home Page,
http 7/www. public. navy. mil/buper s - npc/organization/
npc/IM/corporatessystems/Pages/NavyPersonnelData
base.aspx (last visited May 19, 2017).
107. The Navy Standard Integrated Personnel
System (NSIPS) “is the Navy’s single, field-entry,
electronic pay and personnel system .... [It] ... of­
fers Sailors 24-hour access to their Electronic Service
Record (ESR), training data, and career counseling

120a
records.”
NPC
NSIPS
Home
Page,
http ://www .public. navy. mil/buper s npc/organization/npc/IM/corporatessystems/
Pages/nsips.aspx (last visited May 17, 2017).
108. The ESR “provides individual sailors . . .
with secure worldwide internet access to personnel,
training and awards data.” NPC ESR Home Page,
http 7/www. public .navy. mil/buper s npc/career/recordsmanagement/Pages/ElectServRcd.
aspx (last visited May 19, 2017).
109. In the context of personnel assignment histo­
ry, “RAD” is defined as “Released from active duty or
active duty for training (ADT/AT) and transferred to
a reserve component,” and “TRF” is defined as
“transferred or detached to another activity.
MILPERSMAN 1070-290, para 3 (2002).
110. A Navy Officer Precedence Number is main­
tained on the Active Duty List by SECNAV along
with the “names, grades, [and] dates of rank ... of
all commissioned officers in the grade of ensign and
above on active duty.” OPNAVINST 1427.2, Rank,
Seniority, and Placement of Officers on the Active
Duty List and Reserve Active Status List of the Na­
vy,; If 4 (2005). The eight-digit number indicates
“[t]he relative seniority of officers.” Id. ]f 7.
111. Mr. Sharpe’s Duty Station History in his
NPDB entry reflects that CARL VINSON has a home
port of San Diego, Calif., and his tour aboard CARL
VINSON ended on September 30, 2009, and reflects
no other assigned duty stations subsequent thereto
prior to his assignment that began on February 13,
2017. Ex. 13, at 1.
112. Mr. Sharpe’s Officer Data Card (ODC) re­
flects that CARL VINSON has a home port of San
Diego, Calif., and that his tour aboard CARL
VINSON ended on September 30, 2009, and that re-

121a
fleets no other assigned duty stations subsequent
thereto prior to his assignment that began on Febru­
ary 13, 2017. Ex. 25, at 1.
113. Mr. Sharpe’s History of Assignment page
from his NSIPS ESR reflects that he was detached
from CARL VINSON on September 30, 2009, with a
loss type “RAD,” and reflects no other orders or as­
signments subsequent thereto prior to his assign­
ment that began on February 13, 2017. Ex. 24, at 1.
114. Mr. Sharpe’s Orders History page from his
NSIPS ESR reflects that his orders dated July 15,
2009, August 28, 2009, and September 15, 2009, con­
stituting respectively initial separation orders, sepa­
ration-order cancellation, and subsequent (and final)
separation orders, are in his Electronic Service Rec­
ord,” and reflects no other orders subsequent thereto
were issued to him prior to the orders issued on De­
cember 7, 2016. Ex.26, at 1.
115. Mr. Sharpe’s Status Reports pursuant to the
Servicemembers Civil Relief Act provided by the De­
fense Manpower Data Center reflect him as not hav­
ing been on active duty between October 1, 2009, and
February 12, 2017, inclusive. Ex. 27, 1—9.
116. The Naval Register currently lists Mr.
Sharpe as an 04 with no Navy Officer Precedence
Number. Ex. 28, at 1.
117. Mr. Sharpe’s ESR Member Profile page from
the NSIPS reflects his HOR as being in the state of
Virginia. Ex. 29, at 1.
118. Annual performance evaluations for officers
in the 05 pay grade are prepared every April.
BUPERS Instruction [hereinafter BUPERSINST]
1016.10D, Navy Performance Evaluation System,
Enclosure (l), at 11, tbl.l (2015).
119. On August 4, 2016, NPC inserted a “Memo­
randum for the Fitness Report Record” of Mr. Sharpe

122a
into his Official Military Personnel File which stated
that it was “in lieu of fitness report for the period of
01 NOV 2007 thru 20 JUN 2016,” and which read as
follows^
This memorandum is being filed in lieu of
performance evaluations for the above peri­
od. By direction of the Secretary of the Navy,
fitness reports for the period above are not
available for inclusion in [Subject Naval Of­
ficer’s] Naval Record and no speculation or
inferences as to the nature or contents of
such reports may be made by Selection
boards or other reviewing authorities.
Ex. 30, at 1.
120. On February 15, 2017, Mr. Sharpe emailed
his BCNR point of contact requesting the following
language to be used when the August 4, 2016, memorandum—is—re-written-to-reftect-a—correct—end—date
(because Mr. Sharpe will not receive a regular per­
formance evaluation until April 2017 and it will only
cover performance subsequent to his reporting to his
next PDS):
This memorandum is being filed in lieu of
performance evaluations for the above peri­
od. By direction of the Secretary of the Navy
and due to no fault of SNO, fitness reports
for the period above are not available for in­
clusion in SNO’s Naval Record and no ad­
verse speculation or inferences as to the na­
ture of contents of such reports may be made
by selection boards or other reviewing au­
thorities. The overall performance of SNO

123a
should be evaluated from the material pres­
ently available.
Ex. 31, at 1-2. Mr. Sharpe cited several back-pay
cases to support the wording he requested. Id.
121. Mr. Sharpe’s BCNR point of contact
acknowledged his email the same day. Id.
[hereinafter
Instruction
122. SECNAV
SECNAVINST] 5420.193, Board for Correction of
Naval Records (1997), states that “[t]he Chief of Na­
val Operations . . . shall ensure that action is taken
to make the military record corrections directed by
the Secretary or BCNR.” Id.*i 4.
123. The DON Financial Management Policy
Manual, NAVSO P-1000, defines “Accession Travel,”
in pertinent part, as the “PCS movement of. . .
[o]fficers from home or place of acceptance of com­
mission to first duty station,” id. § 03146, “Perma­
nent Change of Station,” para. 3.b.i, (2015), and “Op­
erational Travel Between Duty Stations” as “the PCS
movement between PDSs within overseas locations
for officer and enlisted personnel when no transoce­
anic travel is involved in reaching the new PDS,” id.
para. 3.d. The definitions of these types of PCS travel
found is essentially the same as that provided for in
the FY 2017 DON budget estimates, Department Of
The Navy Fiscal Year (FY) 2017 Budget Estimates,
6, 148, 150, 156 (2016), httpV/www.secnav. navy.mil/fmc/fmb/Documents/17pres/MPN_Book.pdf
(last visited May 22, 2017) (providing inter alia for
“Accession” and “Operational” types of PCS travel).
124. BUPERSINST 7040.6B, Financial Manage­
ment Guide for Permanent Change of Station Travel
(Military Personnel, Navy) (MPN), defines “Acces­
sion Travel” for “Officers,” in pertinent part, as
“Movements from home or place of acceptance of

124a
commission to first duty station . . . id. ch. 1, sec. B,
“Classifications,” para, l.a, at l-B-4 (2010), and “Op­
erational Travel Between Duty Stations, Land,” for
both officers and enlisted, as, in pertinent part,
“Movements to and from a PDS located within [the
continental United States],” id., para. 4.a, at l'B'5. It
also establishes that travel accounting data for of­
ficer accessions has a subhead of “.2250” and a “Pur­
pose Identification Code (PIC)” of “2,” id., ch. 3, sec.
A, para. 3.a., at 3'A‘l, and a subhead of “.2252” and
PIC of “4” for officer operational travel, id. at 3-A-2.
125. The above-recited definitions of “new acces­
sion” are with the JTR. See id., para. 10416.D.1 (de­
fining a member in the “accession pipeline” as a new
service academy graduate, a member undergoing ini­
tial entry training, or a student with no prior mili­
tary service).
126. Mr. Sharpe’s December 7, 2016, orders pro­
vide for new accession travel rather than operational
travel between duty stations because they have ap­
propriation subhead “.2250” and purpose identifica­
tion code “2” in the PCS line of accounting (LOA), Ex.
7, at 4.
127. DFAS cites to 10 U.S.C. § 1552 for authority
to make payment of amounts due to Mr. Sharpe for
the Constructive Service Period. JSR, Ex. 4, pt. II
(May 2, 2017); see a/soEx. 1, at 1.
128. BUPERSINST 5400.61, Bureau of Naval
Personnel Millington Organization Manual, explains
that BUPERS-OOJ is the “Office of Legal Coun­
sel.... the principal advisor and staff assistant. . .
to [Deputy CNP] concerning the interpretation and
application of law and policy.” Id., at 3 (2014). The
regulation authorizes BUPERS-00J to “[p]rovideO
legal advice to BUPERS Millington (BPM) and. . .
[NPC] NAVPERSCOM, field activities, and the fleet

125a
on [inter alia\ uniformed personnel entitlements and
benefits.” Id.', see Ex. 32, at 1-4.
129. MILPERSMAN 1320-030 1 l.a (2002) pro­
vides that “[clompetent orders for officers are issued
and approved by [CNP], or commands authorized by
[CNP].”
130. MILPERSMAN 1301-110, Ex. 4, 1 4.3 (2015),
prescribes twenty-four to thirty-six month tour
lengths for public affairs officers.
COUNTI

ENTITLEMENT TO BASE PAY
AT THE 05 PAY GRADE FOR FY 2017
131. Pursuant to RCFC 10(c), and to the extent
necessary, Mr. Sharpe realleges paragraphs 1-487 of
his first Amended Complaint, see Am. Compl., 1—
107, as if fully set forth here.
132. Mr. Sharpe realleges paragraphs 1—131, su­
pra, as if fully set forth here.
133. Defendant has determined to pay Mr. Sharpe
$85,213.44 in view of his entitlement to the base pay
(BP) of an 05 for the period April 25, 2016, to Febru­
ary 12, 2017. DSR, 4.
134. Mr. Sharpe herein claims entitlement to BP
at the pay grade of 05 for this period and to the
$85,474.26 consequently due, i.e., $260.82 more than
Defendant proposes to pay him, supra 19! see Ex.
4, at 1 (cell Q37); that Defendant is obliged to pay
this claim by law and by regulation having the force
and effect of law; and that, because there is no genu­
ine dispute as to any fact material to this claim, he is
consequently entitled to summary judgment there­
upon.
135. Defendant’s determination of the amount
owed for this period appears to be based on paying

126a
Mr. Sharpe as an 05 for the 2017 portion of the peri­
od at the 2016 rate. See supra, If 20.
136. Because there is no genuine dispute as to
any fact material to this Count I, and in view of the
authorities herein cited, Mr. Sharpe prays this hon­
orable Court to find that he is entitled to judgment
as a matter of law, and to enter such judgment
against Defendant, enjoining him to pay Mr. Sharpe
either $85,474.26 or, if Defendant has already paid
the amount previously determined, supra f 18, the
remaining $260.82; and, further incident of and col­
lateral to that judgment, so as to provide an entire
remedy and to complete the relief afforded, requiring
Defendant to modify all DON and DOD paper and
electronic records as inter alia ordered herein below
infra, as well as ordering whatever additional relief
the Court may find due and proper.
COUNT II

ENTITLEMENT TO BASIC ALLOWANCE FOR
HOUSING AT THE 05 PAY GRADE AND AT THE
RATE APPLICABLE TO MHA CA038 (SAN DIEGO)
FOR THE PERIOD APRIL 1, 2010, TO THE DAY
BEFORE THE DATE MR. SHARPE REPORTS TO
HIS NEXT PDS UNDER HIS CURRENT PCS OR­
DERS
137. Pursuant to RCFC 10(c), and to the extent
necessary, Mr. Sharpe realleges paragraphs 1-487 of
his-first Amended Complaint, see Am. Compl., 1—
107, as if fully set forth here.
138. Mr. Sharpe realleges paragraphs 1-137, su­
pra, as if fully set forth here.
139. Defendant proposes to pay Mr. Sharpe BAH
at the Norfolk, Va., rate at the pay grade of 05 for
his entire Constructive Service Period, totaling an

127a
amount of $214,780.20, supra TH| 15, 23, and has in­
dicated and acted upon its intention to pay Mr.
Sharpe BAH at the Carrollton, Va., rate since his
February 13, 2017, reinstatement, supra IHf 61, 105.
140. Mr. Sharpe herein claims entitlement to
BAH at the pay grade of 05 from October 1, 2009,
through March 31, 2010, at the Norfolk, Va., rate, as
Defendant acknowledges, DSR, 2, and at the San Di­
ego, Calif., rate for the remainder of the Constructive
Service Period, through the day before he reports or
reported to his prospective PDS in Washington, D.C.,
and to the following amounts consequently due^ l)
$263,796.60 for the entire Constructive Service Peri­
od, supra TH1 16, 24; see Ex. 4, at 1 (cells U32, U37),
i.e., $49,016.40 more than Defendant proposes to pay
him for the Constructive Service Period; and 2) ei­
ther a) $3502.80, see Ex. 4, at 1 (cell V49), which is
the difference between the monthly BAH rate for San
Diego at the pay grade of 05 for the period between
February 13 and May 29, 2017, the day before he
plans (as of this filing) to report to his new PDS in
Washington, D.C., inclusive, less the BAH he has
been paid at the Carrollton, Va., rate, at whatever
pay grade, for that period,28 or b) whatever other
amount may be due based on Mr. Sharpe’s actual
date, if not May 30, of reporting to his new PDS; that
Defendant is obliged to pay this claim by law and by
regulation having the force and effect of law; and
that, because there is no genuine dispute as to any
28 DFAS has proposed to begin paying Mr. Sharpe as an 05
on June 1, 2017, and to pay him pay and allowances in arrears
for February 13, 2017, to that date. Ex. 1, at 1. In any event the
claim here is for 05 BAH at the San Diego rate for this post­
reinstatement period, less whatever Mr. Sharpe will have been
paid either in regular mid-monthly amounts or in the arrears
amount DFAS says will be paid on May 31, 2017.

128a
fact material to this claim, he is consequently enti­
tled to summary judgment thereupon.
141. The claim as articulated linder Count II is
predicated upon Defendant’s representation, DSR, 2\
Bourne Memorandum Tf l.c, that Mr. Sharpe is enti­
tled to BAH at the rate applicable to Norfolk, Va., for
the pay grade of 05 for the entirety of the Construc­
tive Service Period, and concomitant denial that he is
entitled to BAH at the San Diego rate for any of that
period. In consequence, Mr. Sharpe’s legal claim to
an additional entitlement applies only to the period
beginning April 1, 2010 (when the PDS to which his
record reflects he was assigned at that time changed
home port and thereby altered the BAH entitlement),
through the day before he reports to his prospective
PDS in Washington, D.C. (insofar as the previous
BAH entitlement continues to apply during a PCS
until the transiting member arrives at the final
PDS). Also, because, since Mr. Sharpe’s reinstate­
ment on February 13, 2017, Defendant has been pay­
ing BAH for his Carrollton, Va., residence rather
than continuing it at the rate to which Defendant be­
lieves Mr. Sharpe is entitled prior to that date, a por­
tion of this claim encompasses the difference be­
tween the Carrollton, Va., rate that has been paid
and the amount based on the San Diego rate to
which Mr. Sharpe claims entitlement. This latter
portion of the claim is contingent upon the date Mr.
Sharpe reports (within the next few days) to his new
PDS, insofar as that act will give him a new BAH en­
titlement (which should be reflected in his regular
pay) and establish the end date of the entailment
claimed here. For convenience purposes Mr. Sharpe
has provided calculations that assume be will report
to his Washington, D.C., PDS on May 30, according
to his current plans.

129a
142. Not having access to Defendant’s calcula­
tions, Mr. Sharpe is unable to account for the fact
that, on the assumption (herein denied) that he is
only entitled to BAH at the Norfolk, Va., rate for the
entirety of the Constructive Service Period, he esti­
mates the amount owed to him as $207,208.80, supra
Till 17, 25; see Ex. 4, at 1 (cells S32 and S37). Mr.
Sharpe likewise cannot provide any information as to
whether his figures and Defendant’s agree for the
period prior to CARL VINSON’s home port change,
i.e., October 1, 2009, to March 31, 2010, for which pe­
riod the parties agree at least as to the legal basis for
Mr. Sharpe’s entitlements.
A. Bourne Memorandum is ultra vires and illegal
143. Insofar as the record in this case has taken a
significant turn with the Navy’s purported “correc­
tion” of Mr. Sharpe’s record, supra
63, following
BCNR action, and Defendant’s subsequent represen­
tation that on the basis of that additional correction
Mr. Sharpe is not entitled to BAH at the rate of
CARL VINSON’s current home port following March
31, 2010, DSR, 2, and is not entitled to Sea Pay, id.',
Addendum, 1, Mr. Sharpe therefore herein alleges
first - as a threshold matter - that the Bourne Mem­
orandum is, for the reasons set forth infra, fragrantly
contrary to statute and regulation, and is therefore
ultra vires, void, of no effect whatsoever upon his
record, and thus powerless to have any effect on the
entitlements owed to him as a result of BCNR’s cor­
rection of his record, and should therefore, pursuant
to the Court’s equitable power incident to a claim for
money, see 28 U.S.C. § 1491(a)(1), should be stricken
by the court (because Mr. Sharpe claims here that
his entitlements on the basis of law and regulations

130a
“survive” the Bourne Memorandum’s attempt to
change them). An administrative act “which ... ex­
ceeds applicable statutory authority ... is void,” Keef
v. U.S., 185 Ct. Cl. 454, 461 (1968), and likewise be­
cause “[a]ctions by an agency of the executive branch
in violation of its own regulations are [equally] ille­
gal and void.” Vandermollen v. U.S., 571 F.2d 617,
624 (D.C. Cir. 1977) (citations omitted) (quoted by
Lewis v. United States, 114 Fed. Cl. 682, 689 (2014));
accord Tilley v. United States, No. 331-86C, 1991
U.S. Cl. Ct. LEXIS 538, at *10 n.8 (Nov. 21, 1991).
144. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to 10 U.S.C. § 1552 (2012), be­
cause said “correction” was not “made by the Secre­
tary acting through [a] board D of civilians of the ex­
ecutive part of [the] military department,” id. §
1552(a)(1), as the statute requires.
145. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to § 1552, because said “correc­
tion” was not made “to correct an error or remove an
injustice,” id. § 1552(a)(1), as the statute requires.
146. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to § 1552, because said “correc­
tion” was not “made under procedures established by
the Secretary concerned,” id. § 1552(a)(3)(A), or un­
der procedures “approved by the Secretary of De­
fense,” id., as the statute requires in this case.
147. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to § 1552, because “no [such]
correction may be made . . . unless then claimant or
the Secretary concerned files a request for the correc­
tion,” id. § 1552(b)(1) (2012), and neither Mr. Sharpe

131a
nor SECNAV filed any such request, and in any
event “The Secretary concerned may file a request
for correction of a military record only if the request
is made on behalf of a group of members or former
members of the armed forces who were similarly
harmed by the same error or injustice,” id.
148. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was contrary to § 1552 as interpreted in this Court,
because “ [i] t is clear that the statute only confers on
the Secretary the power to correct records in favor of
a serviceman and never against him,” Doyle, 220 Ct.
Cl. at 311, and the “correction” was not made in Mr.
Sharpe’s favor. See generally South Corp. v. United
States, 690 F.2d 1368, 1369 (Fed. Cir. 1982) (adopt­
ing Court of Claims decisions as precedent in the
Federal Circuit).
149. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to 10 U.S.C. §§ 1552 and 5013
and BUPERSINST 5420.21A, Administration of
Board for Correction of Naval Records Applications
Within the Bureau of Naval Personnel (2011), be­
cause, by purporting to change Mr. Sharpe’s record
to reflect that “his sea duty ended on 30 Sep 09,”
Bourne Memorandum If l.b, that he “would have
been transferred . . . had he not been separated,”
that he did not serve aboard .. . and would not have
been assigned to a ship [as of] 1 Oct 09,” he blatantly
ignored and effectively reversed the SECNAVapproved action of the BCNR to remove from Mr.
Sharpe’s record the separation order evidencing his
September 30, 2009, detachment from CARL
VINSON, supra t 87, 88, 97, such that the order is
“void, and [its ] effect on [Mr. Sharpe’s] status is as
though it were never given,” Groves v. United States,

132a
30 Fed. Cl. 28, 33 (1993), rev’d on other grounds, 47
F.3d 1140 (Fed. Cir. 1995) (emphasis added), in fla­
grant violation of 10 U.S.C. § 1552(a)(4) (2012),
which makes corrections effected by BCNR “final and
conclusive on all officers of the United States,” id.
(emphasis added), and directly contrary both to
SECNAV’s authority as “the head of the [DON],” 10
U.S.C. § 5013(a)(1) (2012), who is “responsible for,
and has the authority necessary to conduct, all af­
fairs of the [DON],” id. § 5013(b), such that the
Bourne Memorandum is, on this ground alone, “inva­
lid ... to the extent that” it conflicts with the order
“issued by a superior in [Bourne’s] chain of com­
mand,” Strickland v. U.S., 69 Fed. Cl. 684, 703 (2006)
(citations omitted), and to regulations expressly ap­
plying to BUPERS and governing its role in the stat­
utory record-correction process, which require the
latter to “assist [ ] BCNR by... implementing [its]
approved corrections.” BUPERSINST 5420.21A, su­
pra, f 3.
150. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to SECNAVINST 5420.193, su­
pra, because only BCNR and the Assistant Secretary
of the Navy (Manpower and Reserve Affairs) are del­
egated SECNAV’s authority to take action regarding
“applications for the correction of military records,”
id. Tf 3.a—.b, and no delegation of such authorization
was made to Mr. Bourne.
151. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to SECNAVINST 5420.193, su­
pra, because personnel records may only be corrected
outside the scope of 10 U.S.C. § 1552 and implement­
ing procedures if they are “obvious clerical or admin­
istrative errors,” id. f 5, and the purported “correc-

133a
tions” made by the Bourne Memorandum do not cor­
rect “obvious clerical or administrative errors.”
152. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to DODFMR, supra, because a
genuine record correction requires “a change of facts
from those already in the original record, or an addi­
tion or deletion of a fact,” id., Volume 10B, para.
100202 (emphasis added), and the Bourne Memo­
randum made (and had no authority to make) no
changes to Mr. Sharpe’s actual record, supra 144151, but rather only requested “that DFAS take the
[requested] actions pertaining to [Mr.] Sharpe’s
pay . . . ,” Bourne Memorandum If 1.
153. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to BUPERSINST 5420.21A, su­
pra, because BUPERS is not authorized to make cor­
rections to service member’s records, but is limited to
“assisting] the BCNR by providing advisory opinions
and implementing the approved corrections,” id.1(3,
and the Bourne Memorandum attempts to make a
correction to Mr. Sharpe’s record rather than “im­
plement D the [BCNR-] approved corrections,” id.
154. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to BUPERSINST 5400.61, su­
pra, because BUPERS 00-J is authorized only to pro­
vide “legal advice” to “BPM. .. [NPC,] field activi­
ties, and the fleet” with regard to “personnel entitle­
ments and benefits,” id. at 3, and not to “correct” rec­
ords on behalf of the DON under 10 U.S.C. § 1552.
155. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
exceeded the jurisdiction afforded by federal regula­
tions, which limit record-correction action to “review

134a
and determination],” 32 C.F.R. § 723.2(c) (2016), by
the BCNR of “applications properly before it for the
purposes of determining the existence of error or in­
justice in the naval records of’ an applicant, id. §
723.2(b), and the Bourne Memorandum did not pur­
port to make any “corrections” by means of an appli­
cation properly presented to BCNR for the purpose of
“determining the existence of error or injustice,” id.
156. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memorandum
was facially contrary to 32 C.F.R. § 723.3(a)(2)
(2016), and therefore illegal, because it was not made
upon an “application . . .signed by the person re­
questing corrective action with respect to his[] rec­
ord,” id., in that it was not made upon an application
signed by Mr. Sharpe “requesting corrective action
with respected to hist own] record,” id.
B. Defendant may not rely upon anything other than
record corrected under 10 U.S.C. § 1552 to deter­
mine amounts payable under that section
157. The Bourne Memorandum’s invalidity not­
withstanding, Defendant cannot rely — i.e., to an­
nounce Mr. Sharpe’s entitlement only to the Norfolk,
Va., rate of BAH and the lack thereof to Sea Pay,
DSR, 2 - upon the supposed “corrections” to Mr.
Sharpe’s record it attempts, for the simple reason
that statute and regulation both expressly provide,
for military records corrected pursuant to 10 U.S.C. §
1552, that payments in view of those corrections are
only to be made on the basis of the record-correction
that is made under the authority of that statute, the
language of which says that “[t]he Secretary may
pay ... a claim for the loss of pay[ and] allowances” if
“the amount is found to be due” as “a result of cor-

135a
recting a record under this section id. § 1552(c)(1)
(2012) (emphasis added). The DOD financial regula­
tions that implement the law as to payments that
result from corrections of records are equally explicit:
“Payments based on a correction of military records”
are to be made “in the amounts determined to be due
by applying pertinent laws and regulations to all the
material facts shown in the corrected record”
DODFMR, supra, para. 100301 (emphasis added),
and it is clear - because the whole section of the reg­
ulation is discussing the operation of correction
boards under 10 U.S.C. § 1552, see, e.g., Yanko v.
United States, 127 Fed. Cl. 682, 694 (2016) (looking
to a statute’s section heading to clarify the meaning
of its contents) - that “facts shown in the corrected
record,” id., refers to the record as corrected by
BCNR. Consequently, the record to which the “perti­
nent laws and regulations,” id., are to be applied is
the record that was delivered to DFAS by BCNR on
April 28, 2016, supra If 101, not the record as adul­
terated by the Bourne Memorandum more than a
year later. Like the discharge that SECNAV over­
turned, the Bourne Memorandum, because not part
of any record-correction (valid or otherwise) under §
1552 for purposes of fixing the predicate record upon
which the determination of Mr. Sharpe’s entitle­
ments conducted, is “void, and its effect on [his rec­
ord] is as though it were never [written].” Groves, 30
Fed. Cl. at 33. That DFAS itself cites § 1552 as the
authority for the payment to be made, supra Tf 127, is
decisive.
158. This principle was well understood by the
CGUS, who, in 1973, wrote the following, in a deci­
sion arguably controlling, uncontroversially, the dis­
position of Mr. Sharpe’s case:

136a
We recognize that the Secretaries of the
military departments concerned may perform
or delegate the performance of certain ministerial duties with regard to a service mem­
ber’s military or naval records under authori­
ty inherent in their positions, in order to cor­
rect certain administrative errors which from
time to time arise regardless of the care tak­
en to insure the accuracy of such records.
However, we are una ware ofany a uthority in
law or regulation, nor has any been cited in
either your submission or in the enclosures,
whereby the Secretary of the Army acting
through the Office of [t]he [A]djutant General
may make any changes in an individual’s
Army record that would result in a change of
material fact ox the creation of a new record,
in the absence ofa proceeding before the Ar­
my Board for Correction ofMilitary Records.
To H. C. McDaniel, Department of the Army, 52
Comp. Gen. 952, 954-5 (1973) (emphasis added); ac­
cord Lieutenant Colonel Albert S. Babinec, USAF,
Retired, B-186070, 1976 U.S. Comp. Gen. LEXIS
1884, at *10 (Oct. 28, 1976) (applying rule to Air
Force).
C. Defendant may not exercise any discretion to set
entitlements that arise from a proper correction
of records under § 1552.
1. Discretion may not be exercised by way of re­
sort to extra-Board records
159. Since the correction-board statute was
amended in 1951 to give service secretaries the abil-

137a
ity to pay amounts due as a result of a military rec­
ord correction, see An Act to Amend the Legislative
Reorganization Act of 1946, Pub. L. No. 82-220, 65
Stat. 655 (1951); see also Ray, 197 Ct. Cl. at 7 (dis­
cussing the amendment), the payment authority pro­
vided therein has long been understood to operate as
a bar to the military departments and secretaries ar­
riving at any purely discretionary opinions or judg­
ments as to amounts that come due incident to a rec­
ord correction. The application of this principle is ob­
vious in this case, where the military attempts to ex­
ercise forbidden discretion by evading the statutory
constraint above detailed, i.e., by making a “correc­
tion” to a record subsequent to its final correction by
the correction board, in order to make that subse­
quently corrected record the basis for payment ra­
ther than the one that appears as corrected “under §
1552,”id. § 1552(c)(1). Because there is no doubt that
the statute forbids such conduct, “that is the end of
the matter; [and this Clourt, as well as the agency,
must give effect to the unambiguously expressed in­
tent of Congress.” Chevron USA v. Nat. Res. Def.
Council, 467 U.S. 837, 842-43(1984).
160. As the CGUS recognized, again in a decision
arguably disposing, and effortlessly so, with Mr.
Sharpe’s case, only record-correction action “through”
the BCNR is effective to establish the record upon
which Mr. Sharpe’s entitlements may be based:
The pertinent statute, 10 U.S.C. 1552,
provides that the Secretary of a military de­
partment, under procedures established by
him and approved by the Secretary of De­
fense, “and acting through boards of civilians
of the executive part of that military depart­
ment,” may correct any military record of

138a
that department when he considers it neces­
sary to correct an error or remove an injus­
tice. It would appear that the issuance of the
orders of February 13, 1962, long after the
correction of the member’s records as di­
rected in the memorandum of August 22,
1961, was not action “through” the Air Force
Board for Correction ofMilitary Records
since such action rather than incorporating
any of the board’s recommendations appar­
ently was taken independently thereof and
directed a correction not considered by the
board. Compare 32 Comp. Gen. 296, 297.
Consequently, it may not be concluded from
the facts appearing that the orders of Febru­
ary 13, 1962, provide a record basis showing
that Captain Grundy was entitled to the
permanent change of station allowances in­
volved. See 32 Comp. Gen. 242; id. 372; 34 id.
93; id. 95; 35 id. 508; id. 643. Also, see,
Thomas Nathan Russell v. United States,
314 F.2d 809, 161 Ct. Cl. 183, decided 1963.
To the Secretary of the Air Force, 42 Comp. Gen.
582, 584—5 (1963) (emphasis added).
2. The phrase “found to be due” in § 1552(c)(1)
has consistently been interpreted to exclude
any exercise of discretion by the Defendant in
determining amounts due incident to a recordcorrection
161. But there is another barrier to the kind of
improper discretion that the Navy attempted to exer­
cise here, sua sponte, by adjusting Mr. Sharpe’s rec­
ord on the basis of what entitlements it “believes” are

139a
due, DSR, 2, provided by the long-standing and con­
sistent interpretive approach of the executive branch
to the statutory phrase “found to be due,” id. §
1552(c)(1). As already noted, the phrase “found to be
due,” id., means, according to DOD financial rules,
“determined to be due by applying pertinent laws
and regulations to all the material facts shown in the
corrected record,” DODFMR, supra (emphasis add­
ed). That is, while the statute (and the regulation as
well) clearly limit the entitlements that accrue to a
service member from favorable correction-board ac­
tion to those that arise from his record as finalized
by the board, the tandem regulation also confines the
determination of entitlements, given the pre-existing
premise of that corrected record, to those that arise
from a dispassionate application of statute and regu­
lation to facts found in the record. This, then, by the
obvious terms of the regulation, is what the statutory
phrase “found to be due,” id., means, and where, like
here, “the regulatory language is clear and unambig­
uous, the inquiry ends with [its] plain meaning.”
Roberto v. Dept, of the Navy, 440 F.3d 1341, 1350
(Fed. Cir. 2006) (citing Meeks v. West, 216 F.3d
1363, 1366 (Fed. Cir. 2000)).
162. This regulatory interpretation of the statute
has been consistently upheld by - and, given the
regulation at issue, even likely derives from - the
CGUS decisions dealing with back-pay claims inci­
dent to § 1552 record corrections. One representative
decision among numerous others, in words parallel­
ing the regulation, held that
the Secretaries of the Army, Navy, Air Force
and, then Treasury - now Transportation
with respect to Coast Guard matters — are
not vested with discretionary power to make

140a
determinations of the amounts to be paid as
a result of the correction of military records
pursuant to 10 U.S.C. § 1552; and the
amounts to be paid under that statute de­
pend solely upon a proper application of the
statutes and regulations to the facts as
shown by the corrected record in each partic­
ular case.
Reynaldo Garcia, B-207299, 1982 U.S. Comp. Gen.
LEXIS 367, at 4*-5* (Oct. 6, 1982); accord Lt. Col.
Mary S. League, B-198489, 1981 U.S. Comp. Gen.
LEXIS 1691, at *4 (Feb. 19, 1981) (“[U]pon correction
of a member’s service records, all resulting benefits
and liabilities are based solely upon the application
of the law then in effect, to the facts as show In] in
the record as reconstructed.”); Lieutenant Com­
mander George K. Huff, 55 Comp. Gen. 961, 965
(1976) (authority to pay a claim against the United
States depends only upon a member’s record as re­
flected by final decision to modify said record or de­
cline to do so); To the Secretary of Transportation, 51
Comp. Gen. 191, 194 (1971) (“Upon the correction of
his record, a member is entitled under 10 U.S.C.
1552(c) to all pay which would have become due un­
der applicable provisions of law on the basis of the
facts reflected by the record as corrected.”); 1962 U.S.
Comp. Gen. LEXIS 2723, at *2-*3 (same); 45 Comp.
Gen. at 541 (noting that “legal conclusion[s as to en­
titlements] follow [] from the facts and cannot exist
apart from them”). This view has been maintained
since before 1954, when the acting CGUS denied the
proposition that a “Secretary concerned .. . has ple­
nary power to grant or withhold monetary benefits
which . . . would accrue to a person as a matter of
law on the basis of the matters of fact or purported

141a
fact shown in his corrected record.” Acting Comptrol­
ler General Weitzel to the Secretary of the Army, 34
Comp. Gen. 7, 9 (1954). Instead, in a decision that
this Court’s predecessor relied upon as “able,” Ray,
197 Ct. Cl. at 6, he insisted that
the Secretaries of the departments concerned
are not vested, impliedly or otherwise, with
any discretionary power to make determina­
tions of the specific amounts to be paid as a
result of the correction of military or naval
records and . . . the amounts lawfully author­
ized to be paid . . . pursuant to the correction
of military or naval records are not depend­
ent upon either the judgment or the generosi­
ty of such Secretaries in any particular situa­
tion but depend solely on a proper applica­
tion of the statutes to the facts or purported
facts as shown by the corrected record in the
particular case.
Id. at 12. Indeed, the CGUS has refused to give effect
to a military secretary’s determination where it “does
not relate to a record correction within the purview
of 10 U.S.C. 1552 but rather [is] a determination of
the specific amount to be paid as the result of the
records correction . . .,” To Major N. C. Alcock, De­
partment of the Air Force, 50 Comp. Gen. 180, 183
(1970). At the same time, and recently, where the de­
termination of amounts due are clear from a mem­
ber’s record as established by correction-board ac­
tion, he has not hesitated to find the board’s decision
controlling as to such amounts. Senior Chief Petty
Officer John J. Chiumento, USN (Retired), B-244598,
1991 U.S. Comp. Gen. LEXIS 1298, at *2-3 (Oct. 2,
1991) (denying member’s claim to entitlement on the

142a
basis of an asserted error in his record with regard to
the timing of PCS orders because BCNR refused to
correct the member’s record in the first instance).
163. The Defense Claims Appeals Board, succes­
sor to the CGUS for the purposes of settling claims
within the DOD, see Legislative Branch Appropria­
tions Act, Pub. L. No. 104-53, § 211(b), 109 Stat. 514,
535 (1995); Office of Mgmt. & Budget, Exec. Of­
fice of the President, Determination with Re­
spect to Transfer of Functions Pursuant to Pub­
lic Law 104-53, Attachment A, at 1 (1996), continues
to follow the CGUS precedents. “When a member is
retroactively restored to active duty, DFAS calcu­
lates the amount, if any, which is due the mem­
ber . . . using the appropriate Service regulations and
Comptroller General decisions.” DOHA CAB Deci­
sion, Claims Case No. 01032705 (June 22, 2001),
http7/ogc. osd.mil/doha/
claims/military/01032705.html,
rev’d on
other
grounds by Deputy General Counsel (Fiscal), De­
partment of Defense, on August 7, 2002; accord
Claims Case No. 99051701, supra (“DOHA bases its
decisions on the Comptroller General’s decisions.”).
In a lengthy and recent decision by the CAB, review­
ing the history of CGUS decisions along the lines
herein indicated, DOHA CAB, Claims Case No. 2012CL-082003.2,
at
6-7,
(Apr.
24,
2013),
http://ogc.osd.mil/doha/
claims/military/2012-CL082003.2.pdf, the CAB concludes that just as Con­
gress declined the CGUS’s invitation to exercise re­
view over correction-board decisions, see H. R. Rep.
No. 82-449 (1951), at 3, DFAS likewise has no au­
thority to reject conclusions that necessarily flow
from the application of law and regulation to the
facts established with finality by correction-board ac­
tion: “Congress settled the issue in 1951. As long as a

143a
correction board performs a genuine correction of a
military record, DFAS’ authority is limited to calcu­
lating the proper amounts due under the correction,”
id., at 7.
164. Admittedly, CGUS decisions are not binding
on this Court. But they do reflect a body of decision­
making interpreting the interplay between the au­
thority provided by 10 U.S.C. § 1552 and the mone­
tary entitlements that result from the exercise of
that authority, and, because they reflect a “position
[that] has been consistent and reflects agency-wide
policy, and [they likewise reflect] ... a reasonable
conclusion as to the proper construction of the stat­
ute,” Cathedral Candle Co. v. U.S. Int’l Trade
Comm’n, 400 F.3d 1352,1366 (Fed. Cir. 2005), they
are entitled to some deference. Moreover, this Court
has recognized, in similar circumstances, that “[t]he
[CGUS] has rendered decisions in a long line of cases
that address the [relevant] issue,” has found that the
“cases [were] instructive and well-reasoned,” and has
decided to “follow their rationale . . . .” Bean Stuyvesant, L.L.C., v. United States, 48 Fed. Cl. 303, 325
(2000); but see Kinne v. United States, 21 Cl. Ct.
104, 111 (1990) (CGUS as adjudicator). Moreover,
and arguably decisive, the JTR itself - providing
regulations that the CGUS and his successor rou­
tinely interpret - by its own admission is “issued un­
der the . .. authority] of’ inter alia the “decisions of
the U.S. Comptroller General (CG)[ and the] Defense
Office of Hearings and Appeals (DOHA).” Id., para.
B.2.e.4. Finally, and prescinding from the exact
question of the controlling weight of the CGUS deci­
sions, it is clear that Defendant’s departure from
these well-established precedents without a suffi­
ciently persuasive explanation “[should] be vacated
as arbitrary and capricious.” Fred Beverages, Inc. v.

144a
Fred’s Capital Mgmt. Co., 605 F.3d 963,967 (Fed.
Cir. 2010) (citations omitted). This is because “[a]n
agency is obligated to follow precedent, and if it
chooses to change, it must explain why,” M.M. & P.
Maritime Advancement, Training, Educ. & Safety
Program v. Dep’t of Commerce, 729 F.2d 748, 755
(1984) (emphasis added) (citing Greater Boston Tele­
vision v. FCC, 444 F.2d 841 (D.C. Cir. 1970)). As the
Supreme Court of the United States (SCOTUS) has
noted, “[a]n agency may not.. . depart from a prior
policy sub silentio or simply disregard rules that are
still on the books,” FCC v. Fox Television Stations,
Inc., 556 U.S. 502, 515 (2009) (citation omitted).
3. Conclusion^ Defendant cannot set entitlements
165. That the foregoing constraints against De­
fendant purporting to shape Mr. Sharpe’s entitle­
ments by way of the recent record “correction” ap­
plies in spades to Defendant’s conduct here is not on­
ly obvious from the face of the Bourne Memorandum,
which purports to correct Mr. Sharpe’s record to
show that he is “not entitled” to various pays, id. f
l.d. Indeed, the Defendant tipped its hand earlier, by
remarking that its intention was to ensure Mr.
Sharpe did not receive an “undue windfall.” JSR, 3
(May 2, 2017). While Mr. Sharpe here does not claim
a windfall, and rather asks only that the Govern­
ment follow its own regulations - its obligation to do
so being “a fundamental tenet of our legal system,”
Vandermollen, 571 F.2d at 624 - the Defendant’s
admission arguably places its conduct squarely with­
in the zone of what statute and regulation, as em­
phasized and consistently interpreted by the admin­
istrative tribunals charged with implementing them,
forbid.

145a
166. In consequence, any claim that the Bourne
Memorandum may make, relative to what is “found
to be due,” 10 U.S.C. § 1552(c)(1) (2012), to Mr.
Sharpe, is void, not only because the memorandum is
ultra vires as manifestly contrary to statute and reg­
ulation, as detailed supra ft 143-156, but also be­
cause it attempts to affect the entitlements due Mr.
Sharpe on some basis other than the operation of law
and regulation upon his record as corrected by
BCNR, contrary to the settled understanding within
the DOD of how amounts are “found to be due,” id.,
which is, on the basis of an uninterrupted line of
CGUS and CAB decisions, that the military depart­
ments, incident to a correction of records, “do not
have discretionary authority to limit or reduce the
amounts .. . payable under the law,” Acting Comp­
troller General Weitzel, 34 Comp. Gen. at 7, and that
they are absolutely “without authority to decide
[how] correction action shall be applied for pay pur­
poses,” To Commander M. M Alexander, Department
of the Navy, 42 Comp. Gen. 252, 254 (1962) (empha­
sis added).
D. Bourne Memorandum violates the constructiveservice doctrine by engaging in impermissible
speculation as to Mr. Sharpe’s “supposed” non­
separation career
167. Finally, Defendant’s reliance upon the
Bourne Memorandum as “the best approximation of
Mr. Sharpe’s constructive service record during his
separation,” DSR, 2, in order to arrive at what the
Navy “believes ... is appropriate,” id., relative to Mr.
Sharpe’s entitlements, not only ignores the fact that
his record as corrected by BCNR is the “constructive
service record,” by effectively replacing his record

146a
with one Mr. Bourne, unlawfully, has created for
him, but also, to the extent Defendant’s speculations
rely on Bourne’s gratuitous assumptions that Mr.
Sharpe “would not have continued to serve aboard
USS CARL VINSON past 2009,” Bourne Memoran­
dum f l.b, that he “would have been transferred un­
der [PCS] orders had he not been separated,” id. Tf
l.c, and that he “would not have been assigned to a
shipQ from 1 Oct 09 to 12 Feb 17,” id. ^ l.d, disre­
gards decades’ worth of law addressing constructive
service incident to the reversal of an illegal dis­
charge, as well as the general principles of adminis­
trative law that bar resort to speculation when it is
being made to substitute for an exercise of discretion
that can only have been accomplished in the first in­
stance.
1. Bourne cannot exercise discretion reserved for
BCNR or Navy personnel authorities in the
first instance
168. The general rule goes back at least to 1943
with the renowned SCOTUS decision in S.E.C. v.
Chenery, standing for the proposition that an admin­
istrative or judicial review cannot substitute for the
lack of action which an “agency alone is authorized to
make and which it has not made.” 318 U.S. 80, 87—8
(1943). The principle has been frequently acknowl­
edged in this circuit, see, e.g., Vizio v. Inti Trade
Comm ’n, 605 F.3d 1330, 1343 (Fed. Cir. 2010) (hold­
ing that where a decision “implicates agency discre­
tion” the reviewer “cannot properly substitute [his]
decision on a discretionary issue” (citations and quo­
tation marks omitted)), and has likewise been in­
voked precisely in the context of back-pay claims
arising from the reversal of an unlawful discharge.

147a
In Wagner v. United States, controlling here, the
CAFC anticipated Mr. Bourne’s effort by more than a
decade. While the latter speculates that Mr. Sharpe
“would have been transferred . .. had he not been
separated,Bourne Memorandum, If l.c (emphasis
added), the court declined the government’s invita­
tion to take that approach to an Army member un­
lawfully discharged, stating instead that “we will not
speculate as to what the outcome might have been
had the error not occurred365 F.3d 1358, 1365
(2004) (emphasis added) (refusing to find Army error
harmless when it failed to approve discharge pro­
ceedings in the first instance as required by regula­
tion). The court emphasized that its approach to the
case was “particularly” apposite, because “a finding
of harmlessness would require us to approximate the
absolute discretion afforded the Secretary of the Ar­
my on personnel matters with a determination of our
own.” 365 F.3d at 1365. Likewise, Bourne - not only
unlawfully, but contrary to the principles established
by Chenery and Wagner — attempts to approximate
the “absolute discretion” of BCNR or CNP “with a
determination of [his] own,” id. - which the CAFC
found to be totally improper, and he simply is not au­
thorized to exercise in the first instance. Only CNP
and commands he authorizes issue orders to officers,
supra f 129, and BUPERS-00J is not among them,
supra Tf 128. Moreover, BCNR could possibly have
exercised discretion to constructively assign Mr.
Sharpe to his home or to another duty station, at
least for purposes of a retroactive record correction.
See, e.g., Camilo v. United States, 89 Fed. Cl. 671,
675 (2009) (noting Air Force correction board’s cor­
recting a member’s record to show an PCS to her
home of record during the period between her voided
discharge and her reinstatement); but see Roth v.

148a
United States, 378 F.3d 1371, 1392 (Fed. Cir. 2004)
(rejecting as an inadequate remedy the idea of notionally assigning a member “home” during his con­
structive-service period). In any event, BCNR de­
clined to do so, in light of which the conclusion aptly
stated the United States Court of Appeals for the
District of Columbia Circuit applies here:
“[Clounsel’s post hoc rationalizations cannot substi­
tute for the agency’s own failure” to exercise discre­
tion in the first instance. Matlovich v. Sec’y of the Air
Force, 591 F.2d 852, 860 n. 20 (D.C. Cir. 1978).
2. Constructive-service doctrine enjoins Defend­
ant from fabricating an alternative career and
requires instead the return of Mr. Sharpe to
“where he left oft”
169. This Court has frequently enforced the
CAFC’s approach in Wagner, Wisotsky v. United
States, supra, is one among many. Because “[w]hat
might have happened is subject to speculation!!, and
because neither] defendant, plaintiff nor this court
can know the result with any reasonable certainly,”
69 Fed. Cl. at 311 - or in this case, because neither
Defendant nor Mr. Bourne nor Mr. Sharpe can know
whether or when or where he might have been trans­
ferred following September 30, 2009 - such specula­
tion is simply inappropriate and irrelevant as to de­
termining the entitlements that should be found due
on the basis of the corrected record. “What is known,”
the Court in Wisotsky continued, was that (in that
case) the plaintiffs “Board of Inquiry was improperly
constituted,” just as, in this case, what is known and all that is known - is that Mr. Sharpe’s dis­
charge was “void due to plain legal error,” BCNR De­
cision, 16, just as, in Holley v. United States, all that

149a
was known was that the reversal of a discharge re­
turned the plaintiff “to the position he occupied at
the time of his discharge, as if the discharge had
never happened.” 33 Fed. Cl. 454, 457 (1995) (reject­
ing the government’s view that the plaintiff s stationbased entitlements would not continue during the
constructive-service period because he likely would
have been transferred).
170. Restoration of restored service members to
“the positionls they] occupy[] at the time of [their]
discharge[s],” id., is, indeed, the heart of the con­
structive-service doctrine which is controlling in this
circuit. Doyle, 220 Ct. Cl. at 306 (restoring dis­
charged plaintiffs to the “position, rank, and pay”
held at time of discharge); accord Dilley v. Alexan­
der, 627 F.2d 407, 413 (D.C. Cir. 1980) (constructive
service mandates the award of “retroactive rein­
statement to the position [ the member] held on
[his] . . . dated of separation”); see also Ulmet v.
United States, 17 Cl. Ct. 679, 701 (1989) (noting that
“[t]his court agrees with the approach developed” in
Dilley, id). All of which means that Bourne is not en­
titled to speculate, “for constructive service purpos­
es,” Bourne Memorandum, If l.c-.e, as to what might
have happened “had [Mr. Sharpe] not been separat­
ed,” id. Tf l.c, even if, as this court recognized in its
(also controlling) decision in Reale v. United States,
208 Ct. Cl. 1010 (1976), the necessary effect of the
constructive-service doctrine in a particular case
would be to “postulate [an] impossibility,” id. at 1013,
i.e., “that a man may serve 20 years in the same
rank,” id., or, as here “that [Mr. Sharpe] may serve [7
additional] years [o]n the same [ship],” id. For correc­
tive actions like those that Bourne attempted to
make “pertaining to [Mr.] Sharpe’s pay,” Bourne
Memorandum 1f 1, the theory is even more applica-

150a
ble, because, as the court further announced in
Reale, speculation plays no role in the formulation of
back-pay awards, which “are not and do not pretend
to be realistic reconstructions of what the pecuniary
consequences of a serviceman’s career would have
been,” id. at 1013 (emphasis added).
3. Bourne’s reconstruction of Mr. Sharpe’s career
is in any event untenable
171. Bourne’s assumptions that Mr. Sharpe would
not have “continued to serve” aboard CARL
VINSON, Bourne Memorandum If l.c, that he “would
have been transferred,” id., and that, despite the
transfer, he would have remained in Norfolk, Va., id.,
by their internal contradictions as well as their in­
compatibility with conclusions that more intelligent
speculation would likely have produced, illustrates
the unreliability of this inherently questionable ap­
proach to Mr. Sharpe’s constructive service.
172. Indeed, if Bourne is assuming that Mr.
Sharpe’s tour on CARL VINSON would only have
been “24 months” based on “PAO detailing policy,” id.
If l.b, what is to be done with the fifteen months,
from June 2008 to September 2009, supra flf 68, 87,
88, that Mr. Sharpe actually served on the ship?
That Mr. Sharpe remained aboard for that long
passed his “planned” rotation date, supra flf 68, 69,
undermines rather than supports Bourne’s fiction.
173. Moreover, if “PAO detailing policy,” id., is the
basis for Bourne’s assumptions, and he really wishes
to engage in the forbidden “probable career recon­
struction” that this Court has previously rejected,
Holly, 33 Fed. Cl. at 457, how can he not have taken
into account the reality that most 05 assignments
for officers in Mr. Sharpe’s category are not in Nor-

151a
folk, Va., see Ex. 33, at 2—3; Ex. 34, at 1 (showing on­
ly nine percent of the assignments there), and that a
vastly greater number of them are in areas having a
much higher geography-based BAH rate than Nor­
folk, see Ex. 34, at 1 - on average, a rate, looking at
just FY 2017 numbers, that exceeds the Norfolk enti­
tlement by $654.00 per month, and, if one takes the
overseas assignments into account, the average of
the excess increases to $933.00, id. Given Mr.
Sharpe’s fluency in Italian, see Ex. 29, at 2-3, and
his previous service in Italy, see, e.g., Ex. 13, at 2,
why would we not presume his constructive service
was in Naples, where the housing allowance would
exceed Norfolk’s by well over $2000 monthly, id., and
even exceed San Diego’s by $850? Finally, given pre­
scribed officer tour lengths of twenty-four to thirtysix months, supra Tf 130, Mr. Sharpe may have
moved three times since his hypothetical Bourneordered detachment from CARL VINSON. The Na­
vy’s desire to avoid a “windfall,” JSR, 3 (May 2,
2017), for Mr. Sharpe would certainly be ill-served by
an accurate “career reconstruction,” Holley, id. — less
self-serving than the assumption that Mr. Sharpe
did three back-to-back tours in Norfolk despite all
the odds — that saw Mr. Sharpe serving, e.g., in Lon­
don, Hawaii, Miami, or Bahrain, see Ex. 33, at 2-3;
Ex. 34, at 1. (The housing allowance for a thirty-six
month London assignment is roughly the amount
Mr. Sharpe claims in BAH for the entire eightyseven month Constructive Service Period.) Nor
would that interest be served by following the lead of
the Air Force correction board, see Camilo, supra,
because assigning Mr. Sharpe to his home of record
in Los Angeles county, supra Tf 66, would entitle him
to more than $.3 million worth of BAH, see Ex. 34, at
1.

I

152a
174. The fancifulness of the foregoing scenarios il­
lustrates why courts have consistently declined to
indulge in speculation advanced by plaintiffs claim­
ing entitlements which, on the basis of their con­
structive-service records, simply appear too specula­
tive. See, e.g., Dilley, 627 F.2d at 414 (denying a
claim for hazardous-duty pay to successful plaintiffs
because it was “too speculative”); see also Verbeck v.
United States, 118 Fed. Cl. 420, 428 (2014) (disallow­
ing amounts in a back-pay claim that are “too specu­
lative,” such as morale and welfare benefit); Holley,
33 Fed. Cl. at 458 (same, reciting cases); Ulmet, 17
Cl. Ct. at 705 (same). For consistency’s sake, howev­
er, this must cut both ways - at times even against
the Government.
E. In summary- Bourne Memorandum is void as a
“correction” to Mr. Sharpe’s record to reflect his
detachment from CARL VINSON on the date of
his unlawful discharge
175. Because, therefore, as alleged supra
143156, the Bourne Memorandum is ultra vires, void, or
otherwise of no legal effect upon Mr. Sharpe’s record,
it is powerless to change that record so as to make it
reflect that Mr. Sharpe did not serve aboard CARL
VINSON “past 2009” or “from 1 Oct 09” thereafter,
Bourne Memorandum If l.b—.c, and, as also alleged
supra If If 157-167, Defendant cannot rely upon it as
establishing that “Mr. Sharpe’s tour of duty aboard
the USS Carl Vinson ended on September 30, 2009,”
DSR, l; therefore, Mr. Sharpe’s entitlements must be
established solely upon the basis of the application of
the relevant statutes and regulations to his record as
it exists pursuant to the BCNR recommendations
approved as “final and conclusive,” 10 U.S.C. §

153a
1552(a)(4), for SECNAV on April 25, 2016. These are
summarized below.
F. BAH is a station-based allowance based on loca­
tion of member’s duty station
176. Statute and regulation provide in pertinent
part for the payment of “a basic allowance for hous­
ing” for “a member of a uniformed service who is en­
titled to basic pay. 37 U.S.C. § 403(a)(1) (2012); ac­
cord JTR, para. 10002.A. It is uncontroverted that
Mr. Sharpe is now and was for the entirety of the
Constructive Service Period entitled to basic pay.
Supra If 99.
177. The statute also says that BAH “will vary
according to the pay grade in which the member is
assigned or distributed for basic pay purposes, the
dependency status of the member, and the geograph­
ic location of the member,” § 403(a)(1), accord JTR,
supra. The variation of the housing allowance by lo­
cation - the variable relevant here - began with the
Military Personnel and Compensation Amendments
of 1980, which added to the basic allowance for quar­
ters (BAQ) a variable allowance to address the high­
er cost of living in given areas. Id., Pub. L. No. 96343 [hereinafter MPCA], § 4(a)(1), 94 Stat. 1123,
1125 (1980) (adding VHA to housing-allowance enti­
tlements); see 37 U.S.C. 403(a)(2)(A) (1982) (codifying the VHA entitlement). Notably, the amendment
to section 403 of title 37 provided that the VHA
would accrue to a member entitled to BAQ if he were
“assigned to duty in an area ... which is a high hous­
ing cost area . .. .” MPCA, supra. The VHA’s depend­
ency upon the area of the member’s duty station
lasted until 1998, see 37 U.S.C. § 403a(a)(l) (1994)
(entitling member to VHA when “assigned to duty” in

154a
a high housing cost area), when it and the BAQ were
consolidated into a single BAH in the National De­
fense Authorization Act for Fiscal Year 1998, id.,
Pub. L. No. 105-85, § 603(c)(4), 111 Stat. 1629,
1775-83 (1997), effective January 1, 1998, id. §
603(e), 111 Stat. at 1783. Illustratively, when legisla­
tors enacted the location-dependant housing allow­
ance, they referred to it as a “station housing allow­
ance.” H. R. REP. No. 96-1233, at 14 (1980).
178. Because the rate of the VHA, until its consol­
idation with the BAH, was predicated upon the area
of a member’s assignment, 37 U.S.C. § 403a(a)(l)
(1994), current regulations having the force and ef­
fect of law, see 37 U.S.C. § 403(k) (2012) (authorizing
the Secretary of Defense to implement the statue via
regulation) - even though the principles they codify
today long predate the amalgamation of BAQ and
VHA into the single BAH, see 37 U.S.C. § 403(j)(l)
(1982) (authorizing the President at the time to “pre­
scribe regulations for the administration of [the] sec­
tion”) - consistently interpret the phrase “geographic
location of the member” as meaning, for station al­
lowance purposes, the geographic location of the
member’s permanent duty station. See JTR, para.
10402-B (“[A] housing allowance is paid based on the
member’s PDS .. . .”); accord OPNAVINST 7220.12,
Basic Allowance for Housing Entitlements, CH'l 3
(2011) (“BAH rates vary based on the geographic lo­
cation of the member’s [PDS]. . ..” (emphasis add­
ed)). The CGUS has likewise long adhered to this
understanding of the military housing allowances.
See Private Vaughn Desha, USMC, B-214731, 1984
U.S. Comp. Gen. LEXIS 602, at *4 (Sep. 4, 1984)
(noting the dependency of the VHA entitlement upon
being “assigned to duty” in a qualifying geographical
area (quoting JTR, para. M4550)); Military Leave

155a
Settlements — Variable Housing Allowance, 1981
U.S. Comp. Gen. LEXIS 238, at *4 (Feb. 18, 1981)
(noting that the VHA is a “station housing allow­
ance,” citing H. R. Rep. No. 96-1233, “not payable by
virtue of membership in a uniformed service but
accruing] incident to particular duty assignments”);
Lieutenant Colonel L. E. Sholtes, Department of the
Army, 51 Comp. Gen. 312, 315 (1971) (“Station hous­
ing allowances .. . are not payable by virtue of mem­
bership in a uniformed service but accrue incident to
particular duty assignments.”); accord Holley v. U.S.,
33 Fed. Cl. 454, 458 (1995) (noting that service
members receive station housing allowance “by vir­
tue of their . . . assignment”); see also Private J. E.
Gines, USMC, 70 Comp. Gen. 435, 437 (1991), (not­
ing that “allowances should be those appropriate for
[a member’s] duty station . . . .”).
1. For BAH purposes, regulations provide that
the duty station of a member assigned to a
ship is the ship’s home port
179. The CGUS has long considered that “[t]he
permanent station of a member assigned to a ship is
the ship . . .,” Ensign James W. Howard, USN, 61
Comp. Gen. 602, 603 (1982); accord To the Secretary
of the Army, 45 Comp. Gen. 689, 692 (1966), and Na­
vy regulations agree with this interpretation,
MILPERSMAN 1320-300, para. 4 (2014) (“A PDS is
the post of duty/official station of a member, includ­
ing a ship.”). But for purposes of allowances that de­
pend upon the location of a member’s duty station,
when a member is assigned to a ship his PDS is uni­
formly considered by regulation to be the ship’s home
port. See JTR, para. 10402.B (noting a “housing al­
lowance is paid based on . . . the home port for a

156a
member assigned to a ship . . . .”); id., app. A, pt. 1, at
Al-32, Permanent Duty Station, para. A.l.b(4) (de­
fining the “[s] hip’s home port.. . that a member is
assigned/attached for duty . .. [as] the PDS for.. .
[g]eographybased station allowances”); DOD In­
struction [hereinafter DODI] 1315.18, Procedures for
Military Personnel Assignments, Glossary, pt. II, at
66 (2015) (establishing that “The home port of a
ship ... to which a member is assigned or attached
for duty... is the PDS for. . . geography-based sta­
tion allowances ...“); MILPERSMAN, supra (same).
Pertinent CGUS decisions agree: because a ship may
be at sea in any location whatsoever, consideration of
the ship’s home port as the PDS location is an “ad­
ministrative convenience” for the figuring of stationallowances and other entitlements. Allowances on
Home port Change, 65 Comp. Gen. 888, 890—91
(1986) (“We have consistently held that the [PDS] of
a member assigned to a vessel is the vessel itself.
The vessel’s home port is regarded as a duty station
for administrative convenience in applying the .. .
station allowances.”). As a result, the CGUS has,
with equal consistency, held that for a member as­
signed to a ship, the “ship’s home port is [the] a
member’s [PDS].” Commander James P. Brown, Jr.,
NOAA Corps, B-186703, 1976 U.S. Comp. Gen. LEX­
IS 1647, at *4 (Dec. 28, 1976) (citing numerous deci­
sions); accord, e.g., Captain Tim H. Roberts, USNR,
B-215390, 1984 U.S. Comp. Gen. LEXIS 225, at *6
(Nov. 20, 1984); see also Evacuation Allowances, B248153, 1992 U.S. Comp. Gen. LEXIS 1128, at * 2
(Oct. 14, 1992) (noting that when a ship changes
home port the old home port is not any longer the
PDS of members attached to the ship).
180. With further regard to station allowances
and a ship’s home port, regulations also mandate, for

157a
“a member [who] is currently assigned to a ship . . .
with an announced home port change,” that the
“housing allowance” be “[c]hange[d] ... to the new
home port rate on the home port change effective
date prescribed by the Service.” JTR para.
10402.B.4.a. DFAS acknowledges the propriety of
this requirement. See Lieutenant Commander Ber­
nard R. Hess, USN - Reconsideration of waiver re­
quest, B-247264, 1992 U.S. Comp. Gen. LESIX 969,
at *4 (Sep. 8, 1992) (noting DFAS’s determination
that a member’s housing allowance changes effective
the date of a ship’s home port change, regardless of
where the member chooses to maintain a residence,
and that payments at the old home-port rate are er­
roneous after the home port change).
2. Regulations provide that BAH for a member
between duty stations continues at the rate
applicable to the old duty station until the
member reports to the new duty station
181. Finally, as regards a member in transit be­
tween an old and a followon PDS, regulations direct
the “old PDS'based BAH” to “[clontinue . .. through
the day before the day the member reports to the
new PDS, to include [temporary duty] en route. New
PDS-based BAH .. . authority begins on the day the
member reports to the new PDS.” JTR, tbl.lOE-12, r.
l; accord id., para. 10416.B (stating that “[a] mem­
ber’s old PDS is the PDS for BAH purposes from the
day the member departs the old PDS through the
day before the member reports to the new PDS in
compliance with a PCS order.”). The CGUS has en­
forced this provision of the travel regulations, as he
has the others herein cited. See Lance Corporal J. F.
Murphy, USMC, B-223425 1986 U.S. Comp. Gen.

158a
LEXIS 258, at *3-4 (Nov. 3, 1986) (holding that “en­
titlement to VHA” does not accrue following a mem­
ber’s departure from his PDS on the basis of any­
thing other than the PDS from which he has de­
tached until he is “assigned to duty” at the new PDS
(quoting JTR M4550)).
3. These regulations bind the Defendant and the

Court
182. The above-cited regulations, interpreting 37
U.S.C. § 403(a), noting that BAH “will vary according
to . . . the geographic location of the member,” id.,
and controlling the issues as to payment of BAH to a
member who is both assigned to a ship whose home
port changes during his assignment thereto and who
is undergoing a PCS, bind the agency and this Court.
This is because “regulations . .. reasonably designed
to carry into effect the acts enacted by the Congress
and . . . promulgated pursuant to the statutes ....
have the force and effect of law,” Henneberger v.
United States, 185 Ct. Cl. 614, 623 (1968), and be­
cause, “[w]hen Congress has ‘explicitly left a gap for
an agency to fill, there is an express delegation of au­
thority to the agency to elucidate a specific provision
of the statute by regulation,’ and any ensuing regula­
tion is binding in the courts unless procedurally de­
fective, arbitrary or capricious in substance, or mani­
festly contrary to the statute.” United States v. Mead
Corp., 533 U.S. 218, 221 (2001) (quoting Chevron,
467 U.S. at 843-844).

159a
G. Mr. Sharpe’s duty station after March 31, 2010,
was CARL VINSON in San Diego
183. Because Mr. Sharpe asserts entitlement to
BAH at the rate applicable to CARL VINSON’s San
Diego home port for the portion of the Constructive
Service Period following March 31, 2010, until the
day before he reports to his prospective Washington,
D.C., PDS, the sole material fact, see RCFC 56(a),
needing determination relative to the claim in this
Count II is Mr. Sharpe’s PDS on and after the effec­
tive date of CARL VINSON’s change of home port.
184. Though “[i]t has consistently been held that
that which constitutes a member’s designated post of
duty is a question of fact, the determination of which
is to be made with the assistance of any available ev­
idence . . .,” Master Sergeant Thomas W. Dunning,
USAF, B-185851, 1976 U.S. Comp. Gen. LEXIS 2667,
at *4 (Apr. 28, 1976) (citations omitted); accord Chief
Warrant Officer Henry R. Connor, B-241214, 1991
U.S. Comp. Gen. LEXIS 1091, at *2 (Sep. 12, 1991)
(same); 70 Comp. Gen. at 437 (same), it is herein
submitted that the evidence does not give rise to any
genuine dispute as to the fact of Mr. Sharpe’s con­
structive duty assignment on and after April 1, 2010,
and therefore that he is entitled to judgment as a
matter of law. .See RCFC 56(a).
1. A member’s PDS does not change without a
competent PCS order
185. Navy personnel rules define a PDS as “the
post of duty or official station ... to which a member
is assigned or attached for duty other than [tempo­
rary duty] or [temporary additional duty.”

160a
MILPERSMAN Article 1306-122, para. l.a.(l)
(2007).
186. Regulations uniformly define a permanent
change of station (PCS) as the
assignment, detail, or transfer of an employ­
ee, member, or unit to a different PDS under
a competent travel order that does not speci­
fy the duty as temporary, provide for further
assignment to a new PDS, or direct return to
the old PDS.
JTR, app. A, pt. 1, at Al-31 (defining “Permanent
Change of Station”); accord DODI 1315.18, supra;
DODI 1327.06, Leave and Liberty Policy and Proce­
dures, CH'3, at 44 (2016) (same); MILPERSMAN
1306-122
l.b(l) (2007) (same); see also
BUPERSINST 7040.6B, ch. 1, sec. B, at l-B-2 (defin­
ing a “PCS Move” as the “transfer or assignment of a
member from one PDS to another PDS”).
187. Because a member is not assigned “to a dif­
ferent PDS” without “a competent travel order” that
does not specify the new assignment as anything
other than permanent, JTR, supra, federal travel
regulations expressly provide that a PCS cannot be
effected by any means other than a PCS order. JTR,
para. 5006.A (“A PCS order must direct a PCS.”).
This is consistent with Navy policy. See
MILPERSMAN 1320-300 para. 3.a (stating that
change of duty orders “detach members from one du­
ty station and assign them to another”).
188. The settled meaning of the travel regulations
with regard to a member’s change of PDS is estab­
lished by several on-point judicial and administrative
decisions. See Holley v. U.S., 33 Fed. Cl. 454 (1995)/
Laningham v. U.S., 5 Cl. Ct. 146 (1984)1 Private J. E.

161a
Gines, USMC, 70 Comp. Gen. 435 (1991); Acting
Comptroller General Fisher to the Secretary of De­
fense, 32 Comp. Gen. 348 (1953); Submarine Duty Off-Crew Travel to New Home Port, 44 Comp. Gen.
507 (1965).
189. These decisions stand for the propositions,
consistent with regulation, l) that a PDS is not
changed absent a PCS order, see Holley, 33 Fed. Cl.
at 465 n.2 (holding that a PDS does not change ab­
sent the receipt of PCS orders); Laningham, 5 Cl. Ct.
146, 154 (1984) (noting that a record devoid of orders
showing an “assignment] and ‘transfer[]”’ is “patent­
ly insufficient” to establish it as a fact, and finding
instead that a member’s “old” PDS remains what it
was until “the member reports at the new permanent
duty station in compliance with permanent changeofistation orders” (quoting the JTR, para. M4550));
70 Comp. Gen. at 437 (1991) (“[I]f no action has been
taken to detach or transfer [a] member . . . we see no
reason why the member’s duty station would not re­
main the same.”); see also 32 Comp. Gen. at 350
(“Detachment from station under orders ... [has] the
effect of terminating the member’s duty assignment
at that station”); and 2) that a vessel’s change of
home port does not alter the attachment to the vessel
of the members so assigned, 44 Comp. Gen. at 509
(noting that homeport change orders “do not. . . dis­
turb the attachment of the members” to the vessel).
2. Mr. Sharpe was assigned to CARL VINSON
from June 20, 2006, until February 12, 2017,
when he received the first subsequent PCS or­
der detaching him from the ship
190. Mr. Sharpe’s assignment to CARL VINSON
as his permanent duty station (PDS) began on June

162a
20, 2006, when he reported to the office building in
Newport News, Va., where CARL VINSON was un­
dergoing overhaul, and where he worked continuous­
ly until being ordered to his home on March 7, 2007.
Supra THf 68, 70, 79.
191. Though Mr. Sharpe was ordered to his home
and never returned to his ship, supra ^f 79, and
though the ship went to sea in June 2009 without
him, id. 84, he remained assigned to the ship, as
Code 20 observed, because he still “had orders” to the
vessel, id. U 96, and was paid CSP continuously, id. If
94.
192. Defendant subsequently declined four oppor­
tunities to exercise discretion to remove Mr. Sharpe
from CARL VINSON. First, though (as the Bourne
Memorandum states, id. Tf l.b) his tour of duty was
originally scheduled to last two years, and his orders
reflect a “PRD” of June 2008, Ex. 7, at 2, he was not
transferred on schedule. Second, even though his
“numerical relief’ reported to the ship on June 20,
2008, supra Tf 82, Mr. Sharpe was not relieved, and
instead remained aboard. Third, though Mr.
Sharpe’s commanding officer had requested and ob­
tained, on January 2, 2008, permission to detach Mr.
Sharpe for cause from the ship, BCNR Decision ^
3.nn, still Mr. Sharpe remained aboard. Finally,
though Mr. Sharpe was ordered in July 2009 to de­
tach from CARL VINSON and thereby separate from
the Naval, Service, supra If 85, Mr. Sharpe’s orders
were canceled, and he was directed to “continue pre­
sent duty,” supra If 86.
193. Prior to BCNR action, Mr. Sharpe’s PDS re­
mained CARL VINSON until September 30, 2009,
when his detachment therefrom was effected by
BUPERS ORDER 2589, supra}Hf 87, 88, 111-114.

163a
194. Effective April 25, 2016, BCNR expunged
from Mr. Sharpe’s record the orders detaching him
from CARL VINSON and ordered that his record re­
flect uninterrupted and continuous service on active
duty. Supra T[ 97.
195. Mr. Sharpe’s current (December 7, 2017) or­
ders are PCS orders that have the effect of changing
his PDS, supra 186, because they do not specify his
assignment to his prospective Washington, D.C.,
PDS, as temporary, provide thereafter for further as­
signment, or direct him to return to any other PDS.
Ex. 9, at 3 (noting his Washington, D.C., assignment
as his “ultimate activity” and “permanent duty sta­
tion”).
196. Given BCNR’s removal from his record of the
orders detaching him from CARL VINSON on Sep­
tember 30, 2009, supra Tf 975 given the nullity of the
Bourne Memorandum purporting to “correct” Mr.
Sharpe’s record to show his service aboard CARL
VINSON ending on that date, id. ^ l.b, .d; and given
the absence of other orders intervening between the
(voided) separation and detachment orders that were
executed on September 30, 2009, and the order Mr.
Sharpe started to execute on February 13, 2017, su­
pra THf 111-114, the evidence constituted by Mr.
Sharpe’s record reflects that he was not removed
from his PDS, CARL VINSON, prior to the day be­
fore he reported to duty on February, 13, 2017, en
route his subsequent PDS, and that he therefore re­
mained attached to CARL VINSON following her
change of home port effective April 1, 2010, supra
83, 95 .

164a
3. The conclusion is compelled by relevant judi­
cial and administrative case law
197. Relevant case law supports this conclusion.
The CGUS, in B-164538, denied to a naval member
certain entitlements that would have accrued inci­
dent to his ship’s change of home port, because
“[plrior to the effective date of the change of home
port of the [ship],” the member “received orders de­
taching [him] from duty on that vessel and directing
[his] separation from the service [precisely the orders
that Mr. Sharpe received releasing him from CARL
VINSON and the Navy, supra f 87]. In view of those
orders, [the member’s] status as serving on board the
[vessel] was terminated.” Mr. Gregory A. Benadom,
B-164538, 1968 U.S. Comp. Gen. LEXIS 1945, at *3
(Oct. 8, 1968). Had Mr. Sharpe’s separation orders
not been voided by BCNR, they would have had the
same continuing effect. But, as this Court held in
Groves, 30 Fed. Cl., supra, when a discharge order is
invalidated, it is “void, and its effect on [a member’s]
status is as though it were never given,” id. at 33
(emphasis added) (citing cases). The absence of the
order in Mr. Sharpe’s record that had previously de­
tached him from CARL VINSON means that his attachment thereto necessarily endures
until
changed by his recent, valid PCS orders - as it was
before his discharge. See Laningham, 5 Cl. Ct. at 154
(member’s duty station prior to illegal pay stoppage,
absent PCS orders in the record to the contrary, re­
mains what it was at the time of the illegal act); Hol­
ley, 33 Fed. Cl. at 457 (because plaintiff “never re­
ceived PCS orders . .. his PDS .. . [is] the same as [it
was] at the time of his illegal discharge from ser­
vice”); Ulmet, 17 Cl. Ct. at 710 (awarding back pay to
include VHA at the rate “applicable to the location

165a
where the plaintiff was assigned to duty prior to his
improper release” (emphasis supplied)).
4. Application of the constructive-service doc­
trine also requires this conclusion
198. Even acknowledging the “legal fiction” of Mr.
Sharpe’s constructive, rather than actual, service,
see Groves, 30 Fed. Cl. at 35 (“In military pay cases,
the setting aside of previously issued orders has the
effect of creating a hiatus in the serviceman’s records
that is filled by giving recognition to a status that is
a legal fiction.”), the conclusion is the same. “The le­
gal fiction of constructive service places [Mr. Sharpe]
in the position he was prior to the time of his illegal
discharge,” Holley, 33 Fed. Cl. at 458 (emphasis add­
ed), which is that of an officer assigned to CARL
VINSON as PAO, supra f 68. The cases establishing
the essentials of the constructive-service doctrine
support this outcome, because they require that
when a member’s discharge is overturned, he is re­
stored to the position he had when he was dis­
charged. See supra 1f 170. Such reinstatement to “po­
sition” means that the clock must be turned back far
enough, when unraveling the consequences of a void­
ed discharge, to constructively restore a service
member to his actual position, rather than to a nom­
inal “hold” status that serves as a predicate for deny­
ing him some or all of the entitlements which would
otherwise be due. See Groves v. United States, 47
F.3d 1140, 1145—46 (Fed. Cir. 1995) (reversing lower
court decision to retroactively consider plaintiff as
having no duty assignment during his constructiveservice period); see also Roth, 378 F.3d at 1392 (re­
buking Air Force board for “fail[ing] to adequately
remedy the gap in [plaintiff]’s record”). The upshot,

166a
under controlling legal precedent as under applicable
regulations and in view of the record evidence, is
that Mr. Sharpe necessarily remains attached to
CARL VINSON through the end of the Constructive
Service Period.
199. Application of the logic of the most relevant
of the constructive-service cases likewise points to
the conclusion herein advanced, that Mr. Sharpe is
entitled to BAH for his Constructive Service Period
on the basis of the premise established by the evi­
dence, i.e., that he was not detached from CARL
VINSON on September 30, 2009, but remained as­
signed to her until reassigned by competent travel
orders, JTR, app. A, pt. 1, at Al-31.In Holley, this
Court awarded overseas housing allowance to a suc­
cessful plaintiff on the basis of the facts that he was
assigned overseas at the time of his discharge and
that his record, following the voiding of the dis­
charge, reflected the absence of any order assigning
him elsewhere, declining the Government’s invita­
tion to speculate he likely would have been trans­
ferred back to the United States had he remained in
the service. See 33 Fed. Cl. at 457. In Laningham,
the predecessor to this Court relied on the JTR to
deny a plaintiff his claim for Washington, D.C., hous­
ing allowance, even though that is where he appar­
ently had lived for twenty-two months, because he
could not produce a competent PCS order indicating
that he was in fact assigned there, and to instead
award him back housing allowance for Norfolk, Va.,
the location of the duty station to which the record
reflected he had been officially assigned. See 5 Cl. Ct.
at 154. Finally, in Ulmet, the Court’s predecessor in­
cluded in a back pay award to a successful plaintiff
the VHA to which he was entitled “at the appropriate
rated applicable to the location where the plaintiff

167a
was assigned to duty prior to his improper release,”
17 Cl. Ct. at 710 (emphasis supplied). In view of the
predication of the VHA rate on the location not of the
member himself but of his assigned duty station, see
37 U.S.C. § 403a(a)(l) (1994) (affording VHA when a
member is “assigned to duty” in a high housing cost
area), the court’s use of the phrase “location where
the plaintiff was assigned to duty” is of obvious sig­
nificance.
H. Count II - Motion for Judgment
200. Because there is no genuine dispute as to
any fact material to this Count II, and in view of the
authorities herein cited, providing l) that a mem­
ber’s PDS does not change absent a PCS order, supra
1f1f 185-189, 2) that a member’s PDS for BAH pur­
poses is the home port of his ship, if assigned thereto,
supra If 179, 3) that, following BCNR’s correction of
Mr. Sharpe’s record, it contains no evidence of a PCS
order subsequent to the orders assigning him to
CARL VINSON in June 2006 Mr. Sharpe, supra
196—198; 4) that, therefore, Mr. Sharpe was not de­
tached from CARL VINSON prior to February 12,
2017, supra id., and that 5) in consequence Mr.
Sharpe’s constructive duty station from October 1,
2009, to February 12, 2017, necessarily was CARL
VINSON, Mr. Sharpe prays this honorable Court to
find that he is entitled to judgment as a matter of
law, and to enter such judgment against Defendant striking the Bourne Memorandum, including the ul­
tra vires determination of Mr. Sharpe’s entitlement
to “BAH allowance at the Norfolk, Virginia rate from
1 Oct 09 until he returned to active duty on 13 Feb
17,” id. K l.c, except insofar as it memorializes acts of
the Defendant that are properly based on discretion-

168a
ary authority rather than upon the Memorandum’s
ultra vires “correction” of Mr. Sharpe’s record, or are
otherwise favorable to Mr. Sharpe, see id. If l.a, .e, .f!
striking the erroneous February 13, 2017, OPNAV
130 determination with respect to Mr. Sharpe’s BAH
for February 13, 2017, and following! declaring Mr.
Sharpe entitled to BAH for the pay grade of 05 at
the rate applicable to San Diego, Calif., from April 1,
2010, until the day before the date Mr. Sharpe re­
ports to his prospective PDS in Washington, D.C.!
enjoining Defendant to pay Mr. Sharpe l) either
$263,796.60 BAH for the entire Constructive Service
Period, or, if Defendant has already paid the
amounts previously determined, supra
15, 23, the
remaining $49,016.40, as well as, in either case, 2)
either a) $3502.80 for the period between February
13 and May 29, 2017, inclusive, or b) whatever other
amount may be due based on the difference between
the monthly BAH rate for San Diego at the pay
grade of 05 for the period between February 13,
2017, and the day before he reports to his new PDS
in Washington, D.C., inclusive, less the BAH he has
been paid at the Carrollton, Va., rate for that period!
and, further incident of and collateral to that judg­
ment, so as to provide an entire remedy and to com­
plete the relief afforded, requiring Defendant to mod­
ify all DON and DOD paper and electronic records as
inter alia ordered herein below infra, as well as or­
dering whatever additional relief the Court may find
due and proper.
COUNT III

ENTITLEMENT TO CAREER SEA PAY (CSP)
AND CSP PREMIUM AT THE 05 PAY GRADE
FOR THE PERIOD OCTOBER 1, 2009, TO
FEBRUARY 12, 2017

169a
201. Pursuant to RCFC 10(c), and to the extent
necessary, Mr. Sharpe realleges paragraphs 1-487 of
his first Amended Complaint, see Am. Compl., 1—
107, as if fully set forth here.
202. Mr. Sharpe realleges paragraphs 1-201, su­
pra, as if fully set forth here.
203. Defendant denies that Mr. Sharpe is entitled
Sea Pay for the Constructive Service Period. DSR, 2;
Addendum, Y, Bourne Memorandum THf 1, l.d.
204. Defendant has determined that, were the
Sea Pay entitlement to be established, Mr. Sharpe
would be owed a total of $52,095.64. Addendum, 1—2.
Mr. Sharpe’s calculations reflect his belief that he is
entitled to a total of $45,595.53, see Ex. 4, at 1 (cells
W32, W37, Y32, Y37).
205. Mr. Sharpe therefore claims entitlement to
Sea Pay for the Constructive Service Period in the
greater amount of either $45,593.70, see Ex. 4, at 1
(cells W32, W37, Y32, Y37), or (in the event his cal­
culations are erroneous) the amount Defendant finds
to be due on the basis of Mr. Sharpe’s entitlement as
herein claimed; that Defendant is obliged to pay this
claim by law and by regulation having the force and
effect of law; and that, because there is no genuine
dispute as to any fact material to this claim, he is
consequently entitled to summary judgment there­
upon.
206. As alleged supra til 143—156, the Bourne
Memorandum is ultra vires, void, and of no legal ef­
fect upon Mr. Sharpe’s record. It is therefore power­
less to change that record to make it reflect that Mr.
Sharpe did not serve aboard CARL VINSON “past
2009” and that his “sea duty ended on 30 Sep 09,” id.
f l.b; that he “would have been transferred under
[PCS] orders had he not been separated,” id. If 2.c;
and that he “did not serve aboard ship” and “did not

170a
serve over 36 consecutive months of sea duty” during
the Constructive Service Period, id. If l.c.
207. Likewise, the Bourne Memorandum is pow­
erless to affect Mr. Sharpe’s entitlements so as to
show that he “is not entitled to career sea pay” for
the Constructive Service Period, id. If l.d, and “not
entitled to career sea pay premium,” id., because as
noted supra 1fH 157-166, and because also of its ille­
gality, supra U 206, the settled rule, established by
regulation and judicial and administrative case, is
that the military departments possess no discretion
to opine efficaciously as to entitlements that arise
from a correction of records, and that instead they
are solely to be established, and, in fact, are only au­
thorized to be paid, see 10 U.S.C. § 1552(c)(1), on the
basis of an application of the relevant statutes and
regulations to the record as it exists, in this case,
pursuant to the recommendations of BCNR, ap­
proved as “final and conclusive,” id. § 1552(a)(4), for
SECNAV on April 25, 2016, and the Bourne Memo­
randum, considered in this light, is equally ultra vir­
es, void, and of no legal effect upon Mr. Sharpe’s en­
titlements.
A. CSP and CSP-P (Sea Pay) - Statutory and regu­
latory entitlement
208. Statute and regulation provide in pertinent
part for the payment of CSP for a member of a uni­
formed service who is l) “entitled to basic pay,” 37
U.S.C. § 305a(a) (2012); 2) “assigned to a ship,” id. §
305a(e)(A); and 3) “serving on a ship,” id. §
305a(e)(A)(i); accord DODFMR, Volume 7A, para.
180201, 180202.C.l (2016); OPNAVINST 7220.14 f 6
(same, while “serving on a qualifying sea duty as-

171a
signment”); id. ^ 7.a (“assigned to and serving in” a
“Category A ship” (emphasis in original)).
209. Navy regulations further note that “continu­
ous entitlement to CSP remains” where members
“permanently assigned to CSP-eligible vessels in
regular overhaul periods” must “move certain
workcenters or staff spaces. . . ashore for either
overhaul management effectiveness or loss of ship­
board working spaces.” OPNAVISNT 7220.14 8.c.
210. The DODFMR also provides persuasive au­
thority suggesting that Sea Pay should be paid ret­
roactive to a service member’s restoration to duty
upon the set-aside of adverse actions either contem­
plated or taken and then reversed. “When an eligible
member ... is suspended or otherwise removed from
duty or confined awaiting trial by court-martial,” and
he “is acquitted or [the] charges are dismissed,” CSP
then “accrues retroactively from the first day of. . .
removal from duty.” Id., Volume 7A, tbl.18-1, r. 12.
211. Mr. Sharpe is now and was for the entirety of
the Constructive Service Period entitled to basic pay.
Supra ]f 99.
B. Because Mr. Sharpe was attached to CARL
VINSON during the whole Constructive Service
Period, he necessarily likewise “served on” the
ship for that same period
212. As herein established supra tlf 185-198, Mr.
Sharpe was assigned to CARL VINSON from June
20, 2006, a “Category A” CVN designated as “unusu­
ally arduous sea duty,” supra ^ 71-72, until Febru­
ary 12, 2017. This conclusion is not only consistent
with (and arguably the only possible conclusion from)
the evidence of record, but it is also dictated by the
constructive-service doctrine, long employed by this

172a
circuit to resolve questions of entitlements to pay
and allowances arising from an invalidated dis­
charge. See supra, 1f 199.
213. By virtue of his assignment to CARL
VINSON during the Constructive Service Period and
in view of his constructive service for that period, he
likewise constructively served on CARL VINSON so
as to be entitled to Sea Pay, as demonstrated by
what follows.
214. By the admission of liability to pay base pay
(BP), see generally DSR, 1-4, Defendant necessarily
concedes that Mr. Sharpe constructively served dur­
ing the Constructive Service Period. The entitlement
to BP depends upon Mr. Sharpe’s being, during that
period, “a member of a uniformed service who is on
active duty.” 37 U.S.C. § 204(a)(1) (2012). Active duty
is defined under the relevant code title as “full time
duty in the active service of a uniformed service.” Id.
§ 101(18). “Active service” is further defined as “ser­
vice on active duty.” Id. § 101(20). Likewise, payment
under 10 U.S.C. § 1552, also concededly due, supra
127, may only be made “on account of [Mr. Sharpe’s].
. . service in the . . . Navy . . . ,” id. § (c)(l), which his
corrected record reflects.
1. As a matter of statutory interpretation,
“served on” with respect to shipboard service
means the same as “service” with respect to
serving on active duty
215. There appears to be no reason whatsoever
why, if the statutory phrases “service on active duty,”
37 U.S.C. § 101(20), and “service in the .. . Navy,” 10
U.S.C. § 1552(c)(1), may also mean “constructive”
service on active duty, and “constructive” service in
the Navy, for purposes of retroactive entitlement to

173a
“pay[ and] allowances,” id., the phrase “serving on,”
37 U.S.C. § 305a(e)(A)(i); accord DODFMR, Volume
7A, para. 180201, 180202.C.1 (2016); OPNAVINST
7220.14 If 6, a ship, or “serving in,” id. f 7.a, a ship,
should not also mean “constructively” serving on or
“constructively” serving in a ship. Indeed, this inter­
pretation of the statutory and regulatory language is
arguably compelled, and is solely a question to be re­
solved by this Court. “The issue of statutory inter­
pretation is a question of law, which [the Court] re­
view [s] completely and independently.” Demko v.
United States, 216 F.3d 1049, 1052 (2000) (citing
Cathy v. United States, 191 F.3d 1336, 1338 (Fed.
Cir. 1999)).
216. The BP entitlement in its current form has
its source in title 37, codified on September 7, 1962.
See Pub. L. No. 87-649, § 204(a), 76 Stat. 451, 457
(1962). Naturally the payment of service members
long predates the enactment of title 37 into positive
law. See, e.g., Career Compensation Act, Pub. L. No.
81-351 [hereinafter CCA], § 201(e), 63 Stat. 802, 807
(1949) (noting that members of the uniformed ser­
vices “when on active duty” are “entitled to receive
the basic pay of the pay grade to which assigned”).
The terms “active duty” and “active service” (upon
which the definition of active duty depends) were not
defined, however, until title 37 was codified. See 37
U.S.C. § 101(18), (20) (1964); Pub. L. No. 87-649, su­
pra, § 101(18), (20), 76 Stat. at 452. The correspond­
ing entitlement to sea pay was originally restricted
to “enlisted persons of the uniformed services . . .
while on sea duty.” CCA, § 206, 63 Stat. at 811; the
provision found its way into title 37 effectively un­
changed. See 37 U.S.C. § 305(a) (1964) (entitling “an
enlisted member of a uniformed service who is enti­
tled to basic pay - (l). . . while on sea duty, to . . .

174a
special pay . . .
The sea pay entitlement was not
extended to officers until December 23, 1980, long
after title 37 was codified, with passage of the Mili­
tary Pay and Allowances Benefits Act of 1980. See
id., Pub. L. No. 96-579 [hereinafter MPABA], § 4(a),
94 Stat. 3359, 3364-65 (1980) (entitling to sea pay “a
member of a uniformed service who is entitled to
basic pay. .. while on sea duty”). Importantly, as
well, the statutory term “sea duty” was only first de­
fined in the MPABA, id., 94 Stat. at 3365, as mean­
ing, in pertinent part, “duty performed by a member
— (l) while permanently . . . assigned to a ship . . .
and while serving on a ship ... .” See 37 U.S.C. §
305a(d)(l) (1982). This pertinent statutory language
is identical with the language of today’s statute. See
37 U.S.C. § 305a(e)(l)(A)(i).
217. The question, therefore, as to whether the
phrase “service on,” 37 U.S.C. § 101(20), with refer­
ence to the definition of member of a uniformed ser­
vice on active duty, and the phrase “serving on,” 37
U.S.C. § 305a(e)(A)(i), should be construed as having
the same meaning, such that if “service on” can, in
effect, mean “constructive service on,” likewise “serv­
ing on” can mean “constructively serving on,” can be
resolved by way of reference to a single canon of
statutory construction. This is the “natural presump­
tion that identical words used in different parts of
the same act are intended to have the same mean­
ing.” Libbey Glass v. United States, 921 F.2d 1263,
1265 (1990) (quoting Helvering v. Stockholms
Enskilda Bank, 293 U.S. 84, 87, (1934)); see Albe­
marle Corp. & Subsidiaries v. United States, 118
Fed. Cl. 549, 577 (2014) (noting that “the Supreme
Court has endorsed ‘the “normal rule of statutory
construction” that “identical words used in different
parts of the same act are intended to have the same

175a
meaning.”' (citing Gustafson v. AJloyd Co., 513 U.S.
561, 570 (1995))); see also Texaco, Inc. v. DOE, 795
F.2d 1021, 1030 (Temp. Emer. T. App. 1986) (quoting
2A Sutherland Statutory Construction § 51.02
(4th ed. 1968)). Consequently, if “service” on active
duty, 37 U.S.C. § 101(20), and “service” in the Navy,
10 U.S.C. § 1552(c)(1), includes “constructive ser­
vice,” as it must in order to justify payment of any
amounts at all, “serving” on a ship must also mean
“constructive” service, because, barring adjustments
for grammar, the words are used in the same con­
text, i.e., uniformed service members’ entitlements
incident to their service, and because when “sea du­
ty” was defined in the 1980 MPABA, supra, the pro­
vision was inserted into the preexisting title 37,
which had already employed the term “service” with
regard to the base-pay entitlement, see id., §§
101(20), 204(a) (1964), with its settled meaning as
including “constructive” service - so the meaning
must apply also to the term as used as regards sea
pay.
218. The CAFC’s decision in Cathy v. United
States, supra, affg Cathy v. United States, 41 Fed.
Cl. 547 (1998), arguably controls the inquiry here
and compels the result asserted. In that instance the
court had to address the question of whether the
phrase “served on active duty” in 10 U.S.C. §
638a(b)(2)(B) (2000) was “restricted to those persons
who actually engage in active duty, or whether the
phrase also includes those who, while not actively
engaging in duty, are treated for other significant
purposes as if they were engaging in active duty.”
Cathy, 191 F. 3d at 1339 (addressing whether the
years of service reflected in a plaintiffs record, even
though some were only constructive, had to be count­
ed genuinely as “service” in terms of his subjection to

176a
early retirement due to years of service). “In a nut­
shell,” the court asked, “does ‘served on active duty’
include time served constructively on active duty?”
Id. The court answered in the affirmative, upholding
the lower court’s finding that the plaintiffs “service”
was not actual service but that “reflected in [his] mil­
itary records.” 41 Fed. Cl. at 550. The CAFC ruled
the way it did for the reason, among others, that con­
struing “served” as meaning only actual and not con­
structive service “cannot explain why [the plaintiff]
has received pay, and other significant benefits
for serving as colonel, when he in fact did not ‘serve’
actually as a colonel.” 191 F.3d at 1339 (emphasis
added). Indeed, the court ruled that it was essential
for the colonel to be considered as having “served on
active duty ... in order to warrant receipt of the
benefits of that rank,” id., just as here it is inconceiv­
able (and rather ludicrous to imagine) that Mr.
Sharpe can be envisioned as entitled to the monetary
benefits of “service,” such as the base pay and allow­
ances to which Defendant admits he is entitled,
without, indeed, being equally envisioned as having
continued “serve Q on” the duty station to which we
was assigned
2. The record supports this conclusion
219. The facts of Mr. Sharpe’s record likewise dic­
tate the conclusion herein advocated. BCNR correct­
ed Mr. Sharpe’s record to show that he “continued to
serve on active duty.” BCNR Decision, 18. It is hard­
ly credible that the board, in making that correction,
intended that his record not reflect service wherever
the record happens to reflect he was assigned. What
is more, as Mr. Bourne admits, Mr. Sharpe “was
paid ... Career Sea Pay” for the period “from 20 Jun

177a
06 to 30 Sep 09,” Bourne Memorandum ^ l.b, not­
withstanding the facts that he never worked aboard
ship, due to its overhaul, supra U 70, he was ordered
to leave the ship on March 7, 2007, and never re­
turned, supra Tf 79, and the ship even went to sea
without him aboard supra t 84 — none of which, by
Defendant’s admission, operated to end his entitle­
ment to Sea Pay.
220. The result herein asserted is also, finally,
compelled by a consideration of the constructiveservice doctrine, as alluded to supra tlf 167-174, not
only with regard to Mr. Sharpe’s continuing attach­
ment to CARL VINSON during the Constructive
Service Period, supra
189, 197—198, and to his
consequent continued entitlement to the station al­
lowance dictated by that continued attachment, su­
pra Tf 199, but also with regard to Mr. Sharpe’s con­
tinued entitlement to the special pay he would have
received had he remained in service at the PDS to
which his service-record reflects he was assigned.
3. The constructive-service doctrine requires this
conclusion
221. As noted in the discussion of Cathy v. United
States, 191 F.3d 1336, constructive service as under­
stood in this circuit is based on the presumption
means that unlawfully separated officers are
“deemed to have served during the time of their ille­
gal release,” Barnick v. United States, 591 F.3d
1372, 1379 (Fed. Cir. 2010) (emphasis added) (quot­
ing Dilley, 627 F.2d at 413); accord Christian v.
United States, 337 F.3d 1338, 1347 (Fed. Cir. 2003)
C‘[P]ersonnel who have been illegally or improperly
separated from service are deemed to have continued
in active service.” (emphasis added)). This logic has

178a
been applied by this court not only to find that im­
properly separated service members are entitled to
benefits that arise from their status as active duty
officers, in the case of base pay, or from their pre­
sumed location, in the case of a station allowance,
but also to find that such service members are enti­
tled to the special pay they would have been entitled
to in view of the service they presumably would have
rendered. Indeed, notwithstanding the Bourne Mem­
orandum’s assertion that Mr. Sharpe “did not serve
aboard ship . . . from 1 Oct 09 to 12 Feb 17,” id. l.d
(emphasis added), this Court has clearly articulated
the arguably controlling principle that “whether a
service member has actually performed special duty,
or otherwise met the requirements for receiving such
pay, does not control whether he should receive spe­
cial duty pay as part of the restoration of his rights
and privileges.” Carlisle v. United States, 66 Fed. Cl.
627, 637 (2005) (emphasis added). On the contrary,
the Court, in Carlisle, went on to note that “this
court and its predecessor generally have awarded
special pay to service members as the result of con­
structive service, even where such pay or benefits or­
dinarily would be received only for active service.” Id.
(emphasis added). Both this court and the CAFC
have followed this decisive logic, and operated upon
the premise that even a discretionary act which
would ordinarily have been required to qualify a
member for special pay will be presumed to have oc­
curred during a constructive-service period in order
to provide the predicate for an award of the claimed
special pay, provided that there is no “denial on the
merits” of the entitlement to the pay which would be
entrusted to the government’s sole discretion. See
e.g., Groves, 47 F.3d at 1144 (reversing Groves, 30
Fed. Cl. at 35, for its denial of an award of special

179a
pay due to the absence in the record of orders and
signed agreements during the constructive service
period); Schuenemeyer v. United States, 776 F.2d
329, 331—32 (Fed. Cir. 1985) (citing its unpublished
decision, 770 F.2d 177 (Fed. Cir. 1985), for its hold­
ing that “since [Schuenemeyer] had been illegally
separated in 1977 and was ordered reinstated ... he
was entitled to flight pay without further proof on
his part that he remained qualified.) The principle is
also applied to work in the opposite direction. Wher­
ever the record is devoid of evidence that a successful
plaintiffs or correction-board applicant’s particular
status is terminated, it is presumed to have contin­
ued, to the extent that the termination of such status
is only by means of a voided, unlawful act, and not by
“a substantive decision on the merits,” Holley, 33
Fed. Cl. at 457, the status providing the basis for the
pay entitlement continues. See Groves, 47 F. 3d at
1144. (finding plaintiff entitled to special pays during
his separation period because he “was denied his
special pay by virtue of the court-martial conviction
and sentence, later overturned, and not by any dis­
cretionary decision by the Secretary”); Holley, id.
(noting that “no other action, which the court deemed
illegal, has been taken” that would end his entitle­
ment to overseas allowances, and that the entitle­
ment to “all corresponding back pay and allowances
[continues], until th[e ] status ends as a result of
some action”). In Mr. Sharpe’s case, the holding of
the CAFC in Groves is, mutatis mutandis, arguably
controlling: “While the[e] decision [to stop Sea Pay by
means of an order detaching Mr. Sharpe from CARL
VINSON] would normally be well within the Secre­
tary’s discretion, . . . that discretion is tempered by
the . .. command of [BCNR] to [correct Mr. Sharpe’s
record to show that he “was not discharged”]. It can-

180a
not stand if the Secretary [denied the Sea] Pay be­
cause [Sharpe] was [invalidly discharged] at that
time.” Id.
4. Speculation is an impermissible basis for es­
tablishing that Mr. Sharpe was not aboard
CARL VINSON during the Constructive Ser­
vice Period
222. Finally, the predicate for Defendant’s denial
of Sea Pay is Mr. Bourne’s speculations that Mr.
Sharpe “would not have continued to serve aboard
USS CARL VINSON past 2009,” Bourne Memoran­
dum l.b, that he “would have been transferred,” id.
f l.c, that he “would not have been assigned to a
ship” for the Constructive Service Period, id. If l.c!
and that he “did not serve over 36 consecutive
months of sea duty in this period,” id. Aside from the
fact that neither Bourne nor Defendant have the au­
thority to make judgments regarding entitlements
arising from correction-board decisions, supra ^Hf
161—165, such that the determination that Mr.
Sharpe is “not entitled to” CSP and CSP premium,
id. ^f l.d, the speculation upon which those determi­
nations are based is, finally, likewise improper. As
detailed supra Tf 168, an exercise of discretion en­
trusted to an agency is to be exercised by the agency
in the first instance - in this case, by BCNR, for the
correction of records, supra ^ 150—156, or CNP, for
the issuing of orders, supra Tf 129. Moreover, specu­
lation — whether Mr. Bourne’s or another’s — is simp­
ly not a proper ground upon which to base entitle­
ments, as the Court’s predecessor held when it an­
nounced that back-pay awards simply do not operate
on the basis of a purportedly “realistic reconstruc­
tion!] of what... a serviceman’s career would have

181a
been,” Reale, 208 Ct. Cl. at 1013. Though in this
case, as in most back-pay and record-correction cas­
es, “[Mr. Sharpe]’s status, after [his discharge] was
set aside, and his military records were corrected,
was constructive active duty, a legal fiction,” Groves,
30 Fed. Cl. at 37 (emphasis added), that fiction never
pace the Bourne Memodandum involves
“speculation] as to which path [Sharpe’s] military
career may have followed. The [BCNR’s] judgment
had the effect of restoring [Sharpe] to the position he
occupied at the time of his discharge,” Holley, 33
Fed. Cl. at 457, and that is that.
223. Statute and regulation further provide in
pertinent part for the payment of a CSP Premium
(CSP-P) for a member who l) is “entitled to career
sea pay,” 37 U.S.C. § 305a(c) (2012); and 2) “has
served 36 consecutive months of sea duty,” id.) accord
DODFMR, Volume 7A, para. 180302 (2016);
OPNAVINST 7220.14 ^ 13.a.
224. Since Mr. Sharpe’s assignment to CARL
VINSON began on June 20, 2006, supra Tf 68, and
was not terminated until he began executing his re­
cent PCS orders, supra THf 102, 196; because there­
fore his thirty-seventh month of consecutive sea duty
began on June 21, 2009; and because as established
herein, supra
204-222, he is entitled to career sea
pay for the duration of the Constructive Service Pe­
riod, thereby entitling him to the monthly CSPPremium, supra T) 223, which started on October 1,
2009.
C. Count III - Motion for Judgment
225. Because there is no genuine dispute as to
any fact material to this Count III, and in view of the
authorities herein cited, Mr. Sharpe prays this hon-

182a
orable Court to find that he is entitled to judgment
as a matter of law, and to enter such judgment
against Defendant striking the Bourne Memoran­
dum subject to the qualification herein noted, supra
200; declaring Mr. Sharpe entitled to Sea Pay for
the entirety of the Constructive Service Period; en­
joining Defendant to pay Mr. Sharpe the greater of
$45,593.70 or, in the event Mr. Sharpe’s calculations
are erroneous, the amount Defendant finds to be due,
see Addendum, 1-2, on the basis of Mr. Sharpe’s en­
titlement as herein stated; and directing the addi­
tional relief, supra H 200, to include the voiding of
the Bourne Memorandum’s purported findings that
Mr. Sharpe’s “sea duty ended on 30 Sep 09”; that he
“did not serve aboard ship” and “would not have been
assigned to a ship” for the Constructive Service Peri­
od; that he “did not serve over 36 consecutive months
of sea duty in this period”; and that he is “not enti­
tled to” CSP and CSP premium,” Bourne Memoran­
dum, f l.d; and, further incident of and collateral to
that judgment, so as to provide an entire remedy and
to complete the relief afforded, requiring Defendant
to modify all DON and DOD paper and electronic
records as inter alia ordered herein below infra, as
well as ordering whatever additional relief the Court
may find due and proper.
COUNT IV
ENTITLEMENT TO BASE PAY BASED ON
THE DIFFERENCE BETWEEN THE 04 AND 05
PAY GRADES FOR THE PERIOD FEBRUARY 13,
2017, TO MAY 31, 2017, OR OTHER DATE BE­
FORE THE DAY MR. SHARPE’S 05 PAY STARTS
226. Pursuant to RCFC 10(c), and to the extent
necessary, Mr. Sharpe realleges paragraphs 1-487 of

183a
his first Amended Complaint, see Am. Compl., 1—
107, as if fully set forth here.
227. Mr. Sharpe realleges paragraphs 1-226, su­
pra, as if fully set forth here.
228. DFAS has indicated that it will begin paying
Mr. Sharpe at the 05 pay grade on June 1, 2017. See
Ex. 1, at 1.
229. Mr. Sharpe herein claims entitlement to BP
at the pay grade of 05 from February 13, 2017, to the
date before the day DFAS begins paying him as an
05, inclusive, and to the amount consequently due,
less the 04 BP already received. He therefore claims
the amount either, respectively, of $4,960.44 (assum­
ing Mr. Sharpe’s regular 05 pay starts June 1, 2017),
or of whatever other amount is due from the period
February 13, 2017, to the day before the Defendant
begins to pay Mr. Sharpe’s BP at the 05 pay grade,
less the BP he has received or will receive at the pay
grade of 04 for that period; that Defendant is obliged
to pay this claim by law and by regulation having the
force and effect of law, and that, because there is no
genuine dispute as to any fact material to this claim,
he is consequently entitled to summary judgment
thereupon.
230. Defendant has provided no amounts for this
period, but DFAS has indicated to Mr. Sharpe that
the back pay addressed by this Count IV will be in­
cluded in Mr. Sharpe’s end-of-month pay for May
2017. See Ex. 1, at 1. On that assumption Mr.
Sharpe identifies herein an amount that he has cal­
culated see Ex. 4, at 1 (cell S50), based on the prem­
ise that the relevant period ends May 31, 2017, but
makes the claim as in any event running through the
day before DFAS starts his 05 pay.
231. While Mr. Sharpe hopes and fully expects
that as stated DFAS will pay the amounts due based

184a
on the entitlement as herein claimed, and on the
schedule that DFAS has proposed, he likewise be­
lieves that he deserves judgment on this claim, in
view of BCNR’s correction of his record, the pertinent
statutes herein cited, and the consequent entitle­
ment, and he therefore makes the claims solely in
order to preserve his rights therein in the event it is
not paid by Defendant sua sponte.
232. Because, therefore, there is no genuine dis­
pute as to any fact material to this Count IV, and in
view of the authorities herein cited, Mr. Sharpe
prays this honorable Court to find that he is entitled
to judgment as a matter of law, and to enter such
judgment against Defendant, enjoining him to pay
Mr. Sharpe $4,960.44 for the claimed entitlement
and period, or the amount properly due based on Mr.
Sharpe’s entitlement to BP at the 05 pay grade for
the period February 13, 2017, to the day before the
Defendant begins Mr. Sharpe’s BP at the 05 pay
grade, less amounts paid at the 04 pay grade for the
same period, or any amounts Defendant may have
already paid Mr. Sharpe pursuant to its stated inten­
tions, see Ex. 1, at 1, to the extent those may be less
than the amounts herein claimed; and, further inci­
dent of and collateral to that judgment, so as to pro­
vide an entire remedy and to complete the relief af­
forded, requiring Defendant to modify all DON and
DOD paper and electronic records as inter alia or­
dered herein below infra, as well as ordering what­
ever additional relief the Court may find due and
proper.
COUNTY
STATE TAX WITHHOLDING

185a
233. Pursuant to RCFC 10(c), and to the extent
necessary, Mr. Sharpe realleges paragraphs 1—487 of
his first Amended Complaint, see Am. Compl., 1—
107, as if fully set forth here.
234. Mr. Sharpe realleges paragraphs 1-233, su­
pra, as if fully set forth here.
235. Defendant will withhold Virginia state tax
from the amounts due Mr. Sharpe, DSR, 3.
236. Mr. Sharpe herein makes the claim that he
is not liable to pay Virginia state income tax, that
withholding thereof by Defendant from amounts due
to him would be contrary to law and regulation hav­
ing the force of law, and that, because there is no
genuine dispute as to any fact material to this claim,
he is consequently entitled to summary judgment
thereupon.
237. Defendant does not now withhold state tax
from Mr. Sharpe’s pay nor was it withheld from his
pay prior to his unlawful separation, because his
LES’s reflect California as the relevant state for pur­
poses of income tax withholding. See Ex. 6, at 1, 3, 7.
238. Navy regulations provide in pertinent part
that a member’s HOR is “[t]he place recorded as the
Service member’s home when commissioned, ap­
pointed, enlisted, inducted, or ordered into a tour of
active duty.” MILPERSMAN 1000-100, para 2.a
(2015).
239. Mr. Sharpe’s personnel record reflects that
his HOR is, and that he entered active duty from,
Cerritos, California. Ex. 11, at 1—2; Ex. 12, at 1, block
7.b.
240. Regulations likewise provide that “The place
recorded as the Service member’s home when rein­
stated, reappointed, or reenlisted remains the same
as that recorded when commissioned, appointed, en­
listed, inducted, or ordered into the tour of active du-

186a
ty, unless there is a break in service of more than 1
full day.” MILPERSMAN, supra., para 2.b.
241. DOD regulations governing the withholding
of state income tax expressly provide that a mem­
ber’s “Illegal residence at the time of entry into the
Armed Forces remains the same until changed by
the member.” DODFMR Volume 7A, para. 440206.B.
242. Mr. Sharpe has never changed his legal resi­
dence, and no evidence of record exists adequate to
support any conclusion to the contrary or put this
fact genuinely into dispute.
243. Mr. Sharpe’s ESR improperly and contrary
to the regulations above recited shows Mr. Sharpe’s
home of record as Virginia, Ex. 29, at 1.
244. The Servicemembers Civil Relief Act (SCRA)
provides that “[a] servicemember shall [not] acquire
a residence or domicile for purposes of taxation with
respect to the . . . income of the servicemember by
reason of being absent or present in any tax jurisdic­
tion of the United States solely in compliance with
military orders.” 50 U.S.C. § 4001(a)(1) (2012 &
Supp. 2016).
245. DOD regulations likewise provide that “[a]
member’s legal residence does not change because of
a change of permanent station.” DODFMR, supra.
246. Mr. Sharpe’s most recent period of continu­
ous residence in Virginia began when he transferred
from Fort Meade, Md., to Virginia Beach, Va., on
May 13, 2000, pursuant to military orders. Ex. 13, at
l; Ex. 24, at 2.
247. The
SCRA
also
provides
that
“[clompensation of a servicemember for military ser­
vice shall not be deemed to be income for services
performed or from sources within a tax jurisdiction of
the United States if the servicemember is not a resi­
dent or domiciliary of the jurisdiction in which the

187a
servicemember is serving in compliance with mili­
tary orders.” Id. at § 4001(b).
248. The
DODFMR
likewise
states
that
“[cjompensation for Military Service. . . is not taxable
by any state, territory, possession, political subdivi­
sion, or district that is not the member’s legal resi­
dence.” Id., para. 440206.A.
249. Virginia state law provides that “[p]ersons in
the armed forces of the United States stationed on
military or naval reservations within Virginia who
are not domiciled in Virginia shall not be held liable
to income taxation for compensation received from
military or naval service.” Va. CODE Ann. § 58.1321.B (2017).
250. Finally, as DFAS apparently recognizes, su­
pra , Tf 237, Mr. Sharpe’s income is not taxable by
virtue of his legal California residence. See Cal Rev
& Tax Code § 17014(a)(2), (b)(3) (Deering 2017) (de­
fining a “resident” as “[e]very individual domiciled in
this state who is outside the state for a temporary or
transitory purpose” but excluding officers of “the
armed forces of the United States” from being “con­
sidered outside this state for a temporary or transi­
tory purpose”); see also id. 1701 (presuming the res­
idence in California of “[e] very individual who spends
in the aggregate more than nine months of the taxa­
ble year”); id. 17041 (d)(l)-(2), (i)(l)(A)-(B) (imposing
tax upon the “taxable income of every nonresi­
dent .. . when the nonresident... is the head of a
household” and defining the “taxable income of a
nonresident” as including all “gross income and de­
ductions” for “any part of the taxable year during
which the taxpayer was a resident of this state (as
defined by Section 17014)” or the “gross income and
deductions” that are “derived from sources within
this state”).

188a
251. Because there is no genuine dispute as to
any fact material to this Count V, and in view of the
authorities herein cited, Mr. Sharpe prays this hon­
orable Court to find that he is entitled to judgment
as a matter of law, and to enter such judgment
against Defendant enjoining the withholding of any
amounts for the payment of state income tax from
the amounts that are legally due to Mr. Sharpe, and,
incident of and collateral to that judgment, so as to
provide an entire remedy and to complete the relief
afforded, requiring Defendant to correct all DON and
Department of Defense (DOD) paper and electronic
records so as to properly reflect Mr. Sharpe’s Home
of Record as Cerritos, Calif., as well as ordering
whatever additional relief the Court may find due
and proper..
CONCLUSION
In summary, Mr. Sharpe accepts Defendant’s cal­
culations of amounts due with respect to X, Y, and Z;
respectfully disagrees with Defendant’s calculations
of amounts due with respect to A, B, and C and sub­
mits that he is due, respectively, additional sums of
I, II, and III amounting to respective totals of a, b,
and c5 disagrees with Defendant’s deductions of
amounts 1, 2, and 3 and submits that no deductions
should be made; and finally invites the Defendant to
stipulate to his view A, B, C as detailed supra.
Mr. Sharpe requests oral argument under RCFC
20(c) on his Motion for Summary Judgment (on the
assumption that at least two of the claims upon
which it is sought will be opposed), as well as on his
motion for leave to amend in the event it is opposed.
Proposed Order/Requested Relief

189a
Pursuant to this Court’s Order directing Mr.
Sharpe to “detail 0 ... any requests he might have
for resolving disputes associated with his back pay,”
Order, 1,
2, Mr. Sharpe respectfully requests the
Court, with respect to such proceedings, to Order as
follows^
1. The Defendant to pay Mr. Sharpe forthwith the
amounts it has indicated as due to him in its
May 12, 2017, status report, along with any
additional amounts Defendant may concede as
due (or not proper for deduction from the
amounts due) in response to the demurrers Mr.
Sharpe has herein offered;
2. The Defendant to stipulate in writing in con­
junction with the aforesaid payment l) that
Mr. Sharpe’s acceptance of said payment will
not constitute a waiver or release of his claim
to the additional amounts he believes due and
which are herein detailed, and 2) that Defend­
ant waives any defense that may be provided
by 10 U.S.C. § 1552(c)(3), DODFMR Volume
7B, para. 100305, and 32 C.F.R. § 723.10(c)(2)
against any such claim, unless the Defendant
proposes to pay Mr. Sharpe the entire amount
he claims as due, which would render any such
stipulation unnecessary;
3. The Defendant to credit Mr. Sharpe with the
greater of seventy-one days’ leave, or the num­
ber of days it deems due him, for the Construc­
tive Service Period, exclusive of the leave he
accrued since his February 13, 2017, rein­
statement;

190a
4. The Defendant to submit a status report no
later than a date deemed proper by the Court
containing: l) identification of the amounts it
has paid Mr. Sharpe with reference to its May
12, 2017, status report; 2) specification of any
additional amounts it has paid Mr. Sharpe on
the basis of corrections he has herein outlined;
and 3) a detailed explanation with regard to
Mr. Sharpe’s divergent figures in any case
where Defendant has opted to pay an amount
Mr. Sharpe believes is owed which is less than
Defendant has indicated he is owed;
5. That leave is granted to Mr. Sharpe to file his
Plaintiffs Status Report equally as his Second
Amended Complaint and Motion for Summary
Judgment;
6. That the parties be available as deemed neces­
sary or appropriate by the Court for a telephon­
ic status conference in order to determine
whether there is any possibility of the parties’
resolving the disagreements herein detailed be­
fore the Court is required to take Mr. Sharpe’s
MSJ under advisement and before Defendants
face the requisite deadlines for a reply under
RCFC 7.2(a)(1), (b)(l) and 12(a)(1)(A); and
7. That oral argument shall be scheduled at the
earliest mutual convenience of the parties and
the Court on any claims with regard to which
the Defendant opposes a grant of summary
judgment and on any other motion herein made
which Defendant opposes.
Furthermore, in view of the foregoing and pursu­
ant to 28 U.S.C. § 149l(a)(l)(2012) and RCFC 56,

191a
Mr. Sharpe once again moves this honorable Court to
grant his Motion for Summary Judgment, enter
judgment against Defendant on each of the foregoing
Counts, and to award the following relief
1. Back payment of all regular and special pay, al­
lowances, allotments, compensation, emolu­
ments, or other pecuniary benefits due, accru­
ing for the periods^ l) Oct. 1, 2009, to February
12, 2017, at the 05 pay grade; and 2) from Aug.
1, 2008, to Sep. 30, 2009, and from February 13
to the appropriate end date (i.e., for BP, when
Defendant begins paying Mr. Sharpe at the 05
pay grade, and for BAH, when Mr. Sharpe re­
ports to his prospective Washington, D.C.,
permanent duty station), less the pay Mr.
Sharpe will have previously received at the 04
pay grade, as herein claimed or as the Court
deems proper based upon a correct figuring of
entitlements on Mr. Sharpe’s corrected record
pursuant to law and regulation and as correctly
calculated;
2. That Defendants submit a status report no lat­
er than a date deemed proper by the Court
providing a detailed explanation with regard to
any case in which Mr. Sharpe’s figures diverge
from Defendant’s (as in the case of Sea Pay,
where Mr. Sharpe claims entitlement to less
than Defendant believes he would be due were
the Court to award him judgment) and where
Defendant desires to pay Mr. Sharpe the lower
of the differing amounts;
3. That Defendants may not withhold state tax
from the amounts due to Mr. Sharpe;

192a
4. That Defendants, pursuant to 28 U.S.C. §
1491(a)(2), incident of and collateral to the
Court’s judgment, so as to provide an entire
remedy and to complete the relief afforded,
and, pursuant to SECNAVINST 5420.193,
Board for Correction of Naval Records (1997),
which states that “[t]he Chief of Naval Opera­
tions ... shall ensure that action is taken to
make the military record corrections directed
by the Secretary or BCNR,” id. If 4a. Strike the Bourne memo except insofar as it
provides determinations which are favora­
ble to Mr. Sharpe;
b. Strike the OPNAV N130 determination lim­
iting Mr. Sharpe’s BAH following the Con­
structive Service Period to the rate applica­
ble to Carrollton, Va., rather than San Die­
go, Calif., where Mr. Sharpe’s duty station
previous to that assigned by his current or­
ders is located;
c. Properly credit Mr. Sharpe with seventy-one
days’ leave accruing through the end of the
Constructive Service Period;
d. Enter into Mr. Sharpe’s service record a
memorandum with the language he re­
quested, supra f 120, nonprejudicially ac­
counting for his gap in service!
e. Enter into the records of the DON Mr.
Sharpe’s correct Officer Precedence Num­
ber, pursuant to his retroactive promotion
and BCNR’s grant of relief, BCNR Decision,
18;

193a
f. Correct all DON and DOD paper and elec­
tronic records to properly implement
BCNR’s direction, see BCNR Decision, 16,
18, including but not limited to correction or
expungement of
i. Records relating to Mr. Sharpe’s voided
discharge, such as the two separation
orders
and
the
one
separationcancellation order reflected on his NSIPS
Orders History page, and the September
30, 2009, “RAD” in his NSIPS History of
Assignments page;
ii. Records relating to Mr. Sharpe’s voided
detachment from CARL VINSON, such
as the September 30, 2009, transfer
therefrom reflected in his NPDB page,
his NSIPS History of Assignments page,
and his ODC, and replacing the detach­
ment date with February 12, 2017, or
other date that properly reflects the fact
that he was not assigned to duty follow­
ing his actual and constructive tour
aboard CARL VINSON until the Navy
issued his current December 7, 2016,
PCS orders!
iii. Records relating to his constructive ser­
vice on active duty and reinstatement,
including the SCRA DMDC Status Re­
ports from October 1, 2009, to February
12, 2017, and the August 1, 2016, “Pend­
ing Navy Gain” entry in his NSIPS His­
tory of Assignments page;

194a
iv. Records throughout the DON relating to
his home of record, ensuring that it
properly reflects Cerritos, Calif.;
v. The type and accounting data on Mr.
Sharpe’s December 7, 2016, PCS orders
to reflect that they are change-duty or­
ders directing operational travel rather
than orders directing newaccession
travel directed to a reservist or new of­
ficer accession, in order to remove the
predicate for the payment of BAH at an
erroneous rate following February 12,
2017, and to remedy the orders’ memorialization of Mr. Sharpe’s no-longerextant non-active-duty period, pursuant
to BCNR’s relief, BCNR Decision, 18; so
as to l) expunge all evidence of Mr.
Sharpe’s September 30, 2009, separation
from the Naval Service, release from ac­
tive duty, and detachment from CARL
VINSON; 2) ensure that his record re­
flects his continuous active-duty status
during the Constructive Service Period;
3) expunge or otherwise correct all rec­
ords pertaining to his February 13, 2017,
reinstatement to ensure that they do not
imply or give rise to the inference that
Mr. Sharpe was ever not on active duty
at any point between May 23, 1993, and
the date of his reinstatement; 4) ensure
Mr. Sharpe’s HOR is properly reflected
in all relevant paper and electronic data
and information systems; 5) remove, cor­
rect, or completely expunge any material
or entries inconsistent with the Court’s

195a
grant of relief, and ensure that no such
entries are made in the future.
5. That Defendants submit a status report no lat­
er than a date deemed proper by the Court
providing a detailed explanation of the recordcorrections accomplished pursuant to the
Court’s order;
6. That the Court will retain jurisdiction pending
the payment of the amounts due to Mr. Sharpe
and correction of records as herein ordered, or,
at the parties’ discretion, until a Consent De­
cree and Joint Motion for Stipulation of Dis­
missal is submitted to the Court indicating Mr.
Sharpe’s satisfaction with the payment and
corrections as herein requested and providing
for the Court to retain or reassert jurisdiction
as necessary to enforce the terms of the Stipu­
lation and Consent Decree;
7. All other due and proper relief, incident of and
collateral to the Court’s judgment, so as to pro­
vide an entire remedy and to complete the re­
lief afforded by that judgment, as seems appro­
priate to the Court.
Offer of Settlement
252. In the event the Defendant wishes to spare
the time and expense of continued proceedings in
this case, Mr. Sharpe hereby expresses his willing­
ness to settle the matter in consideration of an ag­
gregate total consisting of the entitlements as herein
claimed, in addition to those which Defendant ad­
mits are due, DSR, 1—4, as well as reimbursement of
his $400 filing fee paid to this Court, and provided

196a
the Defendant accomplish the record corrections as
herein detailed and the parties execute a Consent
Decree and Joint Motion for Stipulation of Dismissal
indicating Mr. Sharpe’s satisfaction with the pay­
ment and record corrections as herein requested and
providing for the Court to retain or reassert jurisdic­
tion as necessary to enforce the terms of the Stipula­
tion and Consent Decree and Stipulation.
253. The offer of is made for Defendant’s consid­
eration under 31 U.S.C. § 3702(a)(1)(A) or other ap­
plicable authority.
254. The Court is hereby thanked for its attention
to this matter and its consideration and assistance
thus far, and this matter is, furthermore,

May 25, 2017

/s/
JOHN F. SHARPE
Pro se
john.sharpe@charter.net
(757) 645-1740 (h)
(757) 332-2074 (c)
13088 Lighthouse Ln.
Carrollton, VA 23314

197a
APPENDIX J

fHmteti States Court of Jfetieral Claims
No. 15-1087C
Filed: August 11, 2017
k

JOHN F. SHARPE,

*
k

v.

Plaintiff * No.: I:i5'cv01087
* Judge: Thomas C.
* Wheeler
*

THE UNITED STATES, *

*

Defendant. *

*
*

kkkkkkkkkkkkkkkkkkkkkk k

PLAINTIFFS OPPOSED MOTION TO AMEND
AND SUPPLEMENT HIS
MOTION FOR SUMMARY JUDGMENT
Mr. Sharpe respectfully seeks leave of this Court
to file the attached amendment, see App. A, at 1—4,
replacing and adding one paragraph in his Motion
for Summary Judgment (MSJ), see generally id.,
May 30, 2017, ECF No. 36, and adding one addition­
al exhibit, see App. A, Ex. 1, at 1—4. The document
Mr. Sharpe seeks to incorporate is an email he re­
ceived on May 8, 2017. Because it was forwarded via
a separate email addressed personally to Mr. Sharpe

198a
regarding a separate aspect of the case, relevant at
the time but now moot, he did not then advert to the
part of it that appears relevant to the MSJ (it ad­
dressed the now relevant part several pages below
the portion relevant at the time), and only noted the
relevant part this past week during preparation of
the Motion to Strike, see id., 2-3, Aug. 4, 2017, ECF
No. 48, in response to the leave recently given by the
Court for filing the Administrative Record in this
case, see Order, 1, July 24, 2017, ECF No. 44.
'k'k'k'k'k

-APPENDIX APLAINTIFFS
AMENDMENT AND SUPPLEMENT TO HIS MO­
TION FOR SUMMARY JUDGMENT
Plaintiff hereby amends his Motion for Summary
Judgment (MSJ) in the above-captioned case by re­
placing paragraph 144, see MSJ, 47, May 30, 2017,
ECF No. 36, and adding paragraph 144a, as follows^
144. Defendant’s attempt to “correct” Mr.
Sharpe’s record by way of the Bourne Memo­
randum was facially contrary to 10 U.S.C. §
1552 (2012), because said “correction” was not
“made by the Secretary acting through [a]
board [] of civilians of the executive part of
[the] military department,” id. § 1552(a)(1), as
the statute requires. First, the memorandum
signed by Mr. Bourne reflects on its face that
the record corrections it attempts were not
made by a “boardO,” id. Additionally, the
Bourne Memorandum was essentially the

A-

199a
work of a uniformed officer of the Navy Judge
Advocate General’s Corps. See Ex. 35, at 4
(May 5, 2017, email from agency counsel,
Lieutenant Maryam Austin to NPC (PERS00J), explaining that she “draft [ed] a letter
from CNP directing [Defense Finance and Ac­
counting Service (DFAS)] to take certain ac­
tions”). Furthermore, agency counsel involved
two military officers, Captain Bradley J.
Cordts (PERS-00J) and Captain Jon Peppetti
(Legal Counsel for the Chief of Naval Person­
nel), in the preparation and approval of the
memorandum, routing it to them “in order to
get [their] sign off and determine who the ap­
propriate approval authority should be.” Ex.
35, 4; see also Ex. 35, 3 (copying additional
military officers, Captain Mark Holley and
Commander Laura Bishop, on correspondence
relating to the preparation of the memoran­
dum). So when Mr. Bourne executed the mem­
orandum, leaving aside the fact that he is not
the Secretary of the Navy, it was a failure to
act “through boards of civilians,” 10 U.S.C. §
1552(a)(1) (2012) (emphasis added), contrary
both to the statute, id., and to binding case
law in this circuit barring the participation of
military officers in the record-correction pro­
cess, see, e.g., Strickland v. United States, 423
F.3d 1335, 1341 (Fed. Cir. 2005) (noting that
Proper v. United States stands for the proposi­
tion that it is “contrary to statute [for] the Sec­
retary [to] involve[] a member of the military
in the civilian corrections process” (quoting
Proper, 139 Ct. Cl. 511, 526 (1957) (“Since the
errors or injustices which might require cor­
rection were originally made by the military,

#

200a
Congress made it manifest that the correction
of those errors and injustices was to be in the
hands of civilians.” (emphasis added)))); Weiss
v. United States, 187 Ct. Cl. 1, 10, 12 (1969)
(finding the Secretary of the Navy, contrary to
law, did not ‘“actO through’ a civilian board” as
the statute required where “JAG advised [him]
... to take the position he did . . . and proba­
bly . . . actually prepared the decision for [his]
. . . signature” (emphasis added)); id. at 11
(“An officer who has the predominant voice the
[uniformed litigator] had here is one the Sec­
retary is ‘acting through [,]’ and if [s]he is uni­
formed [s]he is one of those the Congress in­
tended should not be ‘acted through.’”).
144a. Because the Bourne Memorandum
was drafted and signed by agency counsel, see
Ex. 35, at 4; supra If 128, purports to exercise
authority that the signatory does not possess,
see supra
128—29, 143—44; infra THf 145—56,
and was prepared at the “eleventh hour,” only
in response to this Court’s order, see Order, 1,
May 5, 2017, ECF No. 33, directing the Gov­
ernment to make a final decision regarding
Mr. Sharpe’s pay, it appears not to reflect a
discretionary decision but merely a post hoc
defense of DFAS’s prior refusal, see Joint Sta­
tus Report, 2, May 2, 2017, ECF No. 32, to pay
Mr. Sharpe the entitlements he herein claims.
Because by law DFAS is obliged to “calculate]
the proper amounts due under [a genuine cor­
rection of a military record],” DOHA CAB,
Claims Case No. 2012-CL-082003.2, at 6-7,
(Apr. 24, 2013), http://ogc.osd.mil/doha/claims/
military/2012-CL-082003.2.pdf; see infra
163, its improper refusal to do so (as herein al-

201a
leged) is the only decision presented for the
Court’s review, leaving the Bourne Memoran­
dum as no more than the “government's] . . .
considerable effort attempting to justify the
[DFAS] decision U.” Dickson v. Sec’ of Defense,
68 F.3d 1396, 1406 n.16 (D.C. Cir. 1995). In
that respect, the Memorandum is “of no avail
at this stage of the process,” id., because
“counsel’s post hoc rationalizations for agency
action,” Williams v. United States, 116 Fed.
Cl. 149, 159 (2014), are not adequate justifica­
tion for DFAS’s decision; instead, the Court
may only “find support for [it] ... in the deci­
sion of [DFAS] itself,” id. (citations omitted);
see Florida Power & Light Co. v. Fed. Energy
Regulatory Comm’n, 85 F.3d 684, 689 (D.C.
Cir. 1996) (“[DFAS] runs this . . . program, not
[Navy] lawyers; parties are entitled to
[DFAS’s] analysis . . . , not post hoc salvage
operations of counsel. We therefore do not con­
sider these arguments.” (citing SEC v.
Chenery Corp., 318 U.S. 80, 93—95 (1943)
(other citation omitted)).
Plaintiff also hereby supplements his MSJ in the
above-captioned case by adding the attached exhibit
as Exhibit 35 to the MSJ.
The Court is hereby thanked for its attention to
this matter and its consideration and assistance thus
far, and this matter is, furthermore,
Respectfully submitted,

Is/

202a
August 10, 2017

JOHN F. SHARPE
Pro se
john.sharpe@charter.net
(757) 645-1740 (h)
(757) 332-2074 (c)
13088 Lighthouse Ln.
Carrollton, VA 23314

i

No.

3fn tlje Supreme Court of tlje Mnttefc States;
CDR John F. Sharpe, USN, Petitioner
V.

United States of America

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

APPENDIX TO THE
PETITION FOR WRIT OF CERTIORARI
VOLUME II

CDR John F. Sharpe, USN
Pro se
13680 Bold Venture Drive
Glenelg, Maryland 21737
(757) 645-1740
(703) 614-9165
john.sharpe@charter.net
john.f.sharpe2.mil@mail.mil

V

TABLE OF CONTENTS
APPENDIX J (BCNR letter to Navy
Personnel Command, dated Apr. 28,
2016)................................................................

203a

APPENDIX K (Joint Status Report, filed
Dec. 12, 2016).................................................

205a

APPENDIX L (BUPERS 00J letter, dated
Dec. 6, 2016).............................................. ....

217a

APPENDIX M (Joint Status Report, filed
Jan. 6, 2017)...................................................

221a

APPENDIX N (BUPERS Order 3426, dated
Dec. 7, 2016)...................................................

263a

APPENDIX O (DFAS letter, dated Feb. 10,
2017)................................................................

278a

APPENDIX P (Joint Status Report, filed
Mar. 1, 2017)..................................................

282a

APPENDIX Q (Joint Status Report, filed
Mar. 31, 2017)................................................

290a

APPENDIX R (Joint Status Report, filed
May 2, 2017)...................................................

296a

APPENDIX S (DFAS letter, dated ca. June
25, 2017)..........................................................

308a

APPENDIX T (CDR Sharpe’s Claim for
Settlement and Payment, dated Sep. 30,
2015)................................................................

312a

APPENDIX U (BCNR Decision Letter, dated
Feb. 8, 2016).........,........................................

320a

APPENDIX V (BUPERS Order 0876, dated
Mar. 28, 2006)...............................................

351a

(I)

i

APPENDIX W (BUPERS Order 3066, dated
Nov. 2, 2006)...................................................

362a

APPENDIX X (BUPERS Order 3066 (01),
dated Dec. 5, 2006)........................................

371a

APPENDIX Y (BUPERS Order 2589, dated
Sep. 15, 2009).................................................

372a

APPENDIX Z (BCNR Decision Letter, dated
Aug. 12, 2018)................................................

378a

APPENDIX AA (DFAS letter, dated Oct. 22,
2018)................................................................

382a

APPENDIX BB (DFAS letter, dated Feb. 20,
2019).......................................................... ......

383a

APPENDIX CC (BCNR Annual Statistics
letter, dated Mar. 17, 2010)........................

385a

APPENDIX DD (Statutes, Regulations, and
Other Matters).................... ..........................

387a

(II)

APPENDIX J

[SEAL]

DEPARTMENT OF THE NAVY
BOARD FOR CORRECTION OF
NAVAL RECORDS
701 S. COURTHOUSE ROAD,
SUITE 1001
ARLINGTON, VA 22204-2490
JLB
Docket No. 4284-14/
10521-12
28 Apr 16

From: Chairman, Board for Correction of Naval
Records
To:
Commander, Navy Personnel Command
Subj: REVIEW OF NAVAL RECORD ICO LCDR
JOHN F. SHARPE, USN, XXX-XX-3671
Ref:

(a) 10 U.S.C. § 1552

Enel:

(1) Approved findings, conclusions and
recommendations of SECNAV, less
enclosures

1. In accordance with reference (a), the Secretary of
the Navy has reviewed allegations of error and injus­
tice in the naval record of the Petitioner.
2. The Regulations approved by the Secretary of the
Navy require that the naval record of Petitioner to be
corrected, where appropriate, in accordance with the
approved recommendation of the Board as contained
(203)

204a
in enclosure (1).
3. By copy of this letter, the Defense Finance & Ac­
counting Service, DFAS-IN/COR/Claims, is author­
ized to pay all monies lawfully found to be due as a
result of the above correction to Petitioner’s naval
record.
4. The Board has advised Petitioner of the approved
recommendation,
5. It is requested that this letter and enclosures be
placed in Petitioner’s official record, and that this
Board be furnished a copy of any correspondence re­
lating to this approved recommendation .
/s/

DAVID J. CASH
By direction
Copy to:
DFAS-IN/COR/Claims
PERS 3C or CMC

205a
APPENDIX K

MniteD States Court of jfetieral Clatmsi
No. 15-1087C
Filed: December 12, 2016
•k'k'k'k'k'k'k'k'k'kic'k'k'k’k’k'kic'k’kicic

JOHN F. SHARPE,
Plaintiff
v.

*
*
*

* No.: l:15-cv-01087
* Judge: Thomas
* Wheeler

C.

*

THE UNITED STATES, *

*
*
Defendant.
*
*
********************** *

JOINT STATUS REPORT
Pursuant to this Court’s September 8, 2016 Order
(Order), the parties submit this Joint Status Report.
In their previous status update, the parties informed
the Court that on April 25, 2016, the Secretary of the
Navy (SECNAV) made a final determination regard­
ing the findings, conclusions, and recommendations
made by the Board for Correction of Naval Records
(BCNR) relative to plaintiff John F. Sharpe’s claims
for back pay, reinstatement, correction of his naval
record and other relief. The Board notified Mr.
Sharpe of its recommendation and the Secretary’s

206a
subsequent approval. Since that time, on June 20,
2016, the Secretary issued an amended recommenda­
tion to Navy Personnel Command (NPC) calling for
the correction of Mr. Sharpe’s naval record, rein­
statement to active duty and promotion to the rank
of Commander.
Navy's Position
The Navy now reports to this Court that it has
corrected Mr. Sharpe’s naval record, including re­
moving adverse documentation from his record. See
Appendix A (December 6, 2016 Letter from Navy
Personnel Command to Mr. Sharpe). Additionally,
Navy detailers have been working with Mr. Sharpe
to determine his active duty start date and location.
Mr. Sharpe’s orders were released on December 7,
2016 and he will report to active duty no earlier than
February 11, 2017 and later than February 13, 2017.
The Navy further reports that Mr. Sharpe’s promo­
tion to Commander is still pending: the Navy has
identified the proper authority to use to forward the
promotion and is awaiting a signed directive to effec­
tuate the action. Once the promotion to Commander
is complete and after Mr. Sharpe reports to active
duty, Defense Finance and Accounting Services
(DFAS) will calculate the back pay amounts due to
him.
The Navy now requests that the Court continue
the stay it granted in its Order to afford the Navy
time to finish effectuating Mr. Sharpe’s promotion
and the calculation of the appropriate back pay, and
to provide the parties an opportunity to assess the
impact of the Navy’s actions on Mr. Sharpe’s claims
that are currently pending before this Court. The
Navy further proposes that the parties file a joint

207a
status report on or by April 1, 2017. At that time, the
parties can apprise the Court of which issues, if any,
remain outstanding. The Navy notes that the issue
Mr. Sharpe raises below regarding his forthcoming
orders is not ripe for the Court’s consideration at this
time.
Plaintiffs Position
Plaintiff appreciates the Navy’s work to date in
implementing the relief recommended by BCNR and
approved by SECNAV, and wishes only to bring to
the Court’s attention three issues, to explain his mi­
nor disagreement with the request that the Navy
makes in this status report.
Back pay.
Plaintiff notes that the Navy does not intend to
deal with “the back pay amounts due to him” until
“[he] reports to active duty” and “the promotion to
Commander is complete,” though the Navy offers no
timeline for the latter. Plaintiff sees no reason, how­
ever, why some progress cannot be made to afford
the relief contemplated by I 0 U.S.C. § 1552(c) and is
therefore hesitant to agree to the April 1, 2017, stay
unless the Navy is willing, by a sooner date, to take
some steps in this direction. To date - seven months
after the approval of BCNR’s recommendations there has been no action even to calculate the “pay,
allowances, compensation, emoluments, or other pe­
cuniary benefits,” id., consequently due. Plaintiff ap­
preciates that still-pending matters may have an ef­
fect on the total amount ultimately paid, see Appen­
dix A (acknowledging that if the promotion is ap­
proved “CNPC will notify [DFAS] for a calculation

208a
and payment of back pay”), and that these matters
may be complicated. But he disagrees that the Navy
should be “off the hook” until April 1, 2017, merely to
report even just minimal (or no) progress on this
front — given l) the patties’ May 2, 2017, advice to
the court that payment of amounts owed was envi­
sioned within approximately 90 days, see Joint Sta­
tus Report, May 2, 2016, ECF No. 10 (JSR), at 1; JSR,
Ex. 2, at 1 ECF No. 10-1, and 2) the Navy’s plan to
put off even calculating those amounts until the
promotion is effected, for which no timeframe exists,
meaning that subsequent status reports can come
and go without any pay action at all, as long as the
promotion is incomplete. Some amounts due, howev­
er, are undisputed, e.g., back pay to a date certain at
Plaintiff s current pay grade; the court has elsewhere
utilized this approach. See, e.g, Verbeck v. U.S., 118
Fed. Cl. 420, 429-30 (2014) (calculating back pay
from date of separation to a fixed date and ordering a
later payment from that date to date of reinstate­
ment); Kindred v. U.S., 41 Fed. Cl. 106, 121 (1998);
see also Carmichael v. US., 66 Fed. Cl. 115, 129
(2005) (affording the Navy 60 days to calculate back
pay due).
From Plaintiffs point of view it also seems that to
be ordered to active duty - in a scenario where his
entitlement to the benefits of constructive service
have been conceded, see JSR, May 2, 2016, Ex. 1, at
1 (granting Plaintiff relief on his claim for inter alia
constructive- service credit), and where the payment
of amounts due under 10 U.S.C. 1 552(c) is no longer
discretionary, see, e.g., Denton v. US., 204 Ct. Cl.
188, 195 (1974) -without the Navy making some ef­
fort as regards a payment against what the Plaintiff
is owed by law, is a classic case of “putting the cart
before the horse.” This is especially true in view of

209a
the fact that receipt of “military pay or allowances” is
one of the indicia of subjection to military jurisdic­
tion, see 10 U.S.C. § 802(c)(3) (Article 2 of the Uni­
form Code of Military Justice) — which jurisdiction
the Navy obviously claims in exercising authority
necessary to order him to a new duty assignment,
notwithstanding Plaintiff s current, civilian status,
see Appendix B, at 1 (Servicemember Civil Relief Act
Status report reflecting, as of December 2, 2016,
Plaintiff not in active-duty status).
Orders.
The second matter the Plaintiff wishes to bring to
the Court’s attention is his understanding that the
orders which the Navy has issued (but which he has
not seen) direct him to detach from his home as his
current permanent duty station (PDS) en route his
new assignment. Plaintiff takes no exception to being
assigned to a new position, barring the abovearticulated concern that the Navy’s expectation ap­
pears to be that he begin serving on active duty be­
fore any monetary entitlements owed in arrears are
even calculated. Plaintiff appreciates, and has coop­
erated with, the Navy’s finding him an 0-5 billet,
consistent with his pending promotion. He also
agrees that the matter is not ripe for the Court’s ad­
judication, and instead seeks only the Court’s assis­
tance, for reasons of economy and expedition, in facil­
itating the patties’ discussion and resolution of the
issue short of that adjudication, if possible.
Plaintiff s concern is based upon his view that the
constructive-service doctrine, see, e.g., Dilley v. Al­
exander, 627 F.2d 407, 413 (D.C. Cir. 1980), and
BCNR’s relief, see JSR, Ex. 1, at 18 (directing correc­
tion of Plaintiff s record to reflect that he “was not

210a
discharged from the Naval Service, but has contin­
ued to serve on active duty without interruption”),
require that he be seen as having served construc­
tively aboard the USS CARL VINSON (CVN 70), his
PDS on the date of his illegal separation, from that
date until his proper reassignment, orders drafted to
reassign him from home, however, will necessarily
imply his having been detached from CARL VINSON
prior to the date of reassignment, and both under­
mine the above-noted portion of the relief granted by
SECNAV and provide a predicate for payment to him
of less than his actual entitlements as provided for at
37 U.S.C. §§ 305a(a) (special pay while a member is
on “sea duty”); 305a(c) (monthly “career sea pay
[CSP] premium” (CSP-P) when a member serves be­
yond 36 consecutive months of sea duty); 405(a)
(“basic allowance for housing” (BAH) calculated ac­
cording to geographic location) (2015). Plaintiff notes
that his service aboard CARL VINSON constitutes
sea duty, his constructive service there exceeds 36
months, and CARL VINSON’s home polt changed
from Norfolk, Va. to San Diego as of April, 1, 2010,
during the constructive-service period. Regulations
provide that a member’s BAH is calculated at the
rate determined by the home pOlt of the ship to
which he or she is assigned, Per Diem, Travel and
Transportation Allowance Committee, The Joint
Travel Regulations (JTR) 10E2-1 para. 10402.B
(2016) (BAH determined based upon the “home port
for a member assigned to a ship”).
Plaintiff has raised these concerns directly with
the Navy, but the Navy has declined to respond sub­
stantively and has not indicated any change of inten­
tion to draft his orders along the lines indicated
above. Plaintiff therefore asks that the Court, in the
interest of judicial economy and the speedy and in-

211a
expensive determination of this proceeding, see U.S.
Ct. Fed. Claims R. 1, and analogous to what the
Court has permitted in other instances, see, e.g., Wil­
liams v. US., No. 10-263 (Fed. Cl. Apr. 28, 2010), to
pelmit the Plaintiff to communicate to the Navy the
concerns detailed in Appendix C (which, for conven­
ience, includes excerpts from pertinent regulations),
and to direct the Navy to make a determination re­
garding Plaintiff s view of his entitlements, so that
the parties may assess whether or not they have a
substantive disagreement on this matter.
Promotion.
Finally, Plaintiff is hesitant to agree to a stay un­
til April 1, 2017, without the Navy being obliged to
make timely repolis of its progress relative to Plain­
tiff s promotion. While, again, understanding that
the matter is potentially complex, and grateful for
any and all effort thus far made by the Navy, Plain­
tiff neveliheless believes that more substantial pro­
gress to date to implement BCNR’s approved recom­
mendation could have been made, and that the
Court’s assistance in monitoring such progress will
prove beneficial. In support of his view, Plaintiff in­
vites the Court’s attention to^ l) the approximate
timeframe of 30 days that the Navy first advertised
for completing the non-pay aspects of BCNR’s direc­
tion, see JSR, at Y, JSR, Ex. 2, at V, 2) pertinent reg­
ulations that speak of, respectively, 90-to-l 00-day
and 180-day timeframes for completion of nomina­
tion packages arising from regular promotionselection boards and for nominations of individual
officers withheld from nomination, see SECNAV,
Memorandum for the Chief of Naval Operations and
Commandant of the Marine Corps, June 30 2000, en-

212a
closure (l) (mandating a 50day deadline for promo­
tion-nomination processing exclusive of routing
through the Office of the Secretary of Defense (OSD)
and the White House); SECNAV, Memorandum for
Chief of Naval Operations, February 13, 2004, enclo­
sure (I) (mandating a 180-day deadline for processing
of individual officers); Depaliment of Defense In­
struction 1320.04, Military Officer Actions Requiring
Presidential Secretary of Defense, or Under Secre­
tary of Defense for Personnel and Readiness Approv­
al or Senate Confirmation, January 3, 2014, Enclo­
sure 3, para. 2.a (affording roughly a calendar month
for processing a nomination through OSD); and 3)
BCNR’s direction, as of April 28, 2016, to “expedite”
the processing of Plaintiff s relief, see Appendix D, at
1, 3. By any calculation, the Navy has exceeded these
timeframes and BCNR’s request for expedition.
An additional consideration is the harm that
Plaintiff will arguably be occasioned if he is expected
by the Navy to return to a permanent active-duty po­
sition prior to being promoted. Consistent with the
standard approach to military-pay cases, the BCNR
has signaled its intention to “put the [Plaintiff] in the
same position he would have been in but for the
nonjudical punishment and subsequent discharge.”
See Appendix C, Exhibit 13, at 1 (ACTION MEMO
for Assistant General Counsel of the Navy (M&RA)
from Executive Director, BCNR, June 14, 2016). As
Plaintiffs promotion confronts continued delays, the
likelihood that he will return to work as a Lieuten­
ant Commander (0-4) and both be evaluated as an 04 and be compared, for evaluation purposes, to other
0-4’s only increases. Plaintiff is of the opinion that
allowing for such a record of performance to be creat­
ed would expressly contravene BCNR’s stated inten­
tion to put him in the situation he would have been

213a
in “but for” the adverse personnel action, and it
would, likewise, run directly afoul of BCNR’s direc­
tion that (provided OSD and Senate proceedings are
favorably accomplished) Plaintiff be treated, includ­
ing for purposes of reinstatement, as if he were pro­
moted to Commander on August 1, 2008, see JSR,
Ex. 1, at 18.
Without wishing to appear confrontational or un­
grateful for the Navy’s efforts thus far in acknowl­
edging and remedying its errors, Plaintiff does wish
to note that the predicament fast developing, where
the reinstatement currently offered Plaintiff will
begin to conflict with the promotion-related relief he
was awarded (i.e., if he returns to work as an 0-4 for
any length of time), is at least partially due to what
appears to be inaction on the promotion front since
April 25, 2016, and from which time, by even the
most generous standard, a nomination package could
have been routed through OSD and be now awaiting
Senate action.
Proposed order.
Wherefore, in view of the foregoing, Plaintiff requests^
1. That the court order the parties to agree on an
amount due Plaintiff through December 31,
2016, and on a proposed deadline for payment,
and to advise the court prior to the earlier of
February 1, 2017, or 30 days prior to the date
that the Navy expects Plaintiff to report to his
first duty station (regardless of whether such
duty station be for a brief, temporary assign­
ment), of said amount and deadline or of their
inability to reach such an agreement;

214a

2. That, pursuant to the Court’s authority to re­
mand any matter to an administrative or ex­
ecutive body or official, see U.S. Ct. Fed.
Claims R. 52.2(a), the Court order the Navy to
consider Plaintiff s position, as detailed at Ap­
pendix C, regarding his claimed entitlement to
CSP, CSP-P, and BAH at the rate applicable
to CARL VINSON’s home port between Octo­
ber 1, 2009, and the date of his reinstatement,
and to advise Plaintiff and the Court, by Jan­
uary 15, 2017, whether the Navy will stipulate
to his position and include those amounts in
the calculation to be made pursuant to the
paragraph immediately above, or whether the
Navy disagrees with that position, and to indi­
cate in its advice the reason or reasons for
such disagreement, so as to enable the parties’
further deliberation and discussion;
3. That the Court order the Navy to provide the
Court and Plaintiff with a copy of the directive
forwarding Plaintiff s promotion to OSD no
later than 15 days after it is signed; provide
the Court with status reports vis-a-vis Plain­
tiff s promotion every 30 days thereafter! pro­
vide notice to the Court and to Plaintiff no lat­
er than 15 days following the routing of his
promotion
nomination
recommendation
through OSD en route the Senate; and, in any
event, provide the Court and Plaintiff with a
detailed and comprehensive report regarding
the status of Plaintiff s promotion no later
than 60 days prior to the date the Navy ex­
pects Plaintiff to report to his next permanent
duty station.

215a

If the Court in its judgment deems it appropriate
to issue an order along the above-detailed lines,
Plaintiff makes no objection to the stay of all other
proceedings as requested by the Navy. Plaintiff is al­
so amenable to filing at any time, either as directed
by the Court or at a time agreed by the parties, a
statement pursuant to U.S. Ct. Fed. Claims R.
52.2(t)(l), indicating whether agency action as re­
gards any or all of the above-detailed matters “af­
fords a satisfactory basis for disposition of the case,
id. (A), or “whether further proceedings before the
court are required” and indicating “the nature of
such proceedings,” id (B).

Respectfully submitted,
BENJAMIN C. MIZER
Principal Deputy Assistant Attor­
ney General
ROBERT E. KIRSCHMAN, JR.
Director
/s/
DOUGLAS K. MICKLE
Assistant Director

JOHN F. SHARPE
13088 Lighthouse Ln.
Carrollton, VA 23314
Telephone: (757) 6451740

/s/
IGOR HELMAN
Trial Attorney
Commercial Litigation Branch
Civil Division
Department of Justice

216a

Pro Se

P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044
Telephone: (202) 305-7576
Fax: (202) 514-7965
Igor.FIelman@usdoj .gov
Of Counsel:
LT. MARYAM AUSTIN
United States Navy
Office of the Judge Advocate Gen­
eral
General Litigation Division (Code
14)
1322 Patterson Ave., Suite 3000
Washington Navy Yard, DC
20374-5066
Telephone: (202) 685-5442
Facsimile: (202) 685-5472

December 8, 2016

Attorneys for Defendant

217a
APPENDIX L

[SEAL]

DEPARTMENT OF THE NAVY
NAVY PERSONNEL COMMAND
5720 INTEGRITY DRIVE
MILLINGTON TN 38055-0000
5800
BUPERS 00J/185
December 6, 2016

John F. Sharpe
13088 Lighthouse Lane
Carrollton, VA23314
Dear Mr. Sharpe:
The following is a status update regarding the
implementation of the Secretary of the Navy’s
amended recommendation dated June 20, 2016. The
following items have been completed^
1. The removal from your Official Military Per­
sonnel File of all documentation pertaining to the
NJP of 16 May 2007, including, but not limited to the
25 June 2007 NJP Report (with all enclosures and
endorsements thereto).
2. The removal of all documentation from your Of­
ficial Military Personnel File pertaining to the DFC,
including but not limited to the 2 January 2008 DFC
approval.
3. The removal of all documentation in your Offi­
cial Military Personnel File pertaining to the 17 June
2008 BOI and the consequent administrative separa-

218a
tion, including but not limited to the BOI Report of
17-18 June 2008, the ADSEP letter of 29 June 2009,
the DD Form 214 (Certificate of Discharge from Ac­
tive Duty) of 30 September 2009, the NPC (PERS-48)
email letter of 12 February 2008, and the CNPC
messages pertaining to Petitioner’s ADSEP dated
151230ZSEP09, 151231ZSEP09, 151632ZJUL09, and
151633ZJUL09.
4. The removal of all documentation pertaining to
the removal of your name from the Promotion List,
including but not limited to CNPC’s letter of 30 May
2008 (with its enclosed CNO Action Memo for
SECNAV dated 27 May 2008) and Mr. Sharpe’s let­
ter of 7 May 2009.
5. The correction of the Fitness Report (FITREP)
of 31 October 2007.
6. The correction, removal, or redaction from your
Official Military Personnel File of any material or
entries inconsistent with the foregoing! no such en­
tries or material will be added in the future.
7. The inaccessibility to promotion boards of any
documents relating to the specific content of the
Board’s decision, to include the Board’s decision let­
ter approved by ASN (M&RA), the amendment, and
enclosures.
8. The removal of failures of selection.
The following items are in progress:
1. The detailers have offered you an assignment
as the Chief of Information Defense Media Activity

219a
Liaison Officer, an 0-5 billet located in Fort Meade,
MD. The detailers are working on determining your
active duty start date and finalizing orders.
2. Your promotion to 0 5 requires routing a re­
quest to the Office of the Secretary of Defense and
confirmation by the Senate. We have identified the
proper authority to use to forward the promotion and
are awaiting a signed directive to effectuate the ac­
tion.
3. If the promotion is approved, additional steps
will be taken to appropriately adjust your date of
rank, and effective date for the pay and allowances.
4. If there is a correction of the date of rank and
effective date for pay and allowances, CNPC will no­
tify Defense Finance and Accounting Services for a
calculation and payment of back pay.
5. The insertion of an entry covering 1 November
2007 to the appropriate end date stating, “By direc­
tion of the Secretary of the Navy, fitness reports [for
the relevant period] are not available for inclusion in
SNO’s Naval Record and no speculation or inferences
as to the nature or contents of such reports may be
made by selection boards or other reviewing authori­
ties,” or words to that effect has not yet been made to
your record. This entry will be added to your Official
Military Personnel File once the appropriate end
date has been established after you report to your
first assignment.

220a
/s/

M. C. HOLLEY
Captain, U.S. Navy
Legal Counsel
Navy Personnel Command

Enclosure: 1. ASN(M&RA) ltr JLB Docket No. 428414/10521-12 of 20 Jun 16
Copy to: The Honorable Thomas C. Wheeler

221a
APPENDIX M

Mntteb States Court of Jfefceral Clatmsf
^o. 15-1087C
Filed: January 6, 2017
’k'k'k'k'k'k’k'k’k'k'k'k’k’k-k-k'kic'kirk'k ic

JOHN F. SHARPE,
Plaintiff
v.

*
★
*

* No.: l:15-cv-01087
* Judge: Thomas
* Wheeler

C.

*

THE UNITED STATES, *
Defendant.
'k'k'k'k'k'k'k'k'k'kic'k'k'k'k'kic'k'k'k'k'k

*
*
*
*
*

JOINT MOTION TO SUPPLEMENT THE JOINT
STATUS REPORT
On December 8, 2016, the parties filed a joint sta­
tus report (JSR), which the Court received on De­
cember 12, 2016. In that report the parties updated
the Court regarding the implementation of the relief
directed by the Board for Correction of Naval Rec­
ords (BCNR), as approved by the Secretary of the
Navy (SECNAV) on April 25, 2016, relative to Mr.
Sharpe’s claims for back pay, reinstatement, correc­
tion of his naval record and other relief. The status
report included the parties’ respective positions rela-

222a
tive to the implementation of the BCNR’s recom­
mendations.
In the report, the Navy informed the Court that
Mr. Sharpe had been offered an assignment and that
“detailers [were at that time] working on determin­
ing his active duty start date and location.” Joint
Status Report (Dec. 8, 2016) at 1. The Navy addi­
tionally reported that Mr. Sharpe’s orders had been
released the previous evening, see id. At the time of
filing the report, however, Mr. Sharpe had not yet
received the orders or had a chance to review them.
Mr. Sharpe subsequently received the orders (Or­
ders) that the Navy was preparing. See Appendix A
(Dec. 7, 2016 Orders). Because the parties did not
have an opportunity to provide their comments to the
Court regarding the Orders in the prior status re­
port, they therefore jointly seek leave of the Court to
file this supplement to the December 8, 2016 report,
updating the Court on issues regarding the orders
and explaining their respective positions. Further,
the parties wish to apprise the Court of additional
information they have received since the last status
report, which is pertinent to the disposition of Mr.
Sharpe’s claims.
The Parties’ Joint Position
The parties report that the Navy has acted ad­
ministratively on November 4, 2016, to modify Naval
Inspector General (NAVIG) case number 20050930
by annotating it as “not substantiated.” See Appen­
dix B at 1 (November 17, 2016, Memo, for the Rec­
ord, from NAVIG). This matter is addressed in
Plaintiffs Amended Complaint. See Am. Compl. THf
63, 373-82, 387-92, 490, ECF No. 4. Mr. Sharpe was
apprised of this action on December 15, 2016, follow-

223a
ing the parties’ submission of their December 8, 2016
status report.
The parties additionally report that the Assistant
Secretary of the Navy (Manpower and Reserve Af­
fairs) (ASN), on December 21, 2016, issued an
amended order. See Appendix C (Dec. 21, 2016,
Amended Order). The order amends the previous
ASN letter to show that Mr. Sharpe “met a Special
Selection Board (SSB) for the FY-09 Active-Duty Na­
vy Commander Line Public Affairs Officer . . . Pro­
motion Selection Board and was recommended for
promotion,” and that “upon Senate confirmation” Mr.
Sharpe “is to be granted the same date of rank, the
same effective date for the pay and allowances of the
grade to which promoted, and the same position on
the active-duty list as he would have had if his name
had not been removed from the FY-08 Active-Duty
Navy Commander Line (PAO) Promotion List.” Id.
Plaintiffs Position
A. Orders
Plaintiff incorporates herein by reference the sub­
stance of his submission to the Court in the Decem­
ber 8, 2016, JSR, relative to the Orders, insofar as
they assign him from his home to a new permanent
duty station (PDS). He submits the following in view
of his opportunity, since filing the previous report, to
examine the Orders and consider the significance of
their being of the “recall” type applicable to the call
of a Navy Reserve officer to active duty.
The BCNR’s approved recommendation, issued
with SECNAV’s authority, see 10 U.S.C. § 1552
(2015); accord e.g., Harris v. U.S., 177 Ct. Cl. 538,
545 (1966) (noting that a military correction board is

224a
the Secretary’s “alter ego”); Kennedy v. U.S., 124
Fed. Cl. 309, 333 n.12 (2015) (“[T]he BCNR acts on
behalf of the [SECNAV]”), directs the Department of
the Navy (DON) to correct Plaintiffs record to reflect
that he “has continued to serve on active duty with­
out interruption” JSR, May 2, 2016, Ex. 1, at 16, 18,
ECF No. 10-1 (emphasis supplied). BCNR also di­
rected that “no entries or material” inconsistent with
that correction “be added to [Plaintiff s record] in the
future.” Id. The import of this directive goes beyond
merely what may be filed in Plaintiffs Official Mili­
tary Personnel File (OMPF), see, e.g. Naval Military
Personnel Manual (MILPERSMAN) Article 1070-020
(2015). Rather, under the relevant statute, it covers
any “document or other record that pertains” to the
Plaintiff, 10 U.S.C. § 1552 (h) (2015); accord Porter v.
U.S., 163 F.3d 1304, 1311 (Fed. Cir. 1998) (“Section
1552 does not limit the kind of military record sub­
ject to correction.”). BCNR’s recommendation is, fur­
thermore, “final and conclusive on all officers of the
United States.” 10 U.S.C. § 1552(a)(4) (2015).
Plaintiff received the Orders subsequent to the
filing of the recent status report. While he does not
object to being assigned to a new PDS - as the Navy
notes, the assignment is part of the relief he request­
ed, and he fully cooperated with the Navy’s efforts to
identify a billet for him - he does object to the Orders
insofar as they treat him as a Navy Reserve officer
not currently on active duty, contravening
SECNAV’s relief and rendering them of questionable
legality.
As a cursory review of the Orders will show, they
are of the “recall” type - one of several the Navy us-

225a
es.1 See Appendix A, at 1. Recall orders call members
of the Navy Reserve to active duty. See Chief of Na­
val Operations (CNO) Instruction 3060.7B, Navy
Manpower Mobilization/Demobilization Guide, April
25, 2006, at 1-2 para. 1-3 (noting that a recall is a
“mechanism [] for recalling Reserve Component (RC)
personnel to the active Armed Forces”). Cf. Secretary
of the Navy Instruction (SNI) 1920.6 CH-5, Adminis­
trative Separation of Officers, Aug. 26, 2015, Enclo­
sure (l) para. 25 (defining “release from active duty”
as “the transfer of a Reserve officer from active du­
ty”), Enclosure (3) para. 7 (governing the return of a
“recall” officer to a non-active-duty status via a “re­
lease from active duty”). The Orders fit the descrip­
tion of an “indefinite” recall, which transfers an of­
ficer from the RC to the Active Duty List. See
MILPERSMAN 1320-150, Active Duty Navy Definite
and Indefinite Recall Program for Reserve Officers,
May 21, 2009, at 2 para. l.c(4) (comparing “indefinite
recall orders” to “[active duty] change of duty station
orders [that] . . . have a planned rotation date (PRD)
in lieu of a having a prescribed period of time”). Fur­
thermore, the Orders expressly direct the “activation
of [Plaintiffs] active file from the naval reserve to
active duty.” Appendix A, at 3 (emphasis supplied).
On the other hand, recall orders have no applicabil­
ity in the context of assigning an active-duty officer
to a PDS. See generally MILPERSMAN 1000-020;
iooo-ioo; 1001-020; 1050-330; 1050-350; 1050-360;
1070-020; 1132-010; 1301-221; 1301-800; 1320-150
(providing for “recall” of officers only in finite cir­
cumstances, none of which are the assignment of an
active-duty officer from one PDS to another). Illus1 Other kinds of orders include, for instance, “change duty,”
“separation,” “retirement,” and “new appointment” orders, ex­
emplified, respectively, at Appendices D, E, F, and G.

226a
tratively (if unsurprisingly), in responding to a re­
cent Freedom of Information Act, 5 U.S.C. § 552(a)(3)
(2015), request, the Navy could not provide a single
example of recall orders issued to an active-duty of­
ficer. See Appendix H, at 1.
What is more, by purporting to detach him from
his home as his current PDS, the Orders recently is­
sued by the Navy treat Plaintiff as if he has not been
assigned to the USS CARL VINSON (CVN 70) (here­
inafter CARL VINSON) continuously from the date
of his illegal separation to the prospective date of his
assignment to a new PDS. This matter was antici­
pated in Plaintiffs portion of the December 8, 2016,
status report. See JSR, Dec. 8, 2016, App. C. The up­
shot of his argument therein is that there can be no
other view than that Plaintiff has remained con­
structively assigned to the CARL VINSON, because
l) it was his PDS on the date of his unlawful separa­
tion, see Appendix I, at 1 (DD Form 214, Certificate
of Discharge, Sep. 30, 2009, showing CARL VINSON
as both “Last Duty Assignment” and “Station Where
Separated”); see also MILPERSMAN 1910-812, Jan.
12, 2010, para, l.a (providing for the separation of
naval personnel inside the continental United States
from “on board their current command”); 2) the or­
ders intended to effect his detachment from CARL
VINSON, see Appendix E, at 2 (BUPERS ORDER
2589, OFFICIAL SEPARATION ORDERS, Sep. 15,
2009, directing Plaintiff to “detach” from CARL
VINSON) were voided, see JSR, May 2, 2016, App. 1,
at 17, para, c; 3) a previous set of separation orders,
see Appendix J, at 2 (BUPERS ORDER 1969, OFFI­
CIAL SEPARATION ORDERS, July 15, 2009, also
directing Plaintiff to “detach” from CARL VINSON),
prior to being expunged by BCNR, JSR, May, 2,
2016, id., were cancelled, at which time Plaintiff was

227a
ordered to “continue present duty” aboard CARL
VINSON, see Appendix K, at 2 (BUPERS ORDER
1969(01), OFFICIAL CANCELLATION OF OR­
DERS, August 28, 2009); and, finally, therefore, 4) no
valid order has detached Plaintiff from CARL
VINSON, to which he was assigned by his last and
still current set of permanent-change-of-station
(PCS) orders, see Appendix D, at 1 (BUPERS OR­
DER 0876, OFFICIAL CHANGE DUTY ORDERS,
March 28, 2006) (assigning Plaintiff to CARL
VINSION); see also Per Diem, Travel and Transpor­
tation Allowance Committee, The Joint Travel Regu­
lations (JTR) para. 5006.A (2016) (“A PCS order
must direct a PCS.” (emphasis supplied)); id. para.
10416.B (noting that “[a] member’s old PDS” remains
“the PDS” until “the day before the member reports
to the new PDS in compliance with a PCS order”).
Consequently, if Plaintiff is on active duty, even just
constructively, it must be as assigned to the CARL
VINSON. This is the proposition established not only
by regulation but also by all of the relevant case law
in this circuit. See, e.g., Groves v. U.S. 47 F.3d 1140,
1144 (Fed. Cir. 1995); Schuenemeyer v. U.S., 776
F.2d 329, 330 (Fed. Cir. 1985); Holley v. U.S., 33 Fed.
Cl. 454, 458 (1995); Ulmet v. U.S., 17 Cl. Ct. 679, 710
(1989); Laningham v. U.S., 5 Cl. Ct. 146, 154 (1984).
No incidental or “logistical” similarity, if arguen­
do one exists, between Plaintiffs situation and that
of a Navy Reserve officer mobilized from home can
justify the Navy’s assumption, in the absence of evi­
dence, that Plaintiff was assigned by competent or­
ders away from CARL VINSON and placed in a non­
active-duty status at his home, nor its memorialization of that assumption in a record contravening both
the explicit directive of SECNAV - which requires
the record to reflect that Plaintiff “has continued to

228a
serve on active duty without interruption” and bars
the creation of any record to the contrary, see JSR,
May 2, 2016, id. - and the time-honored constructiveservice doctrine, see, e.g., Dilley v. Alexander, 627
F.2d 407,, 413 (D.C. Cir. 1980), which demands that
Plaintiff “be treated as if he had been on active du­
ty .. . all during the period of his separation,”
Schuenemeyer, id. at 332; accord Dilley, id. at 411
(because Plaintiff has “never been lawfully dis­
charged ... in the eyes of the law, [he] remain [s] in
service”), in full accord with BCNR’s express inten­
tion to “put the [Plaintiff] back in the position he
would have been in had he not been separated from
the Navy,” Appendix L, at 1 (ACTION MEMO for
Assistant General Counsel of the Navy (M&RA) from
Executive Director, BCNR, June 14, 2016). And be­
cause Plaintiffs entitlements will be calculated
based upon the facts memorialized in the record as
corrected by SECNAV, see Department of Defense
(DOD), Financial Management Regulation, Vol. 7B,
Ch.10, para. 100202 (noting that the “right to the
payment of money must be a result of a change of
facts from those already in the original record”); ac­
cord Reserve Members Restored to Duty, 56 Comp.
Gen. 587 (1977) (noting that “benefits and liabilities”
based on correction-board action “depend solely upon
a proper application of the statutes to the facts as
shown by the corrected record in each particular
case”), the properly memorialized “legal fiction,” Dil­
ley, id. at 413, of his continuous active-duty service is
essential to proper calculation of pay, see 37 U.S.C.
§§ 204 (2015) (pay to a uniformed-service member
“on active duty”), just as the record of his sea-duty
assignment to CARL VINSON is essential to calcula­
tion of his special pay, see 37 U.S.C. § 305a(a) (2015)
(career sea pay (CSP) to a member on “sea duty”); 37

229a
U.S.C. § 305a(c) (2015) (monthly CSP “premium”
(CSP-P) for more than 36 consecutive months of sea
duty), and of his basic allowance for housing (BAH),
insofar as the ship’s home port - which changed dur­
ing Plaintiffs assignment from Newport News, Va.,
to San Diego, Calif., see Appendix M, at 1 (CNO
message, June 9, 2009) - sets his BAH rate for that
period, see 37 U.S.C. § 405(a) (2015) ((BAH) calculat­
ed according to geographic location); CNO Instruc­
tion 7220-12 CH-1, Basic Allowance for Housing En­
titlements, June 23, 2011, at 2 para. 3 (“BAH rates
vary based on the geographic location of the mem­
ber’s [PDS].”); JTR para. 10402.B (BAH based upon
the “home port for a member assigned to a ship”);
DOD Instruction (DODI) 1315.18, Procedures for
Military Personnel Assignments, October 28, 2015,
at 66 (“The home port of a ship ... is the PDS for . . .
geography-based station allowances.”); JTR para.
10402.B.4 (providing for a change of BAH “to the
new home port rate on the home port change effec­
tive date prescribed by the Service”).
Beyond prejudicing the record that will form the
basis for calculation of Plaintiffs entitlements, the
Orders appear questionably legal, insofar as they l)
are contrary to the relief ordered by SECNAV in his
correction of Plaintiff s record; 2) are predicated upon
statutory authority inapplicable to Plaintiff; 3) ap­
pear ultra vires, to the extent the fact they memori­
alize is correct (i.e., that Plaintiff is not currently on
active duty); 4) fail to detach Plaintiff from his con­
structively current PDS, as required to assign him to
a new PDS, and thus conflict with the orders cur­
rently applicable to Plaintiff; 5) treat Plaintiff as a
“new accession” and improperly memorialize that
treatment; and 6) implicate regulations that require

230a
the memorialization of a record contrary to BCNR’s
SECNAV-approved directive. The following pertains.
First, as alluded to supra, when SECNAV, who
“is the head of the [DON]” and is “responsible for,
[with] the authority necessary to conduct, all affairs
of the [DON],” 10 U.S.C. § 5013(a)(1), (b) (2015), cor­
rects a military record, it is “final and conclusive on
all officers of the United States,” 10 U.S.C. §
1552(a)(4) (2015). Orders predicated on Plaintiffs be­
ing in a non-active-duty status, and thus subject to
“recall,” contravene SECNAV’s express direction that
the former’s record reflect that he has “continued to
serve on active duty without interruption.” JSR, May
2, 2016, id. And it is well established that any mili­
tary directive is “invalid when, and to the extent
that,” it conflicts with one “issued by a superior in
the chain of command.” Strickland v. U.S., 69 Fed.
Cl. 684, 703 (2006); accord U.S. v. Daskam, 31 M.J.
77, 81 (C.M.A.1990) (noting that a directive “from the
Secretary of the Navy binds the Chief of Naval Oper­
ations . . . [and all] subordinate commands”); see al­
so, e.g., U.S. v. Patton, 41 C.M.R. 572, 573 (A.C.M.R.
1969) (“As a matter of law, an order of a subordinate
which contravenes ... [a] lawful directive of higher
authority can have no lawful validity.” (citations
omitted)).
Second, the “recall” Orders lack legal authority
insofar as they rely upon statutory provisions which
apply to the recall of non-active duty personnel, see
10 U.S.C., Subtitle E (2015) (providing for recall of
RC officers); 10 U.S.C. § 688 (2015) (providing for re­
call of “retired” members); 10 U.S.C. § 802(d) (2015)
(providing for recall of “member of a reserve compo­
nent” for military-justice proceedings); 10 U.S.C. §
1211 (2015) (providing for recall of officer “whose
name is on the temporary disability retired list

231a
[TDRL]”); Appendix N, at 1 (DODI 1215.06, Uniform
Reserve, Training, and Retirement Categories for the
Reserve Components, March 11, 2014, Appendix to
Enclosure 4) (tabulating statutory authority for re­
call); CNO Instruction 1001.27, Policy and Proce­
dures for Reserve Component Sailors Service Beyond
16 Years of Active-Duty Service, Jan. 9, 2013, enclo­
sure (l) para. 8 (“MPN and RPN recalls are written
per [Title 10, U.S. Code].”); see also Dambrava v.
OPM, 466 F.3d 1061, 1064 (Fed. Cir. 2006) (alluding
to the fact that recall obviously applies to a service
member not on active duty); U.S. v. Spradley, 41
M.J. 827, 831 (N.M.C.C.A. 1995) (same), and there­
fore do not apply to Plaintiff, again on the basis of
SECNAV’s direction and the constructive-service
doctrine, both of which provide for the uninterrupted
continuation of Plaintiff on active duty and militate
against any notion that he should or can be “re­
called”; see also Lt. Col. Carl F. Johnston, Comp.
Gen. B-195129, Apr. 28, 1980, available at
http 7/www. gao. gov/product s/441074#mt
=e -report
(holding that an officer reinstated by a military cor­
rection board was not entitled to a uniform allow­
ance, normally payable each time a member is
“called or recalled to active duty,” because action by
the “board for correction of military records ex­
punged the fact” of the claimant’s separation and
“produced a result showing that he has been serving
on active duty with the armed forces continuously”).
Third, if, alternatively, the premise implied by
the Orders - that Plaintiff is not on active duty and
must be “recalled” thereto - be accepted as true,
there is no basis for the Navy’s authority to order
Plaintiff to active duty. As already noted, the statu­
tory authority for the involuntary recall of nonactive-duty personnel is inapposite (because it ap-

232a
plies only to RC, retired, or TDRL personnel). The
Orders’ implication that Plaintiff is not currently on
active duty can only, therefore, stand for the addi­
tional necessary implication that Plaintiff is simply
not currently a member of the Armed Forces — be­
cause “regular component servicemembers are ... on
active duty” by definition, Willenbring v. U.S., 559
F.3d 225, 237 (4th Cir. 2009). Thus, if Plaintiff is nei­
ther currently on active duty nor subject to statutes
providing for the recall of RC, retired, or TDRL per­
sonnel, there would not seem to be on Plaintiffs part
any “duty to comply,” U.S.v. Milldebrandt, 25 C.M.R.
139, 143 (C.M.A. 1958), with the Orders, see Dicken­
son v. Davis, 245 F.2d 317, 319 (10th Cir. 1957) (not­
ing that military status is required for one to be
“subject to the rules, discipline and jurisdiction” of
the Service); but see Orloff v. Willoughby, 345 U.S.
83, 94 (1953) (holding that an officer is clearly bound
by the duty orders he is issued, however contrary to
his preferences they may be, provided he is lawfully
in the military).
Fourth, insofar as SECNAV, via the recent BCNR
action, has directed the restoration of Plaintiff to the
“same position he would have been in,” Appendix L,
at 1, and that such action is entirely consistent with
the mandate of the constructive-service doctrine,
whereby, when Plaintiffs separation was set aside,
he was restored to “the position [ he] held on [his] . . .
dateD of separation,” Dilley, id. at 413; accord Doyle
v. U.S., 220 Ct. Cl. 285, 306 (1979) (noting that
plaintiffs illegally separated remain entitled inter
alia to “position”), Plaintiffs PDS remains what it
was according to his last set of orders, Appendix K,
at 2, directing him to “continue” his then-”present
duty” aboard CARL VINSON. This fact is reinforced
by applicable regulations: not having ever received a

233a
PCS order transferring him to his home, Plaintiff is
not and has never been assigned there as his PDS,
see JTR para. 5006.A (requiring a “PCS order” to ef­
fect a PCS); accord DODI 1315.18, at 66 (noting that
a “competent travel order” is required to accomplish
a PCS); see also JTR Appendix Al, at Al-14 (defining
home as a member’s PDS only when the member is
coming into the service from a non-active-duty status
or leaving active duty en route the member’s home).
Consequently, insofar as a PCS is “the transfer or
assignment of a member from one PDS to another
Bureau
of
Naval
Personnel
Instruction
(BUPERSINST) 7040.6B, Sep. 29, 2010, enclosure
(l), at l-B-2 (emphasis supplied); accord DODI
1327.06, Leave and Liberty Policy and Procedures,
CH-3, May 19, 2016, at 44, the Navy’s present set of
Orders simply does not effect Plaintiffs PCS, because
he is not thereby transferred away from an old PDS
but instead transferred from a place (his home) to
which he has never been properly assigned. And
since Plaintiff has never received competent orders
that detach him from the CARL VINSON, the cur­
rent Orders - assuming, arguendo, that they have
any force at all - conflict with those, see Appendix D,
at l; Appendix K, at 2, that remain in effect and con­
tinue to assign him, at least constructively, to his
current PDS, see also, e.g., Maj. James B. McCrack­
en, 45 Comp. Gen. 589 (1966) (holding that PCS or­
ders remain in effect until receipt of subsequent,
competent PCS orders); JTR para. 2235; id. para.
10416.B (noting that “[a] member’s old PDS” remains
“the PDS” until “the day before the member reports
to the new PDS in compliance with a PCS order”).
Plaintiff is thus left in the ultimately untenable posi­
tion of having to be in two places at once, cf. Patton,
id. (adverting to a case where “simultaneous compli-

234a
ance with [one of two conflicting] orders is impossi­
ble” and noting that “[a]n individual cannot be ex­
pected to remain and depart at the same time.”).
Fifth, on their face, the Orders apply to a new ac­
cession, as evidenced by the appropriation subhead
(SH) “2250” and purpose identification code (PIC) “2”
in the PCS line of accounting (LOA), Appendix A, at
4; see BUPERSINST 7040.6B enclosure (l), at 3-A-l
(defining SH 2250 and PIC 2 as identifying travel for
“Officer Accession - Land”). But, pursuant to his rec­
ord as corrected by BCNR, under the constructiveservice doctrine, and according to applicable service
regulations, see, e.g., SNI 1920.6 para. 6 (“Once indi­
viduals have legally accepted a commission . . . they
have acquired a legal status that continues until it is
terminated through a specific, legally authorized
process.”), Plaintiff is not a new accession; new ac­
cession travel is only travel to a “first duty station”
from home or another place where a person enters
the armed forces, see BUPERSINST 7040.6B enclo­
sure (l), at l-B-4; DON, Financial Management Poli­
cy Manual (FMPM) § 03146, “Permanent Change of
Station,” para. 3.b (2015); see also JTR para.
10416.D.1 (defining a member in the “accession pipe­
line” as a new service academy graduate, a member
undergoing initial entry training, or a student with
no prior military service); Appendix O, at 7 (DON
FY17 Budget Estimate, February 2016, Exhibit PBat
30X
Accession
Travel,
available
http 7/www. secnav. navy. mil/
fmc/fmb/Documents/17pr es/ MPN_Book. p df).
Sixth, and finally, a range of regulatory authori­
ties, having the force and effect of law, see, e.g., Dorl
v. U.S., 200 Ct. Cl. 626, 633 (1973) (“It is settled that
regulations of the Secretaries of the Armed Services
have the force and effect of law”), require that recall

235a
orders be filed in an officer’s OMPF, see
MILPERSMAN 1070-020 para. 2, at 3 (2015) (provid­
ing for the filing of “recall to active duty” orders in
the OMPF); BUPERSINST 1070.27B enclosure (2),
at 8 (same); id. para. 4.b (referring to the online re­
listing,
available
at
tain/delete
http V/www.public.navy.mil/bupers-npc/career/
recordsmanagement/Documents/RetainDeleteListing
.xls, which, at line 125, requires the filing of “recall”
orders in the OMPF). None of these authorities, fur­
thermore, excludes a case like the present, where re­
call orders are issued to a member admitted to be on
active duty. Therefore, unless one of two unaccepta­
ble premises be admitted - i.e., l) that SECNAV, act­
ing through BCNR under 10 U.S.C. § 1552, can order
a record correction that is expressly contrary to regu­
lation (i.e., ordering that there not be filed in an of­
ficer’s record material that regulations positively re­
quire be so filed), but see Dilley v. Alexander, 603
F.2d 914, 942 n.20 (D.C. Cir. 1979) (noting that
BCNR has “broad discretion” but that it is “not enti­
tle [d] ... to violate express statutory directives” (ci­
tations omitted)) or 2) that SECNAV possesses the
inherent discretion to elect when his department’s
regulations apply, but see, e.g., Lindsay v. U.S., 295
F.3d 1252, 1257 (Fed. Cir. 2002) (“[T] he military
must abide by its own procedural regulations should
it choose to promulgate them.” (citation omitted)) there is no other solution than for the Navy to issue
regular change-duty orders, accommodating both
BCNR’s relief and binding DON regulations.
B. Promotion
The previous JSR noted that the Navy had “iden­
tified the proper authority to use to forward [Plain-

236a
tiff s] promotion” to the Office of the Secretary of De­
fense (OSD) and the Senate. See JSR, Dec. 8, 2016,
App. A, at 2. Evidently the authority that the Navy
has decided to use is the creation of a record suggest­
ing that Plaintiff was recommended for promotion to
Commander by an FY-09 SSB instead of by the FY08 regular promotion selection board (PSB). See Ap­
pendix C, at 1. Plaintiff appreciates and very much
welcomes the Navy’s efforts to effect the relief rec­
ommended by BCNR with regard to his promotion.
At the same time, as in the case of the Orders issued
to reinstate him to active duty, ASN’s recent action
raises statutory and regulatory questions which out of an abundance of caution, and without wishing
to pose new or unnecessary obstacles to implementa­
tion of BCNR’s recommendations, make objections
that seem overly technical, or appear ungrateful for
the Navy’s efforts in his favor - Plaintiff feels obliged
to bring to the attention of the Defendant and the
Court at this time.
By way of background, the original relief granted
by BCNR included the correction of Plaintiffs record
to reflect that his “name was never removed from the
[FY-08 Commander] Promotion List, that he was not
considered above zone by any subsequent promotion
selection board, and that he has had no failures of
selection.” JSR, May 2, 2016, Ex. 1, at 17, para, g
(BCNR relief letter, dated February 8, 2016, and ap­
proved April 25, 2016). This action was consistent,
verbatim, with Plaintiff s request, see Appendix P, at
2, para. l.b(3), for removal of the failure of selection
(FOS) he twice incurred as a result of his name hav­
ing been removed (before BCNR set aside that re­
moval) from the FY-08 PSB list. See Appendix Q, at
1 (noting Plaintiffs removal from the FY-08 promo­
tion list, his non-consideration by the FY-09 PSB,

237a
and his FOS before the FY-10 PSB). The Navy re­
ported, as early as May 20, 2016, that “ [corrective
action [was] taken on the removals of [Plaintiffs]
failures of selection and the reinstatement of the FY08 selection,” JSR, Sep. 2, 2016, Ex. 2, at 1 (PERS802 Memorandum, May 20, 2016), and confirmed it
in the recent status report. JSR, Dec. 8, 2016, App.
A, at 2, para. 8.
With his December 21, 2016, amended order,
ASN has revised (and, at least on paper, withdrawn)
the relief granted with respect to Plaintiffs FOS’s
and original (FY-08) promotion selection, and re­
placed it with the language referring to Plaintiffs
having met an FY-09 SSB. As written, ASN’s order
replaces, in pertinent part, see Appendix C, at 1
(“[replacing [BCNR] recommendations (g) and (h)”
with new language), the relief BCNR directed in its
letter of June 20, 2016, which “amended” (rather
than “implemented”) BCNR’s original, February 8,
2016, recommendations, see JSR, Sep. 2, 2016, Ex. 1,
at 1. Even though the Navy has twice reported hav­
ing implemented para, g of BCNR’s original recom­
mendations, ASN’s recent action appears to under­
mine the administrative finality attaching to that
element of the earlier recommendations under 10
U.S.C. § 1552(a)(4) (making BCNR’s record correc­
tions “final” unless procured by fraud), because the
ASN-revised recommendation simply replaces the
original BCNR decision. In consequence, no BCNR
decision addressing the removal of Plaintiffs FOS’s
any longer exists to which such administrative finali­
ty would attach.
But given the administrative finality that argua­
bly did attach to BCNR’s approved initial recom­
mendations, it is doubtful whether ASN’s subsequent
revision is proper. Plaintiff does not dispute that

238a
ASN can issue any order necessary to implement
BCNR’s recommendation. (ASN may have been able
to take such an approach in this instance.) At the
same time, if ASN can revise BCNR’s approved deci­
sion at any time, the statute making BCNR record
corrections “final” becomes devoid of all meaning. In­
deed, both Plaintiff and Defendant represented to
this Court that the Secretary made a “final determi­
nation” on BCNR’s recommendation on April 25,
2016, JSR, May 2, 2016, at 1 (emphasis supplied).
What is more, when this Court and others have up­
held the “inherent” right of an agency to reconsider
its previous decisions, two conditions for the proper
exercise of that reconsideration power have always
attached, namely, that such reconsideration be ac­
complished in a timely way (i.e., on the order of days
or weeks, not months or years, after the original de­
cision), and that notice be afforded the party that
will be affected by the reconsideration. See King v.
U.S., 65 Fed. Cl. 385, 399 (2005) (citing Gratehouse
v. U.S., 206 Ct. Cl. 288 (1975), and Bentley v. U.S., 3
Cl. Ct. 403 (1983), for the proposition that a reasona­
ble time for a sua sponte reconsideration is measured
in days and weeks, and that an eleven-month delay
is “clearly unreasonable”); Tokyo Kikai Seisakusho v.
U.S., 529 F.3d 1352, 1361 (Fed. Cir. 2008) (noting
that an agency “must also give notice to the parties
of its intent to reconsider”); see also McAllister v.
U.S., 3 Cl. Ct. 394, 398 (1983) (holding that an agen­
cy’s failure to exercise its reconsideration power in a
timely way may be excused if the agency shows that
its original decision was erroneous). Neither condi­
tion was met here, nor has ASN showed that the
original BCNR recommendation was in error. (Plain­
tiff has reason to believe, based on conversation with
isolated agency personnel, that the Navy’s new order

239a
arises from a concern that the 18-month promotioneligibility period may impede his restoration to and
nomination from the FY'08 promotion list, see 10
U.S.C. § 629(c)(1) (2015), but Plaintiff believes that
such a concern can only be the fruit of a misreading
of the relevant statute and neglect of its legislative
history. In any event, as Plaintiff here notes, no
agency authority has put this or any other rationale
for the modification of BCNR’s previous, approved
recommendations in writing, rendering it impossible
for him to work with the agency to explore and iron
out the relevant legal issues along with any disa­
greement over those issues that they may have.)
Indeed, had ASN afforded Plaintiff notice of his
intention sua sponte to revise BCNR’s recommenda­
tions, Plaintiff could have afforded Defendant an op­
portunity to consider in the first instance the con­
cerns now raised at the eleventh hour. As it stands,
ASN undertook his revision without affording Plain­
tiff any opportunity to present matters relative to the
planned reconsideration - an opportunity that has
been called a “primary requisite of due process,”
Ralpho v. Bell, 569 F.2d 607, 628 (D.C. Cir. 1977) and without the protection of 10 U.S.C. § 1556 (2015)
(barring ex parte communications with correction
board), which, had the reconsideration been handled
under applicable BCNR procedures, 32 C.F.R. §
723.9 (2015), would have afforded Plaintiff an oppor­
tunity to obtain and comment on any advice (internal
or external to the DON) bearing upon ASN’s recent
decision. In any event, to the extent ASN’s revision
has been made with advice from any military officer,
such as an attorney of the Judge Advocate General’s
Corps, it is vulnerable to attack as contrary to the
well-settled law of this circuit proving that Congress
wanted the correction of military records to “be in

240a
the hands of civilians,” Proper v. U.S., 139 Ct. Cl.
511, 526 (1957), and that, in consequence, “a Secre­
tary may not rely on the advice of a military officer
as justification for overruling a reasoned BCNR rec­
ommendation,” Strand v. U.S., 127 Fed. Cl. 44, 50
(2016).
In addition, because in his submission to BCNR,
see Appendix P, at 2, Plaintiff specifically requested
that his FOS’s, see Appendix Q, at 1, be removed,
ASN’s recent amendment also has the effect - even if
unintentionally - of denying Plaintiff the relief he
requested, without the required explanation, see 5.
U.S.C. § 555(e) (2015) (requiring a brief statement of
grounds where agency denies request); 32 C.F.R. §
723.7(a) (2015) (same); Strand, id. (noting that “the
Secretary must . . . justify a decision to overturn a
[BCNR] recommendation . . . supported by the rec­
ord” (citations omitted)); Boyd v. U.S., 207 Ct. Cl. 1, 8
(1975) (noting the Secretary will be reversed where
he “fails to explain his actions”). As in the case of af­
fording notice of a sua sponte reconsideration, a
proper explanation of the reasons justifying ASN’s
amendment of BCNR’s original recommendations
may have afforded (and may still afford) an oppor­
tunity for the parties to have resolved questions now
put before the Court.
In terms of the substance of ASN’s revision, it is
axiomatic - as this Court has recently noted - that
his authority to take final action on correction-board
recommendations must “be exercised in accordance
with the law,” Strand, id. (citation omitted), and
that, in exercising the. “broad discretion to remedy
errors in military records,” neither BCNR nor ASN
may “violate express statutory directives,” Dilley,
603 F.2d at 942 n.20 (citations omitted). This is the
case even in the context of a sua sponte reconsidera-

241a
tion. Tokyo Kikai, id. at 1361 (“An agency cannot. . .
exercise its inherent [reconsideration] authority in a
manner that is contrary to a statute.” (citations omit­
ted)). And absent some (arguably required) explana­
tion of the reason for his modification to BCNR’s rec­
ommendation, it is difficult to see how ASN’s new or­
der comports with statute and regulation. See DODI
1320.14, Commissioned Officer Promotion Proce­
dures, Dec. 11, 2013, para. 3.a. (“[Slpecial selection
boards and processes [must be] conducted in full
compliance with all applicable statutes and DoD is­
suances.”)
The statutory authority for an SSB allows the
secretary of a military department to convene such a
board in the event that a person should have been,
but due to an administrative error was not, consid­
ered for promotion by a regular PSB, or where he
was so considered but in an unfair manner. See 10
U.S.C. § 628(a), (b) (2015). The statutory require­
ment is implemented by DOD and DON regulation.
See DODI 1320.11, Special Selection Boards, Feb. 12,
2013, para. 3.a(l); SNI 1420. IB, Promotion, Special
Selection, Selective Early Retirement, and Selective
Early Removal Boards for Commissioned Officers of
the Navy and Marine Corps, Mar. 28, 2006, para.
24.a. When an SSB considers an officer for promo­
tion, that consideration “standts] in place of’ consid­
eration by the regular PSB for the corresponding
year. Porter, id. at 1315! 10 U.S.C. § 628(a)(2), (b)(2)
(providing for comparison of SSB-considered officer
with records of those considered by corresponding
year’s regular PSB). By determining that Plaintiff
met an SSB for FY-09, it thus appears that ASN
must also have determined that Plaintiff should have
been, but was not, considered by the regular FY-09
PSB. At the time, however, Plaintiff was on the FY-

242a
08 promotion list, see JSR, May 2, 2016, Ex. 1, at 8,
and a PSB “may not consider for promotion” an of­
ficer “whose name is on a promotion list for that
grade as a result of his selection for promotion to
that grade by an earlier [PSB],” 10 U.S.C. § 619(d)(1)
(2015) (emphasis supplied). This is why the Navy
noted in 2012 that, because Plaintiff “was legally in a
select status in February 2008,” he “could not be pre­
sented to the FY-09 selection board.” Appendix Q, at
1. So unless Plaintiffs selection for Commander by
the FY-08 PSB is again to be voided, even though the
Navy reported it restored in May 2016, JSR, Sep. 2,
2016, Ex. 2, at 1, it seems impossible to say that due
to “administrative error” Plaintiff was not, but
should have been, considered by the FY-09 PSB; it
thus appears likewise legally impossible to deem him
as having met and been recommended by an SSB for
that year.
Title 10 also provides that “[elxcept as otherwise
provided by law, an officer . . . may not be promoted
to a higher grade . . . unless he is considered and rec­
ommended for promotion to that grade by a selection
board convened under this chapter.” 10 U.S.C. §
616(d) (2015). It is not clear, however, whether the
Navy relies upon Plaintiffs regular FY-08 PSB selec­
tion or the new FY-09 SSB selection as satisfying
that statutory requirement (though it appears that
the Navy intended to replace the FY-08 PSB selec­
tion with the FY-09 SSB selection; it nowhere indi­
cates that the FY-08 selection remains in effect), nor
is it clear whether the “paper” SSB selection, if that
be the one relied upon, would satisfy it. There is, re­
grettably, some case law intimating the contrary. See
Stein v. U.S., 121 Fed. Cl. 248, 279 (2015) (noting
BCNR’s determination that it “does not promote ser­
vice members who have not been selected for promo-

243a
tion”); Dodson v. U.S., 988 F.2d 1199, 1205—06 (Fed.
Cir. 1993) (correction board action not a substitute
for selection-board consideration); see also Baugh v.
Sec’y of the Navy, 504 Fed. Appx. 127, 131 (3rd Cir.
2012) (affirming ASN’s “authority to review and ad­
just the relief that had been ordered” by BCNR when
it improperly directed a naval officer to prepare and
sign a record to which she could not factually attest).
Finally, both statute and regulation require, fol­
lowing the adjournment of an SSB, the creation and
routing of specific reports to OSD, the President, and
the Senate. Barring some dispensation from the
statutory and regulatory requirements, the FY'09
SSB that ASN envisions as having in theory recom­
mended Plaintiffs promotion, must, to effect it in ac­
tuality, submit to SECNAV “a written report” that is
“signed by each member of the board” and that
“certifies] that the board has carefully considered
the record of each person whose name was referred
to it.” 10 U.S.C. § 628(c)(1) (2015). See Appendix R,
at 3—9 (sample SSB report with certifications and
signatures of actual SSB members). The report must
then be submitted by SECNAV “to the Secretary of
Defense for transmittal to the President for his ap­
proval or disapproval.” 10 U.S.C. § 618(c)(1) (2015)
(made applicable to SSBs by 10 U.S.C. § 628(c)(2)
(2015)); accord DODI 1320.04, Military Officer Ac­
tions Requiring Presidential, Secretary ofDefense, or
Under Secretary of Defense for Personnel and Read­
iness Approval or Senate Confirmation, Jan. 3, 2014,
enclosure 6, para. 1', id. enclosure 8 para. l.f(l).
When he forwards the report, SECNAV must “identi­
fy the selection board that . . . should have consid­
ered” Plaintiff originally, explain “the reason [why
he] was considered by the SSB,” DODI 1320.04 en­
closure 8, paras. l.f(5), i(l), “recommendO approval

244a
or disapproval of the [above-described] board report,”
and “certifyO that the board complied with applicable
law and policy.” DODI 1320.04 enclosure 8, para.
l.a(2). See Appendix R, at 1-2 (sample secretarial
memorandum forwarding SSB report to DOD with
White House nomination scroll). The Principal Depu­
ty Under Secretary of Defense (Personnel and Read­
iness) must then approve the report for the Presi­
dent. DODI 1320.14 enclosure 2, para, l.c! DODI
1320.04 enclosure 8, para. l.f(6). Finally, the ap­
pointment of an officer recommended for promotion
by an SSB may only be made on the basis of a report,
as detailed supra, that has been approved by the
President (or his delegate). 10 U.S.C. § 628(d)(1)
(2015). Whether any of these requirements can actu­
ally be met in view of the “paper” SSB that ASN has
elected to employ in order to effect BCNR’s recom­
mendation appears questionable at best. See Baugh,
id.
In conclusion, as specified below, Plaintiff condi­
tions his agreement to the Navy’s requested stay of
this action upon its willingness to address the forego­
ing statutory and regulatory concerns that stem from
ASN’s recent order, and upon its willingness to pro­
vide more timely and specific information relative to
the progress of implementing the BCNR-directed
promotion-related relief, in view of the facts that
BCNR directed the “expedited” processing of its rec­
ommendations in Plaintiffs regard, see JSR, Dec. 8,
2016, App. D, at 1, 3, that the timelines proposed by
the Navy and imposed by applicable regulation have
long since elapsed, see JSR, Dec. 8, 2016, at 6 (noting
90- to 180-day regulatory timelines for routing a
promotion packaged, and the Navy’s advertised 30day estimate for completing all non-pay-related rec­
ord corrections ordered by BCNR), and that by May

245a
he is expected to be working at a new PDS and
should, pursuant to BCNR’s approved relief, be
working at that time as a Commander.
The Navy’s Position
A. Recall Orders
Mr. Sharpe’s orders, which were released on De­
cember 7, 2016, are an administrative necessity re­
quired to bring Mr. Sharpe back on active Duty from
his home in Virginia to his ultimate duty station in
Fort Meade, MD. Orders are accurate accounting
records that evidence the sums that Navy expends to
transfer servicemembers; in this case the cost of
bringing Mr. Sharpe from his home to his ultimate
duty station. In an effort to bring Mr. Sharpe back
on active duty, the Navy has to ensure that he is
moved through the various gates required to bring
someone back on active duty. Recall orders serve
this function^ the various posts where Mr. Sharpe
presents the orders will understand what to do with
the orders, and things that Mr. Sharpe needs to do
will be funded with these orders.
Importantly, the orders at issue here will not af­
fect the relief that Mr. Sharpe sought and received
from the BCNR. Most orders are not placed in the
Official Military record and are inaccessible by selec­
tion boards. Although a Bureau of Naval Personnel
Instruction requires reserve Recall orders to be
placed in an officer’s Official Military record, Mr.
Sharpe’s orders will not be placed in his record be­
cause doing so would be contrary to the BCNR rec­
ommendations.
The Navy is committed to implementing the rec­
ommendations of the BCNR and the Secretary that

246a
Mr. Sharpe’s record be corrected to reflect that he
never left active duty. But the practical reality is
that Mr. Sharpe has not been on active duty for al­
most a decade. The orders are necessary to bring
Mr. Sharpe back to active duty as part of implement­
ing the relief he seeks.
B. Back Pa v And Allowances
Additionally, the Navy informs the Court that it
contacted Defense Finance and Accounting Services
(DFAS) on December 8, 2016 and informally request­
ed that DFAS begin calculating the back pay and any
allowances due to Mr. Sharpe, so that he can be paid
incrementally as an 0-4. DFAS has informed the
Navy that it cannot calculate the pay until Mr.
Sharpe reports to active duty, which is currently
scheduled to take place in early February 2017.
Once Mr. Sharpe has been promoted to 0-5, the Na­
vy expects that DFAS will recalculate the back pay
and adjust the amount accordingly. DFAS will ulti­
mately determine how Mr. Sharpe’s basic allowance
for housing (BAH) and Career Sea Pay (CSP) will be
calculated, pursuant to applicable regulations.
DFAS has its own administrative appeals process,
which would be available to Mr. Sharpe if he is un­
satisfied with DFAS’s ultimate calculations.
C. Request To Extend Stay
The Navy renews its request that the Court con­
tinue the stay it granted in its Order to afford the
Navy time to finish effectuating Mr. Sharpe’s promo­
tion and the calculation of the appropriate back pay
and allowances, and to provide the parties an oppor­
tunity to assess the impact of the Navy’s actions on

247a
Mr. Sharpe’s claims that are currently pending be­
fore this Court. The Navy further proposes that the
parties file a joint status report on or by April 1,
2017. At that time, the parties can apprise the Court
of which issues, if any, remain outstanding. Because
the final back pay and allowance amounts have not
yet been calculated, the Navy maintains that the is­
sues raised by Mr. Sharpe regarding his orders are
not ripe for the Court’s consideration at this time.
The Navy needs an opportunity to finish implement­
ing the relief set forth by the BCNR and the Secre­
tary! because components of the ordered relief are
intertwined, the Navy is unable to address them in a
piecemeal fashion. If, after the Navy has finished
implementing the awarded relief, Mr. Sharpe is un­
satisfied with the result, he may appeal to the BCNR
and/or the Secretary of the Navy, or raise these is­
sues to the Court directly, at that time.
Plaintiffs Response
A. Ripeness
The Navy posits that none of the issues Plaintiff
has raised “regarding his orders” are “ripe for the
Court’s consideration at this time” due to the fact
that “final back pay and allowance amounts have not
yet been calculated.” Plaintiff has, of course, identi­
fied other issues arguably requiring adjudication be­
yond the question of how the Orders relate to the en­
titlement amounts. In any event, it bears noting that
Plaintiffs submissions (in this JSR and the previous,
December 8, 2016, report) merely respond to the Na­
vy’s request for a further stay of this action - surely
a matter that is not only ripe but which the Navy
wishes the Court to address and which it will ulti-

248a
mately have to address in the course of managing
this litigation.
To recap: in the previous JSR, Plaintiff indicated
his willingness to agree to the stay requested by the
Navy on condition that the Navy undertake (by its
own agreement or pursuant to this Court’s direction)
certain obligations - namely, l) that it calculate the
back pay owed Plaintiff up to a date certain, 2) that
it indicate its position as to whether this calculation
will be made on the basis of Plaintiffs constructive
active duty since his unlawful separation and as­
signment to CARL VINSON during that period, and
3) that it provide detailed updates regarding Plain­
tiffs promotion, in view of the time that has passed
with so little progress. Plaintiff now reiterates his
willingness to agree to the Navy’s request with es­
sentially the same conditions, as clarified below, but
wishes also to note his belief that the matters raised
for the Navy’s consideration are not at all unripe for
settlement or adjudication at this point.
As is well established, courts resort to a ripeness
analysis in order to avoid prematurely adjudicating
what is an “abstract disagreement[].” Land of Lin­
coln Mutual Health Ins. Co. v. U.S., No. 16-744C,
2016 U.S. Claims LEXIS 1718, at *39 (Fed. Cl. Nov.
10, 2016) (quoting Abbott Labs. v. Gardner, 387 U.S.
136, 148 (1967)). In their analysis courts first consid­
er “the fitness of the issues for judicial decision.”
Thomas v. Union Carbide Agric. Prods. Co., 473 U.S.
568, 581 (1985) (quoting Abbott Labs., id. at 149). Is­
sues are fit for judicial determination when an
“agency has adopted a final decision,” as evidenced
by “an agency action that marks the consummation
of the [its] decisionmaking process” - one which is
not “merely tentative or interlocutory,” and one “by
which rights or obligations have been determined, or

249a
from which legal consequences will flow.” NSK v.
U.S., 510 F.3d 1375, 1385 (Fed. Cir. 2007) (internal
quotation marks omitted) (quoting Bennett v. Spear,
520 U.S. 154, 177 (1997)). Fitness for judicial deter­
mination is also found where an issue “is purely le­
gal, and will not be clarified by further factual devel­
opment.” Thomas, id. In contrast, where a claim is
based upon “contingent future events that may not
occur,” id. (citation omitted), or when review would
“inappropriately interfere with further administra­
tive action,” Ohio Forestry Assn. v. Sierra Club, 523
U.S. 726, 733 (1998), it is likely unripe. The second
prong of a court’s ripeness analysis is an assessment
of “the hardship to the parties of withholding court
consideration.” Abbott Labs., id.
Considered together, the matters Plaintiff raises
in this and the previous status report stem from a
determination by SECNAV, filed with the Court
eight months ago, see JSR, May 2, 2016, at 1, that is
plainly and admittedly final, id. (reporting
SECNAV’s “final determination”); accord JSR, Sep.
2, 2016, at 1 (same). Barring further amendments,
arguably contrary in any event to the finality afford­
ed by statute to correction-board decisions, see 10
U.S.C. § 1552(a)(4) (2015), no further administrative
decision remains to be made by the Navy. The relief
to which it has deemed Plaintiff entitled has been
memorialized on paper for many months, and the ink
is well dried. Nothing characterizes ASN’s decisions
as “tentative or interlocutory,” Bennett, id., and, as
BCNR’s action is long complete, no room for “further
factual development” remains, Thomas, id. What is
more, the “rights or obligations,” Bennett, id., attach­
ing to the Navy’s actions - i.e., the twice-amended
BCNR recommendations and the Orders it recently
issued — are fixed: the Orders memorialize, properly

250a
or otherwise, Plaintiff s “return” to active duty from a
non-active status at his home, with their concomi­
tant implications for calculation of Plaintiffs back
pay and allowances, while the ASN’s amended order
alters BCNR’s “final” determination, presumably
(while somewhat ironically) in an equally “final” way,
relative to his promotion and, again, properly or oth­
erwise, asserts his entitlement thereto based on an
FY-09 SSB recommendation, with the legal ramifica­
tions that, as above detailed, unavoidably follow. Be­
cause the ripeness doctrine only serves to “protect
the agencies from judicial interference until an ad­
ministrative decision has been formalizedAbbot
Labs., id., at 148 (emphasis supplied), it poses no ob­
stacle to judicial consideration of Plaintiffs issues at
this time; the Navy’s “decision has [indeed] been
formalized,” and its “legal consequences,” Bennett,
id., are fixed for review.
Considered specifically, the matters narrowly
identified by Plaintiff relative to each of the Navy’s
actions are “purely legal,” Thomas, id. Plaintiff has
identified questions relative not to any finding of fact
by BCNR but solely to law and regulation implicated
by l) the issuance of “recall” Orders to a non-RC of­
ficer, which 2) purport to transfer him from a place
to which he was never properly assigned, and 3) the
“award” of an SSB selection to an officer whose non­
consideration by the corresponding PSB was not a
result of administrative error and whose promotion,
on the basis of the SSB selection, appears to require
effectuation by way of fabricated records. The mat­
ters raised by Plaintiff also each address a final deci­
sion that does not await “further administrative ac­
tion,” Ohio Forestry, id.'- l) now that Orders have
been issued, no action remains to be taken by the
Navy relative to Plaintiffs reinstatement; 2) regard-

251a
less of the Navy’s statement that “final back pay and
allowance amounts have not yet been calculated,”
that calculation involves no further exercise of dis­
cretion, Denton v. U.S., 204 Ct. Cl. 188, 195 (1974)
(“[Olnce a discretionary decision is made to correct a
record, the grant of appropriate money relief is not
discretionary but automatid’ (citation omitted) (em­
phasis supplied)), but will be made “solely upon a
proper application of the statutes to the facts as
shown by the corrected record56 Comp. Gen. 587 a record already established with finality by BCNR’s
decision and the recent Orders! and 3) ASN’s new or­
der relative to Plaintiffs FY-09 SSB is not “tentative
or interlocutory,” Bennett, id., but final, see 10
U.S.C. 1552(a)(4) (2015).
The Navy’s well-taken argument that “compo­
nents of the ordered relief are intertwined” nicely in­
dicates how the second prong of the ripeness analysis
- “the hardship to the parties of withholding court
consideration,” Abbott Labs., id. - is satisfied, insofar
as the Orders Plaintiff has been directed to execute
both intertwine the components of the ordered relief
and constitute the source of the hardship. In the ab­
sence of the court’s resolution of the matters herein
identified, Plaintiff faces an “immediate and sub­
stantial impact,” Caraco Pharm. Labs, vA Forest
Labs., 527 F.3d 1278, 1295 (Fed. Cir. 2008): namely,
a dilemma offering only two unacceptable solutions.
On the one hand, Plaintiff can decline to comply with
Orders that compel him to act no later than Febru­
ary 13, 2016, see Appendix A, at 2, and thereby both
l) face the continued deprivation of entitlements that
are owed to him, since the Navy says DFAS will not
“calculate the pay [owed] until [he] reports to active
duty,” and 2) risk “expos [ure] to the imposition of
strong sanctions,” Abbot Labs., id., at 154, for failure

252a
to comply. See also Confed. Tribes and Bands of the
Yakama Nation v. U.S., 89 Fed. Cl. 589, 604 (2009)
(“A sufficient risk of immediate hardship may war­
rant prompt adjudication.” (citation omitted)). On the
other hand, Plaintiff can comply with the Orders,
though of questionable legality and admittedly in
conflict with BCNR’s approved relief, and thereby
risk waiving objections to the Orders’ defects, see,
e.g., U.S. v. O’Connor, No. ACM 38420, 2015 LEXIS
47, at *13-14 (A.F.C.C.A. Feb. 12, 2015) (finding ac­
cused consented to recall orders by compliance
therewith and failure to object), and thus risk acqui­
escence to payment of back pay and allowances of
less than his legal entitlement and consenting in the
creation of a record that undermines BCNR’s ap­
proved relief. The dilemma confronting Plaintiff is
present and real, and, rather than depending upon
“uncertain or contingent future events that may not
occur as anticipated, or indeed may not occur at all,”
Confed. Tribes, 89 Fed. Cl. 589, 616 (2009) (citation
omitted), the Navy’s Orders “requireQ an immediate
and significant change in the plaintiff[‘s] conduct of
[his] affairs with [potentially] serious penalties at­
tached to noncompliance,” Abbot Labs., id., at 153;
see also Nat’l Park Hospitality Ass’n v. Dept, of the
Interior, 538 U.S. 803, 809-10 (2003) (finding hard­
ship in instances where a plaintiffs “primary con­
duct” is affected, or he is commanded “to do” or “to
refrain from doing” something (citations omitted)).
That the Navy has declined to respond in any sub­
stantive way, through counsel or directly, to the is­
sues Plaintiff has raised, despite his efforts to get
them addressed and resolved, see, e.g., JSR, Dec. 8,
2016, App. C, at 9-10, further illustrates the appro­
priateness and, frankly, the helpfulness of court ad­
judication.

253a
What is more, as regards the ASN order relative
to Plaintiffs promotion, judicial resolution of the
matters raised supra would not only contribute to
the avoidance of the hardship to Plaintiff, as already
explained, see JSR, Dec. 8, 2016, at 7, that beginning
full-time work at his new PDS as an 0-4 would ar­
guably occasion, undermining the express relief af­
forded by BCNR, to “put the [Plaintiff] in the same
position he would have been in but for the nonjudical
punishment and subsequent discharge,” see Appen­
dix L, at 1, but it would also reduce — by helpfully
settling or mooting the issues so as to streamline follow-on action — the hardship to the Defendant posed
by leaving questions as to the legality of ASN’s re­
cent decision unaddressed.
Plaintiff finally notes that binding precedent in
this circuit stands for the proposition that once an
administrative process is underway to effect correc­
tion of records under 10 U.S.C. § 1552, “objection
[must be] made to the Correction Board or to the
courts” once a plaintiff becomes “well aware” that
there exist aspects of the relief to which he objects!
“chotosing] not to raise the objection until after” im­
plementation of the crafted relief yields an adverse
result is not an option. Doyle v. U.S., 220 Ct. Cl. 285,
310 (1979). As this Court’s predecessor court clearly
explained, “plaintiffs are required to voice their ob­
jections in such a way that the Secretary or Correc­
tion Board is aware of problems, well known to
plaintiffs, in the manner a remedy is effectuated be­
fore it is effectuatedId., at 311—12 (emphasis sup­
plied). In the absence of Defendant’s cooperation in
assessing Plaintiffs “objections” to the former’s im­
plementation of the record-correction remedy — not­
withstanding Plaintiffs repeated invitations to con­
sider those objections, and frequent but unsuccessful

254a
attempts to engage directly with agency personnel it arguably falls to this Court to facilitate compliance
with the principle enunciated in Doyle, which, as the
court there observed, is designed to give “proper re­
gard to the broad powers of the agency to correct er­
rors, [conserve] the good faith effort and expense un­
dertaken by the Secretary [, and] . . . accord with
principles of justice.” Id. at 312.
B. Recall Orders
Relative to the Navy’s comments, Plaintiff does
not dispute that orders, in the abstract, are “an ad­
ministrative necessity,” nor that they contain “accu­
rate accounting records,” nor that when he reports to
his new PDS, he will have started, in practical terms,
“from his home.” None of these uncontroversial
points, however, addresses Plaintiff s concerns.
What Plaintiff does dispute is the Navy’s appar­
ent (if not fully articulated) position that his transfer
from his home and his assignment to Ft. Meade, Md.,
can only be accomplished by orders labeled “recall,”
predicated on inapposite statutory authority and
containing instructions treating him an officer of the
Navy Reserve not on active duty. Indeed, in terms of
accounting data, as detailed supra, there are only
two differences (the SH and the PIC) between
“change duty” PCS orders and the Navy’s “recall” or­
ders, and each consists of the label assigned to the
PCS travel - whether it is accession (with SH “2250”
and PIC “2”) or operational change-duty (with SH
“2252” and PIC “4”) travel; either way, the source ac­
count of the funding is the same centrally managed,
single-year appropriation (1453 - Military Personnel,
Navy (MPN)). See generally BUPERSINST 7040.6B;
FMPM § 03146 para. 3.a! Appendix O, at 3-4. More*

255a
over, classifying Plaintiffs move as “Accession Trav­
el” is contrary to the express terms of the Navy’s own
explanation, in the budgetary context, of the desig­
nated purpose of such funding - which is to provide
for the “PCS movements” of l) “officers appointed to
a commissioned grade” from civilian life, a military
academy, or ROTC, 2) “Reserve and national Guard
officers called or recalled to extended active duty,” or
3) “officers or warrant officers appointed or recalled
from enlisted status,” Appendix O, at 7 - each of
which category positively excludes Plaintiffs situa­
tion. Besides, whether Plaintiff is transferred, on pa­
per, from his home in Virginia or from his prior PDS
in San Diego, his move remains funded by MPN obli­
gations and the move’s expenses will be composed of
either fixed costs (such as per diem and dislocation
allowance, see JTR paras. 2025, 5452), independent
of his location, or costs reimbursing expenses for the
PCS move that actually occurs, see generally JTR
para. 2200.B (adverting to reimbursement of the offi­
cial traveler by the government); see also Staff Ser­
geant Frank D. Carr, USMC, 67 Comp. Gen. 474
(1988) (“The established rule is that legal rights and
liabilities in regard to per diem and other travel al­
lowances vest when travel is performed under or­
ders.”).
Plaintiff additionally disputes that specifically
“recall” orders are required to move him through the
“various gates” necessary to “bring someone back on
active duty.” Again, though ignored by the Navy, the
reality is that intermediate assignments — such as
Plaintiffs 10-day stop with the Transient Personnel
Unit, Norfolk, Va- can be included in any kind of
orders, not just “recall” orders. See, e.g., Appendix D,
at 1 (change-duty orders noting a one-day stop at the
Fleet Training Center, Norfolk, Va.). And, as scruti-

256a
ny of the Orders shows, they contain no specific in­
structions for any command as to steps necessary to
restore Plaintiff to an active-duty status.
Finally, in conceding that filing the “recall” Or­
ders in Plaintiffs record would be contrary to
BCNR’s relief, the Navy also unavoidably concedes
that the Orders in fact do memorialize an assertion
that Plaintiff has not continuously served on active
duty. As such, and as detailed supra, the Orders run
counter to that relief, regardless of whether they will
be retained in Plaintiffs OMPF, to which the recordcorrection statute makes no reference, see 10 U.S.C.
§ 1552(h) (a military record is any “document or oth­
er record that pertains to ... an individual member
or former member of the armed forces.”).
C. Back Pa v and Allowances
Plaintiff appreciates the Navy’s “informal” re­
quest to DFAS relative to the question of back pay
and allowances, as well as the Navy’s assurance that
DFAS will calculate those entitlements “pursuant to
applicable regulations.” He nevertheless affirms his
earlier submission on this matter, see JSR, Dec. 8,
2016, at 2-4, and notes, furthermore, that the Navy’s
assurance is essentially tautological, begging the key
question as to which facts the “applicable regula­
tions” will be applied by DFAS, namely: l) whether
DFAS will construe Plaintiffs period of constructive
service as running without interruption from the
date of his unlawful separation to the prospective
date of his assignment to a new PDS, and 2) whether
DFAS will consider Plaintiff as having been assigned
to CARL VINSON as his PDS during that period of
constructive service. As above noted, it is not DFAS
who is charged with establishing these facts. It is, on

257a
the contrary, the Na
vy, by virtue of the record
submitted to DFAS, who establishes the predicate
facts upon which basis payment is then determined
to be due. The Comptroller General has elaborated
on the point explicitly in noting that, when a record
is corrected pursuant to correction-board action,
“[t]he resulting benefits and liabilities depend solely
upon a proper application of the statutes to the facts
as shown by the corrected record'' 56 Comp. Gen.
587 (1977) (emphasis supplied). Whether Plaintiffs
record contains a document memorializing the pur­
ported (but, in view of SECNAV’s action, incorrect)
fact that Plaintiff has not served continuously on ac­
tive duty and has not been, for that period of service,
assigned to CARL VINSON is, therefore, of capital
importance — and is susceptible of resolution now,
since DFAS’s action will not constitute a future ad­
judication of the issue but will rather (and merely) be
a consequence flowing from the record as already de­
veloped by the Navy.
Finally, in further explanation of Plaintiffs rea­
soning behind the request he makes of the Navy and
the Court infra relative to the former’s request for a
further stay of this action, he invites their attention
to the fact that as early as April 28, 2016, BCNR ad­
vised him, with copy to DFAS, that, “[ajfter NPC
makes [corrections to his record, DFAS] will make
payment of any money that [he] may be entitled to,”
JSR, May 2, 2016, Ex. 2, at 1 (emphasis supplied),
and that a 90-day timeframe was approximated for
such payment, id. (as the parties reported at the
time). Indeed, also on April 28, 2016, BCNR “author­
ized [DFAS] to pay all monies lawfully found to be
due [to Plaintiff] as a result of the . . . correction to
[his] naval record." -See Appendix S, at 1 (BCNR let­
ter to Commander, Navy Personnel Command, copy

258a
to DFAS, April 28, 2016) (emphasis supplied). No
reference whatsoever was made in BCNR’s authori­
zation to DFAS or in its advice to Plaintiff to calcula­
tion (or payment) of entitlements as contingent upon
Plaintiffs “report [ing] to active duty.” Holding up
any even partial settlement of those entitlements
upon this new and novel basis appears therefore to
be in direct conflict with BCNR’s advice to Plaintiff,
its authorization to DFAS, and its express require­
ment for the “expedited” processing of its approved
recommendations, see JSR, Dec. 8, 2016, App. D, at
1, 3.
D. Plaintiffs Answer to Navy’s Request for Further
Stay
Lest there be any threshold question as to the au­
thority of the Court to consider the matters herein
raised, Plaintiff notes that as well as being ripe for
consideration they also l) fall within the Court’s ju­
risdiction, as the bases for money claims under 37
U.S.C. §§ 204, 305a(a) and (c), and 405(a) and as col­
lateral to those claims, 28 U.S.C.§ 1491(a)(2) (2015)
(providing for placement in duty status and restora­
tion of position), and 2) present justiciable questions,
because statute and regulation provide the inherent
tests and standards against which the Court can as­
sess the Navy’s actions, see, e.g., Murphy v. U.S., 993
F.2d 871, 873 (Fed. Cir. 1993).
Wherefore Plaintiff submits to the Court his
agreement to the stay requested by the Navy, on
condition that, pursuant to this Court’s order - with
its power to remand a matter to any “administrative
or executive body or official,” U.S. Ct. Fed. Claims R.
52.2(a); see also Williams v. U.S., No. 10-263 (Fed.
Cl. Apr. 28, 2010) (permitting parties to submit mat-

259a
ters for agency consideration in the first instance),
and “to control the disposition of cases on its docket,”
Prati v. U.S., 82 Fed. Cl. 373, 378 (2008) (citation
omitted) - or on the Navy’s own initiative, and in
view inter alia of the “general rule that [travel] or­
ders may be modified when they are clearly in con­
flict with a law or regulation,” Stephen T. Croall, 60
Comp. Gen. 478 (1981), and of the fact that achieve­
ment of “economy of time and effort for itself, for
counsel, and for litigants,” Prati, id. (citation omit­
ted), is an important goal to be considered in any
court’s exercise of its inherent power to decide
whether a stay should issue - a goal that would ar­
guably be achieved by the Navy or, failing that, the
Court, acceding to Plaintiffs conditions — the Navy:
1. Modify or reissue the Orders it has issued to
Plaintiff, no later than February 1, 2017, to l) la­
bel them “CHANGE DUTY’ vice “RECALL,” and
2) remove the reference to “activation of [Plain­
tiffs] active file from the naval reserve to active
duty.”
2. Modify or reissue the Orders it has issued to
Plaintiff, no later than February 1, 2017, to l)
remove the reference to Plaintiff “detaching from
home”; and 2) indicate that Plaintiff is detaching
from his previous PDS, even if just “constructive­
ly”; or, in the alternative, memorialize in the Or­
ders or another administratively final and official
document, no later than February 1, 2017, that
the Orders as presently drafted are issued for
purposes of accounting and personnel administra­
tion only and are not to be construed to support
any inferences that, from the date of his assign­
ment to CARL VINSON in June 2006 to the date

260a
of his properly reporting to his new duty station
under competent travel orders, Plaintiff l) has
ever been detached from CARL VINSON or 2) as­
signed to any subsequent PDS or 3) has not con­
tinued without interruption to serve on active du­
ty assigned to CARL VINSON, but are to be con­
strued as establishing the contrary, pursuant to
BCNR Docket No. 4284-14, approved April 25,
2016.
3. Calculate and submit to Plaintiff and the Court,
no later than February 1, 2017, l) an amount due
Plaintiff through December 31, 2016, at his cur­
rently applicable pay grade and 2) a projected
deadline for payment.
4. Provide, within 10 days of Court action on the is­
sues raised in this status report, a brief statement
of the grounds for ASN’s amendment and denial
of BCNR’s previously approved recommendations
(g) and (h), which, at a minimum, addresses the
issues raised by Plaintiff herein relative to that
amendment, to include discussion of any rele­
vance the Navy or DOD believes the promotioneligibility period provided for at 10 U.S.C. § 629(c)
(2015) might have to Plaintiffs promotion.
5. Agree to provide the Court and Plaintiff with: l) a
copy of any directive, memorandum, or other doc­
ument forwarding Plaintiff s promotion to OSD no
later than 15 days after it is signed; 2) status re­
ports vis-a-vis Plaintiffs promotion every 30 days
thereafter; 3) notice no later than 15 days follow­
ing the routing of his promotion nomination rec­
ommendation through OSD en route the Senate;
and, 4) a detailed and comprehensive report re-

261a
garding the status of Plaintiff s promotion no lat­
er than 60 days prior to the date the Navy expects
Plaintiff to report to his next permanent duty sta­
tion.
Respectfully submitted,
BENJAMIN C. MIZER
Principal Deputy Assistant Attor­
ney General
ROBERT E. KIRSCHMAN, JR.
Director
/s/
DOUGLAS K. MICKLE
Assistant Director

JOHN F. SHARPE
13088 Lighthouse Ln.
Carrollton, VA 23314
Telephone: (757) 6451740
Pro Se

/s/
IGOR HELMAN
Trial Attorney
Commercial Litigation Branch
Civil Division
Department of Justice
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044
Telephone: (202) 305-7576
Fax:(202)514-7965
Igor.Helman@usdoj .gov

262a

January 6, 2017

Of Counsel:
LT. MARYAM AUSTIN
United States Navy
Office of the Judge Advocate Gen­
eral
General Litigation Division (Code
14)
1322 Patterson Ave., Suite 3000
Washington Navy Yard, DC
20374-5066
Telephone: (202) 685-5442
Facsimile: (202) 685-5472
Attorneys for Defendant

263a
APPENDIX N
ZYUW RUCLFVAOOOO 3421238
ROUTINE
R 071238Z DEC 16
MILLINGTON
COMNAVPERSCOM
FM
TN//PERS448 //
TO BUPERS MILLINGTON TN//JJJ//
PERSUPP DET WASHINGTON DC//JJJ//
TRANSITPERSU NORFOLK VA//JJJ//
NPASE NORFOLK VA//JJJ//
CHINFO WASHINGTON DC//JJJ//
PERSUPP DET NAVSTA NORFOLK VA//JJJ//
NAVY IPO WASHINGTON DC//JJJ//
COMNAVREG MIDLANT NORFOLK VA//JJJ//
//N01321//
UNCLAS
MSGID/GENADMIN/CHNAVPERS//
SUBJ/BUPERS ORDER//
RMKS/
BUPERS ORDER: 3426 XXX-XX-3671/1650 (PERS448)
OFFICIAL RECALL ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
IN CARRYING OUT/PROCESSING THESE OR­
DERS, BOTH PARTS ONE AND TWO MUST BE
READ AND LISTED INSTRUCTIONS COMPLIED
WITH.
. FOR OFFICIAL USE ONLY
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
PARTONE
- HOME ADDRESS:
13088 LIGHTHOUSE LN CARROLLTON VA 23314
- WITHIN SEVEN DAYS AFTER RECEIPT OF
THESE ORDERS PROCEED AND REPORT MEDI­
CAL OFFICER DESIGNATED BY REGION EAST

264a
FOR PHYSICAL EXAMINATION AND SCREEN­
ING FOR HUMAN IMMUNODEFICIENCY VIRUS
(HIV) EXPOSURE. NEGATIVE HIV TEST RE­
SULTS MUST BE VERIFIED AND DOCUMENTED
WITHIN 24 MONTHS PRIOR TO EXECUTION OF
THE ORDERS. INCLUDE A FLIGHT PHYSICAL IF
BEING ORDERED TO DUTY INVOLVING FLY­
ING. IF FOUND NOT PHYSICALLY QUALIFIED
IMMEDIATELY RETURN ABOVE ADDRESS, UP­
ON ARRIVAL CONSIDER RELEASED FROM
TEMPORARY ACTIVE DUTY. IF FOUND PHYSI­
CALLY QUALIFIED IMMEDIATELY RETURN
ABOVE ADDRESS, UPON ARRIVAL CONSIDER
RELEASED FROM TEMPORARY ACTIVE DUTY
UNTIL SUCH TIME AS NECESSARY TO COM­
MENCE TRAVEL IN FEB 2017 AND IN TIME TO
REPORT AS DIRECTED BELOW:
- MEMBER DIRECTED: UPON NOTIFICATION OF
PCS AND PRIOR TO TRANSFER, MEMBER IS
REQUIRED TO VISIT THE MOVING MADE EASY
TRICARE SITE AT: WWW.TRICARE.MIL/MOVING
AND FOLLOW THE INSTRUCTIONS FOR
TRANSFERRING THEIR TRICARE PRIME OP­
TION (IF NECESSARY). IF CARE IS NEEDED
WHILE IN TRANSIT, MEMBERS ARE REQUIRED
TO CONTACT HIS/HER CURRENT REGIONAL
TRICARE CONTRACTOR FOR COUNSELING ON
URGENT OR EMERGENCY MEDICAL CARE
DURING PCS MOVES. IN THE EVENT OF A
TRUE MEDICAL EMERGENCY WHILE IN
TRANSIT (SAFEGUARDING LIFE, LIMB OR EYE­
SIGHT, OR TO RELIEVE SUFFERING OR SELF­
RISK OR HARM), THE BENEFICIARY SHOULD
IMMEDIATELY SEEK TREATMENT AT THE
NEAREST HOSPITAL’S EMERGENCY DEPART­
MENT. TRICARE PRIME ENROLLEES WHO VIS-

265a
IT A CIVILIAN EMERGENCY ROOM MUST NO­
TIFY THEIR REGIONAL TRICARE CONTRACTOR
WITHIN 24 HOURS IN ORDER FOR A REFERRAL
FOR EMERGENCY CARE TO BE PROVIDED. IF
IT IS DETERMINED THAT A TRICARE PRIME
BENEFICIARY HAS OBTAINED ROUTINE
CARE (NON- EMERGENT) IN AN EMERGENCY
DEPARTMENT, A POINT OF SERVICE CHARGE
(PAID BY THE SPONSOR) MAY BE INCURRED.
THE TRICARE WEBSITE AND REGIONAL
TRICARE CONTRACTORS CAN ALSO PROVIDE
GENERAL INFORMATION AND HEALTH CARE
OPTIONS AVAILABLE FOR FAMILY MEMBERS
NOT ENROLLED IN TRICARE PRIME. FOR IN­
FORMATION REGARDING TRICARE COVERAGE
FOR YOU OR YOUR DEPENDENT(S) IN THE
CONTINENTAL UNITED STATES (CONUS), GO
TO

http://www.tricare.mil/contactus/callu
S.ASPX OR CALL YOUR RESPECTIVE REGIONAL
TRICARE CONTRACTOR AS FOLLOWS:
- NORTH REGION (HEALTH NET FEDERAL
SERVICES, LLC): 1-877-874-2273
- SOUTH REGION (HUMANA MILITARY): 1-800444-5445
- WEST REGION (UNITED HEALTHCARE MILI­
TARY & VETERANS): 1-877-988-9378 IF YOU
HAVE OVERSEAS PCS ORDERS, TRICARE
QUESTIONS SHOULD BE DIRECTED TO THE
TRICARE OVERSEAS PROGRAM (TOP) CON­
TRACTOR - INTERNATIONAL SOS. FOR INFOR­
MATION REGARDING THE HEALTHCARE OP­
TIONS AVAILABLE TO YOU AND YOUR FAMILY
WHILE OVERSEAS, CONTACT THE TRICARE
SERVICE CENTER LOCATED AT THE MILITARY
TREATMENT FACILITY (MTF) THAT SERVES

266a
YOUR AREA OR CALL YOUR RESPECTIVE RE­
GIONAL CALL CENTER AS FOLLOWS:
- EURSIA-AFRICA: 44-20-8762-8384
- PACIFIC: 65-6339-2676
- LATIN AMERICA AND CANADA: 1-215-942-8393
IF YOUR PCS ORDERS ARE TO A REMOTE
OVERSEAS LOCATION THAT IS NOT SERVICED
BY AN MTF, CONTACT THE APPLICABLE
PHONE NUMBER ABOVE TO COORDINATE
YOUR HEALTHCARE COVERAGE. ADDITIONAL
TOP INFORMATION CAN BE FOUND AT:
HTTP://WWW.TRICAREOVERSEAS.COM/BENEFICIARIES.HTM.
- MEMBER DIRECTED: UPON RECEIPT OF OR­
DERS, IF ENROLLED IN THE EXCEPTIONAL
FAMILY MEMBER PROGRAM (EFMP), MEMBER
IS DIRECTED TO HAVE THE DETACHING
FLEET FAMILY SERVICE CENTER EFMP CASE
LIAISON (FFSC CL) AND THE HEALTH BENE­
FITS ADVISOR (HBA) WHO IS THE TRICARE
REPRESENTATIVE CONFIRM CARE FOR THE
FAMILY MEMBER(S) WITH THE GAINING FFSC
CL AND HBA. ADDITIONAL EFMP INFOR­
MATION CAN BE FOUND ON THE WEB AT:
http://wwww.public.navy.mil/bupersASPX.
NPC/SUPPORT/EFM/PAGES/DEFAULT.
THE EFMP IS GOVERNED BY OPNAVINST
1754.2D AND SECNAVINST 1754. 5B AND
MILPERSMAN 1300-700.
....... INTERMEDIATE (01) ACTIVITY (M)........

REPORT NET 11 FEB 17 BUT NLT 13 EDA:
13 FEB 17
FEB 17
UIC:32002
TO TPU NAVSTA NORVA OTH
LOCATION: VA, NORFOLK
FOR TEMPORARY DUTY UNDER
INSTRUCTION
ACC: 341

\

267a
FOR APPROXIMATELY 10 DAY(S)
- PERSONNEL ACCOUNTING SUP­
UIC:42574
PORT: PERSUPPDET NORVA
TO INCLUDE 10 DAY(S) AT PRO­
CESSING
CLASS: CONV: 170213 GRAD: 170222
CDP:
UPON COMPLETION OF TEMPO­
RARY DUTY UNDER INSTRUCTION
EDD: 22 FEB
AND WHEN DIRECTED, DETACH.
17
- REPORT NOT LATER THAN 0730 13 FEB 17
AND NOT EARLIER THAN 11 FEB 17 . REPORT­
ING PRIOR TO NOT EARLIER THAN DATE WILL^
TERMINATE LEAVE STATUS AND RESULTS
NON-PAYMENT OF PER DIEM FOR PERIODS
PRIOR TO THE NOT EARLIER THAN DATE SPECIFIED UNLESS AUTHORIZED UNDER
MILPERSMAN 1320-140.
........INTERMEDIATE (02) ACTIVITY (M) -

REPORT NET 21 FEB 17 BUT NLT 23 EDA:
FEB 17
23 FEB 17

¥
TO NAVY PA SUPPORT ELEMENT UIC: 63376
NORVA
LOCATION: VA, NORFOLK
FOR TEMPORARY DUTY UNDER ACC: 341
INSTRUCTION
FOR APPROXIMATELY 36 DAY(S)
- PERSONNEL ACCOUNTING SUP- UIC: 42574
PORT: PERSUPPDET NORVA
TO INCLUDE 36 DAY(S) AT TRAIN­
ING
CLASS: CONV: 170223 GRAD: 170330
CDP:
UPON COMPLETION OF TEMPO­
RARY DUTY UNDER INSTRUCTION EDD: 30 MAR

1

268a
AND WHEN DIRECTED, DETACH.
17
- REPORT NOT LATER THAN 0730 23 FEB 17
AND NOT EARLIER THAN 21 FEB 17 . REPORT­
ING PRIOR TO NOT EARLIER THAN DATE WILL
TERMINATE LEAVE STATUS AND RESULTS IN
NON-PAYMENT OF PER DIEM FOR PERIOD
PRIOR TO THE NOT EARLIER THAN DATE
SPECIFIED UNLESS AUTHORIZED UNDER
MILPERSMAN 1320-140.
- MEMBER ADVISED: NO PERDIEM/LODGING
REIMBURSEMENT AUTHORIZED AT ANY IN­
TERMEDIATE STOP(S) IN THE SAME GEO­
GRAPHIC LOCATION AS THE ULTIMATE DUTY
STATION. EXCEPTION TO THIS POLICY IS AR­
DUOUS SEA DUTY IDENTIFIED IN JTR U5120D
AND LISTED IN OPNAVINST 4650.17.
- MEMBER DIRECTED: FOR EACH INTERMEDI­
ATE STOP, IF GOVERNMENT QUARTERS ARE
AVAILABLE (BQ/SHIPBOARD BERTHING) AND
THE BASE HAS A GOVERNMENT MESS APPRO­
PRIATED FUND FOOD SERVICE ACTIVI­
TY/GALLEY AVAILABLE TO THE TRAVELER,
USE OF THE GOVERNMENT MEAL PER DIEM
RATE IS DIRECTED. IF GOVERNMENT MESS­
ING IS NOT AVAILABLE OR IS PARTIALLY
AVAILABLE, OBTAIN AN ENDORSEMENT TO
THAT EFFECT FROM THE HOST COMMAND.
JTR PARA U4400 APPLIES.
- A. FOR MORE INFORMATION ON YOUR NEXT
PERMANENT CHANGE OF STATION (PCS) VISIT
http://www.cnic.navy.mil/contacthousi
NG. THIS WEBSITE PROVIDES ON AND OFF
BASE HOUSING CONTACT AND GENERAL IN­
FORMATION
ABOUT
NAVY
LOCATIONS
WORLDWIDE.
- B. MEMBER ADVISED: TO INITIATE HOUSING

269a
APPLICATION OR RECEIVE COMMUNITY
HOUSING INFORMATION USE ONLINE HOUS­
ING EARLY APPLICATION TOOL (HEAT), VISIT
http://WWW.CNIC.NAVY.MIL/HEAT
- C. TO VIEW PRIVATIZED AND COMMUNITY
HOUSING LISTINGS AT YOUR NEXT DUTY STA­
TION
VISIT
http://WWW.CNIC.NAVY.MIL/HOMES
FOR
MORE INFORMATION ON THIS DEPARTMENT
OF DEFENSE SPONSORED WEBSITE.
........ULTIMATE ACTIVITY (M).........
REPORT NOT LATER THAN MAY 17 EDA: MAY 17
TO CHINFO/FSD LIAISON OFFICE UIC: 47691
PERMANENT DUTY STATION DC,
WASHINGTON
FOR DUTY
ACC: 100
BSC: 10010
PRD: 2005
- MEMBER ADVISED: CHILDCARE INFOR­
MATION AND REGISTRATION FOR NEW DUTY
STATION
AVAILABLE
IS
AT:
HTTPS^/WWW.CNIC.NAVY.MIL/CYP
- IT IS IMPERATIVE THAT THE SUPPORTING
PERSUPPDET THAT PROCESSES THESE OR­
DERS NOTIFY NAVPERSCOM MILLINGTON
(PERS-80C3 AND PERS-8023) IMMEDIATELY
UPON THE EXECUTION OF THESE ORDERS.
THIS NOTIFICATION IS REQUIRED TO ENSURE
ACTIVATION OF SNO’S ACTIVE FILE FROM THE
NAVAL RESERVE TO ACTIVE DUTY. ALSO THE
ASSIGNMENT OF PROPER ACCOUNTING CLAS­
SIFICATION CODE (ACC 100), AND THEREBY
ENSURING PROPER CONSIDERATION ON SNO’S
FILE WITH PERTINENT ACTIVE SELECTION
BOARDS. IF PERS-80C3 IS NOT NOTIFIED OF
THE ACTUAL REPORTING DATE (THE DATE

270a
THE MEMBER REPORTED) OF THESE ORDERS.
IT WILL RESULT IN THE SNO MEMBER HAVING
PAY AND PROMOTIONAL PROBLEMS. POC:
EMAIL P80C3@ PERSNET.NAVY.MIL PHONE
COMM:(901) 874-3209 OR DSN 882-3209. POC FOR
PERS-8023 EMAIL: P8023@PERSNET.NAVY.MIL
PHONE COMM: (901) 874-4537 OR DSN: 882-4537.
- MEMBER ADVISED: NAVY LODGE IS THE OF­
FICIAL GOVERNMENT LODGING WHEN ON PCS
ORDERS. FOR RESERVATIONS CALL 1-800-6289466
OR
VISIT
WEBSITE
WWW.NAVYLODGE.COM. FOR ADDITIONAL GOVERNMENT
LODGING OPTIONS MAY BE LOCATED AT
WEBSITE WWW.DODLODGING.NET OR CALL
TOLL FREE 1-877-NAVY- BED (1-877-628-9233) TO
DETERMINE GOVERNMENT LODGING AVAILA­
BILITY IN THE VICINITY OF OLD AND NEW
PERMANENT DUTY STATIONS. RESERVATIONS
ARE REQUIRED TO ENSURE ROOM AVAILABIL­
ITY.
........ADDITIONAL DUTY ACTIVITY.........
........ACCOUNTING DATA.........
PCS ACCOUNTING DATA:
MAC CIC: N0002217CSW5664
CIC: AE2L71SL
LOA: 1771453.2250 210 00022 068566 2D SW5664

000227242008
SDN: N0002217CSW5664
TAC: NA27
NTS
ACCOUNTING
DATA:(USE
BUPERS
CROSSWALK)
NTS TAC: NN6_
SAC LOA: 1771453.2250 210 00022 068566 2D
SW5664 000227242008 NTS
SDN: N00022 CSSNN6_

271a
TEMDUINS ACCOUNTING DATA FOR FY-17
LOA: 1771804.22MM 210 62980 0 068566 2D
OW5664 00022708100E
SDN: N0002217TOW5664
PARTTWO
BUPERS ORDER: 3426 XXX-XX-3671/1650 (PERS448)
OFFICIAL RECALL ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
- MEMBER ADVISED: IF THIS ORDER CONTAINS
FY17 OM&N (TRAINING PER DIEM) FUNDING,
PROGRAM/FUND ALLOCATION IS ISSUED IN
ANTICIPATION OF ENACTMENT OF THE FY17
DOD APPROPRIATIONS ACT OR A FY17 CON­
TINUING RESOLUTION (CR) AND IS SUBJECT
TO AVAILABILITY OF FUNDS AND ALL PROVI­
SIONS OF WHICHEVER ACT IS APPLICABLE.
- DETACHING COMMAND: IF TRANSOCEANIC
TRAVEL WILL BE PERFORMED BY MEMBER,
PORT CALL ASSIGNED BY THE NAVY PASSEN­
GER TRANSPORTATION OFFICE WILL CANCEL
THE REPORT NOT LATER THAN (NLT) DATE, AT
RECEIVING COMMAND, AND SHALL CONSTI­
TUTE THE SPECIFIC DATE MEMBER IS TO RE­
PORT FOR TRANSPORTATION. IF THIS IS AN
MODIFICATION CANCELLATION OR MODIFI­
CATION OF PORT CALL MAY BE REQUIRED. IF
SO, IMMEDIATELY CONTACT SERVICING NPTO.
OPNAVINST 4650.15 SERIES REFERS.
- COMPLY WITH MILPERSMAN 1320-110 RE­
GARDING TRAVEL TIME AUTHORIZED IN EXE­
CUTION OF THESE ORDERS.
- MEMBER ADVISED: IF YOU WERE PREVIOUS­
LY RELEASED FROM ACTIVE DUTY UNDER
SPECIAL SEPARATION BENEFITS (SSB) OR
VOLUNTARY SEPARATION INCENTIVE (VSI)

272a
PROGRAMS, OR RECEIVED SEPARATION PAY,
PAYMENTS RECEIVED WILL BE DEDUCTED
FROM RETIRED PAY SHOULD YOU SUBSE­
QUENTLY QUALIFY FOR SUCH PAY. YOU ARE
DIRECTED TO REVIEW APPICABLE DIRECTIVE
IN TITLE 10, U.S. CODE, SECTIONS 1174 AND
1175.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

- MEMBER ADVISED: UPON ARRIVAL AT NEW
DUTY
STATION,
ENSURE
UPDATED
PHONE/FAX NUMBER AND EMAIL ADDRESS
ARE FORWARDED FOR INCLUSION IN THE PAO
DIRECTORY. THE REGISTRATION FORM IS LO­
CATED
AT:
https://portal.secnav.navy.mil/orgs/chi
NFO/LISTS/PA 20DIRECTORY/ SEARCH.ASPX.
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
- DETACHING COMMAND: ENSURE MEMBER
HAS A COMPLETED AND DOCUMENTED HIV
TEST WITHIN 24 MONTHS OF EDD. EVERY EF­
FORT SHOULD BE MADE TO ENSURE RESULTS
ARE RECEIVED PRIOR TO TRANSFER. HOWEV­
ER, IF RESULTS ARE NOT RECEIVED, ENSURE
MEMBER’S MEDICAL/DENTAL RECORD RE­
FLECTS THAT THE MEMBER’S TEST WAS COM­
PLETED AND AWAITING RESULTS. TEST RE­
SULTS SHOULD BE FORWARDED TO NEW DU­
TY STATION UPON RECEIPT FOR INCORPORA­
TION IN MEDICAL/DENTAL RECORDS.
MBR IS DETACHING FROM HOME, 13088
LIGHTHOUSE LN CARROLLTON VA 23314
- THIS TRANSFER FUNDED FOR MEMBER AND
AUTH DEPENDENTS AS REFLECTED ON SER­
VICE RECORD PAGE TWO, PER JTR U5215, DE­
PENDENTS ACQUIRED ON OR PRIOR TO THE
EFFECTIVE DATE OF ORDERS ARE AUTH

273a
TRAVEL/TRANSP ALLOWANCES FROM THE
PLACE AT WHICH ACQUIRED TO THE NEW
PDS, UP TO THE TVL/TRANSP ENTITLEMENT
FOR TVL FROM OLD PDS TO THE NEW PDS.
PLEASE REFER TO JTR APPENDIX A FOR DEF­
INITION OF EFFECTIVE DATE OF PCS ORDERS.
........SPECIAL INSTRUCTIONS.........
- MEMBER DIRECTED: ACTION REQUIRED (AF­
FECTS PAY): IAW MILPERSMAN 1000-025, PRO­
VIDE CHECK-IN DOCUMENTS WITHIN 4 DAYS
OF ARRIVAL TO THE DESIGNATED COMMAND
PASS COORDINATOR. REQUIRED DOCUMENTS
AT:
LIST
HTTPS://MPTE.PORTAL.NAVY.MIL/SITES/NPC/P
20INSTRUCTIONSCHEC
ERS2/NPPSC
KLISTS/NPPSC_1320.1B_2_RECEIPT_CHECKLIST
.PDF. CHECK-IN/CHECK-OUT STAMP(S) RE­
QUIRED FROM EACH ACTIVITY.
- MEMBERS WHO RECEIVE PCS ORDERS WHEN
THEIR OLD AND NEW PERMANENT DUTY STA­
TIONS ARE WITHIN CLOSE PROXIMITY TO
EACH OTHER (BASED ON A REASONABLE
COMMUTE DETERMINED BY THE GAINING CO)
MAY BE ELIGIBLE TO RECEIVE A CLOSE PROX­
IMITY WAIVER AND RECEIVE BAH BASED ON
THEIR OLD PDS LOCATION. SEE NAVADMIN
101/10 FOR WAIVER ELIGIBILITY REQUIRE­
MENTS
AND
PROCEDURES.
GO
TO:
http://www.public.navy.mil/bupers-npc/
REFERENCE/MESSAGES/P AGES/DEFAULT .ASPX.
- MEMBER ADVISED: IN CASES WHERE THESE
ORDERS CONFLICT WITH THE JOINT TRAVEL
REGULATIONS OR ANY OTHER REGULATION,
THE REGULATION PREVAILS.
- MEMBER ADVISED: IAW MILPERSMAN 1320-

274a
308, AUTHORIZE TRANSPORTATION COST RE­
IMBURSEMENT FOR EXCESS BAGGAGE UP TO
AND NOT TO EXCEED THE FOLLOWING: (A)
ONE (1) PIECE FOR PILOTS, AIRCREW, DIVERS,
AND PERSONNEL WHO MUST CARRY SPECIAL
ISSUE GEAR WITH THEM (B) TWO (2) PIECES
FOR ATTACHES. SERVICE MEMBERS IN RE­
CEIPT OF PCS ORDERS TO FORWARD DE­
PLOYED UNITS ARE ADVISED THAT CERTAIN
AIRLINES MAY CHARGE EXCESS BAGGAGE
FEES. REIMBURSEMENT MAY BE REQUESTED
IN ACCORDANCE WITH JOINT TRAVEL REGU­
LATIONS (JTR) 3105-B UPON REPORTING TO
YOUR ULTIMATE DUTY STATION. CONTACT
PERS-40CC FOR ENLISTED PERSONNEL OR
COGNIZANT DETAILER FOR OFFICERS. CON­
SULT YOUR LOCAL HOUSEHOLD GOODS (HHG)
PERSONAL PROPERTY OFFICE REGARDING
SPECIFIC HHG AND PERSONAL PROPERTY
SHIPMENT ENTITLEMENTS.
- MEMBER ADVISED: SHIPPING HHG? HAVE
MOVE QUESTIONS? WANT TO MAKE A DIF­
FERENCE? NOW YOU CAN PROCESS YOUR HHG
SHIPMENT APPLICATION AND RECEIVE
COUNSELING ON LINE AT YOUR CONVEN­
IENCE AT: WWW.MOVE.MIL. YOU MUST COM­
PLETE THE CUSTOMER SATISFACTION SUR­
VEY AFTER MOVE IS COMPLETE. CONTACT
TRANSPORTATION SPECIALIST TO ANSWER
QUESTIONS AND PROVIDE GUIDANCE CON­
CERNING YOUR HHG SHIPMENT MONDAY
THROUGH FRIDAY 0800-1700 EASTERN TIME
AT 1-855-HHG-MOVE OR BY EMAIL AT:
HOUSEHOLDGOODS@NAVY.MIL.
- MEMBER DIRECTED: FOR INFORMATION RE­
GARDING YOUR ULTIMATE DUTY STATION

275a
CONTACT THE NEAREST DEPARTMENT OF
DEFENSE FAMILY SERVICE CENTER OR RELO­
CATION ASSISTANCE OFFICE. 1-800-372-5463.
- YOU ARE ORDERED TO TEMPORARY ACTIVE
NAVAL SERVICE FOR THE PURPOSE OF PHYS­
ICAL EXAMINATION AND CONSIDERED IN
TEMPORARY ACTIVE DUTY STATUS DURING
TIME REQUIRED AND TRAVEL NECESSARY.
- IF FOUND NOT PHYSICALLY QUALIFIED EX­
AMINING MEDICAL OFFICER ADVISE NPC BY
MESSAGE, (ATTN: PERS-448) REFERENCING
THESE ORDERS, STATING DEFECTS IN DETAIL
WITH ACTION TAKEN AND RECOMMENDA­
TIONS, IF ANY, WITH INFORMATION COPIES
TO BUMED AND COURTESY COPY ADDRESS­
EES ON THIS ORDER.
- MEMBER ADVISED: TRAVEL VIA PRIVATE
OWNED CONVEYANCE IS PERMITTED AT YOUR
OPTION FOR YOUR CONVENIENCE.
- IF SERVING UNDER ORDERS AUTHORIZING
YOUR PARTICIPATION IN THE NAVAL RE­
SERVE TRAINING PROGRAM IN A PAY OR NON­
PAY STATUS, YOU ARE DIRECTED TO REQUEST
TERMINATION OF YOUR INACTIVE DUTY
TRAINING ORDERS, VIA THE APPROPRIATE
CHAIN OF COMMAND, TO BE EFFECTIVE NOT
LATER THAN THE DAY PRECEDING THE DATE
OF REPORTING TO ACTIVE DUTY IN COMPLI­
ANCE WITH THESE ORDERS.
- AS SOON AS PRACTICAL FOLLOWING RE­
CEIPT OF THESE ORDERS (IMMEDIATELY IF
DETACHMENT IS IN LESS THAN 90 DAYS)
COMMANDS SHALL ENSURE MEMBERS AC­
CESS THEIR NSIPS/ESR SELF SERVICE AC­
COUNT TO COMPLETE/SUBMIT THE PCS
TRAVEL INFORMATION. TO ACCESS THE AU-

/

276a
TOMATED SYSTEM, THE MEMBER SHOULD
LOGON TO THEIR ESR ACCOUNT, THEN SE­
LECT THE ‘UPDATE PCS TRAVEL’ LINK ON
THEIR ESR HOMEPAGE. FOR CONVENIENCE,
THERE IS AN ‘AUTO-FILL’ FEATURE THAT AU­
TOMATICALLY COMPLETES THE PCS ITINER­
ARY FROM THE MEMBER’S CURRENT ACTIVE
ORDERS. MEMBERS NEED ONLY COMPLETE
OR ADJUST PCS DETAILS SPECIFIC TO DE­
PENDENT TRAVEL, HOUSEHOLD GOODS
WEIGHTS AND/OR POV SHIPMENTS. USE OF
THE HARDCOPY PCS TRAVEL INFORMATION
FORM (NAVPERS 7040/1) SHOULD ONLY OCCUR
IF NSIPS ACCESS IS UNAVAILABLE. IN THOSE
RARE CASES THAT NSIPS CANNOT BE USED,
OBTAIN THE NAVPERS 7040/1 FROM YOUR
COMMAND PASS COORDINATOR AND SUBMIT
TO THE PERMANENT CHANGE OF STATION
VARIANCE COMPONENT VIA YOUR SERVICING
PERSONNEL
DETACH­
SUPPORT
MENT/PERSONNEL OFFICE. FURTHER DE­
TAILS CAN BE OBTAINED IN BUPERSINST
7040.6 (SERIES) OR BUPERSINST 7040.7 (SE­
RIES) INSTRUCTIONS TO CREATE/ACCESS A
SELF SERVICE ESR ACCOUNT ARE LOCATED
ON
THE
NSIPS
SPLASH
SCREEN,
https://nsipsprod.nmci.navy.mil/nsipsclo
/ JSP/INDEX.JSP (UNDER ‘USER INFOR­
MATION’).
- PASS COPIES OF THESE ORDERS TO PERS-9.
- FOR COMMAND MAILING ADDRESS CONSULT
THE STANDARD NAVAL DISTRIBUTION LIST
(SNDL)
ONLINE
AT
http://DONI.DAPS.DLA.MIL/SNDL.ASPX OR VIS­
IT YOUR PSA, PSD OR ADMIN OFFICE.
(SIGNED)

277a
R. A. BROWN
REAR ADMIRAL, U. S. NAVY
COMMANDER
NAVY
PERSONNEL COMMAND
FORMAT 401: REMEMBER TO READ YOUR OR­
DERS IN THEIR ENTIRETY
THIS MESSAGE HAS BEEN SENT IN A SECURE
ENVIRONMENT. HOWEVER, IF IT MUST BE
FORWARDED VIA EMAIL TO PERSON(S) WITH A
NEED TO KNOW, YOU MUST ENSURE PROPER
SAFEGUARDS ARE TAKEN TO PROTECT THE
CONTENTS SINCE IT MAY CONTAIN SENSITIVE
PII. YOU MUST ENCRYPT AND DIGITALLY SIGN
ALL EMAILS THAT CONTAIN SENSITIVE PII. IF
THE EMAIL FAILS TO SEND BECAUSE OF EN­
CRYPTION ISSUES, DO NOT SEND UNEN­
CRYPTED AS THAT ACTION CONSTITUTES A
PII BREACH AND MUST BE REPORTED. IN­
STEAD, CONTACT YOUR IAM FOR ASSISTANCE.
SENSITIVE PII IS DEFINED AS THAT INFOR­
MATION ABOUT AN INDIVIDUAL THAT, IF
LOST, STOLEN OR COMPROMISED WOULD
CAUSE UNDUE HARM AND AN UNWARRANTED
INVASION OF PERSONAL PRIVACY.
PERS462 NNNN

278a
APPENDIX O

[SEAL]

DEFENSE FINANCE
AND ACCOUNTING SERVICE
8899 E. 56TH STREET
INDIANAPOLIS, IN 46249

John F Sharp
13088 Lighthouse Lane
Carrollton VA 23314
Dear Mr. Sharp:
We received a copy of Directive 4284-14/10521-12
issued by the Office of the Secretary Navy. This di­
rective places you on active duty during the period 01
Oct 2009 to your reporting date.
Before settlement can be made, we need certain
information from you for the period 01 Oct 2009
through your reporting date. Although you may not
know the date that you will report for duty at this
time, the information we are requesting must cover
through the day prior to your reporting date. This
information is necessary to determine if you are due
a payment.
Please send us a copy of the Internal Revenue
Service Form(s) 1040, US Individual Income Tax Re­
turn, with all attachments, that you filed with the
Internal Revenue Service along with your TD
Form(s) W-2, Wage and Tax Statement, for the
year(s 2009, 2010, 2011, 2012, 2013, 2014, 2015 and
2016. If you filed jointly, we also require your
spouse’s tax documents to verify the amount shown
on your Form 1040. For the current year please send
us a copy of the earnings statement your employer
provided you for each pay period from 01 Jan 2017

279a
through your reporting date. Also, please furnish us
the following:
a. A chronological explanation of civilian em­
ployment and gross wages earned that coincides with
the above requested documents. The date you began
and the date you ended your duties with each em­
ployer and the gross wages earned for each period of
employment. Be sure to include the name of each
employer.
b. If you were self-employed, the nature of em­
ployment, period of employment, and gross wages
earned. We also need copies of the forms you submit­
ted to the Internal Revenue Service to report your
gross wages.
c. If you received unemployment compensation in
lieu of earnings during any part of the above period,
provide the period that compensation was received
and the address of the office from which it was paid.
d. If you performed any active duty tours, unit
training assemblies, or additional flight training pe­
riods in either the reserve or National Guard, of any
branch of service, the dates and amount of funds re­
ceived must be provided to our office.
e. Furnish a copy of your DD Form 214, Certifi­
cate of Release or Discharge from Active Duty, for
your separation on 30 Sep 2009. If you received bene­
fits from the Department of Veterans Affairs (VA),
list the period, type, and amount of benefits. If your
VA benefits were reduced for the collection of a sepa­
ration benefit, provide the debt amount, total deduc­
tions, and debt balance. Provide the address of the
VA regional office that you received benefits. Note: If
VA benefits were received during the dates mention
above, the total amount of VA benefit received will be
reduced from your calculated payment, if applicable.
f. Provide the names and relationships of your

280a
dependents during the above period. Please indicate
if your spouse is affiliated with any branch of mili­
tary service. If so, please provide the social security
number and branch of service.
g. You may submit a claim to our office for medi­
cal and dental expenses incurred during the period of
restoration. We require legible copies of bills marked
“paid,” and, if possible, supported by proof of pay­
ment. In addition, we require an affidavit in support
of the claim. In the affidavit, you must swear under
penalty of perjury that the amount claimed has not
been and will not be reimbursed by insurance of any
form, nor will any agency, public or private, pay or
reimburse any part of the claim submitted. Only paid
bills will be considered.
h. The Defense Finance and Accounting Service
(DFAS) is required to make all payments via direct
deposit. Please provide our office a clear copy/scan of
your government- issued photo identification, along
with an SF 1199A (Direct Deposit Authorization,
available from your financial institution) completed
and signed by a bank representative, or a copy of a
voided check.
We cannot process your case without the request­
ed information and documentation. This is per the
Department of Defense Financial Management
Regulation (DoDFMR), Volume 16, Chapter 4, para­
graph 040602. Please note that failure to provide this
information will delay your payment. We will reopen
your case when we receive a reply from you. Please
note that you have six years from the date of the di­
rective to provide this information or your claim will
be barred under the Barring Act of 1940, as amended
by 31 U.S.C 3702.
Under the Privacy Act of 1974, we advise that the
authority for soliciting this information will be used

281a
to determine your entitlement to pay and allowances
as a result of the correction to your records.
Upon receipt of all requested information, from
all sources, including other Government agencies; we
can begin to process your case. Our normal pro­
cessing is approximately 90 days after receipt of all
information. Cases are processed on a “first in, first
out” basis. We regret the inconvenience caused by
this delay, but ask that you please allow 90 days be­
fore inquiring about your case.
When providing all information to our office
please reference your account number MSFSKT5RG.
You may submit all items to our office at DFASIN/JFEAA, 8899 E. 56th St., ATTN: COR/Claims,
Indianapolis, IN, 46249-3300. You can reach Correc­
tion of Records/Claims customer service by calling,
toll free, 1-866-912-6488, option 2. Our fax number is
(317)275-0279. For tracking purposes, we request
you send a brief email letting us know when a fax
has been sent. Our office can be contacted at the fol­
lowing
e-mail
address:
dfas .indianapolis in.jfe.mbx.cor-claims@mail.mil.
Sincerely,
/s/
S. McFadden
Financial Management
Specialist
Directorate of Debt and
Claims Management
Enclosures: As stated

282a
APPENDIX P

SJntteti States Court of Jfeberal Claims;
No. 15-1087C
Filed: March 1, 2017
•k'k'k'k'k'kic'kic'k'k'k'k'k'k'k'k'k'k’k’k'k ie

JOHN F. SHARPE,
Plaintiff
v.

*
*
*

* No.: l:15-cv-01087
* Judge:
Thomas
* Wheeler

C.

*

THE UNITED STATES, *
Defendant.

*
*
*
★

•k’k’k'k'kic'k'k'k'k'k'kic'k'kic'k'k'k'k'k'k ie

JOINT STATUS REPORT
Pursuant to this Court’s January 10, 2017 Order (Order),
the parties submit this Joint Status Report with their respec­
tive positions relative to the implementation of the recom­
mendations of the Board for Correction of Naval Records
(BCNR). In their previous status update, the parties updated
the Court regarding the implementation of the relief directed
by the BCNR, as approved by the Secretary of the Navy
(SECNAV) on April 25, 2016, relative to Mr. Sharpe’s
claims for back pay, reinstatement, correction of his naval
record and other relief. The Navy informed the Court that
Mr. Sharpe’s naval record had been corrected and orders to

283a
get Mr. Sharpe back on active duty had been issued. Joint
Status Report (Dec. 8, 2016), ECF No. 20, at 1. The parties
subsequently jointly sought leave of the Court to file a sup­
plement to the December 8, 2016 report. The parties in­
formed the Court that the Navy annotated the Naval Inspec­
tor General’s case on Mr. Sharpe as “not substantiated” and
the Assistant Secretary of the Navy (Manpower and Reserve
Affairs) (ASN) issued an amended order to clarify the mech­
anism by which Mr. Sharpe’s promotion would be imple­
mented. Joint Motion to Supplement the Joint Status Report
(filed Jan. 6, 2017), ECF No. 22, at 1-2.
The Parties ’ Joint Position
The parties now report that Mr. Sharpe reported on Ac­
tive Duty on February 13, 2017, and is currently assigned to
temporary duty (TDY) until March 30, 2017, following
which he will report in May to his final permanent duty sta­
tion (PDS). His promotion package has been routed success­
fully through the offices of Commander, Navy Personnel
Command and the Chief of Naval Personnel. The promotion
package is currently being processed by the Office of Judge
Advocate General, Administrative Law Branch. The pack­
age will then make its way to the Judge Advocate General,
the Chief of Naval Operations, the Assistant Secretary of the
Navy (Manpower & Reserve Affairs), and the Office of the
Secretary of Defense, before going to the Senate for confir­
mation.
Additionally, the Navy reports that the Defense Finance
and Accounting Service (DFAS) provided a letter to Mr.
Sharpe requesting documentation from Mr. Sharpe in order
for DFAS to calculate the appropriate back pay due to him.
See Exhibit 1 (February 10, 2017, Letter from DFAS to Mr.
Sharpe). Mr. Sharpe sent DFAS a packet which was deliv­
ered on February 27, 2017, and which he believes contains
all the information DFAS requested. DFAS will review the

284a
information that Mr. Sharpe provided and let him know if it
believes any additional information is necessary. As the
Navy previously informed this Court in the parties’ Joint Mo­
tion to Supplement, DFAS has begun calculating the back
pay amounts. Joint Motion to Supplement the Joint Status
Report, at 22. Once the information from Mr. Sharpe is re­
viewed by DFAS, DFAS will complete the calculations and
provide Mr. Sharpe with final amounts it believes he is due.
Finally, the parties also report that Mr. Sharpe is working
with points of contact inside the Navy to ensure that various
electronic records and database entries which previously re­
flected his separation from the Navy are corrected, consistent
with the BCNR’s approved recommendations, and as has al­
ready been done with regard to Mr. Sharpe’s Official Mili­
tary Personnel File, as the Navy previously reported in the
letter of December 6, 2016, from Navy Personnel Command
to Mr. Sharpe, Joint Status Report (Dec. 8, 2016), Appendix
A, at 1. Mr. Sharpe is also working with Navy administrative
personnel to ensure that the appropriate entry is made in his
record explaining the gap resulting from the setting aside of
his separation and his return to duty. See id., at 2.
Navy’s Position
The Navy now requests that the Court continue the stay it
granted in its Order to afford the Navy time to continue ef­
fectuating Mr. Sharpe’s promotion, to finalize the calculation
of the appropriate back pay due to Mr. Sharpe, and to provide
the parties an opportunity to assess the impact of the Navy’s
actions on Mr. Sharpe’s claims currently pending before this
Court. The Navy further proposes that the parties file a joint
status report in 60 days. At that time, the parties can apprise
the Court of the progress in this case and which issues, if
any, remain outstanding.
Plaintiffs Position

285a

Mr. Sharpe believes that, regarding the promotion pack­
age and the back-pay calculations, awaiting an additional 60
days for another update to the Court is unnecessary, and in­
stead requests that the Navy be required to update the Court
no later than March 17, 2017, regarding the status of his
promotion package and to provide final back pay calcula­
tions. The reasons for this request are set forth briefly infra.
Regarding the promotion. First, it is unlikely that Mr.
Sharpe’s promotion will proceed through the Executive
Branch and the Senate in 60 days; consequently, there is no
ground to support any suggestion by the Navy that the addi­
tional two months is necessary so that it can be allowed to
report significant and substantial progress on the promotion
outside the Department of the Navy (DON). Second, the ad­
ministrative “tasker” (Tasker) currently being used by the
Navy to track Mr. Sharpe’s nomination package reflects a
deadline for action by the ASN of March 13, 2017. See Ap­
pendix A (General Tasker FY-09 Active Duty Navy Officer
Nomination ICO LCDR John F. Sharpe, USN, 1650 (ac­
cessed on Feb. 15, 2017)), at 1. As the Tasker reflects and as
the Navy herein reports, supra, review by ASN constitutes
the final step for approval of his promotion package prior to
action that will be taken outside the DON. Consequently, a
March 17, 2017, deadline for another update to the Court 1)
allows the Navy a week more that its self-imposed deadline
for completion of all intra-DON, pre-confirmation action on
his promotion, 2) will require that the Navy brief the Court
and Mr. Sharpe either as to its having completed DON action
on his promotion (assuming that it occurs on schedule or on­
ly slightly thereafter) or as to its current status, the reason for
any delay, and a new projected timeline.
Regarding the back pay calculations. Mr. Sharpe provid­
ed the Navy with a “claim for settlement and payment” pur­
suant to 32 C.F.R. 732.10(b)(2) (2015) on September 30,
2015, when he submitted his final records-correction request

286a
to BCNR. His submission included a detailed breakdown of
Mr. Sharpe’s claimed entitlements, with variations accounted
for based upon his years of service, his cumulative sea-duty
time, and annual changes in entitlement rates. Later, on April
28, 2016, BCNR “authorized [DFAS] to pay all monies law­
fully found to be due [to Plaintiff] as a result of the . . . cor­
rection to [his] naval record.” See Joint Motion to Supple­
ment the Joint Status Report, Appendix S, at 1 (BCNR letter
to Commander, Navy Personnel Command, copy to DFAS,
April 28, 2016). The parties reported to the Court in May that
BCNR outlined a 90-day approximate timeline of payment of
pay and allowances due to Mr. Sharpe. See Joint Status Re­
port (May 2, 2016), ECF No. 10, at 1, Exhibit 2, at 1. Finally,
the Navy again now reports that it already told the Court on
January 6, 2017, that DFAS has begun calculating back pay
amounts. What this means, in essence, from Mr. Sharpe’s
point of view, is that: 1) DFAS has been mi notice for many
months of a pending claim for back pay and allowances start­
ing on October 1, 2009 (the date after Mr. Sharpe’s separa­
tion) and running through the end of 2015 (and now all of
2016 and into 2017); 2) since the date DFAS was advised, on
April 28, 2016, of SECNAV’s decision to grant Mr. Sharpe
relief, it has had plenty of time to complete calculations up to
and through 2016; 3) since Mr. Sharpe returned to active du­
ty, DFAS only needs to calculate a month-and-a-half worth
of entitlements for 2017 (surely a prospect of a few hours’
work); and 4) the bottom line is that since the Navy indicated
in early January 2017 that DFAS had begun calculations,
they should be finished.
Because, as the parties reported, Mr. Sharpe has now
provided to DFAS the material that he believes fully satisfies
DFAS’s request for information, the work remaining to
DFAS should be to first decide upon and then deduct any
amounts that it believes should be offset from Mr. Sharpe’s
settlement. This should be a simple matter of making a legal
determination as to whether Mr. Sharpe’s unemployment

287a
compensation and interim civilian earnings should be offset
(regarding which Mr. Sharpe provided to DFAS, for its con­
venience, a comprehensive discussion of applicable statutes,
regulations, and administrative and judicial case law). If
DFAS decides that matter in the affirmative, no calculations
should remain to be done; if in the negative, it is a simple a
matter of subtracting the unemployment and/or the civilian
earnings from the subtotal of Mr. Sharpe’s entitlements surely no more than a day’s work.
Two final points argue in favor of, respectfully, putting
DFAS and the Navy on a relatively short leash. First, this
Court has in similar cases afforded defendants on the order of
30 to 60 days to calculate back entitlements owed even where
the defendant had no “head start,” such as it has now had, in
this case, for ten months (reckoning from the date of BCNR’s
advice to DFAS). See, e.g., Pride v. U.S., 40 Fed. Cl. 730
(1998) (giving defendant 30 days for pay calculations after
DFAS refused to move on a claim); Kindred v. U.S.. (40
days); Carmichael v. U.S., 66 Fed. Cl. 115 (2005) (60 days);
Germano v. U.S., 26 Cl. Ct. 1446 (1992) (same). Given that
there is, or should be, nothing more to do than to subtract
offsets, if any, from Mr. Sharpe’s settlement, a tighter time­
line than this Court has offered in, other circumstances, where
there was more to be done, is surely appropriate.
Second and finally, as Mr. Sharpe briefed the Navy and
this Court in his two previous submissions, there may be (if
there is not already) a substantive disagreement between the
parties regarding Mr. Sharpe’s pay and allowances. This is
because the Navy is currently treating Mr. Sharpe as if he
were assigned to his home during his constructive-service
period (October I, 2009, the date following his voided sepa­
ration, to February 12, 2017, the date prior to the day he re­
ported TDY under his current orders). See Appendix B, Chief
of Naval Operations N130 letter to Mr. Sharpe (Feb. 13,
2017), at 1 (advising Mr. Sharpe of housing-allowance enti­
tlement based on his home rather than based on the geo-

288a
graphic location of Mr. Sharpe’s previous PDS). Mr. Sharpe,
however, believes that statute, regulation, and administrative
and judicial case law stand for the proposition that when a
separation is voided and a service member is restored to duty,
the record must necessarily show that he continued to serve
at the PDS to which he was assigned on the date of his un­
lawful separation, and that the logical conclusion follows, for
pay and allowance purposes, that his back pay should be cal­
culated on the basis of the law and facts relevant to the pay
he was receiving on the date of his separation.
It is possible that DFAS’s calculations will be consistent
with Mr. Sharpe’s view of his entitlements; if not, further
administrative or judicial proceedings will be necessary to
resolve the disagreement between Mr. Sharpe and the United
States as to his back pay and allowances due. Judicial econ­
omy as well as sensitivity to the time and expense of the par­
ties both dictate that DFAS should be required to expedi­
tiously provide its calculations to the parties and the Court so
that all may know, promptly, whether further proceedings
will be necessary to settle any disagreement that may arise on
the basis of those calculations, and so that, if necessary, those
proceedings may be initiated and competed swiftly and effi­
ciently.
Respectfully submitted,
CHAD A. READLER
Acting Assistant Attorney General
ROBERT E. KIRSCHMAN, JR.
Director
/s/
DOUGLAS K. MICKLE
Assistant Director

289a

/s/
JOHN F. SHARPE
IGOR HELMAN
13088 Lighthouse Ln.
Trial Attorney
Commercial Litigation Branch
Carrollton, VA 23314
Telephone: (757) 645- Civil Division
Department of Justice
1740
P.O. Box 480
Ben Franklin Station
Pro Se
Washington, D.C. 20044
Telephone: (202) 305-7576
Fax: (202) 514-7965
Igor.Helman@usdoj .gov
Of Counsel:
LT. MARYAM AUSTIN
United States Navy
Office of the Judge Advocate Gen­
eral
General Litigation Division (Code
14)

March 1,2017

Attorneys for Defendant

290a
APPENDIX Q

SJmteti States Court of Jfetieral Claims
No. 15-1087C
Filed: March 31, 2017
********************** *
*
★
JOHN F. SHAEPE,
*

Plaintiff
v.

* No.: l:15-cv-01087
* Judge: Thomas C.
* Wheeler
*

THE UNITED STATES, *
Defendant.

•k'k-k'kic'k'k'kic'k'k'kick'k'k'k'kic'k'k'k

*
*
*
*

*

JOINT STATUS REPORT
Pursuant to this Court’s March 2, 2017 Order, ECF No.
27 (Order), the parties submit this Joint Status Report with
their respective positions relative to the implementation of
the recommendations of the Board for Correction of Naval
Records (BCNR). In their previous status update, the parties
updated the Court regarding the implementation of the relief
directed by the BCNR, as approved by the Secretary of the
Navy (SECNAV) on April 25, 2016, relative to Mr. Sharpe’s
claims for back pay, reinstatement, correction of his naval
record and other relief. The Navy informed the Court that
Mr. Sharpe’s naval record had been corrected and orders to

291a
return Mr. Sharpe to active duty had been issued. Joint Sta­
tus Report (Dec. 8, 2016), ECF No. 20, at 1. The parties sub­
sequently jointly sought leave of the Court to file a supple­
ment to the December 8, 2016 report. The parties informed
the Court that, among other things, the Assistant Secretary of
the Navy (Manpower and Reserve Affairs) (ASN) issued an
amended order to clarify the mechanism by which Mr.
Sharpe’s promotion would be implemented. Joint Motion to
Supplement the Joint Status Report (filed Jan. 6, 2017), ECF
No. 22, at 1-2.
The Parties ’ Joint Position
The parties now report that Mr. Sharpe’s promotion
package has been routed successfully through the offices of
Commander, Navy Personnel Command, the Chief of Naval
Personnel, the Office of Judge Advocate General, Adminis­
trative Law Branch, the Judge Advocate General, the Chief
of Naval Operations, and the Assistant Secretary of the Navy
(Manpower & Reserve Affairs). On March 8, 2017, the As­
sistant Secretary signed an Action Memo for the Deputy Sec­
retary of Defense, recommending that a “nomination scroll
containing the name of [Mr.] Sharpe [be forwarded] to the
President, recommending he nominate [Mr.] Sharpe for pro­
motion.” Exh. A. As of March 27, 2017, the Deputy Secre­
tary of Defense signed the nomination package and it is being
routed to the President and then the Senate. In the past, this
part of the confirmation process has taken several months.
Additionally, the Navy reports that the Defense Finance
and Accounting Service (DFAS) provided a letter to Mr.
Sharpe on March 22, 2017, requesting two additional docu­
ments from Mr. Sharpe in order for DFAS to process his
back pay. See Exh. B. Via government counsel, Mr. Sharpe
provided DFAS with one of the documents on March 22,
2017, and with the other on March 27, 2017, when he re­
ceived it from the Internal Revenue Service (IRS). Further,

292a
the Navy reports that DFAS has received the required verifi­
cation from the Department of Veterans Affairs and that Mr.
Sharpe has no file regarding retirement, obviating the need to
verify his retirement pay. DFAS indicates that it has com­
pleted its preliminary calculations for Mr. Sharpe’s back pay,
and is in the process of reviewing and certifying the calcula­
tions, after which point the back pay due to Mr. Sharpe will
be disbursed. DFAS has informed counsel that once it re­
ceives all the necessary documentation, the remainder of the
process would take a maximum of thirty days.
Finally, the parties also report that Mr. Sharpe is working
with points of contact inside the Navy to ensure that various
electronic records and database entries which previously re­
flected his separation from the Navy are corrected, consistent
with the BCNR’s approved recommendations. Mr. Sharpe is
also working with Navy administrative personnel to ensure
that the appropriate entry is made in his record explaining the
gap resulting from the setting aside of his separation and his
return to duty.
Navy’s Position
The Navy now requests that the Court continue the stay it
granted in its Order to afford the Navy time to receive a re­
sponse from the Department of Defense and the President
regarding Mr. Sharpe’s promotion, to review and certify the
calculation of the appropriate back pay due to Mr. Sharpe,
and to provide the parties an opportunity to assess the impact
of the Navy’s actions on Mr. Sharpe’s claims currently pend­
ing before this Court. The Navy further proposes that the
parties file a joint status report in 45 days. At that time, the
parties can apprise the Court of the progress in this case and
which issues, if any, remain outstanding.
Plaintiff’s Position

293a
Mr. Sharpe understands that the United States requires
additional time to effect his promotion, given that a number
of further reviews and follow-on administrative actions re­
main necessary. He agrees, therefore, that submission of a
subsequent joint status report addressing progress relative to
the promotion would be appropriate, and respectfully asks
the Court to require such a report no more than 30 days
hence.
Mr. Sharpe does, however, object to any further stay with
respect to the calculation and disbursement of back pay due.
On March 22, 2017, DFAS informed Mr. Sharpe by tele­
phone that all back-pay calculations had been completed on
the basis of documentation he provided in February in re­
sponse to DFAS’s February 10, 2017, request. Specifically,
DFAS reported that the examiner assigned to his case had
noted in the case file that he had gone “as far as he [could]”
with calculations pending the receipt of the two additional
documents recently requested. See Exhibit B. As it happens,
the two requested documents (an IRS verification of nonfiling for 2011 and Mr. Sharpe’s 2016 tax return) add no fig­
ures to DFAS’s calculations - they merely confirm that Mr.
Sharpe did not file a tax return for 2011, as he initially re­
ported to DFAS in February, and that his civilian earnings for
2016 were in fact those already reported to DFAS by way of
Mr. Sharpe’s submission, also in February, of his only Form
W-2 for 2016. The upshot of the foregoing is that DFAS has
no outside, interim civilian earnings to take into account for
2011 and no additional such earnings, beyond those reported
a month ago, for 2016. The calculations should be complete.
Because there are several areas as to which Mr. Sharpe
and the United States may disagree in terms of the amount of
back pay to be disbursed - such as, for example, the amount
of Basic Allowance for Housing (which depends upon the
geographic location of Mr. Sharpe’s presumed permanent
duty station during his constructive-service period), Career
Sea Pay, and Career Sea Pay Premium due; the amounts to

294a
set off against the balance of the disbursement based upon
outside, interim civilian earnings and/or unemployment com­
pensation; and amounts to deduct for Servicemembers Group
Life Insurance premiums - efficiency and economy dictate
that DFAS’s calculations be provided to the parties immedi­
ately so that they may assess both the extent of any disa­
greement, if any, as to the amounts due, and the nature of the
proceedings required to resolve any such disagreement.
Finally, Mr. Sharpe has requested that the United States
afford him the opportunity to accept any amount that DFAS
deems due to him based on its current calculations while re­
serving the right and opportunity to object to those calcula­
tions, should he wish to do so, and to receive any additional
amounts due should he prevail on his objections before this
Court or any other competent administrative or judicial body.
This would amount to a stipulation of waiver by the United
States of its defense against further claims for damages by
Mr. Sharpe, arising from his claims before the BCNR and
this Court, based upon his acceptance of any partial settle­
ment from DFAS. See 10 U.S.C. § 1552(c)(3) (“[Acceptance
of a settlement. . . fully satisfies the claim concerned.”); ac­
cord 32 C.F.R. § 723.10(c)(2). The government has not re­
plied to Mr. Sharpe’s request, so he now requests that this
Court facilitate resolution of this narrow issue so that a max­
imum of progress may be made as to payment of amounts
due.
Respectfully submitted,
CHAD A. READLER
Acting Assistant Attorney General
ROBERT E. KIRSCHMAN, JR.
Director
/s/
DOUGLAS K. MICKLE

295a
Assistant Director

JOHN F. SHARPE
13088 Lighthouse Ln.
Carrollton, VA 23314
Telephone: (757) 6451740
Pro Se

/s/
IGOR HELMAN
Trial Attorney
Commercial Litigation Branch
Civil Division
Department of Justice
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044
Telephone: (202) 305-7576
Fax: (202)514-7965
Igor.Helman@usdoj .gov
Of Counsel:
LT. MARYAM AUSTIN
United States Navy
Office of the Judge Advocate Gen­
eral
General Litigation Division (Code
14)

March 29, 2017

Attorneys for Defendant

296a
APPENDIX R

SHmtetr States; Court of Jfetreral Claims;
No. 15-1087C
Filed: May 2, 2017
********************** Je

JOHN F. SHARPE,
Plaintiff
v.

*
*
*

* No.: l:15-cv-01087
* Judge:
Thomas
* Wheeler

C.

*

THE UNITED STATES, *
Defendant.

*
*
*
*

'frk-k'kie'k'kle’k’k'kjcrk’k’k'k'k'k'k’k'k'k Je

JOINT STATUS REPORT
Pursuant to this Court’s April 4, 2017 Order (Or­
der), the parties submit this Joint Status Report
with their respective positions relative to the imple­
mentation of the recommendations of the Board for
Correction of Naval Records (BCNR). In their previ­
ous status update, the parties updated the Court re­
garding the implementation of the relief directed by
the BCNR, as approved by the Secretary of the Navy
(SECNAV) on April 25, 2016, relative to Mr. Sharpe’s
claims for back pay, reinstatement, correction of his
naval record and other relief. The Navy informed the

297a
Court that Mr. Sharpe’s naval record had been cor­
rected and orders to return Mr. Sharpe to active duty
had been issued. Joint Status Report (Dec. 8, 20 16).
ECF No. 20, at 1. The parties subsequently jointly
sought leave of the Court to file a supplement to the
December 8. 20 16 report. The parties informed the
Court that, among other things, the Assistant Secre­
tary of the Navy (Manpower and Reserve Affairs)
(ASN) issued an amended order to clarify the mech­
anism by which Mr. Sharpe’s promotion would be
implemented. Joint Motion to Supplement the Joint
Status Report (filed Jan. 6, 2017), ECF No. 22, at 12.
The Navy’s Position
The Navy now reports that Mr. Sharpe’s promo­
tion package has been routed successfully through
the offices of Commander, Navy Personnel Com­
mand, the Chief of Naval Personnel, the Office of
Judge Advocate General, Administrative Law
Branch, the Judge Advocate General, the Chief of
Naval Operations, and the Assistant Secretary of the
Navy (Manpower & Reserve Affairs). On March 8, 20
17, the Assistant Secretary signed an Action Memo
for the Deputy Secretary of Defense, recommending
that a “nomination scroll containing the name of
[Mr.] Sharpe [be forwarded] to the President, rec­
ommending he nominate [Mr.] Sharpe for promo­
tion.” • As of March 27, 20 17, the Deputy Secretary of
Defense signed the nomination package, which was
then routed to the President and then the Senate. On
April 16, 2017, the Senate received the nomination
from the President. On May 1, 20 17, the Senate con­
firmed the nomination by a voice vote. See Exh. 1.
Additionally, the Navy reports that the Defense

298a
Finance and Accounting Service (DFAS) indicated
that it has completed its preliminary calculations for
Mr. Sharpe’s back pay, and is reviewing and certify­
ing the calculations. Preliminary figures have been
provided to Mr. Sharpe. However, DFAS recently in­
dicated to counsel that it has authority to pay only
base pay, basic allowance for housing (BAH) and
basic allowance for subsistence (BAS). For payment
of any additional entitlements — such as Career Sea
Pay (and Career Sea Pay Premium), BAH for a loca­
tion other than the one reflected in Mr. Sharpe’s
Master Military Pay Account as of the date of his
separation, or the non-offset of wages Mr. Sharpe
earned while moonlighting — DFAS requires a mem­
orandum from the Navy’s Chief of Naval Personnel,
reflecting the personnel decisions on which these en­
titlements would be based.
The complications arise from the fact that Mr.
Sharpe’s situation is highly unusual. He has been
separated from the Navy for approximately eight
years. The BCNR directed the Navy to restore Mr.
Sharpe to active duty as though the eight-year sepa­
ration never took place. The Navy is now tasked with
reconstructing Mr. Sharpe’s personnel record for
those eight years. As just one example, during those
eight years the ship to which Mr. Sharpe was as­
signed changed ports (going from a locale with a low­
er BAH to a higher one), and this move raises the
question of the proper geographic locale to use for
computing BAH, which is intended to compensate for
higher costs of living in a particular area.
The Navy is currently drafting the memorandum
to the Chief of Naval Personnel, which will reflect all
the entitlements the Navy believes should be accord­
ed to Mr. Sharpe to restore him to a position he
would have been in but for the separation - to the

299a
greatest extent possible without creating an undue
windfall. Although the parties appear to agree on
some entitlements, they disagree as to others. The
Navy - through counsel — has been working with Mr.
Sharpe to understand his position with respect to
certain entitlements and to see if the parties can
reach agreement on the identification or resolution of
the particular pay issues.
Once the Chief of Naval Personnel signs the
memorandum, it will be sent to DFAS to include ad­
ditional entitlements in the payment due Mr.
Sharpe, if any. To the extent that Mr. Sharpe disa­
grees with the Navy’s view of which additional enti­
tlements he would have received but for the separa­
tion, he would be entitled to dispute it. It is the Na­
vy’s position that in such a dispute, the BCNR is the
proper entity to opine on the correctness of the re­
constructed record in the first instance.
Finally, the Navy understands that Mr. Sharpe is
continuing to work with points of contact inside the
Navy to ensure that various electronic records and
database entries which previously reflected his sepa­
ration from the Navy are corrected, consistent with
the BCNR’s approved recommendations.
The Navy now requests that the Court continue
the stay it granted in its Order to afford the Navy
time to receive a response from the President and the
Senate regarding Mr. Sharpe’s promotion, to provide
to DFAS the Navy’s memorandum on the appropri­
ate entitlements due to Mr. Sharpe, and to provide
the parties an opportunity to assess the impact of the
Navy’s actions on Mr. Sharpe’s claims currently
pending before this Court. The Navy further propos­
es that the parties file a joint status report in 45
days. At that time, the parties can apprise the Court
of the progress in this case and which issues, if any,

300a
remain outstanding. Once the Navy’s position with
respect to Mr. Sharpe’s constructive personnel record
is finalized in the memorandum from the Chief of
Naval Personnel, a remand under Rule 52.2 may be
an appropriate vehicle to have the BCNR correct the
personnel record.
Plaintiffs Position
Mr. Sharpe respectfully submits to the Court his
view that the pace of DFAS’s action (amounting al­
most to inaction) on payment of amounts due under
10 U.S.C. § 1552(c)(1) (2016) incident to BCNR’s cor­
rection of his record, should be considered unac­
ceptable. In support whereof Mr. Sharpe offers the
following brief summary of relevant events.
On April 25, 2016, SECNAV approved BCNR’s
decision to restore Mr. Sharpe to active duty for the
period between October 1, 2009, and the date of
SECNAVs approval. Joint Status Report Ex. 1, at 119, May 2, 2016, ECF No. 10-1 (SECNAV-approved
BCNR decision of April 25, 2016). Three days later,
by copy of a letter to the Commander, Navy Person­
nel Command, BCNR notified DFAS of the approved
recommendation and authorized DFAS to “pay all
monies lawfully found to be due as a result of the . . .
correction to [Mr. Sharpe’s] record.” See Exhibit 2, at
1 (BCNR letter of April 28, 2016). BCNR simultane­
ously notified Mr. Sharpe that DFAS “ will make
payment of any money” found due. Joint Status Re­
port Ex. 2, at 22, May 2, 2016, ECF No. 10-1 (BCNR
forwarding letter of April 28, 2016) (emphasis sup­
plied). As the parties reported to this Court at the
time, BCNR’s April 28, 2016, letter also suggested
“approximate timelines” for implementation of its
decision, Joint Status Report 1, May 2, 2016, which

301a
included, for purposes of payment of money due, a
projection of 90 days from April 28, 2016, i.e., July
27, 2016.
Though Mr. Sharpe attempted move the process
along by informing the Court on December 12, 2016,
that (as of that time) nothing had been done by way
even of calculation let alone payment of amounts
due, Joint Status Report 3, Dec. 12, 2016, ECF No.
20, DFAS still did not even acknowledge receipt of
BCNR’s decision until February 10, 2017, see Exhibit
3, at 1 (DFAS letter to Mr. Sharpe, undated but
signed and received February 10, 2017),2 and did not
begin back-pay calculations until March 24, 2017,
see Exhibit 4, at 1 (DFAS-DE Form 67 of March 24,
2017).
The Defendant maintains that that it was impos­
sible for DFAS to have “calculated the [back] pay
[due] until Mr. Sharpe report [ed] to active duty,
which [was then] scheduled to take place in early
February 2017.” Motion to Supplement Joint Status
Report App. 1, at 22, Jan. 6, 2017, ECF No. 22-1.
Hindsight shows the assertion to be baseless, be­
cause DFAS’s first set of back-pay calculations, Ex. 4,
at 1, only calculates amounts due through April 24,
2016 — a date more than nine months prior to Mr.
Sharpe having reported to active duty pursuant to
BCNR’s decision.3 So, in fact, DFAS, on the very day
(April 25, 2016) BCNR’s decision was approved, cer­
tainly and easily could have calculated (or begun cal­
culating) the pay due between October 1, 2009, and
April 24, 2016 - and which course of action BCNR
2 DFAS’s letter was referenced as Exhibit 1 in, but not in­
cluded with, the Joint Status Report of March 1, 2017.
3 DFAS subsequently provided a second set of calculations
covering the period April 25, 2017, to February 12, 2017. See
Exhibit 5, 1-4 (DFAS-DE Form 0-110 of March 27, 2017).

302a
apparently envisioned when it informed Mr. Sharpe
that DFAS “will make payment” of amounts due
within roughly 90 days of BCNR’s decision. Instead,
however, DFAS elected to do precisely nothing until
March 24, 2017 - eleven months following BCNR’s
advice.
Now, even though the Defendant reported on
March 31, 2017, that l) Mr. Sharpe had provided to
DFAS (as of March 27, 2017) all of the documenta­
tion that was requested to enable the calculation of
his back pay, Joint Status Report 2, Mar. 31, 2017,
and that 2) DFAS had informed Defendant’s counsel
that following receipt of that documentation “the re­
mainder of the [back-pay] process would take a max­
imum of thirty days,” id. (emphasis supplied), Mr.
Sharpe still has not received a dime from DFAS,4
notwithstanding its effective acknowledgement, see
Exhibit 4, at V, Exhibit 5, at 1, that it owes Mr.
Sharpe at the very least something along the lines of
$600,000. Given the “abiding moral sanction” of the
military-correction-board process to “appropriately
and fully erase . . . error [and to] compensate ... in­
justice,” Caddington v. U.S., 147 Ct. Cl. 629, 632, 634
(1959), it is ironic that the United States not only
may but must impose administrative charges, penal­
ties, and interest upon military members who fail to
fully discharge any debt owed thereto, see generally
31 U.S.C. § 3717 (2016); Department of Defense Fi­
nancial Management Regulation, Volume 16 (2016),
while the United States’ agent, DFAS, is apparently
permitted interminable delay as to payment of
amounts it concedes are due. No wonder this Court
was prompted to observe, on the basis of DFAS’s
4 Perhaps “D-SLO” would be a more accurate, if less techni­
cally correct, acronym.

303a
conduct in another correction-board case, that the
former was “troubled that the [DFAS] can unilateral­
ly circumvent the powers granted to the Secretary to
fashion relief.” Pride v. U.S., 40 Fed. Cl. 730, 735 n.8
(1998).
Finally, adding insult to injury are two additional
facts. First, counsel for DFAS now informs the Court
that the former has literally nothing to show for how
it has used the last thirty-plus days in terms of pro­
gress in this case: the only so-called “update” relative
to the back pay due is that DFAS has “completed its
preliminary calculations . . . and is reviewing and
certifying the calculations” — which is precisely, in
haec verba, what was reported to the Court on March
31, 2017. See Joint Status Report 2, Mar. 31, 2017
(stating that DFAS has “completed its preliminary
calculations . . . , and is . . . reviewing and certifying
the calculations.”). Indeed, both sets of back-pay cal­
culations were already complete when the parties’
previous status update was submitted, and nothing
on this front has been done since. Moreover, the
news today is worse than what it was more than a
month ago, because the commitment made in March
- that review and certification of the back-pay
amounts and their disbursement would take “a max­
imum of thirty days” - is nowhere to be found in to­
day’s report, giving rise to the not unreasonable
question: is there a payment of monies the United
States admits are owed to Mr. Sharpe anywhere in
our future?
The second disturbing fact about the newest up­
date from the Navy is that the Defendant appears
only now to be coming to the realization that Mr.
Sharpe’s entitlement to certain pay and allowances
depends upon a correct (or at least a definite and
identifiable) conception of his status during the con-

304a
structive-service period between October 1, 2009
(when he was unlawfully separated), and February
12, 2017 (when he began reporting for duty pursuant
to his current orders). The Defendant apparently en­
visions that establishing such a clear a conception of
Mr. Sharpe’s status during the constructive-service
period should be arrived via a new chapter in this
seemingly interminable saga whereby the Chief of
Naval Personnel prepares a memorandum de novo
for the purpose of “reconstructing Mr. Sharpe’s per­
sonnel record for those eight years.”
But Plaintiff strongly objects to such a process,
first because he already placed the issue of his
claimed entitlements before the BCNR nineteen
months ago, on September 30, 2015, by means of his
inclusion with his application for correction of his
naval record a “claim for settlement and payment,”
pursuant to 32 C.F.R § 723.10(b)(1) (2016). See Ex­
hibit 6, at 1-5 (Claim for Settlement and Payment).
This claim, inter alia, claimed an entitlement to
payment of Career Sea Pay (CSP) for the duration of
Mr. Sharpe’s constructive-service period and to Basic
Allowance for Housing (BAH) at the San Diego rate
for the portion of that period during which his previ­
ous permanent duty station had San Diego as its ge­
ographic location. Several months later, and still
over a year ago, BCNR advised DFAS of its obliga­
tion to “pay all monies lawfully found to be due as a
result of the . . . correction to [Mr. Sharpe’s] record,”
Ex. 2, at 1, suggesting that perhaps it was time to
begin making the determination as to monies that
might be “found to be due.” Mr. Sharpe again, five
months ago, advised counsel for the Navy as well as
this Court of his claimed entitlement to CSP and San
Diego BAH based upon the key fact in his case,
namely, that the USS CARL VINSON (CVN 70) was

305a
his Permanent Duty Station (PDS) on the date of his
illegal separation and that, pursuant to the construc­
tive-service doctrine, it necessarily so continued from
that date until his recent reassignment. Joint Status
Report 4-5, Dec. 12, 2016. And Mr. Sharpe again
identified these specific entitlements, as well as oth­
ers, as potential sources of disagreement, more than
a month ago. Joint Status Report 4, Mar. 31, 2017.
And, finally, since receiving DFAS’s draft back-pay
calculations on March 31, 2017, Mr. Sharpe has re­
peatedly advised both DFAS and counsel of his disa­
greements with aspects of those calculations and of
the reasons therefore.5 But rather than respond to
Mr. Sharpe’s claims or communications, the Navy
now advises the Court that (in effect) it has ignored
both the claim in his BCNR Application as well as
his repeated attempts to flag these issues for resolu­
tion, and has (apparently) only just now realized that
a reinstatement and back-pay case involves the need
to “reconstruct [] Mr. Sharpe’s personnel record for
[the] eight years[‘]” worth of his constructive-service
period.6
Plaintiff also objects to a de novo reconstruction of
his record, because the large volume of case law de­
veloped by the United States Court of Appeals (CA)
for the District of Columbia Circuit, this Court, its
predecessors, and its superior court, the CA for the
Federal Circuit, already provides guidance for the
military services regarding back pay arising from the
setting aside of an illegal separation. This guidance
suggests that the military should determine entitle5 Mr. Sharpe’s advice consisted of ten emails to counsel
(sent on March 31, April 1, April 4, April 6, and April 27, 2017)
and three emails to the chief of DFAS’s Claims Division (dating
April 5 and 6, 2017). None were answered substantively.
6 The separation period is closer to seven years.

306a
ments due by applying the relevant law to the status
that a successful plaintiff or correction-board appli­
cant possessed on the day he was unlawfully sepa­
rated;7 this is, indeed, the heart of the constructiveservice doctrine^ the entitlement of a restored service
member to his “position, rank, and pay,” Doyle v.
U.S., 220 Ct. Cl. 285, 306 (1979) (emphasis supplied);
accord Dilley v. Alexander, 627 F.2d 407, 413 (D.C.
Cir. 1980), from the date of his unlawful separation
until he is legally released from the service.
In view of the foregoing, therefore; because the
public interest, “strongly favors the prompt disposi­
tion of cases by trial courts,” Bennett v. United
States, No. 77-005T, 2002 U.S. Claims LEXIS 353, at
*5 (Fed. Cl. Dec. 2, 2002); given the Court’s aim to
secure “the just, speedy, and inexpensive determina­
tion of every action and proceeding,” U.S. Ct. Fed.
Claims R. 1; and since, “[i]n the context of the correc­
tion of a military record, .. . once a discretionary de­
cision is made to correct a record, the grant of appro­
priate money relief is not discretionary but automat­
ic,” Denton u. U.S., 204 Ct. Cl. 188, 195 (1974) (cita­
tion omitted) (emphasis supplied), Mr. Sharpe
strongly objects to any further stay with respect to
the disbursement of back pay due and instead im­
plores the Court to Order:
Respectfully submitted,
CHAD A. READER
Acting
Assistant
General

Attorney

7 Numerous cases are cited and discussed in Appendix 1 of
the Motion to Supplement Joint Status Report.

307a
ROBERT E. KIRSCHMAN, JR.
Director
/s/
DOUGLAS K. MICKLE
Assistant Director
/s/
JOHN F. SHARPE
IGOR HELMAN
13088 Lighthouse Ln. Trial Attorney
Carrollton, VA 23314 Commercial Litigation Branch
Civil Division
(757) 645-1740
Department of Justice
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044
Telephone: (202) 305-7576
Fax: (202) 514-7965
Igor.Helman@usdoj.gov
Of Counsel:
LT. MARYAM AUSTIN
United States Navy
Office of the Judge Advocate
General
General Litigation Division
(Code 14)
May 2, 2017

Attorneys for Defendant

308a
APPENDIX S

[SEAL]

DEFENSE FINANCE
AND ACCOUNTING SERVICE
8899 E. 56TH STREET
INDIANAPOLIS, IN 46249
[undated - rcvd. ca. June 25, 2017]

John F Sharpe
13088 Lighthouse Lane
Carrollton VA 23314
Dear LCDR Sharpe:
We determined that you are due money as a re­
sult of the recent correction of your military records
by the Office of the Secretary of the Navy. There will
be two payments as follows because the money is
funded from two separate accounts^
l) from 01 Aug 2008 - 24 Apr 2016 (the beginning
of your reinstatement period up to the day be­
fore the date of the Board of Corrections rul­
ing)
2) from 25 Apr 2016 - 12 Feb 2017 (the date of
the Board of Corrections ruling up to the day
before your accession back into military ser­
vice)
The payments will each be electronically trans­
ferred to the bank account reflected on the enclosed
DFAS'DE Form 67, Military Pay and Allowance
Voucher. Your account should reflect the first di­
rect deposit within 10 days from the date of this let-

309a
ter and for the second deposit, please allow 30 days
from the date of this letter for processing.
The following are enclosed for your use and information^
a. Treasury Department Form W-2, Wage and
Tax Statement, indicating taxable income
that must be reported on your next tax return
(for the first payment)
b. Tax forms will be mailed by January 31 of
next year. If you do not receive the tax forms,
please contact DFAS at 1-800-332-7411, se­
lect Navy (for the second payment).
c. DFAS'DE Form 0-110, Corrected Records
Computations
d. DFAS-IN Form 0-642, Statement of Military
Leave Computation
e. Wage and Tax Computation
If you agree with this settlement, you need not reply
to this letter. Expenditure of these funds means you
accept the settlement, and you have no further claim
on the United States that is based on this correction
to your records.
Should you disagree with the settlement or the
tax information reported, contact us by phone or email immediately, giving your reason for disagree­
ment. You may be required to return the payment
while we reexamine your case. You may contact us
by writing DFAS IN, 8899 East 56th Street, De-

310a
partment 3300 (Attn: Claims/COR), Indianapolis, IN
46249-3300, or by calling on our commercial toll free
line at 866-912-6488. Please provide either your full
social security number, or your full account number.
Sincerely,
/s/
Jerome Davis
Chief, Correction of Records and
Out-of-Service Claims Branch
Debt and Claims Management
Enclosures:
As stated
Account #: MSFSKT5RG

311a
kkkkk

Base Pay Calculations for GRADE Change Old PEBD: 930526 Base Pay Diff
New PEBD: 930526
MSFSKT5RH

$0.00

Sharpe, John

1st GRADE Calculations
Start Date. Stop Date
10/1/2009 10/31/2009

Longevity_____Grade
OVER 16 YRS 05

Daily
# of
Monthly
Rate
.Rate:___ Days .Total____
$7,287.30 $242.91 30
$7,287.30

11/1/2009 11/30/2009

OVER 16 YRS 05

$7,287.30

$242.91

30

$7,287.30

12/1/2009 12/31/2009

OVER 16 YRS 05

$7,287.30

$242.91

30

$7,287.30

1/1/2010

1/31/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

2/1/2010

2/28/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

3/1/2010

3/31/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

4/1/2010

4/30/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

5/1/2010

5/31/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

6/1/2010

6/30/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

7/1/2010

7/31/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

8/1/2010

8/31/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

9/1/2010

9/30/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

10/1/2010 10/31/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

11/1/2010 11/30/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

12/1/2010 12/31/2010

OVER 16 YRS 05

$7,535.10

$251.17 30

$7,535.10

1/1/2011

1/31/2011

OVER 16 YRS 05

$7,640.70

$254.69 30

$7,640.70

2/1/2011

2/28/2011

OVER 16 YRS 05

$7,640.70

$254.69 30

$7,640.70

3/1/2011

3/31/2011

OVER 16 YRS 05

$7,640.70

$254.69 30

$7,640.70

$254.69 30

$7,640.70

4/1/2011

4/30/2011

OVER 16 YRS 05

$7,640.70

5/1/2011

5/25/2011

OVER 16 YRS 05

$7,640.70

$254.69 25

$6,367.25

5/26/2011

5/31/2011

OVER 18 YRS 05

$7,856.70

$261.89 5

$1,309.45

6/1/2011

6/30/2011

OVER 18 YRS 05

$7,856.70

$261.89 30

$7,856.70

Page 1 of 6

Friday May 12, 2017
•k’k’kick

312a

APPENDIX T

3Jn tfje Jloarb for
Correction of jBtatoal Hecortrs;
John F. Sharpe, Petitioner

CLAIM FOR SETTLEMENT AND PAYMENT

Enclosure (15) to
Application for Correction of Naval Record

September 3, 2015

1. Pursuant to 32 C.F.R. § 723.10(b)(1) Applicant
submits the following claim for regular or special
pay, allowances, allotments, compensation,
emoluments, or other pecuniary benefits accruing on
the assumption that the correction of his record has
the effect of voiding his 30 September 2009 discharge
and his 27 May 2008 removal from the Fiscal Year
(“FY”) 2008 Active-Duty Navy Commander Line
Promotion List. This claim sets forth merely the
minimum believed to be due and does not waive any

313a
entitlements otherwise owed under any applicable
law or regulation.
2. Applicant claims entitlement to the following:
a. Amounts due pre-separation, arising from
the difference between the 0-4 and 0-5 pay grades
and accruing between Applicant’s planned date of
rank (1 August 2008) and his separation on 30
September 2009:
(1) Base pay (“BP”):
(a) At 14 years of service:
1. In FY 2008 (from 1 August
inclusive), $307.50 per month (“mo.”) for 5 months
(“mos.”).

2. In FY 2009 (to 25 May
inclusive), $319.50 per mo. for 4 mos. 25 days.
(b) At 16 years of service (26 May 2009
to 30 September 2009 inclusive), $633.30 per mo. for
4 mos. 5 days.
(2) Basic Allowance for Housing (“BAH”),
with dependants, for the VA298
(Norfolk/Portsmouth, Va.) Military Housing Area
(“MHA”), based upon the Permanent Duty Station
(“PDS”) zip code of 23511:
(a) For FY 2008 (from 1 August
inclusive), BAH $152.00 per mo. for 5 months.
(b) For FY 2009 (through 30
September inclusive), $233.00 per mo. for 9 mos.

314a
(3) Career Sea Pay (“CSP”):
(a) At 5 years of sea duty:
1. For FY 2008 (from 1 August
inclusive), $35.00 per mo. for 5 mos.
2. For FY 2009 (to 8 June
inclusive), $35.00 per mo. for 5 mos. 8 days.
(b) At 6 years of sea duty, in FY 2009
(from 9 June to 30 September 2009 inclusive), $30.00
per mo. for 3 mos. 22 days.
b. Amounts due post-separation, based upon
the 0-5 pay grade and accruing from 1 October 2009
to the date Applicant is restored to active duty in a
pay status.1
(1) BP:
(a) At 16 years of service:
1. For FY 2009 (1 October to 31
December inclusive), $7,287.30 per mo. for 3 mos.
2. For FY 2010, $7,535.10 per mo.
for 12 mos.
3. For FY 2011 (1 January to 25
May inclusive), $7,640.70 per mo. for 4 mos. 25 days.
(b) At 18 years of service:

1 See, e.g., Verbeck v. U.S., 118 Fed. Cl. 420, 430 (2014) (noting
payment of back pay up to the date a prevailing plaintiff is
reinstated to duty).

315a
1. For FY 2011 (26 May to 31
December inclusive), $7,856.70 per mo. for 7 mos. 5
days.
2. For FY 2012, $7,982.40 per mo.
for 12 mos.
3. For FY 2013 (1 January to 25
May inclusive), $8,118.00 per mo. for 4 mos. 25 days.
(c) At 20 years of service:
1. For FY 2013 (26 May to 31
December inclusive), $8,338.80 per mo. for 7 mos. 5
days.
2. For FY 2014, $8,422.20 per mo.
for 12 mos.
3. For FY 2015 (1 January to 25
May inclusive), $8,506.50 per mo. for 4 mos. 25 days.
(d) At 22 years of service:
1. For FY 2015 (26 May to 31
December inclusive), $8,762.40 per mo. for 7 mos. 5
days.
2. For FY 2016 (1 January to the
date Applicant is restored to active duty in a pay
status), $8,876.40 per mo. for the relevant number of
days and months.
(2) Basic Allowance for Subsistence
(“BAS”):

(a) For FY 2009 (1 October 2009 to 31
December inclusive), $223.04 per mo. for 3 mos.

316a
(b) For FY 2010, $223.04 per mo. for
12 mos.
(c) For FY 2011, $223.84 per mo. for 12
mos.
(d) For FY 2012, $239.96 per mo. for
12 mos.
(e) For FY 2013, $242.60 per mo. for 12
mos.
(fj For FY 2014, $246.24 per mo. for 12
mos.
(g) For FY 2015, $253.38 per mo. for 12
mos.
(h) For FY 2016 (1 January to the date
Applicant is restored to active duty in a pay status),
$253.38 per mo. for the relevant number of days and
months.
(3) BAH with dependants:
(a) For the VA298
(Norfolk/Portsmouth, Va.) MHA, based upon the PDS
zip code of 23511:
1. For FY 2009 (1 October 2009 to
31 December inclusive), $2,320.00 per mo. for 3 mos.
2. For FY 2010 (through 11 April
inclusive), $2,358.00 per mo. for 3 mos. 11 days.

317a
(b) For the CA038 (San Diego, Calif.),
MHA, based upon the PDS zip code of 92135:2
1. For FY 2010 (from 12 April
inclusive), $2,793.00 per mo. for 8 mos. 19 days.
2. For FY 2011, $3,054.00 per mo.
for 12 mos.
3. For FY 2012, $2,871.00 per mo.
for 12 mos.
4. For FY 2013, $3,117.00 per mo.
for 12 mos.
5. For FY 2014, $3,003.00 per mo.
for 12 mos.
6. For FY 2015, $3,141.00 per mo.
for 12 mos.
7. For FY 2016 (1 January to the
date Applicant is restored to active duty in a pay
status), $3,117.00 per mo. for the relevant number of
days and months.
(4) CSP:
(a) At 6 years of sea duty:
1. In FY 2009 (1 October to 31
December inclusive), $315.00 per mo. for 3 mos.

2 Applicant’s PDS, the USS CARL VINSON (CVN 70),
transferred to Naval Air Station North Island effective 12 April
2010.

318a
2. In FY 2010 (1 January to 8
June inclusive), $315.00 per mo. for 5 mos. 8 days.
(b) At 7 years of sea duty:
1. In FY 2010 (9 June to 31
December inclusive), $320.00 per mo. for 6 mos. 22
days.
2. In FY 2011 (1 January to 8
June inclusive), $320.00 per mo. for 5 mos. 8 days.
(c) At 8 years of sea duty:
1. In FY 2011 (9 June to 31
December inclusive), $345.00 per mo. for 6 mos. 22
days.
2. In FY 2012 (1 January to 8
June inclusive), $345.00 per mo. for 5 mos. 8 days.
(d) At 9 years of sea duty:
1. In FY 2012 (9 June to 31
December inclusive), $350.00 per mo. for 6 mos. 22
days.
2. In FY 2013 (1 January to 8
June inclusive), $350.00 per mo. for 5 mos. 8 days.
(e) At 10 years of sea duty:
1. In FY 2013 (9 June to 31
December inclusive), $365.00 per mo. for 6 mos. 22
days.
2. In FY 2014 (1 January to 8
June inclusive), $365.00 per mo. for 5 mos. 8 days.

319a
(f) At 11 years of sea duty:
1. In FY 2014 (9 June to 31
December inclusive), $370.00 per mo. for 6 mos. 22
days.
2. In FY 2015 (1 January to 8
June inclusive), $463.00 per mo. for 5 mos. 8 days.
(g) At 12 years of sea duty:
1. In FY 2015 (9 June to 31
December inclusive), $463.00 per mo. for 6 mos. 22
days.
2. For FY 2016 (1 January to the
date Applicant is restored to active duty in a pay
status, but exclusive of 9 June and following3),
$463.00 per mo. for the relevant number of days and
months.

3 Assuming Applicant is restored to active duty in a pay status
before 9 June 2016, when his sea-duty counter would reach 13
years and thus alter the monthly CSP amount.

320a

APPENDIX U

[SEAL]

DEPARTMENT OF THE NAVY
BOARD FOR CORRECTION OF
NAVAL RECORDS
701 S. COURTHOUSE ROAD,
SUITE 1001
ARLINGTON, VA 22204-2490
JLB
Docket No. 4284-14/
10521-12
8 Feb 16

From: Chairman, Board for Correction of Naval
Records
To:
Secretary of the Navy
Subj:

REVIEW NAVAL RECORD OF LCDR JOHN
F. SHARPE, USN, XXX-XX-3671/1650

Ref:

(a)
(b)
(c)
(d)
(e)

10 U.S.C. § 1552
32 C.F.R. Part 723
DODI 1320.04
SECNAVINST 1420.1B
10 U.S.C. § 5947

Enel:

(1)

DD Form 149 (w/attachments provided
electronically)
BCNR memo BJG Docket No. 10521-12
of 25 OCT 12
OJAG Code 20 memo 5819 Ser 20/31
dtd 31 AUG 15
OJAG Code 20 e-mail dtd 1 OCT 15
Petitioner ltrs dtd 6 and 7 OCT 15

(2)
(3)
(4)
(5)

321a

1. Pursuant to the provisions of reference (a), subject
former naval officer (hereinafter “Petitioner”) filed
with this Board enclosure (1), consisting of a letter
with 18 enclosures, including the DD Form 149, and
requesting, in effect, that his naval record be correct­
ed by removing all documentation pertaining to the
nonjudicial punishment (NJP) of 16 May 2007, and
its administrative consequences, i.e., the detachment
for cause (DFC) of 2 January 2008, the board of in­
quiry (BOI) of 17 June 2008, and administrative sep­
aration (ADSEP) of 30 September 2009; and the re­
moval from the Fiscal Year (FY) 2008 (FY-08) ActiveDuty Navy Commander (CDR) Line Promotion List
(Promotion List) of 27 May 2008. Petitioner also re­
quests further correction of his record to reflect that
his promotion was not withheld but rather effected
as originally scheduled pursuant to applicable regu­
lations and that he was not separated from the Na­
val Service. Finally, Petitioner requests the back
payment of all regular or special pay, allowances, al­
lotments, compensation, emoluments, or other pecu­
niary benefits due, along with constructive-service
credit and accrued leave, in support of which he has
submitted a claim for settlement and payment under
reference (b) section 723.10(b).
2. The Board, consisting of Mr. Thompson, Mr.
Relyea, and Ms. Trucco, reviewed Petitioner’s allega­
tions of error and injustice on 7 October 2015 and,
pursuant to its regulations, determined that the cor­
rective action indicated below should be taken on the
evidence of record. Documentary material considered
by the Board consisted of the enclosures, Petitioner’s
naval record, and applicable statutes, regulations,
and policies. Subsequent to the Board, Petitioner re-

322a
quested additional time to submit material evidence
prior to forwarding the case for Secretary review.
This case is being forwarded for Secretary review be­
cause the Petitioner is a former commissioned officer
requesting to change the character and reason for
discharge.
3. The Board, having reviewed all the facts of record
pertaining to Petitioner’s allegations of error and in­
justice, finds as follows:
a. Before applying to this Board, Petitioner ex­
hausted all administrative remedies available under
existing law and regulations within the Department
of the Navy.
b. Enclosure (l) was filed in a timely manner.
c. Prior to the development of the issues that gave
rise to the application at enclosure (l), Petitioner’s
record in the naval service was unblemished. He
graduated from the U.S. Naval Academy in the top 4
percent of his class and was accepted into the sub­
marine community where he was certified as a Sub­
marine Officer and Nuclear Engineer Officer before
transferring into the Public Affairs Officer (PAO)
community in November 1999. On 1 December 2002,
he accepted a permanent appointment to Lieutenant
Commander.
d. In June 2004 Petitioner was assigned to the
Pentagon as the Director for Plans and Policy in the
office of the Navy Chief of Information (CHINFO).
He was highly regarded for his performance, as his
fitness reports and receipt of additional awards re­
flect.

323a

e. During portions of 2004 and 2005, Petitioner
co-edited a two-volume anthology of articles critical
of the Iraq war. Together the two volumes ran to
more 1300 pages, included 86 articles by more than
90 authors, and comprised more than a half-million
words. The books were simultaneously published in
April of 2005. Petitioner did not write any of the arti­
cles contained in the anthology.
f. The volumes did not identify Petitioner as a
Naval Officer nor did they mention in any way his
active-duty status, rank, position, or duties. Petition­
er’s name did not appear on the front or back covers
of the books. The single mention of Petitioner occurs
on a single interior page, as a co-editor. Petitioner
used “J. Forrest Sharpe” as his name in order to cre­
ate a separation between his active-duty status and
his persona as co-editor of the books.
g. A “To the Reader” page, printed at the front of
each book and jointly attributed to “[t]he Editors,”
provided that the volumes “[were] about Iraq, and
Iraq alone” (emphasis in original), and that the edi­
tors’ views “[did] not, strictly speaking, appear”
therein.
h. Petitioner and his co-editor co-authored 71
brief summaries of the contents of nearly all of the
books’ chapters. Together this introductory content
ran to roughly 23,000 words. Each introduction was
entitled “The Editors’ Gloss” and appeared just prior
to the article that it introduced. The introductions
averaged roughly 300 to 400 hundred words long. Al­
so, Petitioner and his co-editor each authored, re­
spectively, a dedication to the first and second vol-

324a
umes of the anthology! neither exercised any control
over the other’s text.
i. Chapter 24 of the second volume of the antholo­
gy - an article by two international lawyers entitled
“The United Nations Charter and the Invasion of
Iraq” - was introduced by a 419-word editors’ gloss.
Several words from 2 sentences of the gloss, amount­
ing together to roughly 40 words, were charged, as
Specification 5 of Petitioner’s May 2007 NJP, under
10 U.S.C. § 888 (2006), Article 88 (Contempt toward
officials) of the Uniform Code of Military Justice
(UCMJ) (hereinafter “Art. 88”), as follows^
In his published book neo-Conned again, [Peti­
tioner] did state, “So how credible is it for
Bush and Co. to run roughshod over the UN
Charter and then maintain that their regimechange operation was based upon their unilat­
eral enforcement of UN decrees? ‘Hypocrisy’ is
not even the half of it” or words to that effect.
(See Enclosure (1), Tab A: Petitioner’s original enclo­
sure (2), OMPF123.)
j. Petitioner denies having had any intention of
speaking contemptuously against the President in
the gloss and denies having known that the words he
used were contemptuous, were directed against the
President personally, or would be so understood by
readers.
k. On 31 October 2005, the United States Fleet
Forces Inspector General (USFF IG) received a hot­
line complaint alleging Petitioner’s improper partici­
pation in the “anti-war movement.” The USFF IG

325a
forwarded the complaint to the Navy Inspector Gen­
eral (NAVIG), who had cognizance over the matter
because of Petitioner’s assignment to CHINFO’s of­
fice. The NAVIG conducted a preliminary inquiry
(PI).
1. On 21 November 2005, the NAVIG, VADM
Ronald A. Route, USN, reported to CHINFO by
memorandum the results of his PI. In his memo,
VADM Route noted that Petitioner’s personal writ­
ing and speaking “predated the war in Iraq” and
were “primarily based on his Catholic faith.” VADM
Route also said that he did not find any instances in
which Petitioner drew attention to his status or re­
ferred to his position or duties. Regarding the Iraqwar books, VADM Route said that they “are anti-war
to the ninth degree, but in a very academic and rea­
soned way.” NAVIG further noted that the second of
the Iraq-war volumes contained language in its dedi­
cation that was potentially problematic under UCMJ
Article 88. The evidence of record suggests that
NAVIG was unaware that the language cited was
drafted by Petitioner’s co-editor, effectively because
NAVIG declined to further investigate the allegation
and instead referred it to Petitioner’s chain of com­
mand. The rest, VADM Route said, was “more or less
a case of LCDR Sharpe exercising his free speech
rights under the Constitution.” NAVIG closed the
relevant case file on 9 January 2006, neither taking
nor recommending any action, but rather, as his
memo stated, “refer[ing the] matter for information
and disposition action as deemed appropriate by the
chain of command.” (See Enclosure (l), Tab B: Peti­
tioner’s original enclosure (2), OMPF110-11.) On 25
May 2006 NAVIG informed the original hotline com­
plainant of his action, and explained that Petitioner’s

326a
activities “do not violate the UCMJ.” (See Enclosure
(l), Tab C- Petitioner’s enclosure (9), DOCS 107.)
m. On or about 22 November 2005, after review­
ing NAVIG’s memo, CHINFO, RDML T. McCreary,
USN (then Petitioner’s Reporting Senior), had a
meeting with Petitioner. An attorney from the Judge
Advocate General’s Corps (JAGC) from the Office of
the Vice Chief of Naval Operations, the General
Courts-Martial Convening Authority (GCMCA) in
Petitioner’s chain of command, was present at the
meeting.
n. During the meeting RDML McCreary adminis­
tered a nonpunitive letter of caution (NPLOC) to Pe­
titioner as an administrative corrective measure. It
explicitly referenced the NAVIG memo and memori­
alized RDML McCreary’s beliefs that Petitioner
made an “error in judgment” in having been “an edi­
tor of two books commenting on the Iraq War” and
that they contained comments that “could be consid­
ered as contemptuous toward officials.” RDML
McCreary’s letter concluded by saying that it was
addressed to Petitioner “as a corrective measure” and
that he was expected, in the future, “to exercise
greater care in the performance of [his] duties in or­
der to measure up to the high standards of CHINFO
and the Navy public affairs community.” (See Enclo­
sure (l), Tab D: Petitioner’s enclosure (9), DOC~108.)
o. Also, during the same meeting, Petitioner in­
formed CHINFO that at that time he had several
private, personal, and unofficial telephone interviews
scheduled over the then-coming months to promote
discussion and sale of the Iraq-war books. RDML
McCreary informed Petitioner that he was not re-

327a
quired to cease any ongoing activity supporting or
promoting the circulation, sale, or distribution of the
Iraq-war books, that he was not required to impede
their circulation', sale, or distribution, and that any
personal activities along the aforementioned lines
were to comply with applicable statutes and regula­
tions and were to avoid creating any association be­
tween Petitioner’s official status or duties and those
private activities. RDML McCreary later indicated,
in a letter dated 3 July 2007, that the advice he pro­
vided to Petitioner was based upon his view that the
latter had “some element of free speech” as a private
citizen, distinct from his persona as a Naval Officer.
(See Enclosure (l), Tab E: Petitioner’s original enclo­
sure (2), OMPF115-16.)
p. During the meeting, RDML McCreary also in­
dicated that no punitive action would be taken with
respect to Petitioner’s above-described activities on
the basis of the language in the Iraq-war books, pro­
vided that he did not write or edit anything further
on the war. Petitioner agreed and complied; the evi­
dence reflects that after co-editing the books, he nei­
ther wrote nor edited any material on the war in
Iraq. The meeting concluded with Petitioner’s coun­
ter-signing a copy of the NPLOC in the presence of
CHINFO and the VCNO JAGC officer. CHINFO took
no other action on the matter.
q. On 17 May 2006, Petitioner participated, via
telephone, in an hour-long interview regarding the
Iraq-war books with an Internet radio talk-show
host, Meria Heller, for her program focusing on “poli­
tics and spirituality.” The interview was never open­
ly available for public listening or download via the
Internet; instead, its access was limited to subscrib-

328a
ers to Heller’s program.
r. Petitioner participated in the interview as a
private citizen, off-duty, and not as a member of the
armed forces. When the interview was arranged, Pe­
titioner was presented to Heller as “J. Forrest
Sharpe,” based upon the name appearing inside the
Iraq-war books. Petitioner’s active-duty status, rank,
position, and duties were not mentioned during the
interview. At the beginning of the interview, Peti­
tioner was introduced as a Naval Academy graduate
and former submarine officer! Petitioner emphasized
this status to avoid giving any impression that he
was an active-duty officer.
s. During the interview, a several-minute ex­
change took place, from which several of Petitioner’s
words were charged under UCMJ Article 88 as Speci­
fication 2 at the May 2007 NJP, as follows^
In an internet interview with Meria Heller on
or about 17 May 2006, [Petitioner] was de­
scribing a scenario in which United States
Service personnel would be standing before
God on judgment day, [Pe ti ti oner] comment­
ed, “When He [God] says, ‘Hey you murdered
all those Iraqis’ [and the service members re­
spond] . ‘Well George Bush said I don’t know
that that is going to be a persuasive answer.”
To which Meria Heller replied, “Right, to say,
George Bush said or Adolph Hitler said, or any
other psychotic dictator.” To which Petitioner
replied, “Yeah,” or words to that effect.
(See Enclosure (1), Tab A: Petitioner’s original enclo­
sure (2), OMPF122.)

329a

t. Petitioner denies having had any intention of
speaking contemptuously against the President in
the interview and denies having known that the
words he used were contemptuous, were directed
against the President personally, or would be so un­
derstood by listeners. Petitioner also denies having
endorsed Heller’s reference to the President during
the exchange and maintains that when he said
“yeah” he was signaling to Heller that she under­
stood his larger point and not that he agreed with
her characterization of the President.
u. In his 17 November 2008 letter, RDML
McCreary explained his view of Petitioner’s partici­
pation in this interview as followsI do not now and have never considered [his]
having conducted this Maria [sic] Heller inter­
view after our discussion to have constituted
[him] disregarding in any way my direction
and guidance . I know that [he] left the con­
versation with the intention and understand­
ing I wished for him to have, and, rather than
raise any doubts in my mind, his subsequent
conduct, for me, confirmed that he had ad­
hered to our mutual understanding.
(See Enclosure (1), Tab F: Petitioner’s enclosure (9),
DOCS114-15.)
v. On 15 June 2006, upon Petitioner’s transfer
from the Pentagon, RDML McCreary gave him a
Meritorious Service Medal and a transfer Fitness
Report and Counseling Record (FITREP) containing
his “strong recommendation for [Petitioner’s] rapid

330a
promotion to [CDR]
The FITREP did not mention
the NAVIG PI memo, the NPLOC, or any of the un­
derlying matters. As RDML McCreary explained on
3 July 2007:
[the] award citation and transfer [FITREP] I
provided to [Petitioner] upon completion of his
tour of duty with me in June 2006 was based
upon the fact that I considered his possible vi­
olation of [Art. 88] to have been a closed issue,
which he accepted and acted upon, notwith­
standing the continued sale or availability of
the work containing the words that I warned
him about. At the time I recommended him
strongly for promotion, as I believed that he
had taken my counseling to heart, and - not­
withstanding the books’ continued availability
- that he had acted upon it. I am not aware of
anything that would alter my perspective, my
recollection, or my recommendation.
(See Enclosure (1), Tab E: Petitioner’s original enclo­
sure (2), OMPFl 15-16.)
w. On 20 June 2006, Petitioner checked in to CVN
70 as PAO and Media Department Head, and report­
ed to the Media Department, located on the 8th floor
of the “Bank Building,” at 3101 Washington Ave.,
part of the Northrop Grumman Newport News
(NGNN) complex in downtown Newport News, Va.
This was Petitioner’s regular, assigned place of work
during his entire assignment to the command.
x. On 28 November 2006, the Commanding Of­
ficer (CO) of CVN 70 awarded Petitioner a fourth
Navy Marine-Corps Commendation Medal for his

331a
outstanding contribution to the public and Naval
media coverage of CVN 70’s refueling and complex
overhaul (RCOH).
y. On 13 February 2007, based on his outstanding
performance and qualifications, the FY-08 Active
Duty CDR Restricted Line Selection Board selected
Petitioner for promotion to CDR. (See Enclosure (l),
Tab G: Petitioner’s enclosure (9), DOCS694.)
z. On 6 March 2007 a Media Relations Officer
(MRO) in the office of the USFF PAO received a que­
ry from a reporter with Portfolio Weekly, a small free
publication in the Norfolk, Va., area. The reporter
asked the MRO about an allegation in a nongovern­
mental report that Petitioner was involved in “hate
group” activity.
aa. That afternoon, the MRO prepared an E-Mail
summarizing the query for the PAO assigned to
Commander, Naval Air Force, Atlantic (CNAL), the
immediate superior in command (ISIC) of the CVN
70 CO. The MRO allowed CDR Donald A. Sewell,
USN, the Deputy USFF PAO, to write a message to
the CNAL PAO and insert it in the body of the
MRO’s e-mail.
bb. Subsequent to this initial communication,
CDR Sewell was routinely copied on e-mail corre­
spondence between CNAL and USFF personnel re­
garding Petitioner’s disciplinary and administrative
proceedings. The correspondence addressed issues
such as the start and progress of the inquiry into the
allegations against Petitioner, the imposition of NJP,
and the possibility of Petitioner’s being made to show
cause for retention in the Naval Service. CDR Sewell

332a
saw this correspondence because of the agreement
between the offices of the USFF and CNAL PAOs es­
tablishing that USFF would handle all public com­
munications regarding Petitioner, because, given
“the likelihood that any possible judicial or adminis­
trative action that might be taken concerning [him]
would be handled by CNAL, as the [GCMCA] in [his]
chain of command,” it would be inappropriate to staff
proposed replies to media queries through the CNAL
leadership. (See Enclosure (l), Tab IP Petitioner’s
enclosure (9), DOCS218.)
cc. CDR Sewell later served on Petitioner’s BOI.
(See Enclosure (l), Tab L Petitioner’s enclosure (9),
DOCS208-9.)
dd. Following the Portfolio query, on 7 March
2007, the Executive Officer of CVN 70 ordered Peti­
tioner to turn over his duties to his deputy, and to
report to his home at 13088 Lighthouse Ln., Carroll­
ton, Va., as his assigned place of duty until further
notice. Petitioner was relieved from the 8 March
2007 watch he was scheduled to stand, removed from
the command’s watch bill, and performed no duties
there after 7 March 2007. On 1 April 2007, Petitioner
began a temporary assignment to CNAL in Norfolk,
Va., that continued until his separation from the Na­
val Service on 30 September 2009.
ee. On 9 March 2007, the Naval Criminal Investi­
gative Service (NCIS) initiated an investigation on
the basis of the Portfolio query. NCIS ran reports on
Petitioner against databases maintained by the Vir­
ginia Employment Commission, the National Crime
Information Center, the Defense Central Index of In­
vestigations, the Federal Bureau of Investigation,

333a
and the Central Intelligence Agency, all of which
were “negative” and revealed “no derogatory infor­
mation.” On 30 April 2008 NCIS closed the investi­
gation, having found “no substantive link” between
Petitioner and any “unlawful extremist groups.” (See
Enclosure (l), Tab J; Petitioner’s enclosure (9),
DOCS233-37.)
ff. On 2 May 2007, at a meeting with the CVN 70
Command Judge Advocate (CJA) in downtown New­
port News, Va., Petitioner was informed that the CO
was considering the imposition of NJP and presented
with six specifications alleging violations of UCMJ
Article 88. Four specifications were later dismissed.
Petitioner then asked how to demand a trial by
court-martial (CM) in lieu of accepting NJP. The CJA
informed Petitioner that because he was assigned to
CVN 70 he had no right to do so. At no time did Peti­
tioner make a knowing, voluntary, and intelligent
written waiver of his right to trial by CM in lieu of
NJP.
gg. On 16 May 2007, more than 2 years after the
Iraq-war books were published and 17 months after
they were reviewed by NAVIG, more than a year af­
ter the Heller interview, and 11 months after Peti­
tioner reported to CVN 70, the CO awarded Petition­
er a punitive letter of reprimand (PLOR) for 2 al­
leged violations of UCMJ Article 88 (Specifications 2
and 5). (See Enclosure (l), Tab A: Petitioner’s origi­
nal enclosure (2), OMPF120-26.)
hh. To deny Petitioner’s demand for trial by CM,
the CO invoked the “vessel exception” to Article 15 of
the UCMJ, which withdraws from service members
“attached to or embarked in a vessel” the right to re-

334a
fuse NJP and demand trial by CM in lieu thereof.
ii. At the time of the NJP, CVN 70 was midway
through a 43-month RCOH. The ship had just come
out of an 18-month dry-dock period, was wholly nonoperational, had 25 months’ worth of the RCOH to
complete. Petitioner never lived, worked, or stood
watch aboard.
jj. On 14 May 2007, the Secretary of the Navy
(SECNAV) submitted the report of the FY-08 Active
Duty Commander Line Selection Board with corre­
sponding nomination scrolls to the Deputy Secretary
of Defense (DEPSECDEF). On 18 May 2007, the
Principal Deputy Under Secretary of Defense (Per­
sonnel and Readiness) approved the report, which
included Petitioner’s name, “for the President.”
SECNAV withheld from the scrolls the names of five
officers (including Petitioner) “whose files and rec­
ords contain [ed] potential adverse information [,] to
permit a more thorough consideration of their con­
duct.” Petitioner’s withhold was predicated upon the
then-open NCIS investigation and the NAVIG PI, as
recommended by the Chief of Naval Personnel (CNP)
on 15 March 2007. (See Enclosure (l), Tabs Kand L:
Petitioner’s enclosure (9), DOCS074-79, 401-2, and
631.)
kk. On 25 June 2007, in a report (NJP Report) to
the Commander, Navy Personnel Command (CNPC),
the CO memorialized Petitioner’s NJP and recom­
mended that he be detached for cause, removed from
the Promotion List, and made to show cause for re­
tention. (See Enclosure (l), Tab M: Petitioner’s origi­
nal enclosure (2), OMPF118-19.)

335a
11. On 13 July 2007, Petitioner requested an ex­
tension of time to submit his reply to the NJP Report
and DFC recommendation. Petitioner also submitted
a complaint under 10 U.S.C. § 938 (2006), Article 138
of the UCMJ (138 Complaint). On 16 July 2007, the
CJA asked Petitioner if he wished the 138 Complaint
to serve as his reply to the PLOR and DFC recom­
mendation. Petitioner replied by e-mail on the same
day, saying that he would await the CO’s decision on
the request for extension before deciding whether or
not to submit the 138 Complaint as his reply. On 23
July 2007, notwithstanding the exchange between
the CJA and Petitioner, the CO forwarded the NJP
Report to CNPC and included Petitioner’s 138 Com­
plaint as his reply. (See Enclosure (l), Tab N* Peti­
tioner’s enclosure (9), DOCS251-252.)
mm. On 31 October 2007, the CO issued a period­
ic FITREP to Petitioner. Aside from adverse marks
in “Command or Organizational Climate/Equal Op­
portunity” (Block 34), “Military Bearing/Character”
(Block 35), and the promotion recommendation
(Block 42), based on the NJP, the CO awarded Peti­
tioner grades of 5.0 in “Professional Expertise”
(Block 33) and “Mission Accomplishment and Initia­
tive” (Block 37) and 3.0 in “Teamwork” (Block 36)
and “Leadership” (Block 38) . The CO also substanti­
ated (in Block 41) the positive marks as follows^
“Outside the actions resulting in Commanding Of­
ficer’s Nonjudicial Punishment (NJP) [Petitioner] is
an Outstanding Naval Officer and Public Affairs Of­
ficer.” (See Enclosure (l), Tab 0: Petitioner’s original
enclosure (2), OMPF059-060.)
nn. On 2 January 2008, CNP approved, on the
basis of alleged misconduct and by exclusive refer-

336a
ence to the CO’s 25 June 2007 NJP Report, the re­
quest for Petitioner’s DFC from CVN 70. (See Enclo­
sure (l), Tab P: Petitioner’s original enclosure (2),
OMPF157.)
oo. On 13 June 2007, CNPC notified Petitioner
that his nomination for promotion to CDR was being
withheld pending a review of adverse information.
The notification stated, in pertinent part:
A review of Department of Defense records fol­
lowing the adjournment of subject board re­
vealed that you were the subject of a [NAVIG
PI] into alleged inappropriate anti-war activi­
ties and you received [NJP] for violation of
[UCMJ Art. 88) (Contempt toward officials) .
No other reason, including the open NCIS investiga­
tion, was cited as possibly rendering Petitioner dis­
qualified for promotion. (See Enclosure (1), Tab Q:
Petitioner’s enclosure (9), DOCS265-266.)
pp. On 9 April 2008, the Judge Advocate General
(JAG) of the Navy informed the Chief of Naval Oper­
ations (CNO) that the recommendation to remove
Petitioner’s name from the Promotion List was “le­
gally unobjectionable.” The JAG based his conclusion
upon the fact that “CNO specifically disregards con­
sideration of anti-war activities by [Petitioner],
which had previously been investigated [sic] by the
[NAVIG] ‘s office.” (See Enclosure (l), Tab R: Peti­
tioner’s enclosure (9), DOCS084-085.)
qq. On 30 May 2008, CNPC notified Petitioner
that on 27 May 2008 SECNAV approved CNO’s rec­
ommendation to remove his name from the Promo-

337a
tion List, in which the latter stated:
In reaching my removal recommendation, I
have disregarded general allegations that [Pe­
titioner] engaged in anti-war activities, in­
stead focusing solely on the facts and process
relevant to the .. . [NJP].
The removal constituted a failure of selection. (See
Enclosure (1), Tab S: Petitioner’s original enclosure
(2), OMPF158-160.)
rr. On 16 January 2008, CNPC notified Petitioner
that a review of his case revealed “sufficient evidence
of record to require [him] to show cause for retention
in naval service based on [his] misconduct as alleged
in reference (a).” Reference (a) was the NJP Report of
25 June 2007. In response to CNPC’s solicitation, Pe­
titioner elected to appear before a BOI rather than
tender a resignation. (See Enclosure (l), Tabs T and
U: Petitioner’s enclosure (9), DOCS275-277.)
ss. On 12 June 2008, CNAL appointed CAPT Jef­
frey K. Gruetzmacher, USN, CAPT Paul D. Ashcraft,
USN, and CDR Don A. Sewell, USN, to Petitioner’s
BOI, and informed them, in pertinent part, as fol­
lows:
[Petitioner] is being considered for administra­
tive separation for the following reason(s):
a. Misconduct. Commission of a military or
civilian offense which, if prosecuted under the
UCMJ, could be punished by confinement of
six months or more; specifically:
(1) Two specifications of Violation of the

338a
UCMJ, Article. 88 (Contempt Toward Offi­
cials), as evidenced by reference (d).
b. Substandard performance of duty.
(1) Failure to demonstrate acceptable qual­
ities of leadership required of an officer in his
grade, as evidenced by reference (d); and
(2) Failure to conform to prescribed stand­
ards of military deportment, as evidenced by
reference (d).”
The “reference (d)” cited as evidence for the reasons
alleged to warrant Petitioner’s separation from the
naval service was the NJP Report of 25 June 2007.
CNAL also provided that the procedures of
SECNAVINST 1920.6C “shall be strictly adhered to.”
(See Enclosure (1), Tab I: Petitioner’s enclosure (9),
DOCS208-209.)
tt. The BOI convened on 17 June 2008 and con­
cluded the following day. The report of findings and
recommendations signed by its members recited a 3
to O finding of misconduct and a 2 to 1 recommenda­
tion for separation. The report also recorded a 3 to o
vote, but no decision as to characterization of service,
even though CNPC later recommended that Peti­
tioner receive a General (under Honorable condi­
tions) discharge. (See Enclosure (l), Tab V: Petition­
er’s original enclosure (2), OMPF161-163.)
uu. On 24 November 2008, Petitioner submitted,
by counsel, a letter of deficiencies (LOD) assigning
errors to the BOI.
w. On 10 February 2009 •, Petitioner was consid­
ered above zone and passed over by the FY 2010 Ac-

339a
tive Duty Commander Line Selection Board, result­
ing in a second failure of selection. (See Enclosure
(l), Tab G: Petitioner’s enclosure (9), DOCS694.)
ww. on 29 June 2009, CNPC recommended to the
Assistant Secretary of the Navy (Manpower and Re­
serve Affairs) (ASN) that Petitioner be discharged
based on the BOI’s recommendation. CNPC wrote:
1. Discussion. LCDR Sharpe is a restricted
line officer (public affairs) with 16 years com­
missioned service and total active duty ser­
vice.
a. Enclosure (1) reported that on 16 May
2007 nonjudicial punishment (NJP) was im­
posed on [Petitioner] for violation of Uniform
Code of Military Justice, Article 88 (Contempt
towards officials) [Petitioner] was awarded a
punitive letter of reprimand. He appealed his
NJP conviction and requested a General Court
Martial (GCM) . The appeal and request for a
GCM were denied.
b. Enclosure (2) notified LCDR Sharpe of
the initiation of administrative proceedings
requiring him to show cause for retention in
the naval service before a board of inquiry
(BOI)....
c. On 17 June 2008 a BOI convened, and by
a vote of 2 to 1, recommended [Petitioner] be
separated from the naval service with a Gen­
eral, under Honorable conditions, discharge,
(enclosure(4)).
2. Recommendation. Separate [Petitioner]
with a General, under Honorable conditions,
discharge, separation code GNC (Unacceptable

340a
conduct).”
On 9 July 2009, ASN approved Petitioner’s separa­
tion from the Naval Service, and Petitioner separat­
ed on 30 September 2009. (See Enclosure (1), Tabs
Wand X: Petitioner’s original enclosure (2),
OMPFOOl, 175-176.)
xx. Enclosure (2) requested an advisory opinion
from the Office of the Judge Advocate General
(OJAG Code 20-Criminal Law) (hereinafter “Code
20”) regarding several principal errors and injustices
assigned by Petitioner’s original application. In per­
tinent part, it asked:
a. Was [Petitioner]’s nonjudicial punish­
ment (NJP) void due to the improper invoca­
tion of the vessel exception?
b. Was the imposition of NJP and follow-on
adverse actions substantively infirm and con­
trary to law because [Petitioner]^ conduct did
not violate [Art. 88, UCMJ], pursuant to con­
stitutional, statutory, and regulatory authori­
ties?
c. Did [Petitioner’s commanding officer
abuse his discretion in cognizing offenses as
“minor” in view of his not being attached to or
embarked in a vessel, given the serious consti­
tutional and statutory-construction questions
implicated in punishment for violation of Arti­
cle 88, UCMJ, under the applicable facts?
d. Was imposition of NJP for the April 2005
language contrary to the statute of limitations,
10 United States Code 843(b)(2), and inequi­
table under established doctrines of estoppel
and administrative res judicata?
e. Was denial of [his] promotion to pay

341a
grade 0-5 contrary to law and regulation?
f. Was [his] discharge void due to flawed
[BOI] composition?
g. Was [his] discharge void due to an “in­
herently unfair” after[-]the[-]fact switch in the
reason for discharge?
h. Was [his] discharge void because it was
predicated on an invalid NJP?
i. Was [his] discharge void due to the ab­
sence of a required minority report from the
non-concurring BOI member?
yy. In enclosure (3) Code 20 replies, noting that
the NJP “was not improper as a result of any error
materially prejudicial to the substantial rights of the
accused,” while declining to address the errors unre­
lated to the NJP because, in its opinion, they “deal
solely with the administrative consequences of . . a
legally sound exercise of disciplinary discretion.”
zz. With regard to the NJP-related errors, Code
20 cites the language of Article 15 providing that
NJP may not be imposed upon any service member
who “demand[s] trial by court-martial in lieu of such
punishment,” unless the member is “attached to or
embarked in a vessel.” Code 20 also refers to the
Manual for Courts-Martial (MCM) Part V, If 3
(2012), for the proposition that
[a] person is attached to or embarked in a ves­
sel if, at the time the nonjudicial punishment
is imposed, he is assigned or attached to a ves­
sel, is on board for passage, or is assigned or
attached to an embarked staff, unit, detach­
ment, squadron, team, air group, or other reg­
ularly organized body.

342a
Code 20 concludes that the MCM language disposes
of Petitioner’s claim that the vessel exception was
improperly applied because Petitioner had orders to
CVN 70 “which was and remains a vessel as the term
is used in the UCMJ.” Code 20 further opines that
Article 88 properly proscribed Petitioner’s speech,
that his CO had the discretion to impose NJP for the
alleged offenses, and that the assigned equitable and
statute-of-limitations errors were unpersuasive be­
cause the cited equitable doctrines were inapplicable
and the statute-of-limitations issue was merely a
“minor defect in pleading” at NJP.
aaa. In enclosure (4) Code 20 states that Petition­
er’s reliance upon United States v. Edwards, 46 M.J.
41 (C.A.A.F. 1997), is misplaced. (See enclosures (l)
and (5), including Petitioner’s brief on the vessel ex­
ception, enclosure (3) to his revised application.) De­
cisions of the United States Court of Appeals for the
Armed Forces (CAAF), Code 20 opines, are not bind­
ing on the Board, while, Code 20 further suggests,
the decision of the U.S. District Court for the District
of Columbia (DDC) in Piersall v. Winter, 507 F.
Supp. 2d 23 (D.D.C. 2007), is binding, and argues for
a “broader, plain [-] language” approach to the vessel
exception.
bbb. Petitioner replies in enclosures (l) and (5) by
elaborating upon and clarifying his original argu­
ments and drawing to the Board’s attention those
arguments that he believes Code 20 failed to address
adequately or to acknowledge in the first instance.
ccc. In Edwards, the CAAF set forth the factors to
be considered “in determining whether withdrawing
the right to demand trial is consistent with the con-

343a
gressional intent behind the vessel exception.”
Among these are^ (l) whether a service member’s “re­
lationship to [his] ship [is] sufficient to satisfy what
Congress intended by the words “attached to or em­
barked in” and, (2) [whether] the ship [is] a “vessel”
within the meaning of Article 15.” Both of these
questions, the CAAF noted, are questions of fact.
ddd. The DDC noted in Piersall that proper appli­
cation of the vessel exception assumes the existence
of exigencies associated with ships in certain circum­
stances that justify dispensing with time-consuming
[CM] procedures and instead dealing with discipli­
nary issues in a swift, efficient, and effective man­
ner.
eee. Petitioner’s BOI was controlled by the regu­
lations in effect when it convened. These include De­
partment of Defense Instruction (DoDl) 1332.40,
Separation Procedures for Regular and Reserve
Commissioned Officers, dated 16 September 1997,
and
Secretary
of
the
Navy
Instruction
(SECNAVINST) 1920.6C, Administrative Separation
of Officers, dated 15 December 2005 (with change 1,
dated 19 September 2007). Paragraph E4.4.2 of DoDI
1332.40 provides that “[al commissioned officer may
not serve on a [BOI] unless he or she is serving in a
grade above lieutenant colonel or commander.” En­
closure (8) paragraph 4h of SECNAVINST 1920.6C
stipulates that “[o]fficers with personal knowledge
pertaining to the particular case shall not be ap­
pointed to the Board considering the case.”
CONCLUSION:
Upon review and consideration of all of the evidence

344a
of record, the Board concludes that Petitioner’s re­
quest warrants favorable action. Notwithstanding
Code 20’s advice as reflected in enclosures (2) and
(3), the Board finds that the evidence provided by Pe­
titioner in enclosures (1) and (5) establishes the ex­
istence in his Naval Record of error and injustice
that warrant relief, specifically, the setting aside of
the NJP and its administrative consequences, which
include the DFC, ADSEP, and removal from the
Promotion List.
With respect to the NJP, the Board does not believe
it is necessary to resolve the issue raised by Code 20
as to which federal-court decisions are strictly bind­
ing on the Board, because considerations of equity
more than suffice to warrant reliance upon the fac­
tors the CAAF articulated in Edwards for the pur­
pose of assessing the validity of Petitioner’s NJP.
And in light of the DDC’s remark, in the case re­
ferred to by Code 20 in enclosure (4), that vesselexception cases “have generally . . looked not to lit­
eral definitions but to multiple factors that affect the
propriety of allowing or denying the right to refuse
mast,” the Board feels that the totality of this case’s
factual circumstances make it appropriate to apply
the Edwards factors as a matter of equity.
Among the more important of the relevant circum­
stances, in the Board’s view, is the fact that ten
weeks passed between the time Petitioner was or­
dered home, away from CVN 70, and the time NJP
was imposed. The Board also notes that Petitioner
could have been reassigned to a nonpublic duty dur­
ing the pendency of the command’s investigation,
given the absence of any indication in the record that
his alleged conduct had any nexus with good order

345a
and discipline aboard the ship. Rather than choose
this course, however, the command elected to send
him home and then assign him to duty ashore on a
basically permanent basis. Furthermore, CVN 70
was undergoing its mid-life RCOH, rendering it com­
pletely non-operational, during the entirety of Peti­
tioner’s assignment to the ship. Moreover, neither
his regular place of work, nor his NJP rights-advice
session or NJP hearing, were aboard ship. Given
these and similar circumstances, including the ap­
parent absence of any nexus between discipline and
Petitioner’s alleged conduct, the Board believes that
the Edwards factors warrant a finding that his right
to refuse NJP and demand trial by CM was improp­
erly withdrawn, and that the imposition of NJP was
consequently invalid as a matter of equity.
In determining to set aside Petitioner’s NJP, the
Board also relies upon RDML McCreary’s letter of 3
July 2007, and agrees with his view that any possible
offense arising from the Iraq-war books was resolved
by the NPLOC, and that no further action was to be
taken, provided Petitioner complied (as the evidence
of record reflects he did) with the letter and spirit of
the admiral’s counseling.
As to the DFC, the ADSEP, and the removal from
the Promotion List, the Board agrees with Code 20
that those actions are mere “administrative conse­
quences” of the NJP. Since the record reflects that
they were based upon the NJP and upon no other
reason, the Board concludes that, given its recom­
mendation to set aside the NJP, the DFC, the
ADSEP, and the removal from the Promotion List
must also be set aside.

346a
The Board further notes that although the ADSEP
proceedings are invalidated by the set aside of the
NJP upon which they were based, BOI composition
errors also independently void those proceedings.
One member was only serving in the grade of Com­
mander, contrary to DoDI 1332.40. Furthermore,
CDR Sewell’s substantial prior knowledge of the
case, based in part upon his exposure to information
regarding the investigation into the initial allega­
tions against Petitioner and the administrative and
disciplinary actions that followed, rendered his
membership contrary to SECNAVINST 1920.6C.
While it does not appear that CDR Sewell’s disquali­
fication was addressed during the voir dire of the
BOI members, the record does reflect that Petition­
er’s counsel raised the issue in his Letter of Deficien­
cies. Furthermore, neither the DoDI nor the
SECNAVINST authorizes a waiver of either rule.
Consequently, and independent of the Board’s deci­
sion to set aside the NJP, these composition errors
render the BOI void due to plain legal error and re­
quire that the ADSEP predicated upon it be set
aside.
Finally, with regard to the removal of Petitioner’s
name from the Promotion List, the Board notes that
JAG found it to be “legally unobjectionable” partly
because CNO “disregard [ed] consideration of anti­
war activities by [Petitioner], which had previously
been investigated [sic] by the [NAVIG] ‘s office,” and
that CNO’s removal recommendation was based
“solely on the facts and process relevant to the impo­
sition of [NJP] .” Consequently, in light of the
Board’s recommendation to set aside Petitioner’s
NJP, the Board concludes that his removal from the
Promotion List must also be set aside.

347a

Because the invalidity of the NJP and the BOIcomposition errors fully dispose of Petitioner’s re­
quest for relief, the Board finds that his other claims
of Constitutional, statutory, regulatory, and equita­
ble error and injustice need not be addressed. The
Board likewise believes it unnecessary to consider
whether withholding Petitioner’s name from the
Commander nomination scroll on the basis of the
NAVIG PI was improper, because it is clear that
CNO and SECNAV believed that only the NJP was a
potential ground for finding him unqualified for
promotion.
RECOMMENDATION:
That Petitioner’s naval record be corrected, where
appropriate, to show:
a. The removal of all documentation pertaining to
the NJP of 16 May 2007, including but not limited to
the 25 June 2007 NJP Report (with all enclosures
and endorsements thereto).
b. The removal of all documentation pertaining to
the DFC, including but not limited to the 2 January
2008 DFC approval.
c. The removal of all documentation pertaining to
the 17 June 2008 BOI and the consequent adminis­
trative separation, including but not limited to the
BOI Report of 17-18 June 2008, the ADSEP letter of
29 June 2009, the DD Form 214 (Certificate of Dis­
charge from Active Duty) of 30 September 2009, the
NPC (PERS-48) e-mail letter of 12 February 2008,
and the CNPC messages pertaining to Petitioner’s

348a
ADSEP dated 151230ZSEP09, 151231ZSEP09,
151632ZJUL09, and 151633ZJUL09.
d. The removal of all documentation pertaining to
the removal of Petitioner’s name from the Promotion
List, including but not limited to CNPC’s letter of 30
May 2008 (with its enclosed CNO Action Memo for
SECNAV dated 27 May 2008) and Petitioner’s letter
of 7 May 2009.
e. That the FITREP of 31 October 2007 be cor­
rected as follows1. Remove the 1.0 and 3.0 marks in “Command or
Organizational Climate/Equal Opportunity” (Block
34), “Military Bearing/Character” (Block 35),
“Teamwork” (Block 36), and “Leadership” (Block 38).
2. Insert “Fleet PAO” and “TYCOM PAO” in Block
40, consistent with Petitioner’s previous CVN 70
FITREPs.
3. In Block 41, delete the statement “Outside the
actions resulting in Commanding Officer’s Non­
judicial Punishment (NJP)”; replace “he” with
“Sharpe”; delete the explanation for Blocks 34, 35,
and 42 and the statement “LCDR Sharpe is not rec­
ommended for promotion.”
4. Remove the “Significant Problems” promotion
recommendation (Blocks 42 and 43).”
5. Enter correct averages per the above changes
in Block 45.
6. Delete the mark in Block 46 referring to Peti-

349a
tioner’s intent to submit a statement.
f. The insertion of an entry covering 1 November
2007 to the appropriate end date stating, “By direc­
tion of the Secretary of the Navy, fitness reports [for
the relevant period] are not available for inclusion in
SNO’s Naval Record and no speculation or inferences
as to the nature or contents of such reports may be
made by selection boards or other reviewing authori­
ties,” or words to that effect.
g. That Petitioner’s name was never removed
from the Promotion List, that he was not considered
above zone by any subsequent promotion selection
board, and that he has had no failures of selection.
h. That the record be further corrected, pursuant
to references (c), (d) and (e), by way of the Chief of
Naval Operations submitting his recommendation to
the Secretary to either promote the Petitioner or re­
move him from the promotion list, as he would have
in April 2008 if petitioner’s record reflected the above
corrections.
i. That, if Petitioner is nominated and his nomi­
nation is confirmed, the record reflect that Petitioner
was appointed to the rank of CDR with a date of
rank and effective date for pay and allowances of 1
August 2008, and that he have the same lineal prec­
edence and position on the Active Duty List as he
would have had if his name had not been withheld
and removed from the Promotion List.
j. That Petitioner was not discharged from the
Naval Service, but has continued to serve on active
duty without interruption.

350a

k. That any material or entries inconsistent with
the foregoing be corrected, removed, or completely
expunged from Petitioner’s record and that no such
entries or material be added to it in the future.
4. Pursuant to reference (b) section 723.6(c), it is cer­
tified that a quorum was present at the Board’s re­
view and deliberations, and that the foregoing is a
true and complete record of the Board’s proceedings
in the above-entitled matter.
/s/
STEVEN J. NEAL
Recorder
5. The foregoing action of the Board is submitted for
your review and
action.

/si
SCOTT F. THOMPSON
Executive Director
Reviewed and approved/disapprovod:
Apr. 25, 2016
/s/
Franklin R. Parker
Assistant Secretary of the Navy
(Manpower and Reserve Affairs)

351a
APPENDIX V
ZYUW RUCLFVAOOOO 0871159
ROUTINE
R 281159Z MAR 06
FM CHNAVPERS WASHINGTON DC//PERS448B //
CHINFO WASHINGTON DC//JJJ//
USS CARL VINSON//JJJ//
FLETRACEN NORFOLK VA//JJJ//
PERSUPP
DET
NAVSTA
NORFOLK
VA//JJJ//
PERSUPP DET WASHINGTON DC//JJJ//
COMNAVSUBFOR NORFOLK VA//JJJ//
COMNAVAIRPAC SAN DIEGO CA//JJJ//
//NO 1321//
UNCLAS
MSGID/GENADMIN/CHNAVPERS//
SUBJ/BUPERS ORDER//
RMKS/
BUPERS ORDER: 0876 561-43-3671/1650 (PERS448B)
OFFICIAL CHANGE DUTY ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
IN CARRYING OUT/PROCESSING THESE OR­
DERS, BOTH PARTS ONE AND TWO MUST BE
READ AND LISTED INSTRUCTIONS COMPLIED
WITH.
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
PARTONE
........DETACHING ACTIVITY (M).........
WHEN DIRECTED BY REPORTING
EDD: JUN 06
SENIOR, DETACH IN JUN 06
FROM DEPT OF NAVY STAFF UIC: 66760
OFF/PAO
PERMANENT DUTY STATION VA,
ARLINGTON

352a
FROM DUTY
ACC: 100
PERSONNEL ACCOUNTING SUP­
PORT PERSUPPDET WASHINGTON
DC
UIC: 42557
........INTERMEDIATE (01) ACTIVITY (M) -

REPORT NET 17 JUN 06 BUT NLT 19 EDA:
JUN 06
19 JUN 06
TO STU FLT TRA CEN NORFOLK
UIC:30811
LOCATION: VA, NORFOLK
FOR TEMPORARY DUTY UNDER
INSTRUCTION
ACC: 341
FOR APPROXIMATELY 1 DAY(S)
PERSONNEL ACCOUNTING SUP­
PORT PUBLIC WORKS DEPT NSA UIC: 42574
NORFOLK
TO INCLUDE 1 DAY(S) AT GEN
SHBD FF TRN
CLASS: 65201 CONV: 060619 GRAD:
060619 CDP: 3716
UPON COMPLETION OF TEMPO­
RARY DUTY UNDER INSTRUCTION EDD: 19 JUN
AND WHEN DIRECTED, DETACH.
06
- REPORT NOT LATER THAN 0730 19 JUN 06
AND NOT EARLIER THAN 17 JUN 06 . REPORT­
ING PRIOR TO NOT EARLIER THAN DATE WILL
TERMINATE LEAVE STATUS AND RESULTS IN
NON-PAYMENT OF PER DIEM FOR PERIOD
PRIOR TO THE NOT EARLIER THAN DATE
SPECIFIED UNLESS AUTHORIZED UNDER
MILPERSMAN 1320-140.
- MEMBER DIRECTED: FOR EACH INTERMEDI­
ATE STOP(S), IF GOVERNMENT QUARTERS ARE
AVAILABLE (BOQ) AND THE BASE HAS A GOV­
ERNMENT MESS APPROPRIATED FUND FOOD
SERVICE ACTIVITY/GALLEY AVAILABLE TO
THE TRAVELER, USE OF THE GOVERNMENT

353a
MESS AND GOVERNMENT MEAL PER DIEM
RATE IS DIRECTED. IF GOVERNMENT MESS­
ING IS NOT AVAILABLE OR IS PARTIALLY
AVAILABLE, OBTAIN AN ENDORSEMENT TO
THAT EFFECT FROM THE HOST COMMAND.
JFTR PARA U4400 AND CNO WASHINGTON DC
NAVADMIN 223/96 (172134Z SEP 96) AND
NAVADMIN 223/96 (302056Z SEP 96) APPLY. NO
PER DIEM/LODGING REIMBURSEMENT IS AU­
THORIZED IF THIS INTERMEDIATE STOP IS IN
THE SAME GEOGRAPHIC LOCATION AS ULTI­
MATE STATION.
........ULTIMATE ACTIVITY (M).........

REPORT NOT LATER THAN JUN 06 EDA: JUN 06
TO CVN 70 VINSON
HOMEPORT VA, NORFOLK
FOR DUTY

UIC: 20993
ACC: 100
BSC: 00160
PRD: 0806

PERSONNEL ACCOUNTING SUP­
PORT: CVN 70 VINSON
UIC:20993
- REPORT AS 00160 PUBLIC AFFAIRS OFFICER.
- BECAUSE ABOVE SHIP, OR SHIP BASED UNIT,
MAY BE DEPLOYED AWAY FROM ITS HOME
PORT, MEMBER DIRECTED TO PROCEED TO
THE PORT IN WHICH ABOVE UNIT MAY BE LO­
CATED. UPON ARRIVAL REPORT CO OF UNIT
FOR ABOVE DUTY.
- WELCOME ABOARD THE USS CARL VINSON
(CVN-70). FOR COMMAND INFORMATION, VISIT
WEBSITE
AT:
OUR
http://WWW.CVN70.NAVY.MIL/ OR
E-MAIL
THE
SHIP’S
SECRETARY
AT
SHIPSEC@VINSON.NAVY.MIL OR THE ADMIN
LCPO AT CO ADMIN@VINSON.NAVY.MIL.
........ACCOUNTING DATA.........

354a
MAC CIC: 3N4F65614336710
CIC: A34F61SB
PCS ACCOUNTING DATA:
N4F6 1761453.2252 U 068566 A3 4F6/1/S/B
4F6561433671 TEMDUINS ACCOUNTING DATA
FOR FY-06
1761804.22MB 000 00022/0 068566 4F6/1/S/B
4F6561433671
PARTTWO
BUPERS ORDER: 0876 561-43-3671/1650 (PERS448B)
OFFICIAL CHANGE DUTY ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
........DETACHING ACTIVITY (M).........
- DETACHING COMMAND AND PERSONNEL
SUPPORT OFFICE DIRECTED TO ENSURE
MEMBER COMPLETES, WITHIN THREE DAYS
PRIOR DETACHMENT, APPLICABLE ITEMS ON
BOTH SIDES OF TRAVEL INFORMATION FORM
(NAVPERS
7041/1)
AS
REQUIRED
BY
BUPERSINST 7040.6 OR 7040.7. UPON COMPLE­
TION SUBMIT FORM TO DIRECTOR, PERMA­
NENT CHANGE OF STATION, VARIANCE COM­
PONENT, 1240 EAST 9TH STREET, SUITE 967,
CLEVELAND, OHIO 44199-2088.
- IF DETACHING FROM OR REPORTING TO A
UNIT WHEN IT’S AWAY FROM HOMEPORT/PDS,
MEMBER IS AUTHORIZED TRAVEL VIA THE
UNIT’S HOMEPORT/ PDS UNDER JFTR U5120F
TO ASSIST WITH TRANSPORTATION OF DE­
PENDENTS AND/OR HHG, PICK UP PERSONAL
ITEMS OR PERSONALLY DRIVE HIS/HER POV
FROM THE HOMEPORT.
- COMMAND DELIVERING ORDERS AND ULTI­
MATE COMMAND: DIRECTED TO COMPLY
WITH MILPERSMAN 1740-010 REGARDING THE

355a
NAVY SPONSOR PROGRAM. MEMBER ADVISED:
INFORMATION ON ULTIMATE DUTY STATION
CAN BE OBTAINED FROM YOUR LOCAL FAMI­
LY SERVICE CENTER.
- MEMBER ADVISED: REQUIRED TO CONTACT
HIS/HER NEAREST MILITARY TREATMENT FA­
CILITY (MTF), MEDICAL DEPARTMENT REPRE­
SENTATIVE, OR TRICARE SERVICE CENTER
PRIOR TO TRANSFER FOR COUNSELING ON
URGENT OR EMERGENCY MEDICAL CARE
DURING PCS MOVES. UPON ARRIVAL AT NEW
DUTY STATION, MEMBER IS REQUIRED TO
CONTACT THE NEAREST MTF, MEDICAL DE­
PARTMENT REPRESENTATIVE, OR TRICARE
SERVICE CENTER TO SELECT A PRIMARY
CARE PROVIDER. THESE POINTS OF CONTACT
CAN ALSO PROVIDE INFORMATION ON
HEALTH CARE OPTIONS AVAILABLE FOR FAM­
ILY MEMBERS NOT ENROLLED IN TRICARE
PRIME. GENERAL TRICARE INFORMATION IS
ON
THE
WEB
AT:
AVAILABLE
http://WWW.TRICARE.OSD.MIL.
- FOR MORE INFORMATION ON YOUR NEXT
PERMANENT CHANGE OF STATION (PCS) VISIT
http://WWW.HOUSING.NAVY.MIL THIS WEB­
SITE PROVIDES ON AND OFF BASE HOUSING
AND GENERAL INFORMATION ABOUT NAVY
AND MARINE CORPS LOCATIONS WORLDWIDE.
- DETACHING COMMAND: IF TRANSOCEANIC
TRAVEL WILL BE PERFORMED BY MEMBER,
PORT CALL ASSIGNED BY THE NAVY PASSEN­
GER TRANSPORTATION OFFICE WILL CANCEL
THE REPORT NOT LATER THAN DATE, AT RE­
CEIVING COMMAND, AND SHALL CONSTITUTE
THE SPECIFIC DATE MEMBER IS TO REPORT
FOR TRANSPORTATION. IF THIS IS AN ORDER

356a
MODIFICATION, CANCELLATION OR MODIFI­
CATION OF PORT CALL MAY BE REQUIRED. IF
SO, IMMEDIATELY CONTACT SERVICING NPTO.
OPNAVINST
4650.IS
SERIES
REFERS.
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
- MEMBER ADVISED: UPON ARRIVAL AT NEW
DUTY
STATION,
ENSURE
UPDATED
PHONE/FAX NUMBER AND EMAIL ADDRESS
ARE FORWARDED FOR INCLUSION IN THE PAO
DIRECTORY. THE REGISTRATION FORM IS LO­
CATED AT: http://WWW.NAVY.MIL/SUBMIT/PAREG-FORM.ASP

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
- DETACHING COMMAND: IF AT THE TIME
MEMBER IS BEING DETACHED FROM OR RE­
PORTING TO A VESSEL/UNIT WHICH IS DE­
PLOYED AWAY FROM ITS HOMEPORT/ PDS,
MEMBER MAY BE PAID PCS ALLOWANCES
FROM THE LOCATION AT WHICH
PCS TRAVEL BEGINS TO THE NEW/OLD PDS TO
THE NEW/OLD UNIT VIA ITS OLD/ NEW
HOMEPORT/PDS AND/OR ANY TDY STATION(S)
JFTR U5120.F REFERS
- DETACHING COMMAND: PRIOR TO TRANSFER
OF MEMBER TO OVERSEAS ACTIVITIES OR
DEPLOYABLE UNITS ENSURE THE FOLLOW­
ING IS COMPLETED:
A. PERSONNEL SUPPORT DETACHMENT OR
PERSONNEL OFFICERS SHALL VERIFY DEERS
ENROLLMENT VIA DEERS/REALTIME AUTO­
MATED PERSONNEL IDENTIFICATION SYSTEM
(RAPIDS) CRT (WHERE AVAILABLE, TELE­
PHONE IF DEERS/RAPIDS CRT UNAVAILABLE),
OR DD FORM 1172 VERIFICATION (WHERE CRT
AND TELEPHONE ACCESS IS UNAVAILABLE).
IN CASES WHERE A SERVICE RECORD ENTRY

357a
CONFIRMS THAT A DEERS CHECK WAS MADE
WITHIN NINETY DAYS PRECEDING THE MEM­
BER’S TRANSFER, A NEW DEERS CHECK IS
NOT REQUIRED.
B. ADD, CHANGE OR TERMINATE ENROLL­
MENT
DATA
AS
NECESSARY
UNDER
OPNAVINST 1750.2
C. A SERVICE RECORD ENTRY (TYPED OR
STAMPED) WILL BE MADE ON NAVPERS
1070/613 CERTIFYING THE MEMBER’S DE­
PENDENTS ARE ACCURATELY ENROLLED IN
THE DEERS DATA BASE.
- DETACHING COMMAND: MEMBER IS DI­
RECTED TO COMPLETE OPERATIONAL DUTY
SCREENING PER MILPERSMAN 1300-800 WITH­
IN 30 DAYS OF RECEIPT OF THESE ORDERS. IF
ORDERS ARE A RESULT OF COMPLETION OF
LIMDU OR HAVING BEEN FOUND FIT BY PEB,
UTILIZE MILPERSMAN 1300-801 AND REPORT
RESULTS WITHIN 15 DAYS OF RECEIPT OF
THESE ORDERS. UPON COMPLETION, SUBMIT
RESULTS VIA MESSAGE TO NPC PERS-40BB
FOR ENLISTED AND RESPECTIVE DETAILER
FOR OFFICERS.
........INTERMEDIATE (01) ACTIVITY (M).........
- MEMBER ADVISED: BRING MEDICAL REC­
ORDS TO FIREFIGHTING CLASS. ATTENDEES
MUST BE MEDICALLY SCREENED PRIOR TO
CLASS START AND BRING CLEARANCE FOR
FIREFIGHTING TRAINING TO CHECK-IN. NON­
LOCAL PCS PERSONNEL MAY USE LOCAL
MEDICAL CLINIC 1-5 DAYS PRIOR. ILLNESS,
LACK OF SLEEP, USE OF ALCOHOL WITHIN 8
HOURS WILL CAUSE DROP. BRING STEEL­
TOED BOOTS AND CHANGE OF CLOTHING
(LONG-SLEEVED WASH KHAKIS, FLIGHT SUIT,

358a
FLIGHT DECK JERSEY-NOT RED, OR BLUE
COVERALLS) FOR PRACTICAL TRAINING. AT
ALL LOCATIONS OTHER THAN NORFOLK, RE­
PORT NLT 0700, 16 OCT-14 MAY OR NLT 0600 15
MAY-15 OCT. IN NORFOLK, REPORT NLT 0700,
16 OCT-8 MAY OR NLT 0530, 9 MAY-15 OCT. OF­
FICERS
ATTENDING
FIREFIGHTING
IN
BANGOR, WA MUST CHECK IN AT BLDG 2000
(ADJACENT TO FF BLDG) PRIOR TO CLASS
START AT 0700. NAS WHIDBEY ISLAND AT­
TENDEES REPORT TO BLDG R2 NLT 0700.
- MEMBER ADVISED: SECURITY CLEARANCE
NEED TO BE RECEIVED FIVE (5) WORKING
DAYS PRIOR TO CLASS CONVENING. FAILURE
TO DO SO MAY RESULT IN NON-ADMISSION TO
COL IF ATTENDING CLASS AT CIT LS
NORFOLK, SECURITY CLEARANCES CAN BE
FAXED TO DSN: 564-4194, COMM:(757)444- 4194.
CHECK IN AT ELECTRONICS TRAINING
SCHOOL, BLDG N25 AT NAVAL STATION
NORFOLK. ADDRESS IS: ELECTRONICS TRAIN­
ING SCHOOL, 9550 FARRAGUT AVE. NORFOLK,
VA 23511, DSN 524-1262 EXT 0, COMM (757)4441262 EXT 0. INSTRUCTOR’S OFFICE: DSN 5241262 EXT 3035, COMM(757)444-1262 EXT 3035.
AFTER HOURS CHECK-IN, REPORT TO BLDG.
N19, 9549 BAINBRIDGE AVE. DSN 524-2996 EXT
0, COMM (757)444-2996 EXT 0.
- DIRECTIONS TO FIRE FIGHTING SCHOOL
FROM NOB GATES 1 & 2: SOUTH ON HAMPTON
BLVD TO NORTHGATE RD (TRAFFIC LIGHT
AND RAILROAD CROSSING). GO THROUGH THE
NORFOLK INTERNATIONAL TERMINAL GATE
AND MAKE FIRST LEFT. FIRE FIGHTING
SCHOOL IS APPROXIMATELY 1 MILE ON THE
RIGHT, LOOK FOR BLUE SIGN. FIRE FIGHTING

359a
SCHOOL, BLDG SDA 309, NORFOLK VA 23511,
COMM (757) 444-5585 DSN 565-6490.
- MEMBER ADVISED: STUDENTS WHO WILL BE
ATTENDING INSTRUCTOR TRAINING SCHOOL
(NEC 9502), ARE RECOMMENDED TO ACCESS
COMPUTER BASED TRAINING (CBT) COURSE
TITLED INSTRUCTIONAL DELIVERY CONTIN­
UUM JOURNEYNMAN (IDC JOURNEYMAN)
PRIOR TO REPORT DATE. TO ACCESS COURSE:
LOG ONTO NAVY KNOWLEDGE ONLINE (NKO)
WEBSITE AT: HTTPS://WWWA.NKO.NAVY.MIL,
LAUNCH NAVY E-LEARNING, BROWSE CATE­
GORIES, U.S. DEPT OF THE NAVY (DON), IN­
STRUCTIONAL DELIVERY CONTINUUM (IDC),
IDC JOURNEYMAN COURSE: CNL-JIT-0010.
........ULTIMATE ACTIVITY (M).........
- MEMBER ADVISED: FOR NAVY LODGE IN­
FORMATION VISIT WEBSITE WWW.NAVYLODGE.COM CALL THE NAVY LODGE CENTRAL
RESERVATION TOLL FREE (1-800- NAVY-INN/1800-628-9466) TO DETERMINE NAVY LODGE
AVAILABILITY IN THE VICINITY OF OLD AND
NEW PERMANENT DUTY STATIONS. RESERVA­
TIONS ARE REQUIRED TO ENSURE ROOM
AVAILABILITY. FOR A MEMBER TRAVELING IN
A “PCS WITH FAMILY’ STATUS, RESERVATIONS
MAY BE MADE ANYTIME. REFER TO
SECNAVINST 11107.2 SERIES.
- SAVE MONEY THE WELCOME CENTERS HAVE
NEW PROGRAM INITIATIVES THAT SAVE
MONEY ON RENT, SECURITY DEPOSITS, AND
HOME BUYING COST. REDUCE TIME SPENT ON
FINDING SUITABLE AND AFFORDABLE HOUS­
ING. LEARN ABOUT PROGRAMS THAT WILL
SAVE TIME AND MONEY BY VISITING THE LO­
CAL WELCOME CENTER.

360a
- NUMERICAL RELIEF FOR SCOTT D MCILNAY.
- UNIT TO WHICH ORDERED IS DESIGNATED,
BY SECNAVINST 4650.19 (SERIES), AS UNUSU­
ALLY ARDUOUS SEA DUTY. FOR TRANSPORTA­
TION ENTITLEMENTS OF DEPENDENTS AND
HOUSEHOLD GOODS SEE JFTR, PAR. U5222-D
AND U5350-D-E.
........SPECIAL INSTRUCTIONS - --- MEMBER ADVISED: FOR QUESTIONS AND
GUIDANCE CONCERNING SHIPMENT OF YOUR
HOUSEHOLD GOODS, TRANSPORTATION SPE­
CIALIST ARE ON DUTY TO SERVE YOU AND
CAN BE CONTACTED AT 1-800-444-7789
MONDAY THROUGH FRIDAY 0800-1700 EAST­
ERN TIME. ARRANGE YOUR HOUSEHOLD
GOODS
SHIPMENT
(S)
ONLINE USING
SMARTWEB
MOVE
(SWM)
AT
WWW.SMARTWEBMOVE.NAVSUP.NAVY.MIL
SWM HANDLES MOST PCS MOVE ARRANGE­
MENTS AND ELIMINATES THE NEED FOR A
PERSONAL VISIT TO YOUR LOCAL PERSONAL
PROPERTY OFFICE FOR A COUNSELING SES­
SION. WHEN YOU KNOW YOUR NEW ADDRESS,
YOU CAN USE THE FREE ON-LINE NEX MOV­
ING CENTER AT WWW.NAVY-NEX.COM TO SET
UP ESSENTIAL UTILITIES AND SERVICES FOR
YOUR NEW HOME ANYWHERE IN CONUS AND
HAWAII.
- MEMBER DIRECTED: FOR INFORMATION RE­
GARDING YOUR ULTIMATE DUTY STATION
CONTACT THE NEAREST DEPARTMENT OF
DEFENSE FAMILY SERVICE CENTER OR RELO­
CATION ASSISTANCE OFFICE.
- COMPLY WITH MILPERSMAN 1320-090 AND
1320-100 REGARDING TRAVEL AND AUTHOR­
IZED PROCEED TIME IN EXECUTION OF THESE

361a
ORDERS.
- WHEN PCSING, AN EXCELLENT AND VERY
USEFUL SOURCE OF INFORMATION IS THE
NAVY AND MARINE CORPS LIFELINES SER­
VICES NETWORK (LSN) AVAILABLE ON THE
AT
INTERNET
http://WWW.LIFELINES.NAVY.MIL.
YOU’LL
FIND TIPS ON MOVING YOUR HOUSEHOLD
GOODS OR SHIPPING YOUR CAR, INFOR­
MATION ON YOUR NEW DUTY STATION, HOW
TO STAY CONNECTED WITH FAMILIES, MOV­
ING PETS, HOW TO FIND HOUSING AT YOUR
NEW DUTY STATION, AND A WEALTH OF RE­
LOCATION AND SUPPORT RESOURCES FOR
YOU AND YOUR FAMILY.
- FOR COMMAND MAILING ADDRESS CONSULT
THE STANDARD NAVAL DISTRIBUTION LIST
ONLINE
AT
(SNDL)
http://neds.nebt.daps.mil/sndl.htm
or
VISIT YOUR PSA, PSD OR ADMIN OFFICE.
COMMANDING
OFFICER:
ENSURE
SERVICEMEMBER COMPLETES ARGUS QUES­
TIONNAIRE (AS REQUIRED BY OPNAV 1040.10)
PRIOR TO EXECUTION OF ORDERS. WEBSITE:
http:WWW.BOL.NAVY.MIL
(SIGNED)
A. A. GOVE,
REAR ADMIRAL, U. S. NAVY
COMMANDER NAVY
PERSONNEL COMMAND
PERS433G PERS448
NNNN

362a
APPENDIX W
ROUTINE
ZYUW RUCLFVAOOOO 3061118
R 021118Z NOV 06
FM CHNAVPERS WASHINGTON DC//PERS448B //
USS CARL VINSON//JJJ//
USS ENTERPRISE//JJJ//
CHINFO WASHINGTON DC//JJJ//
COMNAVAIRLANT NORFOLK VA//JJJ//
COMNAVSUBFOR NORFOLK VA//JJJ//
COMNAVAIRPAC SAN DIEGO CA//JJJ//
//N01321//
UNCLAS
MSGID/GENADMIN/CHNAVPERS//
SUBJ/BUPERS ORDER//
RMKS/
BUPERS ORDER: 3066 XXX-XX-3671/1650 (PERS448B)
OFFICIAL CHANGE DUTY ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
IN CARRYING OUT/PROCESSING THESE OR­
DERS, BOTH PARTS ONE AND TWO MUST BE
READ AND LISTED INSTRUCTIONS COMPLIED
WITH.
. FOR OFFICIAL USE ONLY
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
PARTONE
........DETACHING ACTIVITY (M)........
WHEN DIRECTED BY REPORTING
SENIOR, DETACH IN JAN 07
EDD: JAN 07
FROM CVN 70 VINSON
UIC:20993
HOMEPORT VA, NORFOLK
FROM DUTY
ACC: 100
PERSONNEL ACCOUNTING SUP­
PORT: CVN 70 VINSON
UIC: 20993

363a
........ULTIMATE ACTIVITY (M).........
REPORT NOT LATER THAN JAN 07 EDA: JAN 07
UIC:03365
TO CVN 65 ENTERPRISE
HOMEPORT VA, NORFOLK
ACC: 100
FOR DUTY
BSC: 07040
PRD: 0901
PERSONNEL ACCOUNTING SUP­
PORT: CVN 70 VINSON
UIC:03365
- REPORT AS PAO (BSC 07040).
- WELCOME ABOARD “THE BIG E” USS ENTER­
PRISE (CVN-65). FOR COMMAND INFOR­
MATION,
VISIT
OUR
WEBSITE
AT:
WWW.ENTERPRISE.NAVY.MIL OR E-MAIL US
AT:
SHIPSEC@ENTERPRISE.NAVY.MIL
OR
XO@ENTERPRISE.NAVY.MIL.
PARTTWO
BUPERS ORDER: 3066 XXX-XX-3671/1650 (PERS448B) OFFICIAL CHANGE DUTY ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
........DETACHING ACTIVITY (M).........

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
- MEMBER ADVISED: UPON ARRIVAL AT NEW
DUTY
STATION,
ENSURE
UPDATED
PHONE/FAX NUMBER AND EMAIL ADDRESS
ARE FORWARDED FOR INCLUSION IN THE PAO
DIRECTORY. THE REGISTRATION FORM IS LO­
CATED AT: http://WWW.NAVY.MIL/SUBMIT/PAREG-FORM.ASP

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
- DETACHING COMMAND: IF AT THE TIME
MEMBER IS BEING DETACHED FROM OR RE­
PORTING TO A VESSEL/UNIT WHICH IS DE­
PLOYED AWAY FROM ITS HOMEPORT/ PDS,
MEMBER MAY BE PAID PCS ALLOWANCES
FROM THE LOCATION AT WHICH PCS TRAVEL

364a
BEGINS TO THE NEW/OLD PDS TO THE
NEW/OLD
UNIT
VIA
ITS
OLD/
NEW
HOMEPORT/PDS AND/OR ANY TDY STATION(S)
JFTR U5120.F REFERS
- BECAUSE ABOVE SHIP, OR SHIP BASED UNIT,
MAY BE DEPLOYED AWAY FROM ITS HOME
PORT, MEMBER DIRECTED TO PROCEED TO
THE PORT IN WHICH ABOVE UNIT MAY BE LO­
CATED. UPON ARRIVAL REPORT CO OF UNIT
FOR ABOVE DUTY.
- DETACHING COMMAND: IF AT THE TIME
MEMBER IS BEING DETACHED FROM OR RE­
PORTING TO A VESSEL/UNIT WHICH IS DE­
PLOYED AWAY FROM ITS HOMEPORT/ PDS,
MEMBER MAY BE PAID PCS ALLOWANCES
FROM THE LOCATION AT WHICH PCS TRAVEL
BEGINS TO THE NEW/OLD PDS TO THE
NEW/OLD
UNIT
VIA
ITS
OLD/
NEW
HOMEPORT/PDS AND/OR ANY TDY STATION(S)
JFTR U5120.F REFERS
- DETACHING COMMAND: PRIOR TO TRANSFER
OF MEMBER TO OVERSEAS ACTIVITIES OR
DEPLOYABLE UNITS ENSURE THE FOLLOW­
ING IS COMPLETED:
A. PERSONNEL SUPPORT DETACHMENT OR
PERSONNEL OFFICERS SHALL VERIFY DEERS
ENROLLMENT VIA DEERS/REALTIME AUTO­
MATED PERSONNEL IDENTIFICATION SYSTEM
(RAPIDS) CRT (WHERE AVAILABLE, TELE­
PHONE IF DEERS/RAPIDS CRT UNAVAILABLE),
OR DD FORM 1172 VERIFICATION (WHERE CRT
AND TELEPHONE ACCESS IS UNAVAILABLE).
IN CASES WHERE A SERVICE RECORD ENTRY
CONFIRMS THAT A DEERS CHECK WAS MADE
WITHIN NINETY DAYS PRECEDING THE MEM­
BER’S TRANSFER, A NEW DEERS CHECK IS

365a
NOT REQUIRED.
B. ADD, CHANGE OR TERMINATE ENROLL­
MENT
DATA
AS
NECESSARY
UNDER
OPNAVINST 1750.2
C. A SERVICE RECORD ENTRY (TYPED OR
STAMPED) WILL BE MADE ON NAVPERS
1070/613 CERTIFYING THE MEMBER’S DE­
PENDENTS ARE ACCURATELY ENROLLED IN
THE DEERS DATA BASE.
- MEMBER DIRECTED: CONTACT THE NAVY
HOUSING WELCOME CENTER, HAMPTON
BOULEVARD AND -BAKER STREET, BUILDING
SDA 337, NORFOLK, VA.(23505) PRIOR TO NE­
GOTIATING ANY RENTAL OR SALES AGREE­
MENT FOR OFF-BASE HOUSING. FOR ADDI­
TIONAL INFORMATION CALL TOLL FREE 1-800628-7510. (OPNAVINST 1101.13 AND OPNAVINST
11101.21 SERIES)
- MEMBER ADVISED: WHEN MOVING TO THE
SAN DIEGO OR NORFOLK REGION, MEMBER
CAN UTILIZE THE NEW “NAVY EXCHANGE
MOVING CENTER”. THE NEX MOVING CENTER
IS A FREE ONLINE SERVICE, WHICH ENABLES
THE MEMBER TO SET UP HOUSEHOLD UTILI­
TY AND OTHER NEEDED SERVICES. THIS SER­
VICE PROVIDES THE CONVENIENCE OF ONE
STOP SHOPPING AND RATE COMPARISONS
FOR UTILITIES I.E. ELECTRIC, CABLE, PHONE,
GAS ETC. VISIT THE NAVY EXCHANGE WEB­
SITE AT: http://WWW.NAVY-NEX.COM, AND
CLICK ON THE NEX MOVING CENTER LINK OR
https://www.militarymovingcenter.com/
NEXCOM/ (LOWER CASE).
- DETACHING COMMAND: MEMBER IS DI­
RECTED TO COMPLETE OPERATIONAL DUTY
SCREENING PER MILPERSMAN 1300-800 WITH-

366a
IN 30 DAYS OF RECEIPT OF THESE ORDERS.
UPON COMPLETION, ISSUE PG 13 AS DIR FOR
SUITABLE SVC MBRS OR SUBMIT UNSUITABIL­
ITY FOR OPERATIONAL DUTY MESSAGE TO
NPC PERS-40BB FOR ENLISTED AND RESPEC­
TIVE DETAILER FOR OFFICERS. IF ORDERS
ARE A RESULT OF COMPLETION OF LIMDU OR
HAVING BEEN FOUND FIT BY PEB, UTILIZE
MILPERSMAN 1300-801 AND REPORT FINDINGS
IF SVC MBR FAILS TO SCREEN WORLDWIDE
ASSIGNABLE WITHOUT LIMITATIONS WITHIN
15 DAYS OF RECEIPT OF THESE ORDERS VIA
MESSAGE TO NPC PERS-40BB FOR ENLISTED
AND RESPECTIVE DETAILER FOR OFFICERS.
........ULTIMATE ACTIVITY (M).........
- NUMERICAL RELIEF FOR LCDR DAVID L
NUNNALLY.
- UNDER THE NAVY SPONSOR PROGRAM
MEMBER ADVISED, TELEPHONE NUMBERS
FOR FLEET AND FAMILY SUPPORT CENTERS
OF HAMPTON ROADS, NORFOLK, VA ARE 24
HOURS, AUTOVON 564-6289, COMMERCIAL (757)
444-6289 AND 1-800- 372-5463 (1-800-FSC-LINE).
WEBSITE:
VISIT
AT
OUR
US
WWW.FFSCNORVA.NAVY.MIL
(LOWERCASE
LETTERS). ADDITIONALLY, PLEASE VISIT THE
RELOCATION
AT:
WEBSITE
WWW.NAVYNORFOLK.COM (LOWERCASE).
- UNIT TO WHICH ORDERED IS DESIGNATED,
BY SECNAVINST 4650.19 (SERIES), AS UNUSU­
ALLY ARDUOUS SEA DUTY. FOR TRANSPORTA­
TION ENTITLEMENTS OF DEPENDENTS AND
HOUSEHOLD GOODS SEE JFTR, PAR. U5222-D
AND U5350-D-E.
- WHEN SHIP/UNIT IS DEPLOYED FROM
HOMEPORT ALL PERSONNEL MUST REPORT

367a
TO TRANSIENT PERSONNEL UNIT (TPU)
NORFOLK, VA TO ARRANGE FOR PORT CALL
OR WAIT RETURN OF SHIP/UNIT.
........SPECIAL INSTRUCTIONS.........
- IF DETACHING FROM OR REPORTING TO A
UNIT WHEN IT’S AWAY FROM HOMEPORT/PDS,
MEMBER IS AUTHORIZED TRAVEL VIA THE
UNIT’S HOMEPORT/PDS UNDER JFTR U5120F
TO ASSIST WITH TRANSPORTATION OF DE­
PENDENTS AND/OR HHG, PICK UP PERSONAL
ITEMS OR PERSONALLY DRIVE HIS/HER POV
FROM THE HOMEPORT.
- MEMBER ADVISED: REQUIRED TO CONTACT
HIS/HER NEAREST MILITARY TREATMENT FA­
CILITY (MTF), MEDICAL DEPARTMENT REPRE­
SENTATIVE, OR TRICARE SERVICE CENTER
PRIOR TO TRANSFER FOR COUNSELING ON
URGENT OR EMERGENCY MEDICAL CARE
DURING PCS MOVES. UPON ARRIVAL AT NEW
DUTY STATION, MEMBER IS REQUIRED TO
CONTACT THE NEAREST MTF, MEDICAL DE­
PARTMENT REPRESENTATIVE, OR TRICARE
SERVICE CENTER TO SELECT A PRIMARY
CARE PROVIDER. THESE POINTS OF CONTACT
CAN ALSO PROVIDE INFORMATION ON
HEALTH CARE OPTIONS AVAILABLE FOR FAM­
ILY MEMBERS NOT ENROLLED IN TRICARE
PRIME. GENERAL TRICARE INFORMATION IS
AVAILABLE
ON
THE
WEB
AT:
http://WWW.TRICARE.OSD.MIL.
- FOR MORE INFORMATION ON YOUR NEXT
PERMANENT CHANGE OF STATION (PCS) VISIT
http://WWW.HOUSING.NAVY.MIL THIS WEB­
SITE PROVIDES ON AND OFF BASE HOUSING
AND GENERAL INFORMATION ABOUT NAVY
AND MARINE CORPS LOCATIONS WORLDWIDE.

368a
- MEMBER ADVISED: FOR QUESTIONS AND
GUIDANCE CONCERNING SHIPMENT OF YOUR
HOUSEHOLD GOODS, TRANSPORTATION SPE­
CIALIST ARE ON DUTY TO SERVE YOU AND
CAN BE CONTACTED AT 1-800-444-7789
MONDAY THROUGH FRIDAY 0800-1700 EAST­
ERN TIME. ARRANGE YOUR HOUSEHOLD
GOODS SHIPMENT
(S)
ONLINE USING
SMARTWEB
MOVE
(SWM)
AT
WWW.SMARTWEBMOVE.NAVSUP.NAVY.MIL
SWM HANDLES MOST PCS MOVE ARRANGE­
MENTS AND ELIMINATES THE NEED FOR A
PERSONAL VISIT TO YOUR LOCAL PERSONAL
PROPERTY OFFICE FOR A COUNSELING SES­
SION. WHEN YOU KNOW YOUR NEW ADDRESS,
YOU CAN USE THE FREE ON-LINE NEX MOV­
ING CENTER AT WWW.NAVY-NEX.COM TO SET
UP ESSENTIAL UTILITIES AND SERVICES FOR
YOUR NEW HOME ANYWHERE IN CONUS AND
HAWAII.
- MEMBER ADVISED: IAW MILPERSMAN 1320308, AUTHORIZE TRANSPORTATION COST RE­
IMBURSEMENT FOR EXCESS BAGGAGE UP TO
AND NOT TO EXCEED THE FOLLOWING: (A)
ONE (1) PIECE FOR PILOTS, AIRCREW, DIVERS,
AND PERSONNEL WHO MUST CARRY SPECIAL
ISSUE GEAR WITH THEM (B) TWO (2) PIECES
FOR ATTACHES. SERVICE MEMBERS IN RE­
CEIPT OF PCS ORDERS TO FORWARD DE­
PLOYED UNITS ARE ADVISED THAT CERTAIN
AIRLINES MAY CHARGE EXCESS BAGGAGE
FEES. REIMBURSEMENT MAY BE REQUESTED
IN ACCORDANCE WITH JOINT FEDERAL TRAV­
EL REGULATIONS (JFTR) U3015-B UPON RE­
PORTING TO YOUR ULTIMATE DUTY STATION.
CONTACT PERS-40CC FOR ENLISTED PERSON-

369a
NEL OR COGNIZANT DETAILER FOR OFFICERS.
CONSULT YOUR LOCAL HOUSEHOLD GOODS
(HHG) PERSONAL PROPERTY OFFICE REGARD­
ING SPECIFIC HHG AND PERSONAL PROPERTY
SHIPMENT ENTITLEMENTS.
- MEMBER DIRECTED: FOR INFORMATION RE­
GARDING YOUR ULTIMATE DUTY STATION
CONTACT THE NEAREST DEPARTMENT OF
DEFENSE FAMILY SERVICE CENTER OR RELO­
CATION ASSISTANCE OFFICE.
- THESE ORDERS ISSUED WITHOUT ACCOUNT­
ING DATA SINCE IT APPEARS THAT IT CAN BE
EXECUTED WITHOUT COST.
- NO PERMANENT CHANGE OF STATION (PCS)
ENTITLEMENTS WILL BE PROVIDED BECAUSE
THESE ORDERS REASSIGN MEMBER BETWEEN
TWO NON-SHIPBOARD ACTIVITIES OR UNITS
LOCATED AT THE SAME PERMANENT DUTY
STATION (PDS). RELOCATION OF HOUSEHOLD
GOODS WITHIN THE SAME PDS IS NOT AU­
THORIZED AT GOVERNMENT EXPENSE UN­
LESS AUTHORIZED UNDER MILPERSMAN 1300100.
- IF COST OR ENTITLEMENTS WILL ACCRUE,
MEMBER DIRECTED TO REQUEST AND RE­
CEIVE PRIOR TO EXECUTION OF THESE OR­
DERS, WRITTEN AUTHORIZATION (INCLUDING
ACCOUNTING DATA) FROM THE CHIEF OF NA­
VAL PERSONNEL. CONTACT YOUR DETAILER
FOR MORE INFORMATION.
- WHEN PCSING, AN EXCELLENT AND VERY
USEFUL SOURCE OF INFORMATION IS THE
NAVY AND MARINE CORPS LIFELINES SER­
VICES NETWORK (LSN) AVAILABLE ON THE
INTERNET
AT
http://WWW.LIFELINES.NAVY.MIL.
YOU’LL

370a
FIND TIPS ON MOVING YOUR HOUSEHOLD
GOODS OR SHIPPING YOUR CAR, INFOR­
MATION ON YOUR NEW DUTY STATION, HOW
TO STAY CONNECTED WITH FAMILIES, MOV­
ING PETS, HOW TO FIND HOUSING AT YOUR
NEW DUTY STATION, AND A WEALTH OF RE­
LOCATION AND SUPPORT RESOURCES FOR
YOU AND YOUR FAMILY.
- FOR COMMAND MAILING ADDRESS CONSULT
THE STANDARD NAVAL DISTRIBUTION LIST
(SNDL)
ONLINE
AT
http://neds.nebt.daps.mil/sndl.htm
OR
VISIT YOUR PSA, PSD OR ADMIN OFFICE.
COMMANDING
OFFICER:
ENSURE
SERVICEMEMBER COMPLETES ARGUS QUES­
TIONNAIRE (AS REQUIRED BY OPNAV 1040.10)
PRIOR TO EXECUTION OF ORDERS. WEBSITE:
http:WWW.BOL.NAVY.MIL
(SIGNED)
A. A. GOVE,
REAR ADMIRAL, U. S. NAVY
COMMANDER NAVY PERSONNEL COMMAND
PERS433G PERS448
NNNN

371a
APPENDIX X
ROUTINE
ZYUW RUCLFVAOOOO 3391232
R 051232Z DEC 06
FM CHNAVPERS WASHINGTON DC//PERS448B //
TO USS CARL VINSON//JJJ//
USS ENTERPRISE//JJJ//
CHINFO WASHINGTON DC//JJJ//
COMNAVAIRLANT NORFOLK VA//JJJ//
COMNAVSUBFOR NORFOLK VA//JJJ//
COMNAVAIRPAC SAN DIEGO CA//JJJ//
//NO 1321//
UNCLAS
MSGID/GENADMIN/CHNAVPERS//
SUBJ/BUPERS ORDER//
RMKS/
BUPERS ORDER: 3066 (01) XXX-XX-3671/1650
(PERS-448B)
OFFICIAL CANCELLATION OF ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
- ORDERS AND ANY MODIFICATIONS(S) THERE
TO CANCELLED. CONTINUE PRESENT DUTY
(SIGNED)
D. A. GOVE,
REAR ADMIRAL, U. S. NAVY
COMMANDER
NAVY
PERSONNEL COMMAND
PERS433G PERS448
NNNN

372a
APPENDIX Y
ROUTINE
ZYUW RUCLFVA0000 2581230
R 151230Z SEP 09
FM
COMNAVPERSCOM
MILLINGTON
TN//PERS82 //
TO USS CARL VINSON//JJJ//
BUPERS MILLINGTON TN//JJJ//
DFAS CLEVELAND OH//JJJ//
BUMED WASHINGTON DC//JJJ//
COMSUBFOR NORFOLK VA//JJJ//
COMNAVAIRPAC SAN DIEGO CA//JJJ//
COMNAVCRUITCOM
MILLINGTON
TN//JJJ//
UNCLAS
//N01321//
MSGID/GENADMIN/CHNAVPERS//
SUBJ/BUPERS ORDER//
RMKS/
BUPERS ORDER: 2589 XXX-XX-3671/1650
(PERS-82)
OFFICIAL SEPARATION ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
IN CARRYING OUT/PROCESSING THESE OR­
DERS, BOTH PARTS ONE AND TWO MUST BE
READ AND LISTED INSTRUCTIONS COMPLIED
WITH.
. FOR OFFICIAL USE ONLY
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
PARTONE
........DETACHING ACTIVITY (M)........
WHEN DIRECTED BY REPORTING
SENIOR, DETACH IN SEP 09
EDD: SEP 09
FROM CVN 70 VINSON
UIC: 20993
HOMEPORT VA, NORFOLK

373a
ACC: 100
FROM DUTY
PERSONNEL ACCOUNTING SUP­
UIC:20993
PORT: CVN 70 VINSON
- ACCORDANCE MILPERSMAN 1910-812 REPORT
PRESENT CO FOR TEMPORARY DUTY IN CON­
NECTION WITH SEPARATION PROCESSING.
- UPON COMPLETION AND WHEN DIRECTED
DETACH.
- BY DIRECTION OF THE PRESIDENT, AND
PURSUANT TO PROVISIONS OF SECNAVINST
1920.6 (SERIES) AND 10 U.S.C. SEC. 1184/1186,
DISCHARGE FROM THE U.S. NAVAL SERVICE
TO TAKE EFFECT AT 2400 ON DATE OF DE­
TACHMENT FROM ACTIVITY AT WHICH SEPA­
RATED.
........ACCOUNTING DATA.........
MAC CIC: 3N5I9XXXX336710
CIC: AE5I919W
PCS ACCOUNTING DATA:
N5I9 1791453.2254 U 068566 AE 5I9/1/9/W
5I9XXXX33671
PARTTWO
BUPERS ORDER: 2589 XXX-XX-3671/1650 (PERS82)

OFFICIAL SEPARATION ORDERS FOR
LCDR JOHN FORREST SHARPE, USN
MEMBER ADVISED: NO PERDIEM/LODGING RE­
IMBURSEMENT AUTHORIZED AT ANY INTER­
MEDIATE STOP(S) IN THE SAME GEOGRAPHIC
LOCATION AS THE ULTIMATE DUTY STATION.
........DETACHING ACTIVITY (M).........
- PERMANENT CHANGE OF STATION (PCS)
TRAVEL
INFORMATION
DETAILS:
PER
BUPERSINST 7041 (SERIES): TRANSFERRING
COMMANDS PASS/PERSONNEL SERVICING OF­
FICES ARE RESPONSIBLE FOR ENSURING

374a
MEMBERS FULLY COMPLETE THE PCS TRAVEL
INFORMATION FORM (NAVPERS 7041/1) WITH­
IN 3 DAYS OF TRANSFER. COMMANDS USING
NSIPS WEB SHOULD DIRECT MEMBER TO
CREATE AND THEN USE THEIR OWN SELF
SERVICE ACCOUNT TO COMPLETE AND SUB­
MIT THE 7041/1 ON-LINE. INSTRUCTIONS TO
CREATE A SELF SERVICE ESR (ELECTRONIC
SERVICE RECORD) ACCOUNT ARE LOCATED
SCREEN,
ON
THE
NSIPS
SPLASH
HTTPS://NSIPS.NMCI.NAVY.MIL/ (UNDER’USER
INFORMATION’). MEMBER SHOULD LOGON TO
THEIR ESR ACCOUNT, THEN DOUBLE-CLICK
THE ‘UPDATE PCS TRAVEL’ ICON ON THEIR
HOMEPAGE TO ACCESS THE AUTOMATED
NAVPERS 7041 TRAVEL INFORMATION FORM.
FOR CONVENIENCE, THERE IS AN ‘AUTO-FILL’
FEATURE WHICH AUTOMATICALLY COM­
PLETES THE PCS ITINERARY FROM THE MEM­
BER’S CURRENT ACTIVE ORDERS. MEMBER
NEED ONLY COMPLETE OR ADJUST PCS DE­
TAILS SPECIFIC TO DEPENDENT TRAVEL,
HOUSEHOLD GOODS WEIGHTS AND/OR POV
SHIPMENTS. COMMANDS PASS/PERSONNEL
SERVICING OFFICES NOT USING NSIPS WEB
SHOULD PROVIDE THE NAVPERS 7041/1 FORM
TO MEMBER, AND UPON MEMBER’S COMPLE­
TION, VERIFY THEN MAIL TO: DIRECTOR,
PERMANENT CHANGE STATION VARIANCE
COMPONENT, 1240 EAST 9TH STREET, SUITE
967, CLEVELAND OH 44199-2088.
- DETACHING COMMAND: IF TRANSOCEANIC
TRAVEL WILL BE PERFORMED BY MEMBER,
PORT CALL ASSIGNED BY THE NAVY PASSEN­
GER TRANSPORTATION OFFICE WILL CANCEL
THE REPORT NOT LATER THAN DATE, AT RE-

375a
CEIVING COMMAND, AND SHALL CONSTITUTE
THE SPECIFIC DATE MEMBER IS TO REPORT
FOR TRANSPORTATION. IF THIS IS AN ORDER
MODIFICATION, CANCELLATION OR MODIFI­
CATION OF PORT CALL MAY BE REQUIRED. IF
SO, IMMEDIATELY CONTACT SERVICING NPTO.
OPNAVINST 4650.IS SERIES REFERS.
- COMPLY WITH MILPERSMAN 1320-110 RE­
GARDING TRAVEL TIME AUTHORIZED IN EXE­
CUTION OF THESE ORDERS.
- DETACHING COMMAND: IF AT THE TIME
MEMBER IS BEING DETACHED FROM OR RE­
PORTING TO A VESSEL/UNIT WHICH IS DE­
PLOYED AWAY FROM ITS HOMEPORT/ PDS,
MEMBER MAY BE PAID PCS ALLOWANCES
FROM THE LOCATION AT WHICH PCS TRAVEL
BEGINS TO THE NEW/OLD PDS TO THE
NEW/OLD
UNIT
VIA
ITS
OLD/
NEW
HOMEPORT/PDS AND/OR ANY TDY STATION(S)
JFTR U5120.F REFERS
- BECAUSE ABOVE SHIP, OR SHIP BASED UNIT,
MAY BE DEPLOYED AWAY FROM ITS HOME
PORT, MEMBER DIRECTED TO PROCEED TO
THE PORT IN WHICH ABOVE UNIT MAY BE LO­
CATED. UPON ARRIVAL REPORT CO OF UNIT
FOR ABOVE DUTY.
........SPECIAL INSTRUCTIONS -.......
- MEMBER ADVISED: SHIPPING HHG? HAVE
MOVE QUESTIONS? WANT TO MAKE A DIF­
FERENCE? NEED ASSISTANCE WITH UTILI­
TIES? NOW YOU CAN PROCESS YOUR HHG
SHIPMENT APPLICATION AND RECEIVE
COUNSELING ON LINE AT YOUR CONVEN­
AT:
IENCE
WWW.SMARTWEBMOVE.NAVSUP.NAVY.MIL.
CONTACT TRANSPORTATION SPECIALIST TO

376a
ANSWER QUESTIONS AND PROVIDE GUID­
ANCE CONCERNING YOUR HHG SHIPMENT
MONDAY THROUGH FRIDAY 0800-1700 EAST­
ERN TIME AT 800-444-7789 OR BY EMAIL AT
WWW.NVTRNSHHGHELPLINE@NAVY.MIL.
COMPLETE A CUSTOMER SATISFACTION SUR­
VEY AT THE END OF YOUR MOVE AT:
HTTPS://ICSS.ETA.SDDC.ARMY.MIL
BECAUSE
PERFORMANCE VICE LOWEST COST DRIVES
WHICH TRANSPORTATION SERVICE PROVIDER
WILL MOVE YOUR PROPERTY IN THE FUTURE.
TO SET UP ESSENTIAL UTILITIES AND SER­
VICES FOR YOUR NEW HOME ANYWHERE IN
CONUS AND HAWAII USE THE FREE ON-LINE
NEX MOVING CENTER AT: WWW.NAVYNEX.COM.
- WHEN PCSING, AN EXCELLENT AND VERY
USEFUL SOURCE OF INFORMATION IS THE
NAVY AND MARINE CORPS LIFELINES SER­
VICES NETWORK (LSN) AVAILABLE ON THE
INTERNET
AT
http://WWW.LIFELINES.NAVY.MIL.
YOU’LL
FIND TIPS ON MOVING YOUR HOUSEHOLD
GOODS OR SHIPPING YOUR CAR, INFOR­
MATION ON YOUR NEW DUTY STATION, HOW
TO STAY CONNECTED WITH FAMILIES, MOV­
ING PETS, HOW TO FIND HOUSING AT YOUR
NEW DUTY STATION, AND A WEALTH OF RE­
LOCATION AND SUPPORT RESOURCES FOR
YOU AND YOUR FAMILY.
COMMANDING
OFFICER:
ENSURE
SERVICEMEMBER COMPLETES ARGUS QUES­
TIONNAIRE (AS REQUIRED BY OPNAV 1040.10)
PRIOR TO EXECUTION OF ORDERS. WEBSITE:
HTTPSV/WWW.BOL.NAVY.MIL
- GENERAL DISCHARGE CERTIFICATE SIGNED

377a
BY THE SECRETARY OF THE NAVY BEING RE­
TAINED IN CHNAVPERS AND WILL BE MAILED
TO MEMBER’S HOME SUBSEQUENT TO SEPA­
RATION. CO OF ACTIVITY AT WHICH SEPA­
RATED DIRECTED TO ADVISE CHNAVPERS
(PERS-834) EFFECTIVE DATE OF DISCHARGE
AND ADDRESS FOR MAILING PURPOSES.
- CO OF ACTIVITY AT WHICH SEPARATED DI­
RECTED TO FAX COPY OF COMPLETED DD-214
TO OFFICER PERFORMANCE SEPARATIONS
BRANCH (PERS-834). (901) 874-2625 DSN: 8822625. VOICE DSN: 882-4424/2090.
- IF SHIP OR FLEET COMMAND FROM WHICH
DETACHED LOCATED CONUS AT TIME OF DE­
TACHMENT, REPORT FOR SEPARATION PRO­
CESSING ACCORDANCE MILPERSMAN 1920-130,
INSTEAD OF AS DIRECTED ABOVE.
- THE SECRETARY OF THE NAVY HAS AP­
PROVED YOUR SEPARATION FROM THE NAVY.
YOUR SERVICE WILL BE CHARACTERIZED AS
GENERAL AND YOUR SEPARATION PROGRAM
DESIGNATOR CODE WILL BE GNC IN ACCORD­
ANCE WITH BUPERSINST 1900.8 SERIES UN­
DER THE AUTHORITY OF SECNAVINST 1920.6
SERIES.
(SIGNED)
D. P. QUINN
REAR ADMIRAL, U. S. NAVY COMMANDER NA­
VY PERSONNEL COMMAND

378a
APPENDIX Z

[SEAL]

DEPARTMENT OF THE NAVY
BOARD FOR CORRECTION OF
NAVAL RECORDS
701 S. COURTHOUSE ROAD,
SUITE 1001
ARLINGTON, VA 22204-2490
JLB
Docket No. 4017-18
AUG 12 2018

From: Chairman, Board for Correction of Naval
Records
To:
Secretary of the Navy
Subj:

REVIEW OF NAVAL RECORD ICO CDR
JOHN F. SHARPE, USN, [redacted]-3671

Ref:

(a) Title 10 U.S.C. § 1552

Enel:

(1) DD Form 149 w/attachments
(2) Subject’s naval record

1. Pursuant to the provisions of reference (a) Subject,
hereinafter referred to as Petitioner, filed enclosure
(1) with this Board requesting, in effect, that the ap­
plicable naval record be corrected to show that the
Petitioner declined enrollment in the Servicemembers’ Group Life Insurance (SGLI) from 1 Octo­
ber 2009 until 12 February 2017.
2. The Board, consisting of Mr. Mizerak, Mr. Ferraro,
and Mr. Spooner, reviewed Petitioner’s allegations of
error and injustice on 24 May 2018 and, pursuant to

379a
its regulations, determined that the corrective action
indicated below should be taken on the available evi­
dence of record. Documentary material considered by
the Board consisted of the enclosures, relevant por­
tions of your naval record, and applicable statutes,
regulations and policies.
3. The Board, having reviewed all the facts of record
pertaining to Petitioner’s allegations of error and in­
justice, finds as follows:
a. Before applying to this Board, Petitioner ex­
hausted all administrative remedies available under
existing law and regulations within the Department
of the Navy.
b. On 30 September 2009, Petitioner was dis­
charged from the Navy.
c. On 7 October 2015, the Assistant Secretary of
the Navy, Manpower and Reserve Affairs (ASN
(M&RA)), changed the Petitioner’s record to reflect
that he was not discharged from the naval service,
but continued to serve on active duty without inter­
ruption. Petitioner was placed back on active duty
effective 13 February 2017.
CONCLUSION
Upon review and consideration of all the evidence of
record, the Board finds the existence of an injustice
warranting the following corrective action. Petitioner
was discharged from active duty on 30 September
2009. ASN (M&RA) directed that the Petitioner be
placed back on active duty, effective 13 February
2017. As a result, the Defense Finance and Account-

380a
ing Service (DFAS) took steps to correct the pay and
entitlements for the period of constructive service
which ran from 1 October 2009 and 12 February
2017. Prior to Petitioner’s discharge, he was enrolled
in coverage under the SGLI, therefore DFAS calcu­
lated a debt associated with the SGLI premiums dur­
ing the period of constructive service. However, Peti­
tioner was not actually covered by the SGLI during
this period and instead obtained life insurance from
another provider at his own expense. The Board con­
cluded that it would be unjust to make the Petitioner
pay premiums on two insurance policies covering the
same period. Further, the Board highlighted that
had the Petitioner passed away during this period of
constructive service, the SGLI would not have paid
out the benefit. As such, a measure of relief is war­
ranted in this case.
RECOMMENDATION
That Petitioner’ s naval record be corrected, where
appropriate, to show that:
On 1 October 2009, Petitioner provided the Navy
Personnel Command (NPC) with a SGLI Election
Certificate (SGL V 8286) declining enrollment in the
SGLI. Note: on 13 February 2017, Petitioner provid­
ed the NPC with a SGL V 8286 form electing enroll­
ment in the SGLI.
A copy of this Report of Proceedings will be filed in
Petitioner’s naval record .
4. It is certified that quorum was present at the
Board’s review and deliberations, and that the fore­
going is a true and complete record of the Board’s

381a
proceedings in the above entitled matter.
Is/
DAVID J. CASH
Recorder
5. Pursuant to the delegation of authority set out in
the revised Procedures of the Board for Correction of
Naval Records (32 Code of Federal Regulations, Sec­
tion 723.6(e)) and having assured compliance with its
provisions, it is hereby announced that the foregoing
corrective action, taken under the authority of refer­
ence (a), has been approved by the Board on behalf of
the Secretary of the Navy.
/s/

ELIZABETH A. HILL
Executive Director

382a
APPENDIX AA
DEFENSE FINANCE
AND ACCOUNTING SERVICE
8899 E. 56TH STREET
INDIANAPOLIS, IN 46249

[SEAL]

OCT 22 2018
Commander John F Sharpe
13680 Bold Venture Drive
Glenelg, Maryland 21737
Dear Commander Sharpe:
Your waiver request, file number MSFSKT5RG,
has been forwarded to the Defense Office of Hearings
and Appeals for a final determination. We will notify
you of the decision upon receipt.
Notify this office of your new address in the event
you move before a determination is received. Our
point of contact is the undersigned, at (866) 912-6488
or email- dfas.iridianapolis-in.jfe.mbx.remissionwaiver-indy@mail.mil.
Sincerely,
Is/
Carrie A. Dillon-Illy
Chief, Remissions and Waivers Branch
Debt and Claims Management

www.dfas.mil

383a

APPENDIX BB

[SEAL]

DEFENSE FINANCE
AND ACCOUNTING SERVICE
8899 E. 56TH STREET
INDIANAPOLIS, IN 46249

FEB 20 2019
Commander John F Sharpe
13680 Bold Venture Drive
Glenelg, Maryland 21737
Dear Commander Sharpe:
This is in reference to your waiver request and
file number MSFSKT5RG. You applied for waiver
consideration under Title 10, United States Code,
Section 2774 of a $13,308 indebtedness resulting
from recoupment of Lump-sum Leave sold.
Based on the facts presented the Office of Hear­
ing and Appeals (DOHA) has determined that waiver
of the $13,308 indebtedness is in the best interest of
the Government. Therefore, your waiver is approved.
Your debt with Defense Finance and Accounting
Service, Out of Service Debts has been canceled. All
monies collected towards the debt will be refunded.
Allow 30-60 days for payment.
Questions regarding waivers may be directed to
(866) 912-6488, Monday through Friday, 7^30 a.m. to
4^00 p.m., Eastern Time, or email: dfas.indianapolisin .jfe.mbx.remission-waiver-indy @mail.mil.

385a

APPENDIX CC
DEPARTMENT OF THE NAVY
BOARD FOR CORRECTION OF
NAVAL RECORDS
2 NAVY ANNEX
WASHINGTON DC 20370-5100

[SEAL]

MAR 17 2010
MEMORANDUM FOR ASSISTANT SECRETARY
OF THE NAVY (MANPOWER AND RE­
SERVE AFFAIRS)
Subj: BCNR ANNUAL REPORT FOR CY2010
Enel: (1) BCNR Annual Statistical Report
1. Workload/Produetivitv
A. In CY 2010 BCNR received 13,836 applications
and 6,595 of these were accepted for review. The
comparable figures for CY 2009 were 13,461 received
and 6,604 accepted.
B. A total of 6,729 cases were finalized and closed
in CY 2010 as compared to 5,875 in CY 2009. The ta­
ble below reflects the Board’s workload over the
course of several years.
Calendar
Year
1966
1991
2004

Appl
Reed
N/A
18,171
10,430

Appl
Cases
Accepted Closed
1,004
963
12,449 11,068
5,473
5,409

Cases
Pending
587
4,534
2,277

386a
2005
2006
2007
2008
2009
2010

12,454
11,325
11,355
12,506
13,461
13,836

5,410
5,792
5,554
6,151
6,604
6,595

5,193
5,192
5,295
6,153
5,875
6,729

2,441
2,970
3,104
2,991
3,600
3,343

*****

/s/
W. DEAN PFEIFFER
Executive Director

387a
APPENDIX DD

Statutory, Regulatory, and Other
Relevant Authorities

1. U.S. Const, art. I, § 9, cl. 7 provides, in perti­
nent part:
No Money shall be drawn from the Treasury,
but in Consequence of Appropriations made by
Law.
Correction of Military Records
2. The Legislative Reorganization Act of 1946,
Pub. L. No. 79-601, § 207, 60 Stat. 812, 837, provides:
The Secretary of War, the Secretary of the
Navy, and the Secretary of the Treasury with
respect to the Coast Guard, respectively, un­
der procedures set up by them, and acting
through boards of civilian officers or employ­
ees of their respective departments, are au­
thorized to correct any military or naval record
where in their judgment such action is neces­
sary to correct an error or to remove an injus­
tice.
3. The Act to Amend Section 207 of the Legisla­
tive Reorganization Act, Pub. L. No. 82-220, § 1, 65
Stat. 655, 655-56 (1951), provides, in pertinent part:

388a
Be it enacted by the Senate and House of
Representatives of the United States of Amer­
ica in Congress assembled, that section 207 of
the Act of August 2, 1946 (60 Stat. 812), is
hereby amended to read as follows:
“SEC. 207. (a) The Secretaries of the Army,
Navy, and Air Force and the Secretary of the
Treasury (with respect to the Coast Guard),
respectively, under procedures set up by them,
and acting through boards of civilian officers
or employees of their respective Departments,
are authorized to correct any military or naval
record where in their judgment such action is
necessary to correct an error or remove an in­
justice, and corrections so made shall be final
and conclusive on all officers of the Govern­
ment except when procured by means of fraud.
“(b) The Department concerned is author­
ized to pay out of applicable current appropri­
ations, claims of any persons, their heirs at
law or legal representatives as hereinafter
provided, of amounts paid as fines, forfeitures,
or for losses of pay (including retired or re­
tirement pay), allowances, compensation,
emoluments, or other monetary benefits, as
the case may be, which are found to be due on
account of military or naval service as a result
of the action heretofore taken pursuant to sec­
tion 207 of the Legislative Reorganization Act
of 1946, or hereafter taken pursuant to sub­
section (a) of this section.
“(c) The acceptance by the claimant of any
settlement made pursuant to subsection (b) of
this section shall constitute a complete release
by the claimant of any claim against the unit­
ed States on account of such correction of rec-

389a
ord.”

4. 10 U.S.C. § 1552 provides, in pertinent part:
(a)(1) The Secretary of a military depart­
ment may correct any military record of the
Secretary’s department when the Secretary
considers it necessary to correct an error or
remove an injustice. Except as provided in
paragraph (2), such corrections shall be made
by the Secretary acting through boards of ci­
vilians of the executive part of that military
department.
k k k k k

(3) (A) Corrections under this section shall
be made under procedures established by the
Secretary concerned. In the case of the Secre­
tary of a military department, those proce­
dures must be approved by the Secretary of
Defense.
k k k k k

(4) Except when procured by fraud, a cor­
rection under this section is final and conclu­
sive on all officers of the United States.
k k k k k

(b) No correction may be made under sub­
section (a)(1) unless the claimant (or the
claimant’s heir or legal representative) or the
Secretary concerned files a request for the cor­
rection within three years after discovering

390a
the error or injustice. The Secretary concerned
may file a request for correction of a military
record only if the request is made on behalf of
a group of members or former members of the
armed forces who were similarly harmed by
the same error or injustice.
5. 10 U.S.C. § 8013 provides, in pertinent part:
(a)(1) There is a Secretary of the Navy, ap­
pointed from civilian life by the President, by
and with the advice and consent of the Senate.
*****

The Secretary is the head of the Depart­
ment of the Navy.
6. Secretary of the Navy (SECNAV) Instruction
5420.193, Assignment of Responsibilities and Au­
thorities in the Office of the Secretary of the Navy,
provides, in pertinent part:
5. Scope. Within the area of responsibility
assigned in subparagraphs 7a and 7b, each ci­
vilian executive assistant is the principal civil­
ian advisor and assistant to the SECNAV and
UNSECNAV on the administration of the af­
fairs of the DON. Each staff assistant is the
principal advisor and assistant to the
SECNAV and UNSECNAV, for their assigned
duties, per subparagraphs 7a and 7c.
'k'k'k'k'k

b. Civilian Executive Assistants

391a
*****

(3) The Assistant Secretary of the Naw
(Manpower and Reserve Affairs) (ASN
(M&RAV).
*****

The ASN (M&RA) shall:
*****

(f) Oversee the:
*****

3. Board for Correction of Naval Records.
7. SECNAV Instruction 5420.193, Board For Cor­
rection ofNaval Records, provides, in pertinent part:
3. Action
a. BCNR shall consider and either take
corrective action on the Secretary’s behalf,
when authorized, or make appropriate rec­
ommendations to the Secretary regarding ap­
plications for the correction of military records
following the procedures in enclosure (1).
b. The Assistant Secretary of the Navy
(Manpower and Reserve Affairs), under refer­
ences (b) and (c), has been assigned the re­
sponsibility for the overall supervision of
BCNR and is delegated authority to take final
action on BCNR cases forwarded for review.

392a
•kJckicic

4. Execution of BCNR Decisions. The Chief
of Naval Operations and the Commandant of
the Marine Corps shall ensure that action is
taken to make the military record corrections
directed by the Secretary or BCNR. The appli­
cant and Executive Director will be advised of
the action taken.
8. 32 C.F.R. provides, in pertinent part:
§723.3. Application for correction.
(a) General requirements. (1) The applica­
tion for correction must be submitted on DD
149 (Application for Correction of Military
Record) or exact facsimile thereof.
•k'k'k’k’k

(2) Except as provided in paragraph (a)(3)
of this section, the application shall be signed
by the person requesting corrective action with
respect to his/her record and will either be
sworn to or will contain a provision to the ef­
fect that the statements submitted in the ap­
plication are made with full knowledge of the
penalty provided by law for making a false
statement or claim. (18 U.S.C. 287 and 1001).
*****

§723.7 Action by the Secretary.
(a) General. The record of proceedings, ex-

393a
cept in cases finalized by the Board under the
authority delegated in §723.6(e), and those
denied by the Board without a hearing, will be
forwarded to the Secretary who will direct
such action as he or she determines to be ap­
propriate, which may include the return of the
record to the Board for further consideration.
9. Bureau of Naval Personnel Instruction
(BUPERSINST) 5420.21A, Administration of Board
for Correction of Naval Records Applications Within
the Bureau of Naval Personnel, provides, in perti­
nent part:
3. Background. Reference (a) is the statuto­
ry basis for correction of military records and
authorizes Service Secretaries, acting through
their civilian boards, to correct errors and re­
move injustices from the service record. Refer­
ence (b) is the guidance for preparing BCNR
correspondence. Reference (c) provides the
function of the BCNR and to determine the ex­
istence of errors or injustices in the service
record and to make appropriate recommenda­
tions for correction to the Assistant Secretary
of the Navy (Manpower and Reserve Affairs)
(ASN) (M&RA). BUPERS assists the BCNR by
providing advisory opinions and implementing
the approved corrections.
Payment and Settlement of Claims Arising
from a Correction of a Military Record
10. 10 U.S.C. § 1552 provides, in pertinent part:
(c)(1) The Secretary concerned may pay,

394a
from applicable current appropriations, a
claim for the loss of pay, allowances, compen­
sation, emoluments, or other pecuniary bene­
fits, or for the repayment of a fine or forfei­
ture, if, as a result of correcting a record under
this section, the amount is found to be due the
claimant on account of his or another’s service
in the Army, Navy, Air Force, Marine Corps,
or Coast Guard, as the case may be, or on ac­
count of his or another’s service as a civilian
employee.
'k’k'kirk

(3) A claimant’s acceptance of a settlement
under this section fully satisfies the claim con­
cerned. This section does not authorize the
payment of any claim compensated by private
law before October 25, 1951.
11. Department of Defense (DoD) Financial Man­
agement Regulation (DoD FMR), DoD 7000.14-R,
Volume 7B, Chapter 10, Correction of Records, pro­
vides, in pertinent part:
1001 AUTHORITY
*****

100103. If there is a proper correction and
a right to the payment of money as a result of
that proper correction, then there must be a
change of facts as set out in the original rec­
ord, or an addition or deletion of a fact.

395a
1002 PAY COMPUTATION
100201. Payment based on a correction of
military records must be made in the amounts
determined to be due by applying pertinent
laws and regulations to all the material facts
shown in the corrected record.
*****

100205. A claimant’s acceptance of settle­
ment fully satisfies the claim concerned. Set­
tlement of this claim does not preclude pay­
ment of a separate and distinct claim and ac­
ceptance of settlement does not preclude
recomputation and adjustment when there is a
mutual mistake. Payments are not authorized
for any claim compensated by private law be­
fore October 25, 1951.
•k'kirk'k

BIBLIOGRAPHY

CHAPTER 10 - CORRECTION OF RECORDS
1001 - CORRECTION OF RECORDS
100101
100103
100104

10 U.S.C. 1552
39 Comp Gen 178
10 U.S.C. 1552(a) and (b)

1002 - PAY COMPUTATION
100204

10 U.S.C. 1552(c)

396a
12. 32 C.F.R. provides, in pertinent part:
§723.10 Settlement of claims.
(a) Authority.
(1) The Department of the Navy is author­
ized under 10 U.S.C. 1552 to pay claims for
amounts due to applicants as a result of cor­
rections to their naval records.
(2) The Department of the Navy is not au­
thorized to pay any claim heretofore compen­
sated by Congress through enactment of a pri­
vate law, or to pay any amount as compensa­
tion for any benefit to which the claimant
might subsequently become entitled under the
laws and regulations administered by the Sec­
retary of Veterans Affairs.
(b) Application for settlement.
(1) Settlement and payment of claims shall
be made only upon a claim of the person whose
record has been corrected or legal representa­
tive, heirs at law, or beneficiaries. Such claim
for settlement and payment may be filed as a
separate part of the application for correction
of the record.
(2) When the person whose record has been
corrected is deceased, and where no demand is
presented by a duly appointed legal repre­
sentative of the estate, payments otherwise
due shall be made to the surviving spouse,
heir or beneficiaries, in the order prescribed by

397a
the law applicable to that kind of payment, or
if there is no such law covering order of pay­
ment, in the order set forth in 10 U.S.C. 2771;
or as otherwise prescribed by the law applica­
ble to that kind of payment.
(3) Upon request, the applicant or appli­
cants shall be required to furnish requisite in­
formation to determine their status as proper
parties to the claim for purposes of payment
under applicable provisions of law.
(c) Settlement.
(1) Settlement of claims shall be upon the
basis of the decision and recommendation of
the Board, as approved by the Secretary or his
designee. Computation of the amounts due
shall be made by the appropriate disbursing
activity. In no case will the amount found due
exceed the amount which would otherwise
have been paid or have become due under ap­
plicable laws had no error or injustice oc­
curred. Earnings received from civilian em­
ployment, self employment or any income pro­
tection plan for such employment during any
period for which active duty pay and allow­
ances are payable will be deducted from the
settlement. To the extent authorized by law
and regulation, amounts found due may be re­
duced by the amount of any existing indebted­
ness to the Government arising from military
service.
(2) Prior to or at the time of payment, the
person or persons to whom payments are to be

398a
made shall be advised by the disbursing activ­
ity of the nature and amount of the various
benefits represented by the total settlement
and shall be advised further that acceptance of
such settlement shall constitute a complete re­
lease by the claimants involved of any claim
against the United States on account of the
correction of the record.
Settlement of Claims Generally in the
Department of Defense Relating to Service
Member Pay and Allowance
13. The Legislative Branch Appropriations Act,
Pub. L. No. 104-53, § 211, 109 Stat. 514, 535 (1995),
provides, in pertinent part:
(a) Effective June 30, 1996, the functions of
the Comptroller General identified in subsec­
tion (b) are transferred to the Director of the
Office of Management and Budget, contingent
upon the additional transfer to the Office of
Management and Budget of such personnel,
budget authority, records, and property of the
General Accounting Office relating to such
functions as the Comptroller General and the
Director jointly determine to be necessary. The
Director may delegate any such function, in
whole or in part, to any other agency or agen­
cies if the Director determines that such dele­
gation would be cost-effective or otherwise in
the public interest.
icie'kic'k

(b) The following provisions of the United

399a
States Code contain the functions to be trans­
ferred pursuant to subsection (a):
Jc'k'k'k'k

[S]ections 1304, 3702, 3726, and 3728 of title
31.
14. Office of Mgmt. & Budget, Exec. Office of the
President, Determination With Respect to Trans­
fer of Functions Pursuant To Public Law 104-53,
Attachment A, at 1 (1996), provides, in pertinent
part:
I have determined that it would be costeffective and otherwise in the public interest
for the functions identified in Sec. 21 1(b) to be
delegated in whole to other agencies, in the
manner specified in Attachment A. According­
ly, effective June 30, 1996, such functions are
delegated, in whole, to the respective agencies
as specified in Attachment A (the functions
under 31 U.S.C. 3702 are delegated in part to
the Department of Defense, in part to the
General Services Administration, and in part
to the Office of Personnel Management).
*****

Attachment A
Delegated Functions and
Statutory Authorities
'k'k'k'krk

400a
Department of Defense
-- Claims related to uniformed services mem­
bers’ (does not include civilian employees of
the service) pay, allowances, travel, trans­
portation, retired pay, and survivor bene­
fits: and claims by transportation carriers
for amounts collected from them for loss or
damage incurred to property incident to
shipment at government expense. 31 U.S.C.
§ 3702
15. 61 Fed. Reg. 50285, Claims Settlement Au­
thority Issuance to Defense Office of Hearings and
Appeals, provides, in pertinent part:
*****

EFFECTIVE DATE: September 25, 1996.
'k'k'k'k'k

SUPPLEMENTARY INFORMATION: Pursu­
ant to the Legislative Branch Appropriations
Act of 1996, most of the claims settlement
functions of the U.S. General Accounting Of­
fice were transferred to the Director of OMB.
See Sec. 211, Pub. L. 104-53, 109 Stat. 535.
Subsequently, the Acting Director delegated
these functions to various components within
the Executive branch in a determination order
dated June 28, 1996. This order delegated to
the Department of Defense the authority to
settle the following classes of claims against
the United States: a. Claims related to uni­
form services members’ pay, allowances, trav-

401a
el, transportation, retired pay, and survivor
benefits.
*****

Effective September 4, 1996, the Secretary of
Defense further delegated the authority to
DOHA. Before the effective date of the trans­
fer, these claims were subject to the proce­
dures prescribed by the Comptroller General
at 4 C.F.R. Chapter 1, Subchapter C (1996).
Until DOHA issues its own regulations im­
plementing its new claims authority, DOHA’S
policy will be to apply these procedures and
the U.S. General Accounting Office’s practices
to claims submitted to DOHA for settlement.
As an exception, the authority to issue deci­
sions in review of settlements will be exercised
by a Claims Appeals Board on behalf of the
Secretary of Defense. For each of the types of
claims described above, claimants should
submit their claims to the agencies out of
whose activity the claim arose and it is the
agency’s responsibility to forward the claim to
DOHA with its comments.
16. The General Accounting Office Act of 1996,
Pub. L. No. 104-316, § 202, 110 Stat 3826, 3843,
provides, in pertinent part:
(n) CLAIMS SETTLEMENT.(1) IN GENERAL.-Section 3702 of title 31,
United States Code, is amended(A) in the heading by striking “of the

402a
Comptroller General”;
(B) by amending subsection (a) to read as
follows:
“(a) Except as provided in this chapter or
another law, all claims of or against the Unit­
ed States Government shall be settled as fol­
lows:
“(1) The Secretary of Defense shall settle“(A) claims involving uniformed service
members’ pay, allowances, travel, transporta­
tion, retired pay, and survivor benefits.”
17. 31 U.S.C. § 3702 provides, in pertinent part(a) Except as provided in this chapter or
another law, all claims of or against the Unit­
ed States Government shall be settled as fol­
lows:
(1) The Secretary of Defense shall settle(A) claims involving uniformed service mem­
bers’ pay, allowances, travel, transportation,
payments for unused accrued leave, retired
pay, and survivor benefits.
18. DoD FMR, Volume 5, Chapter 12, Questiona­
ble and Fraudulent Claims (2016), provides, in perti­
nent part:
1201 GENERAL
*****

403a
120103. Authoritative Guidance
*****

B. See 31 U.S.C. § 3702 for the authority on
settling claims against the United States.
1202 DETERMINATIONS OF FRAUD
120201. Discrepancies
JcJckirk

The Defense Office of Hearings and Ap­
peals (DOHA) considers appeals of claims for
uniformed services pay and allowances. Refer
to 31 U.S.C. § 3702; 32 CFR 282.5(b)(2); and
32 CFR 282, Appendix E for additional infor­
mation on appeals.
19. 32 C.F.R § 281 provides, in pertinent part.4 Policy.
It is DoD policy that:
(a) The claim settlement and advance deci­
sion authorities that, by statute or delegation,
are vested in the Department of Defense or,the
Secretary of Defense shall be exercised by the
officials designated in this part. The appendix
to this part describes the claims included un­
der these functional authorities.
(b) Claims shall be settled and advance de­
cisions shall be rendered in accordance with

404a
pertinent statutes and regulations, and after
consideration of other relevant authorities.
.5 Responsibilities.
(a) The General Counsel of the Department
of Defense shall:
(1) Settle claims that the Secretary of De­
fense is authorized to settle under 31 U.S.C.
3702.
’k'k'k'k'k

(4) Develop overall claim settlement and
advance decision policies; and promulgate pro­
cedures for settling claims, processing re­
quests for an advance decision (including over­
seeing the submission of requests for an ad­
vance decision arising from the activity of a
DoD Component that are addressed to officials
outside the Department of Defense), and ren­
dering advance decisions. Procedures for set­
tling claims shall include an initial determina­
tion process and a process to appeal an initial
determination.
(b) The Heads of the DoD Components
shall:
(1) Establish procedures within their or­
ganization for processing claims and for sub­
mitting requests for an advance decision aris­
ing from it’s activity in accordance with this
part and responsibilities promulgated under
paragraph (a)(4) of this section.

405a
•k'k'k'k'k

Appendix to Part 281—Claims Description
The Secretary of Defense is authorized to
perform the claim settlement and advance de­
cision functions for claims under the following
statutes:
(a) 31 U.S.C. 3702, concerning claims in
general when there is no other settlement au­
thority specifically provided for by law.1
1 This includes claims involving Uniformed
Services members’ pay, allowances, travel,
transportation, payment for unused accrued
leave, retired pay, and survivor benefits, and
claims for refunds by carriers for amounts col­
lected from them for loss or damage to proper­
ty they transported at Government expense;
also included are other claims arising from the
activity of a DoD Component.
20. 32 C.F.R § 281 provides, in pertinent part:
.1 Purpose.
This part implements policy under 32 CFR
part 281 and prescribes procedures for pro­
cessing and settling personnel and general
claims under 31 U.S.C. 3702.
*****

.5 Responsibilities.

406a
*****

(b) The Director, Defense Office of Hearings
and Appeals (DOHA), or designee, under the
GC, DoD (as the Director, Defense Legal Ser­
vices Agency), shall:
*****

5.2.2. Consider appeals from an initial de­
termination, and affirm, modify, reverse, or
remand the initial determination in accord­
ance with 32 CFR part 281, this part, and rel­
evant DoD Office of General Counsel opinions.
(c) The Heads of the DoD Components, or
designees, shall:
(1) Process claims under 31 U.S.C. 3702
*****

in accordance with this part.
*****

(3) Pay claims as provided in a final action
in accordance with this Instruction.
Appendix C to Part 282—Submitting a Claim
(b) Where to Submit a Claim. A claimant
must submit a claim to the Component con­
cerned in accordance with guidance provided
by that Component.

407a
Military Duty Assignments
21. MILPERSMAN Article 1910-812, Place of
Separation (2005), provides, in pertinent part:
1. Policy
a. Inside continental United States
(CONUS): Members eligible for separation
while serving in the 48 contiguous United
States (U.S.) will normally be separated on
board their current command.
22. MILPERSMAN 1320-030, Delegation of Au­
thority to Issue Orders and Administrative Control
of Orders and Travel (2002), provides, in pertinent
part:
1. Authority to Issue Orders
a. Competent orders for officers are issued
and approved by Chief of Naval Personnel
(CHNAVPERS), or commands authorized by
CHNAVPERS.
23. Chief of Naval Personnel, Appointment to
Deputy Chief of Naval Personnel and Delegation of
Authority, to Commander, Navy Personnel Com­
mand (2010), provides, in pertinent part:
3. You are responsible for the routine, dayto-day operations of the Bureau of Naval Per­
sonnel that normally come within the cogni­
zance of DCNP or CNPC. Accordingly, you are
hereby delegated the authority to act on behalf
of the Chief of Naval Personnel in the follow-

408a
ing capacities:
*****

c. Officer and enlisted assignments and de­
tailing;
24. BUPERSINST 5400.61, Bureau of Naval Per­
sonnel Millington Organization Manual (2014), pro­
vides, in pertinent part:
BUPERS-OOJ
Office of Legal Counsel
Serves as the principal advisor and staff
assistant in an additional duty capacity to
DEPCHNAVPERS concerning the interpreta­
tion and application of law and policy. Pro­
vides legal advice to BUPERS Millington
(BPM) and NAVPERSCOM, field activities,
and the fleet on military personnel law to in­
clude promotions and advancements; adminis­
trative separations; detailing; uniformed per­
sonnel entitlements and benefits; retirements;
separation pay; casualty affairs, to include
survivor benefits; and veteran’s affairs.
25. DoDI 1315.18, Procedures for Military Per­
sonnel Assignments (2005), provides, in pertinent
part:
El. REFERENCES.
JcJcklclc

409a
(h) Joint Federal
(JFTR), current edition

Travel

Regulations

*****

E2.1.37. Permanent Change of Station
(PCS). See reference (h).
26. Joint Federal Travel Regulations (JFTR), Ap­
pendix A, Definitions and Acronyms, Part 2, Defini­
tions (UNIFORMED MEMBER ONLY) (2010), pro­
vides, in pertinent part:
PERMANENT CHANGE OF STATION (PCS).
In general, the assignment, detail, or transfer
of a member or unit to a different PDS under a
competent order that does not specify the duty
as temporary, provide for further assignment
to a new PDS, or direct return to the old PDS.
27. MILPERSMAN 1306-122, Permanent Change
of Station (PCS) and Permanent Change of Activity
(PCA) Move Determination (2007), provides, in per­
tinent part:
1. General Information
*****

b. Moves are classified as either permanent
change of station (PCS) or permanent change
of activity (PCA) as defined below:
(1) PCS: The assignment, detail, or transfer
of a member of a unit to a different PDS under
competent orders that do not specify the duty

410a
as temporary nor provide for further assign­
ment to a new PDS, or direct return to the old
PDS.
28. MILPERSMAN 1320-300, Types of Orders
(2005), provides, in pertinent part:
1. Types of Orders
•k’k'k'k'k

b. Change of duty orders are orders which
detach members from one duty station and as­
sign them to another station.
29. Joint Travel Regulations, Chapter 5, Perma­
nent Duty Travel, Part A, General, provides, in per­
tinent part:
5006 PCS ORDER
A. General. A PCS order must direct a
PCS.
Basic Allowance for Housing
30. 37 U.S.C. § 403 provides, in pertinent part:
(a) General Entitlement(1) Except as otherwise provided by law, a
member of a uniformed service who is entitled
to basic pay is entitled to a basic allowance for
housing at the monthly rates prescribed under
this section or another provision of law with
regard to the applicable component of the

411a
basic allowance for housing. The amount of
the basic allowance for housing for a member
will vary according to the pay grade in which
the member is assigned or distributed for basic
pay purposes, the dependency status of the
member, and the geographic location of the
member.
*****

(k) Administration.(1) The Secretary of Defense shall prescribe
regulations for the administration of this sec­
tion.
31. JFTR, Chapter 10, Housing Allowances
(2010), provides, in pertinent part:
U10002 HOUSING ALLOWANCE
A. General. Effective 1 January 1998, in
general, a member on active duty entitled to
basic pay is authorized a housing allowance
based on the member’s grade, dependency sta­
tus, and location. Rates are prescribed depend­
ing on the member’s grade and whether or not
the member has a dependent. The location de­
termines the rate, and whether the allowance
is BAH or OHA. The BAH rate is based on
median housing costs and is paid independent­
ly of a member’s actual housing costs. It is
paid for housing in the U.S. OHA is a costreimbursement based allowance. The authori­
zation depends on other elements that factor
in such as sharers, utilities, and owner vs.

412a
renter. OHA is paid for housing outside the
U.S. The member is reimbursed actual rental
costs NTE the maximum OHA rate for each
locality and grade.
’k'k'k'k'k

U10402 MEMBER WITH DEPENDENT
*****

B. Location Rate. Ordinarily a housing al­
lowance is paid based on the member’s PDS,
or the home port for a member assigned to a
ship or afloat unit. However, the Service may
determine that a member’s assignment to a
PDS or the circumstances of that assignment
requires the dependent to reside separately.
The Secretary Concerned or the Secretarial
Process, at Service discretion, may author­
ize/approve a housing allowance based on the
dependent’s location or old PDS.
*****

4. Home Port Changes. Change the housing
allowance to the new home port rate on the
home port change effective date prescribed by
the Service, if a member:
a. Is currently assigned to a ship or other
afloat unit with an announced home port
change, or
*****

413a
U10416 MEMBER IN TRANSIT
ick'k-k'k

B. Old PDS in the U.S. A member’s old
PDS is the PDS for BAH purposes from the
day the member departs the old PDS through
the day before the member reports to the new
PDS in compliance with a PCS order (if the
member had been residing in GOV’T QTRS at
the old PDS, the member is authorized BAH
as of the GOV’T QTRS termination date). See
Tables U10E-12, U10E-16 and U10E-17 for
further guidance.
*****

F. Decision Logic Table
MEMBER IN TRANSIT
Table U10E-12
R
U If the
and
L member
E

is en
1 route
PCS

then (NOTES 1 and 2)

Continue old PDS-based BAH
through the day before the day the
from a member reports to the new PDS,
PDS in to include TDY en route. New
the U.S. PDS-based BAH or OHA authori­
zation begins on the day the
member reports to the new PDS.

414a

32. Chief of Naval Operations Instruction
(OPNAVINST) 7220.12, Basic Allowance for Housing
Entitlements, provides, in pertinent part:
3. Background. Effective 1 January 1998,
BAH replaced Basic Allowance for Quarters
(BAQ) and Variable Housing Allowance
(VHA). BAH is paid to assist service members
in acquiring housing in the vicinity of the
permanent duty station consistent with hous­
ing occupied by non-service members with
comparable income levels in the same geo­
graphic location. BAH rates vary based the
geographic location of the member’s perma­
nent duty station (PDS), on grade, and de­
pendency status.
33. JFTR, Appendix A, Definitions and Acronyms,
Part 2, Definitions (UNIFORMED MEMBER ONLY)
(2010), provides, in pertinent part:
PERMANENT DUTY STATION (PDS). Also
called OFFICIAL STATION. The post of duty
or official station of a member or invitational
traveler, including a ship (for the purpose of
personal travel and transportation of the
member’s UB located on board the ship). The
home port of a ship or of a ship-based staff to
which a member is assigned or attached for
duty other than TDY is the PDS for depend­
ents’ transportation, and transportation of
HHG, mobile homes, and/or POVs, CONUS
COLA, and geography-based station allowanc­
es and OHA.

415a
34. DoDI 1315.18, Procedures for Military Per­
sonnel Assignments (2005), provides, in pertinent
part:
El. REFERENCES.
k'kk'kk

(h) Joint Federal
(JFTR), current edition

Travel

Regulations

•k'k'k'k'k

E2.1.38. Permanent Duty Station. See ref­
erence (h).
35. MILPERSMAN 1320-300, Types of Orders
(2005), provides, in pertinent part:
4. PCS Orders. The assignment, detail, or
transfer of a member or unit to a different
PDS under a competent travel order that does
not specify the duty as temporary, provide for
further assignment to a new PDS, or direct re­
turn to the old PDS. A PDS is the post of du­
ty/official station of a member, including a
ship. The homeport of a ship or of a ship-based
staff to which a member is assigned or at­
tached for duty (other than TEMDU) is the
PDS for dependents’ transportation, and
transportation of household goods (HHG), mo­
bile homes, and/or privately owned vehicles,
continental United States (CONUS) cost of liv­
ing allowance (COLA), geography-based sta­
tion allowances, and overseas housing allow­
ances.

416a
Career Sea Pay
36. 37 U.S.C. § 305a provides, in pertinent part:
(a) Availability of Special Pay-A member
of a uniformed service who is entitled to basic
pay is also entitled, while on sea duty, to spe­
cial pay at the applicable rate under subsec­
tion (b).
irk'k'k

(c) Premium.-A member of a uniformed
service entitled to career sea pay under this
section who has served 36 consecutive months
of sea duty is also entitled to a career sea pay
premium for the thirty-seventh consecutive
month and each subsequent consecutive
month of sea duty served by such member.
The monthly amount of the premium shall be
prescribed by the Secretary concerned, but
may not exceed $350.
(d) Regulations.-The Secretary concerned
shall prescribe regulations for the administra­
tion of this section for the armed force or
armed forces under the jurisdiction of the Sec­
retary. The entitlements under this section
shall be subject to the regulations.
(e) Definition of Sea Duty.—
(1) In this section, the term “sea duty”
means duty performed by a member—
(A) while permanently or temporarily as­
signed to a ship and-

417a
(i) while serving on a ship the primary mis­
sion of which is accomplished while under
way.
'k'k'k'k'k

37. DoD FMR, Volume 7A, Chapter 18, Special
Pay - Career Sea Pay (2011), provides, in pertinent
part:
1801 GENERAL PROVISIONS
180101. Entitlement
A member who is entitled to basic pay is
entitled to career sea pay (CSP) and career sea
pay premium (CSP-P) while serving on sea du­
ty under regulations prescribed by the Secre­
tary concerned and the provisions of this chap­
ter.
*****

C. Sea Duty. For the purpose of entitle­
ment to CSP and CSP-P, the term “sea duty”
means duty performed by a member under or­
ders meeting on of the following conditions:
1. While permanently assigned for duty to
a ship, ship-based staff, or ship-based aviation
unit and serving in a ship with a primary mis­
sion that is accomplished underway (includes
ships designated as destroyer or submarine
tenders)/ Periods when the member is on tem­
porary duty, on leave, hospitalized, or other­
wise temporarily absent under orders, not to

418a
exceed the first 30 consecutive days of each oc­
currence, are also counted.
*****

E. Ship. For the purpose of entitlement to
CSP and CSP-P, the term “ship” means a selfpropelled vessel in an active status, in com­
mission, or in-service.
1802 CONDITIONS OF ENTITLEMENT
180201. General Conditions
The general conditions of entitlement to
CSP are in Table 18-1. Additionally, entitle­
ment to and the rate of CSP is dependent upon
the branch of service, pay grade, and total cu­
mulative years of sea duty applicable to the
member. All members in pay grades E-l
through 0-6 are eligible for payment of CSP,
except commissioned offcers of the Army and
Air Force with 3 or less years of cumulative
sea duty and enlisted members of the Air
Force in pay grades below E-4.
180202. Career Sea Pay - Premium Condi­
tions
The conditions of entitlement to CSP-P re­
quire the member to first be entitled to CSP.
The CSP-P is additional to CSP; however, for
certain pay grades, it has been included in the
CSP rate tables and is not payable as a sepa­
rate item. When payable as a separate item,
CSP-P accrues from the first day following the

J

419a
completion of the 36th month of consecutive
sea duty, and will be prorated if beginning on
other than the first day of a calendar month.
For example, a member beginning a period of
sea duty on January 15, 1999 would accrue
CSP-P beginning January 15, 2002. The CSPP is payable for the 37th and each subsequent
consecutive month of sea duty regardless of
the member’s pay grade when the sea duty be­
gan, provided the member is concurrently en­
titled to CSP.
A. The following members of the Navy and
Marine Corps may become entitled to CSP-P
as a separate item of pay:
1. All officers in pay grades 0-1 through O6.
'k'k'k'k'k

Table 18-1. Career Sea Pay - Conditions of
Entitlement
B
C
is serving on a
ship whose pri­
mary mission is
accomplished
When an eligi­ under­
in port
ble member
way
X
reports for
permanent du­
ty defined as
sea duty
A

R
U
L
E
1

15 is permanently
or temporarily

X

*****
X

(note 5)

D

and

ship re­
mains in

E

then Career
Sea Pay
starts on
the date of
reporting

continues
to accrue

420a
assigned to
duty on a ship
which is un­
dergoing alter­
ations or repairs

an active
status (in
commis'
sion or inservice)
(note 6)
*****

NOTES:
•kicirkif

6. OPNAVINST 4700.8 series defines ship
status assignments for USN ships.
idckick

BIBLIOGRAPHY
CHAPTER 18 SPECIAL PAY - CAREER SEA PAY
1801 - GENERAL PROVISIONS 37 U.S.C.
305a
180102

37 U.S.C. 305a(e)
*****

1803 - RATES PAYABLE
180302
1804 - RESTRICTIONS

37 U.S.C. 305a(b)
37 U.S.C. 305a(c)
37 U.S.C. 305a(d)

38. OPNAVIST 7220.14, Career Sea Pay and Ca-

421a
reer Sea Pay Premium, provides, in pertinent part:
5. Designation. The Chief of Naval Opera­
tions will designate vessels in one of two cate­
gories for purposes of CSP in enclosure (2).
Only those ship or craft classes and individual
ships or craft listed in enclosure (2) are desig­
nated for CSP.
'k'k'k'k’k

6. Personnel Eligibility for CSP. A member
who is entitled to basic pay is entitled to CSP
while serving on a qualifying sea duty assign­
ment.
•kieleick

7. Assignment Eligibility for CSP
a. Permanently assigned to and serving in
a vessel designated as a Category A ship or
the off-crew of a “two crew” Category A sub­
marine.
•kieicirk

8. 30-Dav Rule.
*****

c. Members permanently assigned to CSPeligible vessels in regular overhaul periods (to
include staffs complying with the “embarked
and serving in” policy aboard that ship), who
must move certain workcenters or staff spaces

422a
(e.g., Integrated Logistics Office (ILO), Ground
Support Equipment (GSE) rework, etc.),
ashore for either overhaul management effec­
tiveness or loss of shipboard working spaces,
need not be issued TAD orders if the members
are mustered daily and the location of their
workcenter is in the same geographic location
as the overhaul site as determined by the
ship’s Commanding Officer. If TAD orders are
not issued in this specific circumstance the 30Day Rule is not applicable and continuous en­
titlement to CSP remains.
Enclosure (2)

CATEGORIES OF VESSELS
FOR ENTITLEMENT TO CSP
1. Category “A” CSP Vessels (Navy)
*****

CVN
Hazardous Duty Pay
39. 37 U.S.C. § 235 (1952) provides, in pertinent
part:
Subject to such regulations as may be pre­
scribed by the President, members of the uni­
formed services entitled to receive basic pay
shall, in addition thereto, be entitled to receive
incentive pay for the performance of hazard­
ous duty required by competent orders. The
following duties shall constitute hazardous du­
ties:

423a
•k'k'k'k'k

(3) duty involving frequent and regular
participation in aerial flights not as a crew
member pursuant to part (1) of this subsec­
tion.

